APPENDICES

1a
APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 19-15974
D.C. No. 3:19-cv-01184-EMC
STATE OF CALIFORNIA, BY AND THROUGH ATTORNEY
GENERAL XAVIER BECERRA,
Plaintiff-Appellee,
v.
ALEX M. AZAR II, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF THE U.S. DEPARTMENT OF HEALTH &
HUMAN SERVICES; U.S. DEPARTMENT OF HEALTH &
HUMAN SERVICES,
Defendants-Appellants.
No. 19-15979
D.C. No. 3:19-cv-01195-EMC
ESSENTIAL ACCESS HEALTH, INC.; MELISSA
MARSHALL, M.D.,
Plaintiffs-Appellees,
v.
ALEX M. AZAR II, SECRETARY OF U.S. DEPARTMENT
OF HEALTH AND HUMAN SERVICES; U+.S. DEPARTMENT OF HEALTH & HUMAN SERVICES,
Defendants-Appellants.
Appeal from the United States District Court for the
Northern District of California
Edward M. Chen, District Judge, Presiding

2a
No. 19-35386
D.C. Nos. 6:19-cv-00317-MC, 6:19-cv-00318-MC
STATE OF OREGON; STATE OF NEW YORK; STATE OF
COLORADO; STATE OF CONNECTICUT; STATE OF DELAWARE; DISTRICT OF COLUMBIA; STATE OF HAWAII;
STATE OF ILLINOIS; STATE OF MARYLAND; COMMONWEALTH OF MASSACHUSETTS; STATE OF MICHIGAN;
STATE OF MINNESOTA; STATE OF NEVADA; STATE OF
NEW JERSEY; STATE OF NEW MEXICO; STATE OF
NORTH CAROLINA; COMMONWEALTH OF PENNSYLVANIA; STATE OF RHODE ISLAND; STATE OF VERMONT;
COMMONWEALTH OF VIRGINIA; STATE OF WISCONSIN;
AMERICAN MEDICAL ASSOCIATION; OREGON MEDICAL
ASSOCIATION; PLANNED PARENTHOOD FEDERATION OF
AMERICA, INC.; PLANNED PARENTHOOD OF SOUTHWESTERN OREGON; PLANNED PARENTHOOD COLUMBIA
WILLAMETTE; THOMAS N. EWING, M.D.; MICHELE P.
MEGREGIAN, C.N.M.
Plaintiffs-Appellees,
v.
ALEX M. AZAR II; U.S. DEPARTMENT OF HEALTH &
HUMAN SERVICES; DIANE FOLEY; OFFICE OF
POPULATION AFFAIRS,
Defendants-Appellants.
Appeal from the United States District Court for the
District of Oregon
Michael J. McShane, District Judge, Presiding

3a

No. 19-35394
D.C. Nos. 1:19-cv-03040-SAB, 1:19-cv-03045-SAB
STATE OF WASHINGTON; NATIONAL FAMILY PLANNING
AND REPRODUCTIVE HEALTH ASSOCIATION; FEMINIST
WOMEN’S HEALTH CENTER; DEBORAH OYER, M.D.;
TERESA GALL,
Plaintiffs-Appellees,
v.
ALEX M. AZAR II, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF THE UNITED STATES DEPARTMENT OF
HEALTH AND HUMAN SERVICES; U.S. DEPARTMENT OF
HEALTH & HUMAN SERVICES; DIANE FOLEY, M.D., IN
HER OFFICIAL CAPACITY AS DEPUTY ASSISTANT
SECRETARY FOR POPULATION AFFAIRS; OFFICE OF
POPULATION AFFAIRS,
Defendants-Appellants.
Appeal from the United States District Court for the
Eastern District of Washington
Stanley Allen Bastian, District Judge, Presiding
Argued and Submitted En Banc September 23, 2019
San Francisco, California
Filed February 24, 2020
OPINION
∗

∗

∗

Before: Sidney R. Thomas, Chief Judge, and Edward
Leavy, Kim McLane Wardlaw, William A. Fletcher,
Richard A. Paez, Jay S. Bybee, Consuelo M. Callahan,

4a
Milan D. Smith, Jr., Sandra S. Ikuta, Eric D. Miller and
Kenneth K. Lee, Circuit Judges.
Opinion by Judge Ikuta;
Dissent by Judge Paez
*

*

*

OPINION
IKUTA, Circuit Judge:
Title X of the Public Health Service Act gives the
Department of Health and Human Services (HHS) authority to make grants to support “voluntary family
planning projects” for the purpose of offering “a broad
range of acceptable and effective family planning methods and services.” 42 U.S.C. § 300(a).1 Section 1008 of
Title X prohibits grant funds from “be[ing] used in programs where abortion is a method of family planning.”
Id. § 300a-6.
Since 1970, when Title X was first enacted, HHS
has provided competing interpretations of this prohibition. Regulations issued in 1988, and upheld by the Supreme Court in 1991, completely prohibited the use of
Title X funds in projects where clients received counseling or referrals for abortion as a method of family
planning. Rust v. Sullivan, 500 U.S. 173, 177–79 (1991).
Regulations issued in 2000 were more permissive.
In March 2019, HHS promulgated regulations that
are similar to those adopted by HHS in 1988 and upheld
by Rust. But the 2019 rule is less restrictive in at least
1

Congress did not design the Title X grant program to provide healthcare services beyond “family planning methods and
services.” 42 U.S.C. § 300(a); cf. Dissent at 81.

5a
one important respect: a counselor providing nondirective pregnancy counseling “may discuss abortion”
so long as “the counselor neither refers for, nor encourages, abortion.” 42 C.F.R. § 59.14(e)(5). There is no
“gag” on abortion counseling. See id.
Plaintiffs, including several states and private Title
X grantees, brought various suits challenging the 2019
rule, and three district courts in three states entered
preliminary injunctions against HHS’s enforcement of
the rule. In light of Supreme Court approval of the
1988 regulations and our broad deference to agencies’
interpretations of the statutes they are charged with
implementing, plaintiffs’ legal challenges to the 2019
rule fail. Accordingly, we vacate the injunctions entered by the district courts and remand for further proceedings consistent with this opinion.
I
In 1970, Congress enacted Title X of the Public
Health Service Act to give HHS authority to make
grants to Title X projects that provide specified family
planning services.2 Family Planning Services and Population Research Act, Pub. L. No. 91-572, 84 Stat. 1504,
1508 (1970); 42 U.S.C. § 300a-4(c). The Act gives HHS
broad authority to promulgate regulations to administer the grant program, as well as to impose conditions
on the grants that HHS “may determine to be appropriate to assure that such grants will be effectively utilized for the purposes for which made.” § 1006(a)–(b),
84 Stat. at 1507; 42 U.S.C. § 300a-4(a)–(b).
2

Although Title X and its implementing regulations use both
the terms “program” and “project,” for consistency we refer to a
program using Title X funds to provide services to clients as a “Title X project.”

6a
Congress placed only two limitations on HHS’s discretion. First, an individual’s acceptance of family
planning services has to be “voluntary” and not “a prerequisite to eligibility for or receipt of any other service
or assistance from, or to participation in, any other program of the entity or individual that provided such service or information.” § 1007, 84 Stat. at 1508; 42 U.S.C.
§ 300a-5. Second, § 1008 of Title X provides:
None of the funds appropriated under this subchapter shall be used in programs where abortion is a method of family planning.
§ 1008, 84 Stat. at 1508; 42 U.S.C. § 300a-6.
Section 1008, which has never been amended, “was
intended to ensure that Title X funds would ‘be used
only to support preventive family planning services,
population research, infertility services, and other related medical, informational, and educational activities.’ ” Rust, 500 U.S. at 178–79 (quoting H.R. Conf.
Rep. No. 91-1667, at 8 (1970)); see also New York v. Sullivan, 889 F.2d 401, 407 (2d Cir. 1989), aff’d sub nom.
Rust v. Sullivan, 500 U.S. 173 (1991) (noting a legislator’s statement that “[w]ith the ‘prohibition of abortion’
amendment—title X, section 1008—the [House] committee members clearly intend that abortion is not to
be encouraged or promoted in any way through this
legislation”) (statement of Rep. Dingell). As Rust concluded, in enacting § 1008, Congress made a constitutionally permissible “value judgment favoring childbirth over abortion.” 500 U.S. at 192 (quoting Maher v.
Roe, 432 U.S. 464, 474 (1977)).
Although the purpose of § 1008 is clear, the Supreme Court has determined that its language is ambiguous because it does not expressly articulate how its
prohibition applies to abortion counseling, referral, and

7a
advocacy, or how to ensure that funds are not used “in
programs where abortion is a method of family planning.” Id. at 184. As a result of this ambiguity, HHS
has provided a range of alternative interpretations of
§ 1008 over the years. We provide an overview of this
history as context to our analysis of the issues raised by
the government’s appeals.
A
In 1971, HHS promulgated (without notice and
comment) the first regulations designed to implement
Title X. Project Grants for Family Planning Services,
36 Fed. Reg. 18,465, 18,465–66 (Sept. 15, 1971). The
regulations did not address the scope of § 1008. Instead, HHS interpreted § 1008 through opinions from
its Office of General Counsel. In the mid-1970s, HHS
issued a legal opinion prohibiting directive counseling
on abortion (“encouraging or promoting” abortion) in a
Title X project, while permitting nondirective (“neutral”) counseling on abortion. Nat’l Family Planning
& Reprod. Health Ass’n v. Sullivan, 979 F.2d 227, 229
(D.C. Cir. 1992). Subsequent General Counsel opinions
interpreted § 1008 as “prohibiting any abortion referrals beyond ‘mere referral,’ that is, providing a list of
names and addresses without in any further way assisting the woman in obtaining an abortion.” Statutory
Prohibition on Use of Appropriated Funds Where
Abortion is a Method of Family Planning, 53 Fed. Reg.
2922, 2923 (Feb. 2, 1988) (the 1988 Rule).
HHS revised its Title X regulations after notice
and comment in 1980. See Grants for Family Planning
Services, 45 Fed. Reg. 37,433 (June 3, 1980). But like
the 1971 regulations, the 1980 regulations did not address the scope of § 1008. Nat’l Family Planning, 979
F.2d at 229 (citing 45 Fed. Reg. at 37,437). Instead, in

8a
1981, HHS issued “Program Guidelines for Project
Grants for Family Planning Services.” See U.S. Dep’t
of Health & Human Servs., Program Guidelines for
Project Grants for Family Planning Services (1981).
For the first time, these guidelines required Title X
projects to give Title X clients nondirective counseling
on and referrals for abortion upon request. Id. § 8.6.
The 1981 “guidelines were premised on a view that
‘non-directive’ counseling and referral for abortion
were not inconsistent with [§ 1008] and were justified
as a matter of policy in that such activities did not have
the effect of promoting or encouraging abortion.” 53
Fed. Reg. at 2923.
It was not until 1988 that HHS addressed the scope
of § 1008 in notice-and-comment rulemaking. See 53
Fed. Reg. at 2922. The 1988 Rule recognized that
“[f]ew issues facing our society today are more divisive
than that of abortion.” Id. Because § 1008 was intended to create “a wall of separation between Title X programs and abortion as a method of family planning,”
the 1988 Rule concluded that Congress intended Title
X to circumscribe “family planning” to include “only
activities related to facilitating or preventing pregnancy, not for terminating it.” Id. at 2922–23. The 1988
Rule accordingly defined the term “family planning” as
including “a broad range of acceptable and effective
methods and services to limit or enhance fertility.” Id.
at 2944.
In light of these concerns, the 1988 Rule imposed
specified limits on a Title X project. First, the project
could not provide prenatal care. Id. at 2945. Therefore,
“once a client served by a Title X project is diagnosed
as pregnant, she must be referred for appropriate prenatal and/or social services by furnishing a list of avail-

9a
able providers that promote the welfare of mother and
unborn child.” Id.
Further, a Title X project could not “provide counseling concerning the use of abortion as a method of
family planning.” Id. In the preamble to the 1988 Rule,
HHS explained that counseling “which results in abortion as a method of family planning simply cannot be
squared with the language of section 1008,” and the
1988 Rule therefore rejected the 1981 program guidelines’ requirement that Title X projects give nondirective counseling on abortion. Id. at 2923. In barring such nondirective counseling, HHS also relied on a
General Accounting Office (GAO) report and Office of
the Inspector General (OIG) audit of Title X projects
indicating that some Title X projects were “promoting
abortion” under the guise of providing nondirective
counseling. Id. at 2924.3
Nor could a Title X project “provide referral for
abortion as a method of family planning.” Id. at 2945.
Therefore, the list of available providers given to a
pregnant client could not include “providers whose
principal business is the provision of abortions.” Id.
The 1988 Rule also required a Title X project to be
organized “so that it is physically and financially separate” from activities prohibited by § 1008 and the regulations. Id. To meet this “program integrity” requirement, “a Title X project must have an objective integri3

For example, the audit found that some Title X projects
were providing clients with brochures prepared by abortion clinics, providing and witnessing the signing of consent forms required
by abortion clinics, making appointments for clients at abortion
clinics, and using Title X funds to pay the administrative costs for
loans provided to clients to pay for abortions. 53 Fed. Reg. at 2924
n.7.

10a
ty and independence from prohibited activities. Mere
bookkeeping separation of Title X funds from other
monies is not sufficient.” Id.
HHS explained that its rules requiring physical and
financial separation were supported by OIG-audit and
GAO-report findings that Title X projects were arguably violating § 1008 and that the lack of separation led
to confusion as to whether federal funds were being
used for abortion services. Id. Both OIG and GAO
“urged [HHS] to give more specific, formalized direction to programs about the extent of prohibition on
abortion as a method of family planning.” Id. at 2923–
24.
After HHS promulgated the 1988 Rule, Title X
grantees challenged the facial validity of the regulations on the grounds that the regulations were not authorized by Title X, were arbitrary and capricious under the Administrative Procedure Act (APA), and violated the First and Fifth Amendment rights of Title X
clients and the First Amendment rights of Title X
health care providers. The Supreme Court addressed
these challenges in Rust.
Rust first rejected the plaintiffs’ claim “that the
regulations exceed [HHS]’s authority under Title X and
are arbitrary and capricious.” Id. at 183. Because the
language of § 1008 was “ambiguous” as to “the issues of
counseling, referral, advocacy, or program integrity,”
the Court gave “substantial deference” to HHS’s interpretation under Chevron, U.S.A., Inc. v. Natural Resources Defense Council, Inc., 467 U.S. 837, 842–43
(1984), and concluded that “[t]he broad language of Title X plainly allows [HHS]’s construction of the statute.” Rust, 500 U.S. at 184. “By its own terms, § 1008
prohibits the use of Title X funds ‘in programs where

11a
abortion is a method of family planning’ ” but “does not
define the term ‘method of family planning,’ nor does it
enumerate what types of medical and counseling services are entitled to Title X funding.” Id. In light of
the “broad directives provided by Congress in Title X
in general and § 1008 in particular,” Rust concluded
that HHS’s “construction of the prohibition in § 1008 to
require a ban on counseling, referral, and advocacy
within the Title X project” was permissible. Id.
Rust likewise upheld the program integrity requirements, which mandated separate facilities, personnel, and records. The Court concluded that the requirements were “based on a permissible construction
of the statute” and were “not inconsistent with congressional intent.” Id. at 188. Rust noted that “if one
thing is clear from the legislative history, it is that
Congress intended that Title X funds be kept separate
and distinct from abortion-related activities.” Id. at
190. As such, Rust declined to upset HHS’s “reasoned
determination that the program integrity requirements
are necessary to implement the prohibition” in § 1008.
Id.
Rust also rejected the plaintiffs’ argument that the
regulations were arbitrary and capricious because
“they ‘reverse a longstanding agency policy that permitted nondirective counseling and referral for abortion’ ” and constitute “a sharp break from [HHS]’s prior
construction of the statute.” Id. at 186. According to
the Court, HHS’s revised interpretation was entitled to
deference because “the agency, to engage in informed
rulemaking, must consider varying interpretations and
the wisdom of its policy on a continuing basis.” Id.
(quoting Chevron, 467 U.S. at 863–64). HHS gave a
reasoned basis for its change of interpretation, includ-

12a
ing that the new regulations were “more in keeping
with the original intent of the statute.” Id. at 187.
Rust then turned to the constitutional arguments.
The Court rejected the argument that the restrictions
violated the First Amendment speech rights of grantees, their staff, and clients, holding that the regulations
permissibly implemented Congress’s decision to allocate public funds “to subsidize family planning services
which will lead to conception and childbirth, and
declin[e] to promote or encourage abortion.” Id. at 193
(internal quotation marks omitted). “Congress’ power
to allocate funds for public purposes includes an ancillary power to ensure that those funds are properly applied to the prescribed use,” and “the regulations are
narrowly tailored to fit Congress’ intent in Title X that
federal funds not be used to ‘promote or advocate’ abortion as a ‘method of family planning.’ ” Id. at 195 n.4.
Doctors were “always free to make clear that advice
regarding abortion is simply beyond the scope of the
[Title X] program.” Id. at 200. Rust also rejected arguments that the restrictions violated a woman’s Fifth
Amendment right to choose whether to obtain an abortion because “[the] decision to fund childbirth but not
abortion ‘places no governmental obstacle in the path of
a woman who chooses to terminate her pregnancy, but
rather, by means of unequal subsidization of abortion
and other medical services, encourages alternative activity deemed in the public interest.’ ” Id. at 201 (quoting Harris v. McRae, 448 U.S. 297, 315 (1980)). The
regulations did not infringe the doctor-patient relationship, the Court held, because the doctor and patient
remained free to discuss abortion and abortion-related
services “outside the context of the Title X project.”
Id. at 203. Accordingly, Rust upheld the 1988 Rule.

13a
Within months after Rust was decided, legislators
introduced the Family Planning Amendments Act of
1992, H.R. 3090, 102d Cong. (1991), which sought to undo the 1988 Rule and to codify the 1981 program guidelines, see S. Rep. No. 102-86 (1991). Under the proposed legislation, every applicant for a Title X grant
had to agree to offer “nondirective counseling and referrals regarding—(i) prenatal care and delivery; (ii)
infant care, foster care, and adoption; and (iii) termination of pregnancy.” H.R. 3090, 102d Cong. § 2 (1991); S.
323, 102d Cong. § 2 (1991); H.R. Rep. No. 102-767, at 2
(1992). The bill failed to obtain the necessary votes.
See S. 323, 102d Cong., Roll No. 452 (Oct. 2, 1992).
After this legislative effort to overturn Rust failed,
President Clinton issued a memorandum directing
HHS to suspend the 1988 Rule. See The Title X “Gag
Rule,” 58 Fed. Reg. 7455 (Jan. 22, 1993). Two weeks
later (without notice or comment) HHS issued an interim rule suspending the 1988 Rule and announcing that
the nonregulatory interpretations that existed prior to
the 1988 Rule, including those in the 1981 program
guidelines, would apply. See Standards of Compliance
for Abortion-Related Services in Family Planning Service Projects, 58 Fed. Reg. 7462 (Feb. 5, 1993). Legislators introduced another bill, the Family Planning
Amendments Act of 1995, H.R. 833, 104th Cong. (1995),
which included the same language as the amendments
proposed in 1991, and would have required nondirective
counseling on and referral for the “termination of pregnancy.” H.R. 833, 104th Cong. § 2(b)(3) (1995). As before, these efforts were unsuccessful.
Around this same time, Congress was debating
whether to appropriate funds for Title X projects. See
141 Cong. Rec. H8194-02, at 8249–62 (Aug. 2, 1995). In
response to concerns that Title X clinics were pressing

14a
teenagers to obtain abortions, see id. at H8260 (Rep.
Waldholtz), legislators proposed a compromise bill that
would ensure no federal funds were used to support
abortion services. As ultimately enacted, the 1996 appropriations rider provided (among other things)
“[t]hat amounts provided to [Title X] projects … shall
not be expended for abortions, [and] that all pregnancy
counseling shall be nondirective.” Pub. L. No. 115-245,
132 Stat. 2981, 3070–71. A version of this rider has
been reenacted each year since 1996.
In the wake of the defeat of the Family Planning
Amendments Acts of 1992 and 1995, HHS issued a new
regulation adopting the language of the failed legislation. See Standards of Compliance for AbortionRelated Services in Family Planning Service Projects,
65 Fed. Reg. 41,270 (July 3, 2000) (the 2000 Rule). The
2000 Rule provided that a Title X project was required
to offer a pregnant woman “neutral, factual information
and nondirective counseling” on “each of the following
options: (A) Prenatal care and delivery; (B) Infant
care, foster care, or adoption; and (C) Pregnancy termination.” Id. at 41,279. Each Title X project also had to
provide referral for each option “upon request.” Id.
The 2000 Rule eliminated several of the 1988 Rule’s
provisions. For instance, the 2000 Rule dropped the
1988 Rule’s definition of “family planning” but did not
provide a replacement definition. See id. at 41,278. Instead, the 2000 Rule simply stated that a family planning project must “[p]rovide a broad range of acceptable and effective medically approved family planning
methods (including natural family planning methods)
and services (including infertility services and services
for adolescents).” Id. at 41,278–79. The 2000 Rule also

15a
eliminated the physical and financial separation requirement. See id. at 41,276.4
While HHS’s oscillations in interpreting § 1008
were playing out, Congress enacted various laws (referred to as federal conscience laws) prohibiting discrimination against individuals and entities who objected to performing or promoting abortion on religious or
moral grounds. Beginning in 1973, Congress enacted
four statutes (collectively referred to as the Church
Amendments) that prevent the government from conditioning grant funds on assistance with abortionrelated activities, 42 U.S.C. § 300a-7(b), and prohibit
grant recipients from discriminating against individuals
who refused to assist with abortion because of their
“religious beliefs or moral convictions,” id. § 300a-7(c).
In 1996, Congress enacted the Coats-Snowe Amendment to the Public Health Service Act, which prohibits
the federal government from discriminating against
any health care entity because it refuses to engage in
certain abortion-related activities, including providing
referrals for abortions. Omnibus Consolidated Rescissions and Appropriations Act of 1996, Pub. L. No. 104134, tit. V, § 515, 110 Stat. 1321, 1321-245 (1996) (codified at 42 U.S.C. § 238n(a)). Finally, in 2004 Congress
began including a rider in health care appropriations
bills to prohibit discrimination by recipients of federal
grants against health care entities that refused to make
referrals for abortion, among other things. Consolidat4

In promulgating the 2000 Rule, HHS did not go as far as
some commenters urged. In rejecting comments that it should
read § 1008 narrowly as prohibiting only “the provision of, or payment for, abortions” and nothing else, HHS stated that this was
not “the better reading of the statutory language.” 65 Fed. Reg. at
41,272. HHS also acknowledged that the 1988 Rule was “a permissible interpretation” of § 1008. Id. at 41,277.

16a
ed Appropriations Act, 2005, Pub. L. No. 108-447, 118
Stat. 2890, 3163 (2004) (referred to as the Weldon
Amendment).5
In 2008, HHS concluded that the 2000 Rule’s requirement that Title X projects must provide counseling and referrals for abortion upon request was inconsistent with these federal conscience laws. Therefore,
HHS promulgated regulations to clarify it “would not
enforce this Title X regulatory requirement on objecting grantees or applicants.” Ensuring that Department
of Health and Human Services Funds Do Not Support
Coercive or Discriminatory Policies or Practices in Violation of Federal Law, 73 Fed. Reg. 78,072, 78,087 (Dec.
19, 2008) (the 2008 nondiscrimination regulations). After a new administration took office, HHS decided
these regulations were “unclear and potentially overbroad in scope” and rescinded them. Regulation for the
Enforcement of Federal Health Care Provider Conscience Protection Laws, 76 Fed. Reg. 9968, 9969 (Feb.
23, 2011).
Thus, before the 2018 rulemaking, HHS’s interpretations of § 1008 had seesawed through multiple formulations:
from
permitting—then
requiring—
nondirective counseling on abortion as a method of family planning (in 1971 and 1981 guidance documents); to
prohibiting counseling and referrals for abortion as a
method of family planning (in the 1988 Rule, upheld by
the Supreme Court in 1991); and then to once again requiring nondirective counseling and referrals for abortion on request (in the 2000 Rule). HHS also vacillated
5

The Weldon Amendment has been continuously enacted
since 2004. See, e.g., Department of Defense and Labor, Health
and Human Services, and Education Appropriations Act, 2019,
Pub. L. 115-245, 132 Stat. 2981, 3118.

17a
in its interpretation of the federal conscience laws.
This uncertain history was the backdrop for HHS’s reconsideration of this controversial area in 2018.
B
In 2018, HHS returned to the task of interpreting
§ 1008 and issued a notice of proposed rulemaking “to
ensure compliance with, and enhance implementation
of, the statutory requirement that none of the funds
appropriated for Title X may be used in programs
where abortion is a method of family planning.” Compliance with Statutory Program Integrity Requirements, 83 Fed. Reg. 25,502, 25,502 (June 1, 2018). After
receiving over 500,000 comments reflecting a “sharp
diversity of opinion,” HHS issued a final rule in March
2019. Compliance with Statutory Program Integrity
Requirements, 84 Fed. Reg. 7714, 7723 (Mar. 9, 2019)
(the Final Rule). The Final Rule largely represents a
return to the 1988 Rule that the Supreme Court upheld
in Rust.
The Final Rule’s definition of the statutory term
“family planning” is substantially similar to the 1988
Rule’s definition. It “means the voluntary process of
identifying goals and developing a plan for the number
and spacing of children,” including by means of “a broad
range of acceptable and effective family planning methods and services.” 84 Fed. Reg. at 7787; 42 C.F.R.
§ 59.2 (2019). Like the 1988 Rule, the Final Rule states
that family planning services “include preconception
counseling” but not “postconception care (including obstetric or prenatal care) or abortion as a method of family planning.” 84 Fed. Reg. at 7787; 42 C.F.R. § 59.2.
In the preamble to the Final Rule, HHS explained
that it adopted this definition of “family planning” to

18a
“address in part its concern that the requirement for
abortion referrals, as provided in the 2000 [Rule], violates or leads to violations of section 1008’s prohibition
on funding Title X projects where abortion is a method
of family planning.” 84 Fed. Reg. at 7729. HHS also
explained it was reestablishing the 1988 Rule’s requirement that family planning methods and services
be “acceptable and effective,” omitting the 2000 Rule’s
requirement that they also be “medically approved,”
because the term “medically approved” lacked clear
meaning in this context and does not appear in the
statute. Id. at 7740–41.
Repeating the language of Title X, see 42 U.S.C.
§ 300(a), the Final Rule provides that a family planning
project must “[e]ncourage family participation in the
decision to seek family planning services,” 42 C.F.R.
§ 9.5(a)(14). In the preamble, HHS noted that this language was required by the Title X statute itself and
that Congress had enacted an appropriations rider that
“specifically emphasizes that grantees encourage family
participation ‘in the decision of minors to seek family
planning services.’ ” 84 Fed. Reg. at 7718 (quoting Pub.
L. No. 115-245, div. B, sec. 207, 132 Stat. 2981, 3070
(2018)).
The Final Rule also sets forth requirements and
limitations for post-conception services. See 42 C.F.R.
§ 59.14. Under the Rule, once a client is verified as being pregnant, the client “shall be referred to a health
care provider for medically necessary prenatal health
care.” Id. § 59.14(b)(1). The regulations explain that
“[p]rovision of a referral for prenatal health care is consistent with [Title X] because prenatal care is a medically necessary service.” Id. § 59.14(e)(1).

19a
The Final Rule differs from the 1988 Rule with respect to pregnancy counseling. HHS noted that the
1996 appropriations rider, as reenacted annually, required “that all pregnancy counseling shall be nondirective.”6 84 Fed. Reg. at 7725 n.36, 7729. Interpreting the rider’s language as permitting such counseling,
id. at 7725, the Final Rule states that a Title X project
can give a pregnant client nondirective pregnancy
counseling “when provided by physicians or advanced
practice providers.” 42 C.F.R. § 59.14(b)(1)(i).7

6

The appropriations rider for 2018 provides:

For carrying out the program under title X of the [Public
Health Service] Act to provide for voluntary family
planning projects, $286,479,000: Provided, That amounts
provided to said projects under such title shall not be expended for abortions, that all pregnancy counseling shall
be nondirective, and that such amounts shall not be expended for any activity (including the publication or distribution of literature) that in any way tends to promote
public support or opposition to any legislative proposal
or candidate for public office.
Pub. L. No. 115-245, div. B, tit. II, 132 Stat. 2981, 3070–71
(2018).
7

The Final Rule defines “Advanced Practice Provider” as:

[A] medical professional who receives at least a graduate
level degree in the relevant medical field and maintains a
license to diagnose, treat, and counsel patients. The
term Advanced Practice Provider includes physician assistants and advanced practice registered nurses
(APRN). Examples of APRNs that are an Advanced
Practice Provider include certified nurse practitioner
(CNP), clinical nurse specialist (CNS), certified registered nurse anesthetist (CRNA), and certified nursemidwife (CNM).
42 C.F.R. § 59.2.

20a
Unlike the 1988 Rule, the Final Rule establishes
that a counselor providing nondirective pregnancy
counseling “may discuss abortion” so long as “the counselor neither refers for, nor encourages, abortion.” Id.
§ 59.14(e)(5). To ensure compliance with federal conscience laws, however, a Title X provider is not required to discuss abortion upon request. See 84 Fed.
Reg. at 7716, 7746–47. In short, the Final Rule does not
impose a “gag” on abortion counseling: a counselor
“may discuss abortion” but is not required to do so. 42
C.F.R. § 59.14(e)(5).8
8

The dissent relies heavily on its mistaken view that the Final Rule is a “Gag Rule” that “gags health care providers from fully counseling women about their options while pregnant.” Dissent
at 81. The dissent conjures up a “Kafkaesque” situation where
counselors have to “walk on eggshells to avoid a potential transgression” of the Final Rule and in response to questions about
terminating a pregnancy can merely say: “I can’t help you with
that or discuss it. Here is a list of doctors who can assist you with
your pre-natal care despite the fact that you are not seeking such
care.” Dissent at 85–86 (citation omitted). But this “Kafkaesque”
scenario is belied by the Final Rule itself, which expressly authorizes counseling on abortion while prohibiting referrals for abortion.
Indeed, the Final Rule provides its own example of a straightforward conversation with a client who asks about abortion:
[When a] pregnant woman requests information on abortion and asks the Title X project to refer her for an abortion[, then] [t]he counselor tells her that the project does
not consider abortion a method of family planning and,
therefore, does not refer for abortion. The counselor offers her nondirective pregnancy counseling, which may
discuss abortion, but the counselor neither refers for,
nor encourages, abortion.
42 U.S.C. § 59.14(e)(5) (emphasis added). The dissent’s arguments
that the Final Rule is a “Gag Rule” is merely a restatement of its
disagreement with the Final Rule’s interpretation of § 1008 as precluding “referral for abortion as a method of family planning.” 84
Fed. Reg. at 7717.

21a
Although the Final Rule permits a Title X project
to provide nondirective counseling that includes information about abortion, it expressly prohibits referrals
for abortion as a method of family planning. HHS explained its understanding that “referral for abortion as
a method of family planning, and such abortion procedure itself, are so linked that such a referral makes the
Title X project or clinic a program one where abortion
is a method of family planning.” 84 Fed. Reg. at 7717.
Accordingly, “[a] Title X project may not perform,
promote, refer for, or support abortion as a method of
family planning, nor take any other affirmative action
to assist a patient to secure such an abortion.” 42
C.F.R. § 59.14(a). Further, “[a] Title X project may not
use the provision of any prenatal, social service, emergency medical, or other referral, of any counseling, or of
any provider lists, as an indirect means of encouraging
or promoting abortion as a method of family planning.”
Id. § 59.14(c)(1).
While referrals for abortion as a method of family
planning are not allowed, the Title X project may give a
pregnant client a “list of licensed, qualified, comprehensive primary health care providers,” which may include
“providers of prenatal care[], some, but not the majority, of which also provide abortion as part of their comprehensive health care services.” Id. § 59.14(c)(2).
“Neither the list nor project staff may identify which
providers on the list perform abortion.” Id. The Title
X project may also provide referrals for abortion when
such a procedure is medically necessary. 84 Fed. Reg.
at 7748.
Finally, the Final Rule, like the 1988 Rule, requires
that a Title X project be organized “so that it is physically and financially separate … from activities that are
prohibited under section 1008 of the Public Health Ser-

22a
vice Act and §§ 59.13, 59.14, and 59.16 of these regulations.” 42 C.F.R. § 59.15. HHS explained that the
physical and financial separation requirements were
necessary to avoid the risk “of the intentional or unintentional use of Title X funds for impermissible purposes, the co-mingling of Title X funds, the appearance and
perception that Title X funds being used in a given
program may also be supporting that program’s abortion activities, and the use of Title X funds to develop
infrastructure that is used for the abortion activities of
Title X clinics.” 84 Fed. Reg. at 7764.
The effective date of the Final Rule was set for
May 3, 2019, but the compliance deadline for the physical separation requirements is March 4, 2020. Id. at
7714.
C
Before the Final Rule’s effective date, several
states and private Title X grantees (collectively, plaintiffs) filed lawsuits against HHS in three different district courts seeking preliminary injunctive relief. The
lawsuits challenged the Final Rule under the APA as
arbitrary and capricious, contrary to law, and in excess
of statutory authority. 5 U.S.C. § 706(2)(A), (C).9 All
three district courts granted plaintiffs’ preliminary injunction motions on similar grounds. See Washington
v. Azar, 376 F. Supp. 3d 1119 (E.D. Wash. 2019); California v. Azar, 385 F. Supp. 3d 960 (N.D. Cal. 2019); Or9

Plaintiffs also brought various constitutional claims, but the
district courts did not base their preliminary injunctions on these
claims. Plaintiffs do not raise these claims as alternative grounds
for affirming the district courts’ grants of injunctive relief, so any
such argument was waived. See United States v. GamboaCardenas, 508 F.3d 491, 502 (2007).

23a
egon v. Azar, 389 F. Supp. 3d 898 (D. Or. 2019). HHS
timely appealed each of the preliminary injunction orders.10
We review a district court’s grant of a preliminary
injunction “for an abuse of discretion.” Gorbach v. Reno, 219 F.3d 1087, 1091 (9th Cir. 2000) (en banc). But
“legal issues underlying the injunction are reviewed de
novo because a district court would necessarily abuse
its discretion if it based its ruling on an erroneous view
of law.” adidas Am., Inc. v. Skechers USA, Inc., 890
F.3d 747, 753 (9th Cir. 2018) (citation omitted).
II
“A plaintiff seeking a preliminary injunction must
establish [1] that he is likely to succeed on the merits,
[2] that he is likely to suffer irreparable harm in the absence of preliminary relief, [3] that the balance of equities tips in his favor, and [4] that an injunction is in the
public interest.” Winter v. Nat. Res. Def. Council, Inc.,
555 U.S. 7, 20 (2008); accord Garcia v. Google, Inc., 786
F.3d 733, 740 (9th Cir. 2015). The first factor—
likelihood of success on the merits—“is the most important” factor. Id. If a movant fails to establish likelihood of success on the merits, we need not consider the
other factors. Id.

10

HHS also moved to stay the injunctions pending a decision
on the merits of its appeals. We granted the stay motion in a published order. See California v. Azar, 927 F.3d 1068 (9th Cir. 2019)
(per curiam). Upon the vote of a majority of nonrecused active
judges, we ordered reconsideration en banc of the stay motion,
California v. Azar, 927 F.3d 1045, 1046 (9th Cir. 2019) (mem.), but
we did not vacate the stay order itself, so it remained in effect,
California v. Azar, 928 F.3d 1153, 1155 (9th Cir. 2019) (mem.). The
stay motion is now denied as moot.

24a
The Supreme Court has recognized that when an
issue of law is key to resolving a motion for injunctive
relief, the reviewing court has the power “to examine
the merits of the case” and resolve the legal issue.
Munaf v.Geren, 553 U.S. 674, 691 (2008) (internal quotation marks omitted) (quoting N.C. R. Co. v. Story, 268
U.S. 288, 292 (1925)). “Adjudication of the merits is
most appropriate if the injunction rests on a question of
law and it is plain that the plaintiff cannot prevail.” Id.;
accord Blockbuster Videos, Inc. v. City of Tempe, 141
F.3d 1295, 1297 (9th Cir. 1998). The Supreme Court reaffirmed this conclusion in Winter, noting that it could
“address the underlying merits of plaintiffs’ [legal]
claims” in the preliminary injunction appeal and proceed to a decision. 555 U.S. at 31; see also Blockbuster
Videos, 141 F.3d at 1297; Friends of the Earth v. U.S.
Navy, 841 F.2d 927, 931 (9th Cir. 1988).
This approach applies in appropriate APA cases.
See Beno v. Shalala, 30 F.3d 1057, 1063–64 (9th Cir.
1994). In Beno, we considered plaintiffs’ claim that an
agency’s action was “ ‘ arbitrary and capricious’ within
the meaning of the APA.” Id. at 1063. The APA claim
required only review of the administrative record and
interpretation of relevant statutes; “additional factfinding [was] not necessary to resolve th[e] claim.” Id.
at 1064 n.11. Because “the district court’s denial of injunctive relief rested primarily on interpretations of
law, not on the resolution of factual issues,” we reviewed de novo the district court’s legal conclusions
and addressed plaintiffs’ claims on the merits. Id. at
1063–64 (internal quotation marks omitted). We held
this was appropriate because “in APA cases, a district
court decision is generally accorded no particular deference, and is reviewed de novo because the district
court is in no better position than this court to review

25a
the administrative record.” Id. at 1063 n.9 (internal
quotation marks and citations omitted). This approach
is consistent with the Supreme Court’s ruling that district courts’ “factfinding capacity” is “typically unnecessary to judicial review of agency decisionmaking” because both the district court and the court of appeals
“are to decide, on the basis of the record the agency
provides, whether the action passes muster under the
appropriate APA standard of review.” Fla. Power &
Light Co. v. Lorion, 470 U.S. 729, 744 (1985).
Here, the only significant issues raised are legal.
Plaintiffs argue that the Final Rule is invalid on its face
because it conflicts with other statutes and the agency
acted in an arbitrary and capricious manner in promulgating it. An agency’s action violates the APA when it
is “in excess of statutory jurisdiction [or] authority,” 5
U.S.C. § 706(2)(C), or when it is “not in accordance with
law,” id. § 706(2)(A), for instance, when it violates another statute, see FCC v. NextWave Pers. Commc’ns
Inc., 537 U.S. 293, 300 (2003). The record before us is
sufficient to resolve plaintiffs’ challenges, and no additional factual development is required.11 The district
11

Although the parties did not submit the full administrative
record (which includes over 500,000 public comments) to the district courts, all public comments made during the rulemaking process are available online and were available to the parties in raising arguments to the district courts. See Compliance with Statutory Program Integrity Requirements, regulations.gov (last visited Oct. 29, 2019), https://www.regulations.gov/document?D=HHSOS-2018-0008-0001; 84 Fed. Reg. at 7722 & n.26. Indeed, the parties used selected public comments to support their arguments in
their briefs both to the district courts and to us. Despite this, the
dissent asserts that “[d]eciding the merits of [p]laintiffs’ arbitrary
and capricious claim is … premature” because “[w]e do not have
the complete administrative record.” Dissent at 95–96. But neither plaintiffs nor the dissent identify additional arguments that

26a
courts issued preliminary injunctions based on their
view that plaintiffs were likely to prevail on the merits
of these legal claims, and thus the district courts were
not in any better position to decide these issues than
we are. See Beno, 30 F.3d at 1063 n.9.12 We have received extensive briefing and heard argument on the
issues presented. Because we can decide, based on the
record provided, “whether the action passes muster

could be made after submission of the full record, see Dissent at
95–96; at most, plaintiffs stated at oral argument (but not in their
briefing) that they might delve deeper into the approximately
500,000 public comments to provide additional support for their
existing arguments. Because HHS did not omit or withhold material information from the administrative record, the cases on which
the dissent relies are inapposite. See Walter O. Boswell Mem’l
Hosp. v. Heckler, 749 F.2d 788, 793 (D.C. Cir. 1984) (holding that
review could not go forward on a partial record where doing so
“would be fundamentally unfair” because agency had withheld significant information); Nat. Res. Def. Council, Inc. v. Train, 519
F.2d 287, 292 (D.C. Cir. 1975) (remanding to district court for further review where agency omitted a key document that “throws
light on the factors and considerations relied upon” by the agency
from the administrative record). Accordingly, we conclude that
the record before us is sufficient to resolve plaintiffs’ arguments
that aspects of the Final Rule are arbitrary and capricious. See
McChesney v. FEC, 900 F.3d 578, 583 (8th Cir. 2018); 5 U.S.C.
§ 706 (“[T]he court shall review the whole record or those parts of
it cited by a party.”).
12

In considering plaintiffs’ claims that HHS’s action was arbitrary and capricious, the district courts properly limited their review to the record before them. See California, 385 F. Supp. 3d at
1000–18; Washington, 376 F. Supp. 3d at 1131; Oregon, 389 F.
Supp. 3d at 914–19. While the district courts made factual findings
and predictions to support their conclusion that plaintiffs showed a
likelihood of irreparable harm, see, e.g., California, 385 F. Supp. 3d
at 978–85, see also Fed. R. Civ. P. 52(a), these findings are not relevant to the resolution of the arbitrary and capricious challenge,
see Fla. Power & Light Co., 470 U.S. at 744.

27a
under the appropriate APA standard of review,” Fla.
Power & Light Co., 470 U.S. at 744, we may resolve the
legal issues on their merits, Beno, 30 F.3d at 1064.
III
We first consider plaintiffs’ argument that the Final Rule is facially invalid. Plaintiffs wisely do not
press the argument that the Final Rule is an impermissible interpretation of the text of § 1008. Rust held that
“[t]he broad language of Title X plainly allows [the 1988
Rule’s] construction of the statute,” 500 U.S. at 184, and
the Final Rule is substantially the same as the 1988
Rule with respect to the provisions at issue here.
Rather, plaintiffs mainly argue that two intervening congressional enactments altered the legal landscape so that Rust’s holding is no longer valid. First,
plaintiffs point to the 1996 appropriations rider enacted
to ensure no federal funds were used to support abortion services. See Pub. L. No. 115-245, div. B, tit. II,
132 Stat. 2981, 3070–71 (2018). Second, plaintiffs rely
on a section of the Patient Protection and Affordable
Care Act (ACA) that limits HHS’s ability to promulgate regulations. See Pub. L. No. 111-148, § 1554, 124
Stat. 119, 259 (2010) (codified at 42 U.S.C. § 18114).
In considering these arguments, we are mindful
that the Supreme Court’s “interpretive decisions, in
whatever way reasoned, effectively become part of the
statutory scheme.” Kimble v. Marvel Entm’t, LLC, 135
S. Ct. 2401, 2409 (2015). Therefore, Rust’s conclusion
that § 1008 could be interpreted to bar abortion counseling, referral, and advocacy within a Title X project
became a part of Title X’s scheme, and we may not
lightly infer that Congress intended to overrule that
holding in enacting the appropriations rider or § 1554 of

28a
the ACA. Because “[t]he modification by implication of
[a] settled construction of an earlier and different section” by a later enactment “is not favored,” United
States v. Madigan, 300 U.S. 500, 506 (1937), plaintiffs
must provide evidence that Congress intended to alter
Rust’s conclusion that the 1988 Rule was a permissible
interpretation of Title X and § 1008. They fail to do so.
A
We first turn to plaintiffs’ argument that the Final
Rule violates the 1996 appropriations rider. At the
time HHS promulgated the Final Rule, the appropriations rider provided that “amounts provided to [the Title X project] shall not be expended for abortions, [and]
that all pregnancy counseling shall be nondirective.”
Pub. L. No. 115-245, div. B, tit. II, 132 Stat. 2981, 3070–
71 (2018). HHS interpreted this appropriations rider as
permitting Title X projects to provide counseling on
abortion, and incorporated this interpretation in the
Final Rule. See 84 Fed. Reg. at 7725; 42 C.F.R.
§ 59.14(e)(5).
Plaintiffs’ argument about the correct interpretation of this provision proceeds in three steps. First, according to plaintiffs, the term “pregnancy counseling”
must be interpreted as including referrals. Second,
plaintiffs contend that the term “nondirective” means
the presentation of all options on an equal basis. Third,
putting these two definitions together, plaintiffs argue
that the term “nondirective pregnancy counseling” requires the provision of referrals for abortion on the
same basis as referrals for prenatal care and adoption.
Because the Final Rule requires referrals for medically
necessary prenatal health care and permits referrals
for adoption but precludes referrals for abortion, see 42
C.F.R. § 59.14, plaintiffs contend that the Final Rule

29a
does not provide nondirective pregnancy counseling,
and thus violates the appropriations rider. We consider
each of these steps in turn.
1
At the first step, plaintiffs and the dissent argue
that the statutory term “pregnancy counseling” must
be interpreted as including referrals.13 Congress has
not provided a definition of the term “pregnancy counseling,” or otherwise “directly addressed the precise
question at issue.” Chevron, 467 U.S. at 843. In the
face of Congressional silence, we give “substantial deference” to the interpretations provided by HHS. Rust,
500 U.S. at 184.14
In the Final Rule, HHS provided its interpretation
by treating the terms “counseling” and “referral” as
referring to distinct legal concepts. See 84 Fed. Reg. at
7716–17. While a counselor may “provide nondirective
pregnancy counseling to pregnant Title X clients on
the patient’s pregnancy options, including abortion,”
id. at 7724 (emphasis added), the Final Rule prohibits
any “referral for abortion as a method of family planning,” id. at 7717.

13

As HHS recognized, the appropriations rider amended Title X by expressly requiring all pregnancy counseling to be nondirective. 84 Fed. Reg. at 7725, 7729. Congress “may amend substantive law in an appropriations statute, as long as it does so
clearly.” Robertson v. Seattle Audubon Soc’y, 503 U.S. 429, 440
(1992).
14

HHS is the agency authorized to promulgate regulations to
implement Title X, see 42 U.S.C. § 300a-4(a).

30a
In its brief on appeal, HHS made explicit the Final
Rule’s implicit interpretation of “counseling.”15 According to HHS, under the Final Rule and as a matter of
common usage, “counseling and referrals are distinct”
because “ ‘ [p]regnancy counseling’ involves providing
information about medical options, which is different
from referring a patient to a specific doctor for a specific form of medical care.”
HHS’s interpretation of the phrase “pregnancy
counseling” as a concept that is distinct from the term
“referrals” is reasonable and consistent with common
usage. The dictionary indicates that counseling does
not include referrals. The dictionary definition of the
term “counseling” is “a practice or professional service
designed to guide an individual to a better understanding of [her] problems and potentialities … .” Counseling, Webster’s Third New International Dictionary 518
(2002); see also Counseling, The American Medical Association Encyclopedia of Medicine 317 (1989) (defining
15

We may defer to an interpretation made in a legal brief so
long as it is not a post hoc rationalization “advanced by an agency
seeking to defend past agency action against attack.” Auer v.
Robbins, 519 U.S. 452, 462 (1997). As in Auer, there is no reason
here to think that HHS’s position is a “post hoc rationalization.”
Id. Indeed, HHS has long treated “counseling” and “referral” as
distinct concepts. The 1981 guidelines and the 2000 Rule both provided that Title X projects were required to provide “nondirective
counseling on each of the options [including pregnancy termination], and referral upon request.” 65 Fed. Reg. at 41,279; Program
Guidelines for Project Grants for Family Planning Services, § 8.6
(1981) (emphasis added); see also 53 Fed. Reg. at 2923 (explaining
that the 1981 guidelines required providers to furnish “nondirective ‘options couns[e]ling”—including “on pregnancy termination (abortion)”—“followed by referral for these services if [the
patient] so requests”). And the 2000 Rule treated “non-directive
counseling,” see 65 Fed. Reg. at 41,272–74, as distinct from
“[r]eferral[s] for abortion, see id. at 41,274.

31a
“counseling” as “[a]dvice and psychological support
given by a health professional and usually aimed at
helping a person cope with a particular problem”). By
contrast, “referral” is defined as “the process of directing or redirecting (as a medical case, a patient) to an
appropriate specialist or agency for definitive treatment.” Referral, Webster’s Third New International
Dictionary 1908 (2002). As in Rust, “[t]he broad language of Title X,” as amended by the 1996 appropriations rider, “plainly allows [HHS]’s construction of the
statute.” 500 U.S. at 184.
Plaintiffs’ and the dissent’s argument that the term
“pregnancy counseling” must be interpreted as including referrals is primarily based on their reading of a
separate statute enacted by Congress, the Children’s
Health Act of 2000, Pub. L. No. 106-310, 114 Stat. 1101
(2000); see Dissent at 90–91. A provision of that Act,
the “Infant Adoption Awareness” section, 42 U.S.C.
§ 254c-6, requires HHS to make grants to adoption organizations “for the purpose of developing and implementing programs to train the designated staff of eligible health centers in providing adoption information
and referrals to pregnant women on an equal basis with
all other courses of action included in nondirective
counseling to pregnant women.” 42 U.S.C. § 254c6(a)(1). According to plaintiffs and the dissent, this
language shows Congress intended that referrals be
“included in nondirective counseling” and that all options, including abortion, should be presented on an
equal basis. See Dissent at 90–91.
This argument fails. The Infant Adoption Awareness section neither provides a definition of “nondirective counseling” nor “expressly states” that nondirective counseling “encompasses referrals.” Cf. Dis-

32a
sent at 87 n.4.16 Simply put, the section does not show
that referrals are a type of nondirective counseling.
Indeed, it does not impose any requirements or limitations on nondirective pregnancy counseling at all; rather, it provides funds to adoption organizations to enable them to offer training to the staff of health centers
regarding the provision of adoption information and referrals to clients. HHS could reasonably conclude that
this section does not indicate that it considers referrals
to be a type of counseling, as opposed to something that
may occur at the same time as counseling. 84 Fed. Reg.
at 7733. Given that the Infant Adoption Awareness
section is not part of Title X, does not use language
similar to that in the 1996 appropriations rider, and was
enacted for a substantially different purpose, it sheds
no light on Congress’s intent in enacting the appropriations rider or on the interpretation of its statutory language. Cf. Northcross v. Bd. of Educ. of Memphis City
Sch., 412 U.S. 427, 428 (1973) (per curiam) (providing
that it is appropriate to interpret the language of two
separate statutes pari passu where two statutes use
similar language and were enacted for the same purpose).17
16

Although the dissent claims that Congress “clarified the
meaning of the term ‘nondirective ’ ” and that Congress’s “intent is
clear,” in fact, the dissent merely offers its own interpretation of
what the term means in context. Dissent at 90.
17

In addition to discussing the Infant Adoption Awareness
section, 42 U.S.C. § 254c-6(a)(1), both the plaintiffs and HHS point
to other statutes that reference counseling and referrals. HHS
notes that Congress has frequently referred to counseling and referrals separately, showing that the two are legally distinct concepts. See, e.g., 42 U.S.C. § 300z-10(a) (“Grants or payments may
be made only to … projects which do not provide abortions or
abortion counseling or referral … .”); id. § 300z-3(b) (referring to
“counseling and referral services”); 18 U.S.C. § 248(e)(5) (“repro-

33a
Plaintiffs’ and the dissent’s second argument, that
industry practice requires interpreting “counseling” as
including referrals, also fails, because the sources on
which plaintiffs rely shed no light on the proper interpretation of the term “nondirective pregnancy counseling.” Dissent at 87 n.4. Plaintiffs first point to HHS’s
guidelines in Providing Quality Family Planning Services (the QFP), which state that during a “visit [to] a
provider of family planning services,” pregnancy-test
results “should be presented to the client, followed by a
discussion of options and appropriate referrals.” U.S.
Dep’t of Health & Human Servs., Providing Quality
Family Planning Services, Morbidity & Mortality
Wkly. Rep., Apr. 25, 2014, at 13–14. Rather than requiring an interpretation of counseling as including referrals, this language suggests that counseling (i.e.,
“discussion of options”) and referrals are distinct.
Plaintiffs also point to a letter submitted by the American Medical Association (AMA) during the notice-andcomment period on the Final Rule. In this letter, the
AMA listed several provisions in its Code of Medical
Ethics which it claimed made it unethical for a practiductive health services” includes “counseling or referral services
relating to the human reproductive system, including services relating to pregnancy or the termination of a pregnancy”). Plaintiffs
identify other statutes that suggest referrals can occur during the
course of counseling. See, e.g., 42 U.S.C. § 300ff-33 (“post-test
counseling (including referrals for care)” provided to individuals
with positive HIV/AIDS test); id. § 3020e-1(b) (referring to “pension counseling and information programs” that “provide outreach,
information, counseling, referral, and other assistance”); 20 U.S.C.
§ 1161k(c)(4)(A) (requiring college counselors to provide “referrals
to and follow-up with other student services staff”). Because these
statutes do not use the same language as the appropriations rider
and were not enacted for the same purpose, they do not assist us in
interpreting Congress’s direction “that all pregnancy counseling
shall be nondirective.” See 84 Fed. Reg. at 7745.

34a
tioner to refrain from providing “all appropriate referrals, including for abortion services.” But the provisions of the code cited in the letter do not even discuss
referrals, let alone define the term; rather, they state
that patients have a right “to receive information from
their physicians and to have the opportunity to discuss
the benefits, risks, and costs of appropriate treatment
alternatives” and “to expect that their physicians will
provide guidance about what they consider the optimal
course of action for the patient based on the physician’s
objective professional judgment.” These sources do not
show that the term “referrals” is included in the phrase
“nondirective pregnancy counseling.”18
Because HHS can reasonably interpret “nondirective pregnancy counseling” as not including referrals, see 84 Fed. Reg. at 7716, plaintiffs fail at the first
step of their arguments, that “pregnancy counseling”
must be deemed to include referrals.
2
Plaintiffs also fail at the second step of their argument: that the term “nondirective” means the presentation of all options on an equal basis. Neither Title X
nor the appropriations rider defines “nondirective.”
Again, because Congress has “not directly addressed
the precise question at issue,” Chevron, 467 U.S. at 843,
we must give substantial deference to HHS’s interpretation. Rust, 500 U.S. at 184. In the Final Rule, HHS
filled the Congressional silence by interpreting “nondirective pregnancy counseling” to mean “the meaning18

The dissent does not address these sources and merely asserts, without explanation, that “industry understanding recognizes that counseling includes referrals.” Dissent at 87 n.4 (citing
California, 385 F. Supp. 3d at 989).

35a
ful presentation of options where the physician or advanced practice provider (APP) is ‘not suggesting or
advising one option over another.’ ” 84 Fed. Reg. at
7716 (quoting 138 Cong. Rec. H2822-02, 2826 (statement of Rep. Lloyd)).
Under this definition, “nondirective” does not mean
the presentation of all possible medical options. Rather, “nondirective” means that options must be provided in a neutral manner, without suggesting or advising one option over another. Thus, a physician or APP
providing nondirective counseling to a client does not
have to discuss every possible option available to that
client, but must present options in a neutral manner
and refrain from encouraging the client to select a particular option. In other words, HHS interpreted “nondirective” to refer to the neutral manner in which counseling is provided rather than to the scope of topics that
must be covered in counseling. 84 Fed. Reg. at 7716.
This is a reasonable interpretation of “nondirective.” It is consistent with HHS’s longstanding
distinction between “nondirective” counseling that is
“neutral” and “directive” counseling that encourages or
promotes abortion. Nat’l Family Planning, 979 F.2d
at 229. And it is consistent with the dictionary definition of the term “nondirective” as a type of counseling
where “the counselor refrains from interpretive or associative comment but usually by repeating phrases
used by the client encourages [the client] to express,
clarify, and restructure [the client’s] problems.” Nondirective, Webster’s Third New International Dictionary 1536 (2002); see also 84 Fed. Reg. at 7716 (nondirective counseling involves “clients tak[ing] an active
role in processing their experiences and identifying the
direction of the interaction”). Because HHS’s interpretation of “nondirective” is reasonable, we defer to that

36a
interpretation. See Chevron, 467 U.S. at 843–44; Nw.
Envtl. Advocates v. EPA, 537 F.3d 1006, 1014 (9th Cir.
2008).
We also reject plaintiffs’ and the dissent’s argument that the Final Rule is directive because it requires referrals for medically necessary prenatal health
care. Dissent at 85. HHS could reasonably conclude
that referrals for prenatal care are nondirective, as
HHS defines this term, because a referral for prenatal
care does not steer the client toward any particular option and does not discourage a client from seeking an
abortion outside of the Title X program. As HHS
points out, “seeking prenatal care is not the same as
choosing the option of childbirth.” 84 Fed. Reg. at 7748.
Further, HHS could reasonably conclude that providing a referral for prenatal care is not directive because
it is “medically necessary” for the health of the client
during pregnancy, id. at 7748, 7761–62, regardless of
whether the client later chooses an abortion outside of a
Title X project.19 “Where care is medically necessary,
19

Plaintiffs and the dissent point to declarations from doctors
and nurse practitioners conclusorily stating that prenatal care “is
not medically necessary for someone who wishes to terminate her
pregnancy.” Dissent at 88 n.5. But HHS reasonably concluded
otherwise, 84 Fed. Reg. at 7748, 7761–62, based on its determination that “pregnancy may stress and affect extant [i.e., existing]
health conditions [of the client],” such that “primary health care
may be critical to ensure that pregnancy does not negatively impact such conditions,” id. at 7750.
The dissent’s argument that HHS did not justify the referral
requirement on the ground that prenatal care is medically necessary for the health of the client, Dissent at 88 n.5, is refuted by the
record; indeed, the sentence of the Final Rule on which the dissent
relies for this argument makes clear that prenatal care is “important for … the health of the women,” 84 Fed. Reg. at 7722 (emphasis added); see also id. at 7748, 7761–62.

37a
as prenatal care is for pregnancy, referral for that care
is not directive because the need for the care preexists
the direction of the counselor, and is, instead, the result
of the woman’s pregnancy diagnosis or the diagnosis of
a health condition for which treatment is warranted.”
Id. at 7748. Because prenatal care is medically necessary for a pregnant client, see id. at 7748, 7761–62, referrals for such care are distinguishable from referrals
for abortions for the purpose of family planning, which
are not medically necessary. Indeed, the Supreme
Court has long recognized that abortion need not be
treated the same as other medical procedures: “Abortion is inherently different from other medical procedures, because no other procedure involves the purposeful termination of a potential life.” Harris v.
McRae, 448 U.S. 297, 325 (1980); see also Maher, 432
U.S. at 480 (“The simple answer to the argument” that
a law imposes different requirements on abortion than
other medical procedures is that other “procedures do
not involve the termination of a potential human
life.”).20 Given these distinctions, requiring referrals
20

Given the “inherent[] differen[ces]” between abortion and
other medical procedures, McRae, 448 U.S. at 325, the dissent’s
attempt to liken nontherapeutic abortion to treatment options for
prostate cancer is meritless, Dissent at 87. Prostate cancer is a
disease, and “chemotherapy, radiation, [and] hospice” are treatment options. Dissent at 87. Pregnancy is not a disease, and a
nontherapeutic abortion is not a treatment option.
By contrast, abortion is not used as a “method of family planning” under § 1008 or the Final Rule when abortion is medically
necessary (i.e., therapeutic). See Abortion, elective, The American
Medical Association Encyclopedia of Medicine 57 (1989) (defining a
“therapeutic abortion” as an abortion “carried out to save the life
or health of the mother”). Referrals for and counseling on therapeutic abortions are not subject to the same restrictions as those
imposed on nontherapeutic ones; rather, in situations where
“emergency care is required,” the Final Rule requires that clients

38a
for medically necessary prenatal health care but not for
nontherapeutic abortions does not make pregnancy
counseling directive.21

be referred “immediately to an appropriate provider of medical
services needed to address the emergency.”
42 C.F.R.
§ 59.14(b)(2); see also id. § 59.14(e)(2) (requiring referral for emergency medical care upon the discovery of an ectopic pregnancy).
21

The dissent’s argument that clients who receive counseling
on prenatal care and abortion (but not referrals for abortion providers) are “coerced,” “demeaned,” and prevented from taking “an
active role in identifying the direction” of their lives is absurd.
Dissent at 88 (cleaned up). Nothing in the Final Rule prevents
clients from procuring abortions. See 42 C.F.R. § 59.14. Similarly,
the dissent’s reliance on the 2000 Rule to argue that failing to provide abortion referrals is coercive, Dissent at 88 n.5, is misplaced
because the 2000 Rule merely suggested that a referral for “prenatal care and delivery” might be coercive if the client has rejected
that option, 65 Fed. Reg. at 41,275 (emphasis added); the 2000 Rule
said nothing about whether it is coercive to require a referral for
prenatal care to safeguard the health of the client, see 84 Fed. Reg.
at 7722.
The dissent’s suggestion that clients relying on Title X services cannot locate abortion providers without a referral from a
Title X counselor, Dissent at 89 n.6, is contrary to the reality—
recognized in the Final Rule—that “[i]nformation about abortion
and abortion providers is widely available and easily accessible,
including on the internet,” 84 Fed. Reg. at 7746. We decline to
second-guess HHS’s determination based on plaintiffs’ unsupported declarations. See Dep’t of Commerce v. New York, 139 S. Ct.
2551, 2571 (2019); cf. Dissent at 89 n.6. In any event, Title X was
not designed to be a source of assistance for procuring abortions,
cf. Dissent at 87–89; rather, Congress’s purpose in enacting Title X
was to “fund and, thereby, encourage preconception services, a
focus that “generally excludes payment for postconception care
and services,” including abortion. 84 Fed. Reg. at 7723. Congress’s restriction on Title X projects leaves clients with “at least
the same range of choice in deciding whether to obtain” an abortion as they would have had if Congress provided no Title X funding. Harris, 448 U.S. at 317. As Rust recognized, “a doctor’s abil-

39a
Nor is the Final Rule directive because it allows referrals for adoption. See 42 C.F.R. § 59.5(a)(1). The Infant Adoption Awareness section, 42 U.S.C. § 254c6(a)(1), does not require Title X projects to urge or encourage adoptions; rather, it provides funds for training
staff of eligible health centers (which may include Title
X projects) to provide adoption information and referrals on an equal basis with other courses of action included in nondirective counseling. Based on this legislation, HHS reasonably concluded that referrals for
adoption are “appropriate under Title X, since Congress specified that Title X clinics and providers were
eligible health centers to whom adoption related training should be offered,” 84 Fed. Reg. at 7730. Further,
the language of the Infant Adoption Awareness section
suggests that Congress did not interpret the phrase
“nondirective counseling” as necessarily requiring a
presentation of all options on an equal basis. To the
contrary, if Congress had defined “nondirective counseling” to require the presentation of all options on an
equal basis, it would have been unnecessary to encourage health center staff to present information about
adoption “on an equal basis with all other courses of action” as part of nondirective counseling, because the
staff would have already been required to do so. 42
U.S.C. § 254c-6(a)(1).

ity to provide, and a woman’s right to receive, abortion-related
information remains unfettered outside the context of the Title X
project.” 500 U.S. at 203. That some Title X clients “may be effectively precluded by indigency” or other circumstances from procuring “abortion-related services” is a product of those circumstances, “not of governmental restrictions.” Id.; cf. Dissent at 89
n.6. Thus, the dissent, and the amici on which it relies, mistakenly
fault the Final Rule for not helping clients “access[] abortion.”
Dissent at 87–89.

40a
Finally, the Final Rule’s restrictions on referral
lists do not render pregnancy counseling directive because a referral list does not present information in a
way that encourages or promotes a specific option—it
is merely “[a] list of licensed, qualified, comprehensive
primary health care providers.”
42 C.F.R.
§ 59.14(b)(1)(ii). As Rust recognized, doctors are “free
to make clear that advice regarding abortion is simply
beyond the scope of the program.” 500 U.S. at 200.22
Because HHS has reasonably interpreted the
phrase “pregnancy counseling” as not including referrals, and has interpreted the word “nondirective” to
mean a neutral presentation of options as opposed to
the presentation of all possible options, we reject plaintiffs’ argument that the term “nondirective pregnancy
counseling” requires the provision of referrals for abortion on the same basis as referrals for prenatal care and
adoption. Accordingly, the challenged provisions of the
Final Rule do not violate the 1996 appropriations rider.

22

Plaintiffs briefly argue that the Final Rule’s general prohibition on promoting or providing support for abortion as a method
of family planning, see 42 C.F.R. § 59.14(a), may “chill discussions
of abortion and thus inhibit[] neutral and unbiased counseling.”
We reject this argument. If a provider promoted or supported
abortion as a method of family planning, the counseling would be
directive and therefore violate the appropriations rider. See 84
Fed. Reg. at 7747. By contrast, the Final Rule’s prohibition on
promoting or supporting abortion as a method of family planning
both reinforces the rider’s nondirective-counseling requirement
and implements § 1008’s prohibition on using Title X funds in programs “where abortion is a method of family planning.” § 1008, 42
U.S.C. § 300a-6.

41a
B
Plaintiffs next argue that the Final Rule is inconsistent with § 1554 of the ACA. See § 1554, 124 Stat. at
259 (codified at 42 U.S.C. § 18114). In March 2010,
Congress passed the ACA “to expand coverage in the
individual health insurance market,” King v. Burwell,
135 S. Ct. 2480, 2485 (2015), and to decrease the cost of
health care, Nat’l Fed. of Indep. Bus. v. Sebelius, 567
U.S. 519, 538 (2012). The ACA adopted “a series of interlocking reforms” primarily involving insurance reform, including barring insurers from considering an
individual’s health when deciding whether to offer coverage, requiring individuals to maintain health insurance coverage or face a penalty, and offering certain
tax credits to make health insurance more affordable.
King, 135 S. Ct. at 2485.
While Title I of the ACA focuses on health insurance issues, Subtitle G of that title, entitled “Miscellaneous Provisions,” does not address insurance directly.
Instead, it sets forth a series of measures aimed at protecting the interests of entities and individuals that
might be affected by the ACA’s sweeping program.
Among other things, it requires HHS to promote
transparency by providing a “list of all of the authorities provided to the Secretary under th[e] Act.” 42
U.S.C. § 18112. It also precludes discrimination against
health care providers for failing to offer assisted suicide, see id. § 18113, ensures that individuals and entities have the freedom not to participate in federal
health insurance programs, see id. § 18115, and prohibits health care programs and employers from engaging
in various discriminatory acts, see id. § 18116. Section
1554, part of Subtitle G’s “Miscellaneous Provisions,” is
titled “Access to therapies” and provides:

42a
Notwithstanding any other provision of this
Act, the Secretary of Health and Human Services shall not promulgate any regulation
that—
(1) creates any unreasonable barriers
to the ability of individuals to obtain
appropriate medical care;
(2) impedes timely access to health care
services;
(3) interferes with communications regarding a full range of treatment options between the patient and the provider;
(4) restricts the ability of health care
providers to provide full disclosure of
all relevant information to patients
making health care decisions;
(5) violates the principles of informed
consent and the ethical standards of
health care professionals; or
(6) limits the availability of health care
treatment for the full durations of a patient’s medical needs.
§ 1554, 124 Stat. at 259; 42 U.S.C. § 18114.
Plaintiffs and the dissent contend that three provisions of the Final Rule conflict with this provision of
the ACA: the Final Rule’s restrictions on promoting or
supporting abortion as a method of family planning and
making referrals for abortion; its physical and financial
separation requirement; and its requirement that pro-

43a
viders encourage family participation in family planning decisions. Dissent at 92–93.23
We disagree. The Supreme Court has long made a
distinction between regulations that impose burdens on
health care providers and their clients and those that
merely reflect Congress’s choice not to subsidize certain activities. See Rust, 500 U.S. at 192; cf. United
States v. Am. Library Ass’n, 539 U.S. 194, 211–12
(2003); Regan v. Taxation With Representation of
Wash., 461 U.S. 540, 549–50 (1983). Under the Supreme
Court’s jurisprudence, a state’s decision not to subsi23

The government argues that plaintiffs’ ACA-based challenge is waived because § 1554 was not raised during the noticeand-comment period, and so HHS did not have an opportunity to
provide analysis and reasoning regarding whether the Final Rule
was consistent with § 1554 or to make any conforming changes to
the Final Rule. Plaintiffs contend that many comments used terminology similar to that used in § 1554, and the similarity in terminology was enough to give HHS notice that the Final Rule could
violate § 1554. For instance, plaintiffs claim that commenters’ objections to the Final Rule on the grounds that it would “ban Title
X providers from giving women full information about their health
care options” gave HHS notice that the Final Rule would violate
§ 1554’s ban on promulgating a regulation that “interferes with
communications regarding a full range of treatment options.” 42
U.S.C. § 18114(3). The district courts agreed. See California, 385
F. Supp. 3d at 994–95; Oregon, 389 F. Supp. 3d at 914; Washington,
376 F. Supp. 3d at 1130. Because there is an obvious difference
between arguing that a regulation violates best medical practices
and arguing that a regulation violates a statute, we are doubtful
that plaintiffs preserved their argument that the Final Rule violated § 1554. See Koretoff v. Vilsack, 707 F.3d 394, 398 (D.C. Cir.
2013) (per curiam) (holding that a proponent must raise a “specific
argument,” as opposed to a “general legal issue” to preserve a legal argument for review) (citing Nuclear Energy Inst., Inc. v. Envtl. Prot. Agency, 373 F.3d 1251, 1291 (D.C. Cir. 2004)). Nevertheless, because the Final Rule does not conflict with § 1554, we need
not address this question of waiver.

44a
dize abortion on the same basis as other procedures
does not impose a burden on women, even when indigence “may make it difficult and in some cases, perhaps, impossible for some women to have abortions,”
because the law “neither created nor in any way affected” her indigent status. Maher, 432 U.S. at 474; see also Webster v. Reprod. Health Servs., 492 U.S. 490, 509–
10 (1989) (holding that a state law prohibiting abortions
in public hospitals was permissible because it “leaves a
pregnant woman with the same choices as if the State
had chosen not to operate any public hospitals at all”);
Harris, 448 U.S. at 317 (“[T]he Hyde Amendment [prohibiting the use of federal funds to pay for abortion
services except under specified circumstances] leaves
an indigent woman with at least the same range of
choice in deciding whether to obtain a medically necessary abortion as she would have had if Congress had
chosen to subsidize no health care costs at all.”).
Rust applied this well-established principle to the
Title X context, rejecting arguments that the 1988
Rule’s limitations on counseling and referrals for abortion impermissibly burdened the doctor-patient relationship, interfered with a woman’s right to make “an
informed and voluntary choice by placing restrictions
on the patient-doctor dialogue,” and impeded a woman’s access to abortion services. 500 U.S. at 202. The
Court recognized “[t]here is a basic difference between
direct state interference with a protected activity and
state encouragement of an alternative activity consonant with legislative policy.” Id. at 193 (quoting Maher,
432 U.S. at 475). A government restriction on funding
certain activities “is not denying a benefit to anyone,
but is instead simply insisting that public funds be
spent for the purposes for which they were authorized.”
Id. at 196. Nor do restrictions on funding interfere

45a
with appropriate medical care. In the context of Title
X funding, restrictive regulations “leave the [Title X]
grantee unfettered” in the services it can perform outside of the Title X project, id., because the regulations
“govern solely the scope of the Title X project’s activities” and “do not in any way restrict the activities of
those persons acting as private individuals,” id. at 198–
99. Further, “the Title X program regulations do not
significantly impinge upon the doctor-patient relationship” because the doctor and patient may “pursue abortion-related activities when they are not acting under
the auspices of the Title X project,” id. at 200, and “[a]
doctor’s ability to provide, and a woman’s right to receive, information concerning abortion and abortionrelated services outside the context of the Title X project remains unfettered,” id. at 203. The Court distinguished the sorts of limitations imposed by the 1988
Rule from a regime “in which the Government has
placed a condition on the recipient of the subsidy rather
than on a particular program or service, thus effectively prohibiting the recipient from engaging in the protected conduct outside the scope of the federally funded
program.” Id. at 197 (emphasis omitted).24
Rust’s logic applies equally to statutory and constitutional claims. If, as the Supreme Court has concluded, a rule implementing the government’s policy decision to encourage childbirth rather than abortion does
24

The Supreme Court has repeatedly reaffirmed Rust’s ruling that the government may constitutionally preclude recipients
of federal funds from addressing specified subjects so long as the
limitation does not interfere with a recipient’s conduct outside the
scope of the federally funded program. See Agency for Int’l Dev. v.
All. for Open Soc’y Int’l, Inc., 570 U.S. 205, 213 (2013) (citing Rust,
500 U.S. at 195 n.4); accord Walker v. Tex. Div., Sons of Confederate Veterans, Inc., 135 S. Ct. 2239, 2246 (2015).

46a
not burden or interfere with a client’s health care at all,
see Harris, 448 U.S. at 317, then it does not matter
whether the client’s heath care rights were created by
the Constitution or a statute.
The same reasoning applies here and requires us to
distinguish between § 1554’s prohibition on direct interference with certain health care activities and the Final
Rule’s directives that ensure government funds are not
spent for an unauthorized purpose. As in Rust, the Final Rule’s restrictions on funding certain activities do
not create unreasonable barriers, impede access to
health services, restrict communications, or otherwise
involve “denying a benefit to anyone.” Id. at 196. Nor,
as Rust explained, do they interfere with appropriate
medical care or “significantly impinge upon the doctorpatient relationship.” Id. at 200. Rather, the Final
Rule leaves a grantee “unfettered in its other activities” because it governs solely the scope of the services
funded by Title X grants, id. at 196, and doctors and
their clients remain free to exchange abortion-related
information outside the context of the Title X project,
id. at 203.25 Therefore, the Final Rule’s measures to
ensure that government funds are spent for the purposes for which they were authorized does not violate
25

Plaintiffs and the California district court speculate (without any support in the record) that the Final Rule’s referral-list
restrictions will delay clients from locating abortion providers and
thus leave them worse off. See California, 385 F. Supp. 3d at 998.
This is merely another version of the argument that Congress
cannot prohibit Title X projects from assisting clients seeking
abortion referrals. But such an argument has been rejected by the
Supreme Court. See Rust, 500 U.S. at 193–94 (recognizing that
restrictions of this type are permissible to ensure that “the limits
of [Title X] are observed” so that project grantees and their employees do not “engag[e] in activities outside of the project’s
scope”).

47a
§ 1554’s restrictions on direct regulation of certain aspects of care.
The ACA itself makes clear that § 1554 is meant to
prevent direct government interference with health
care, not to affect Title X funding decisions. The most
natural reading of § 1554 is that Congress intended to
ensure that HHS, in implementing the broad authority
provided by the ACA, does not improperly impose regulatory burdens on doctors and patients. Indeed, by
introducing § 1554 with language focusing on the
ACA—that “[n]otwithstanding any other provision of
this Act,” HHS may not take certain steps, 42 U.S.C.
§ 18114—Congress showed its intent to ensure that
certain interests of individuals and entities would be
protected notwithstanding the broad scope of the ACA,
and that such protections would supersede any other
provision of the ACA “in the event of a clash.” NLRB
v. SW Gen., Inc., 137 S. Ct. 929, 939 (2017) (citations
omitted).
By contrast, the ACA did not seek to alter the relationship between federally funded grant programs and
abortion in a fundamental way. See, e.g., Pub. L. No.
111-148, title X, § 10104(c)(2), 124 Stat. at 897 (codified
at 42 U.S.C. § 18023(c)(2)). Section 10104(c)(2)(A) of the
Act provides that “[n]othing in this Act shall be construed to have any effect on Federal laws regarding (i)
conscience protection; (ii) willingness or refusal to provide abortion; and (iii) discrimination on the basis of the
willingness or refusal to provide, pay for, cover, or refer for abortion or to provide or participate in training
to provide abortion.” 42 U.S.C. § 18023(c)(2)(A). An
Executive Order issued shortly after the ACA was
passed emphasized the ACA’s neutrality regarding
abortion issues, stating that “[u]nder the Act,
longstanding Federal laws to protect conscience … re-

48a
main intact and new protections prohibit discrimination
against health care facilities and health care providers
because of an unwillingness to provide, pay for, provide
coverage of, or refer for abortions.” Ensuring Enforcement and Implementation of Abortion Restrictions in the Patient Protection and Affordable Care
Act, Exec. Order No. 13,535, 75 Fed. Reg. 15,599 (Mar.
24, 2010). Nor did the ACA single out Title X for any
changes. The ACA mentions Title X only to clarify that
Title X providers may qualify as “teaching health centers” eligible for funds under a different grant program.
See Pub. L. No. 111-148, tit. V, § 5508, 124 Stat. at 669–
70 (codified at 42 U.S.C. § 293l-1).
In short, the ACA did not address the implementation of Congress’s choice not to subsidize certain activities. The Final Rule places no substantive barrier on
individuals’ ability to obtain appropriate medical care
or on doctors’ ability to communicate with clients or
engage in activity when not acting within a Title X project, and therefore the Final Rule does not implicate
§ 1554.26
26

The plaintiffs raise several other arguments that the Final
Rule violates Title X, but they do not merit much discussion.
First, Washington argues that the Final Rule violates § 1008’s requirement that “acceptance by any individual of family planning
services … shall be voluntary” because the Final Rule requires
doctors to provide referrals for prenatal care regardless whether a
client asks for abortion information. We disagree. The Final Rule
preserves the requirement that “[a]cceptance of services must be
solely on a voluntary basis,” 42 C.F.R. § 59.5(a)(2), and nothing in
the Final Rule makes acceptance of family planning services a
“prerequisite to eligibility for or receipt of any other service or
assistance from, or to participation in, any other program.” 42
U.S.C. § 300a-5.
Second, some plaintiffs argue, and the Washington district
court held, 376 F. Supp. 3d at 1130, that the central purpose of Ti-

49a
In sum, the Final Rule is not contrary to the appropriations rider, § 1554 of the ACA, or Title X.
Plaintiffs’ claims based on these provisions will not succeed. Accordingly, plaintiffs have not demonstrated
likelihood of success on the merits based on these
grounds. See Winter, 555 U.S. at 20.
IV
We now turn to plaintiffs’ arguments that the Final
Rule is arbitrary and capricious under the APA.27 The
APA requires a reviewing court to “hold unlawful and
tle X is “to equalize access to comprehensive, evidence-based, and
voluntary family planning” and that the Final Rule is inconsistent
with this purpose. We disagree. The Supreme Court determined
that provisions substantially identical with those in the Final Rule
were consistent with Title X. Rust, 500 U.S. at 178–79.
Finally, Washington argues in passing that 42 C.F.R. § 59.18
is invalid because it allows Title X funds to be used “to offer family
planing methods and services” but not “to build infrastructure for
purposes prohibited with these funds, such as support for the abortion business of a Title X grantee or subrecipient.” 42 C.F.R.
§ 59.18(a) (emphasis added). According to Washington, this provision “limits the use of Title X funds for core functions” and therefore violates a provision of Title X authorizing the use of funds “to
assist in the establishment and operation of voluntary family planning projects,” § 1001; 42 U.S.C. § 300. This argument is meritless,
because § 59.18 merely harmonizes § 1001 with § 1008’s prohibition
on the use of Title X funds “in programs where abortion is a method of family planning.” § 1008; 42 U.S.C. § 300a-6.
27

While the district court in Oregon found only “serious questions going to the merits of [the] claims that the Final Rule is arbitrary and capricious,” 389 F. Supp. 3d at 903, the California district court went further and concluded that the promulgation of
the Final Rule was, in fact, arbitrary and capricious, 385 F. Supp.
3d at 1000. Rather than review these determinations separately,
we consolidate our analysis given that the Final Rule is not arbitrary and capricious as a matter of law.

50a
set aside agency action, findings, and conclusions found
to be … arbitrary [or] capricious.” 5 U.S.C. § 706(2)(A).
Our review under this directive is narrow and deferential. Dep’t of Commerce v. New York, 139 S. Ct. 2551,
2569 (2019). We “must uphold a rule if the agency has
examined the relevant considerations and articulated a
satisfactory explanation for its action, including a rational connection between the facts found and the
choice made.” FERC v. Elec. Power Supply Ass’n, 136
S. Ct. 760, 782 (2016) (cleaned up). “Th[is] requirement
is satisfied when the agency’s explanation is clear
enough that its path may reasonably be discerned,”
Encino Motorcars, LLC v. Navarro, 136 S. Ct. 2117,
2125 (2016) (internal quotation marks omitted), even
where an agency’s decision is “of less than ideal clarity,” FCC v. Fox Television Stations, Inc., 556 U.S. 502,
513 (2009).
We defer to the agency’s expertise in interpreting
the record and to “the agency’s predictive judgment”
on relevant questions. Id. at 521; see also Trout Unlimited v. Lohn, 559 F.3d 946, 959 (9th Cir. 2009). “It is
well established that an agency’s predictive judgments
about areas that are within the agency’s field of discretion and expertise are entitled to particularly deferential review, so long as they are reasonable.” BNSF Ry.
Co. v. Surface Transp. Bd., 526 F.3d 770, 781 (D.C. Cir.
2008) (quoting Wis. Pub. Power, Inc. v. FERC, 493
F.3d 239, 260 (D.C. Cir. 2007)). Agency predictions of
how regulated parties will respond to its regulations do
not require “complete factual support in the record”
and “necessarily involve[] deductions based on the expert knowledge of the agency.” FCC v. Nat’l Citizens

51a
Comm. for Broad., 436 U.S. 775, 814 (1978) (internal
quotation marks omitted).28
We also defer to the agency’s expertise in identifying the appropriate course of action. With respect to
the agency’s final decision, we cannot “ask whether a
regulatory decision is the best one possible or even
whether it is better than the alternatives.” Elec. Power
Supply Ass’n, 136 S. Ct. at 782. Nor may we “substitute our judgment for that of the [agency].” Dep’t of
Commerce, 139 S. Ct. at 2569. We are also prohibited
from “second-guessing the [agency]’s weighing of risks
and benefits and penalizing [it] for departing from the
… inferences and assumptions” of others. Id. at 2571.
Nor do we give heightened review to agency action
that “changes prior policy.” Fox, 556 U.S. at 514. The
APA “makes no distinction … between initial agency
action and subsequent agency action undoing or revising that action.” Id. at 514–15. Initial agency determinations are “not instantly carved in stone.” Chevron,
467 U.S. at 863. Of course, the “requirement that an
agency provide reasoned explanation for its action
would ordinarily demand that [the agency] display
awareness that it is changing position” and “that there
are good reasons for the new policy.” Fox, 556 U.S. at
515. For example, an agency may not “depart from a
prior policy sub silentio or simply disregard rules that
28

The district courts relied on the predictions and opinions of
experts provided by plaintiffs. See, e.g., California, 385 F. Supp.
3d at 1015–19; Oregon, 389 F. Supp. 3d at 918; Washington, 376 F.
Supp. 3d at 1131. But it is not our job to weigh evidence or pick
the more persuasive opinions and predictions. Rather, the agency
has discretion to rely on its own expertise “even if, as an original
matter, a court might find contrary views more persuasive.”
Lands Council v. McNair, 629 F.3d 1070, 1074 (9th Cir. 2010) (internal quotations marks omitted).

52a
are still on the books.” Id. Likewise, “[i]t would be arbitrary or capricious to ignore,” where applicable, that
“its new policy rests upon factual findings that contradict those which underlay its prior policy,” or that “its
prior policy has engendered serious reliance interests
that must be taken into account.” Id. But under our
narrow review, an agency “need not demonstrate to a
court’s satisfaction that the reasons for the new policy
are better than the reasons for the old one; it suffices
that the new policy is permissible under the statute,
that there are good reasons for it, and that the agency
believes it to be better, which the conscious change of
course adequately indicates.” Id. In sum, we “must
confine ourselves to ensuring that [the agency] remained within the bounds of reasoned decisionmaking.”
Dep’t of Commerce, 139 S. Ct. at 2569 (internal quotation marks omitted).
Plaintiffs argue that several aspects of the Final
Rule are arbitrary and capricious: (1) the physical and
financial separation requirement; (2) HHS’s overall
cost-benefit analysis; (3) the counseling and referral restrictions; (4) the requirement that pregnancy counseling be provided only by medical doctors or advanced
practice providers; and (5) the requirement that family
planning options be “acceptable and effective,” rather
than also “medically approved.” We consider these arguments in turn.
A
Plaintiffs first argue that HHS’s promulgation of
the physical and financial separation requirement in 42
C.F.R. § 59.15 was arbitrary and capricious because
HHS failed to substantiate an adequate need for the
requirement and ignored the predictions of some commenters that the requirement would have a significant

53a
adverse impact on the Title X network and client
health.
We disagree. HHS examined the relevant considerations and provided a reasoned analysis for adopting
this provision. See Elec. Power Supply Ass’n, 136 S.
Ct. at 782. It stated its primary reason for reestablishing the requirement was that physical separation would
more effectively implement § 1008. 84 Fed. Reg. at
7764. While the financial separation required by the
2000 Rule was a necessary component of § 1008’s implementation, HHS explained, physical separation was
equally required given Congress’s mandate that Title X
funds not support programs in any location “ ‘ where’
abortion is offered as a method of family planning.” Id.
at 7765 (emphasis added). HHS also expressly adopted
the 1988 Rule’s rationale for physical and financial separation upheld in Rust, id., and gave ample additional
reasons supporting this conclusion.
First, HHS pointed to the public confusion caused
when physical separation was lacking. Id. According
to HHS, the performance of abortion services and Title
X-funded services in the same location engendered confusion and rendered it “often difficult for patients, or
the public, to know when or where Title X services end
and non-Title X services involving abortion begin.” Id.
at 7764. This confusion was evidenced by comments
HHS had received on the Final Rule; according to
HHS, many commenters seemed wholly unaware of the
fact that Title X explicitly excludes funding for projects
where abortion is a method of family planning. Id. at
7729. HHS could reasonably conclude that the physical
separation requirements could help minimize the appearance that the government is funding abortion as a
method of family planning. See Brief of Amici Curiae
Ohio and 12 Other States in Support of Defendants-

54a
Appellants and Reversal at 16–19, California v. Azar,
Nos. 19-15974 & 19-15979 (9th Cir. June 7, 2019) (emphasizing the importance to many citizens of putting “a
greater distance between public funding and abortionperforming entities,” and noting that at least 18 states
have enacted laws designed to avoid even the appearance that state healthcare funds are being used to support entities involved in abortion services).
Second, HHS concluded that performing all services in the same facility “create[s] a risk of the intentional or unintentional use of Title X funds for impermissible purposes, the co-mingling of Title X funds, …
and the use of Title X funds to develop infrastructure
that is used for the abortion activities of Title X clinics.” 84 Fed. Reg. at 7764. This risk is not speculative.
As HHS explained, economies of scale and shared
overhead achieved through collocation of a Title X clinic and an abortion-providing clinic effectively support
the provision of abortion. See id. at 7766. HHS relied
in part on recent studies that show abortions are increasingly being performed at facilities that had historically focused on providing contraceptive and family
planning services (the typical profile of facilities that
receive Title X funds), which supports the inference
that a growing number of Title X recipients may perform abortions at facilities that also offer Title Xfunded services. Id. at 7765.
In reaching its conclusion, HHS responded to commenters’ concerns in detail. HHS first noted the concern that requiring physical and financial separation
“would increase the cost for doing business.” Id. at
7766. HHS explained that such comments confirmed its
concern that Title X funds were directly or indirectly
supporting abortion as a method of family planning. Id.
“Money is fungible,” Holder v. Humanitarian Law Pro-

55a
ject, 561 U.S. 1, 31 (2010), and HHS reasonably concluded that “flexibility in the use of Title X funds under
the 2000 [Rule]” allowed grantees to use Title X funds
to “build infrastructure that can be used for [prohibited] purposes … such as support for the abortion business of a Title X grantee,” 84 Fed. Reg. at 7773, 7774.
Next, with respect to those Title X projects that
would need to make changes to comply with the separation requirements, HHS predicted that the costs of
compliance would not be as significant as some commenters predicted. Id. at 7781 (noting such commenters “did not provide sufficient data to estimate these
[predicted] effects across the Title X program”). HHS
discounted the predictions, which relied on “assumptions that [providers] would have to build new facilities
in order to comply with the requirements.” Id. Rather,
HHS predicted that most entities would likely choose
lower cost methods of compliance. Id. For example,
“Title X providers which operate multiple physically
separated facilities and perform abortions may shift
their abortion services, and potentially other services
not financed by Title X, to distinct facilities, a change
which likely entails only minor costs.” Id. HHS explained that the Final Rule permitted “case-by-case determinations on whether physical separation is sufficiently achieved to take the unique circumstances of
each program into consideration,” and that “[p]roject
officers are available to help grantees successfully implement the Title X program” and to come up with “a
workable plan” for compliance. Id. at 7766.
Finally, HHS addressed the “contention of some
commenters that the physical and financial separation
requirements will destabilize the network of Title X
providers,” upset the reliance interests of providers
who have incurred costs relying on HHS’s previous

56a
regulations, and “exacerbate health inequalities or
harm patient care.” Id. HHS disagreed with the commenters’ predictions that the separation requirements
would result in a significant departure of Title X providers from the program, explaining that the Final
Rule “continues to allow organizations to receive Title
X funds even if they also provide abortion as a method
of family planning, as long as they comply with” the
separation requirements. Id. HHS further noted that
a Congressional Research Service report estimated
that only 10 percent of clinics that receive Title X funding offer abortion as a method of family planning. Id. at
7781. And while some Title X providers “may share
resources with unaffiliated entities that offer abortion
as a method of family planning,” HHS estimated that
only around 20 percent of all Title X service sites had
“their Title X services and abortion services … currently collocated” such that they would be materially
impacted by the separation requirements. Id. Accordingly, HHS concluded that the separation requirements
would have only “minimal effect on the majority of current Title X providers.” Id.
At the same time, HHS predicted that providers
who were willing to comply with the new requirements
would expand their services and that other provisions
of the Final Rule would encourage new “individuals and
institutions to participate in the Title X program.” Id.
at 7766. For example, HHS expected “that honoring
statutory protections of conscience in Title X may increase the number of providers in the program,” because providers or entities would now “know they will
be protected from discrimination on the basis of conscience with respect to counseling on, or referring for,
abortion.” Id. at 7780. HHS cited a poll by the Christian Medical Association showing that faith-based med-

57a
ical professionals would limit the scope of their practice
without conscience protections; HHS reasoned the Final Rule’s prohibition on abortion referral and removal
of the 2000 Rule’s abortion counseling requirement
would allow such professionals to enter the Title X program. Id. at 7780 n.138.29 And while HHS acknowledged that it “cannot calculate or anticipate future
turnover in grantees,” under HHS’s “best estimates,” it
did “not anticipate that there will be a decrease in the
overall number of facilities offering services, since it
anticipates other, new entities will apply for funds, or
seek to participate as subrecipients, as a result of the
final rule.” Id. at 7782.30
Plaintiffs, in effect, argue that HHS’s determination was arbitrary and capricious because the agency
29

HHS’s inferences regarding the data’s implication for Title
X applications is within HHS’s core area of expertise and therefore entitled to deference. See Trout Unlimited, 559 F.3d at 959;
BNSF Ry. Co., 526 F.3d at 781. The dissent’s de novo evaluation
of the study is not entitled to such deference. See Dissent at 103–
104.
30

In supporting its argument that HHS’s cost-benefit analysis is arbitrary and capricious, the dissent looks outside the record
to argue that some grantees, such as Planned Parenthood, have
voluntarily terminated their participation in Title X. See Dissent
at 101 & n.15. Of course, such post hoc, extra-record evidence cannot be a basis for determining whether HHS’s promulgation of the
Final Rule was arbitrary and capricious. In any event, the dissent’s extra-record observation is misleading: HHS has issued
supplemental grant awards to other Title X recipients that, in
HHS’s estimation, “will enable grantees to come close to—if not [in
excess of]—prior Title X patient coverage,” Press Release, Dep’t
Health & Human Servs., HHS Issues Supplemental Grant Awards
to Title X Recipients (Sept. 30, 2019), https://www.hhs.gov/about/
news/2019/09/30/hhs-issues-supplemental-grant-awards-to-title-xrecipients.html.

58a
relied on its own predictions and rejected those submitted by commenters opposing the Final Rule. We reject
this argument because HHS’s predictive judgments
about the Final Rule’s effect on the availability of Title
X services are entitled to deference. See Trout Unlimited, 559 F.3d at 959. Here, the predictions concern
matters squarely within HHS’s “field of discretion and
expertise.” BNSF Ry. Co., 526 F.3d at 781 (quoting
Wis. Pub. Power, 493 F.3d at 260). As the agency
tasked with implementing the grant program, HHS is
in the best position to anticipate the behavior of grantees and prospective grantees. HHS reasonably considered the evidence before it, where “complete factual
support” for any prediction was “not possible or required,” Nat’l Citizens Comm. for Broad., 436 U.S. at
814, such that its decision “remained ‘within the bounds
of reasoned decisionmaking,’ ” Dep’t of Commerce, 139
S. Ct. at 2569 (quoting Baltimore Gas & Elec. Co. v.
Nat. Res. Def. Council, Inc., 462 U.S. 87, 105 (1983)).
Although the commenters opposing the Final Rule provided numerous expert declarations elaborating their
gloomy assumptions about the future behavior and activities of current and future Title X grantees, at bottom such future-looking “pessimistic” predictions and
assumptions are “simply evidence for the [agency] to
consider,” Dep’t of Commerce, 139 S. Ct. at 2571, and
are not entitled to controlling weight.31 HHS need not
31

Department of Commerce held that it was not arbitrary
and capricious for the Secretary of Commerce to decline to rely on
the conclusions of the “technocratic” experts in the Census Bureau. 139 S. Ct. at 2571. So too here: HHS may reasonably decide
not to rely on the opinions of outside commenters, even where
they claim expertise. The dissent insinuates that reliance on Department of Commerce is misplaced because “the Court struck
down the Secretary of Commerce’s attempt to reinstate the citizenship question on the census.” Dissent at 101 n.15. But the

59a
produce “some special justification for drawing [its]
own inferences and adopting [its] own assumptions.”
Id. Although plaintiffs and the dissent have reached a
different conclusion, we consider only whether the
agency examined the relevant considerations and laid a
reasonably discernable path.
In light of HHS’s reasoned explanation of its decisions and its consideration of the comments raised, we
reject plaintiffs’ arguments that HHS failed to base its
decision on evidence, failed to consider potential harms
in its cost-benefit analysis, failed to explain its reasons
for departing from the 2000 Rule’s provisions, and
failed to consider the reliance interest of providers who
have incurred costs relying on HHS’s previous regulation. The Final Rule’s separation requirements are not
arbitrary and capricious.
B
Plaintiffs and the dissent make a similar argument
that HHS’s cost-benefit analysis of the Final Rule was
arbitrary and capricious. Dissent at 100–106. They argue that HHS ignored the commenters who predicted
the Final Rule would cause an exodus of Title X providers and have a deleterious effect on client care, and
instead relied on its own predictions about the Final
Rule’s benefits.

Court “d[id] not hold that the agency decision … was substantively
invalid”; it merely affirmed the district court’s decision to remand
to the agency due to a perceived “mismatch between the decision
the Secretary made and the rationale provided.” Dep’t of Commerce, 139 S. Ct. at 2575–76. Here, there is no “disconnect between the decision [HHS] made and the explanation given,” id. at
2575, so the grounds on which Department of Commerce ultimately affirmed the decision to remand are irrelevant.

60a
Like plaintiffs’ challenge to the physical and financial separation requirements, the challenge to HHS’s
cost-benefit analysis fails. HHS considered and addressed “the concern expressed by some commenters
regarding the effect of this rule on quality and accessibility of Title X services,” and explained its reasons for
relying on its own predictions regarding the likely behavior of current and future Title X grantees. 84 Fed.
Reg. at 7780. HHS likewise rejected the “extremely
high cost estimates” for compliance with the separation
requirements, reasoning that providers would tend to
seek out lower cost options, such as shifting abortion
services to distinct facilities rather than constructing
new ones. Id. at 7781–82.32 HHS was not required to
accept the commenters’ “pessimistic” cost predictions,
32

The dissent asserts that HHS “calculated [the] costs of
compliance with the physical separation requirement in a ‘mystifying’ way.” Dissent at 102 n.16 (quoting California, 385 F. Supp. 3d
at 1008). But there is nothing “mystifying” about HHS’s cost estimates. HHS estimated that between 10 and 30 percent of all Title X projects would need to be evaluated to determine compliance
with the physical separation requirements. 84 Fed. Reg. at 7781.
It then predicted that such evaluations would determine that between 10 to 20 percent of the evaluated sites do not comply with
the physical separation requirements. Id. “At each of these service sites, [HHS] estimates that an average of between $20,000
and $40,000, with a central estimate of $30,000, would be incurred
to come into compliance with physical separation requirements in
the first year following publication of a final rule in this rulemaking.” Id. at 7781–82. HHS then added together the costs of conducting the evaluations and bringing non-compliant facilities into
compliance, and concluded its estimates “would imply costs of
$36.08 million in the first year following publication of a final rule.”
Id. at 7782. Based solely on statements made by plaintiffs’ lawyers
during oral argument, the dissent speculates that HHS’s cost estimates were too optimistic. Dissent at 102 n.16. But we need not
favor plaintiffs’ pessimistic cost estimates over those provided by
HHS. See Dep’t of Commerce, 139 S. Ct. at 2571.

61a
Dep’t of Commerce, 139 S. Ct. at 2571, and the agency
adequately explained why it did not expect grantees to
participate in a mass rejection of Title X funds, see 84
Fed. Reg. at 7766. In light of HHS’s conclusion that an
ample number of Title X projects would continue to
provide family planning services, HHS reasonably concluded that the harms flowing from a gap in care would
not develop. See id. at 7775, 7782. We give substantial
deference to such predictive judgments within the
scope of HHS’s expertise. Trout Unlimited, 559 F.3d
at 959. On this record, we will not second-guess HHS’s
consideration of the risks and benefits of its action. See
Dep’t of Commerce, 139 S. Ct. at 2571.
C
Plaintiffs next assert that the referral restrictions
are arbitrary and capricious. They first argue that
HHS failed to justify the need for this provision adequately. We disagree. HHS stated it was reestablishing the 1988 Rule for referrals because it concluded
that the 2000 Rule was inconsistent with § 1008. Under
HHS’s interpretation of § 1008, “in most instances
when a referral is provided for abortion, that referral
necessarily treats abortion as a method of family planning.” 84 Fed. Reg. at 7717. Further, HHS concluded
that the 2000 Rule’s requirement that Title X projects
provide abortion referrals and nondirective counseling
on abortion was inconsistent with federal conscience
laws. Id. at 7716. HHS referenced its 2008 nondiscrimination regulations, which had reached the same conclusion. Id. (quoting 73 Fed. Reg. at 78,087). HHS also
explained that eliminating the 2000 Rule’s counseling
and referral requirements would “reduce the regulatory burden [on HHS] associated with monitoring and
regulating Title X providers for compliance,” id. at

62a
7719, “add clarity to extant conscience protections, [and
make] it easier for entities to participate who may have
felt unable to do so in the past,” id. at 7778. In sum,
HHS engaged in “reasoned decisionmaking.” Dep’t of
Commerce, 139 S. Ct. at 2569.33
Plaintiffs next argue that HHS did not justify the
need for the counseling and referral restrictions because non-objecting health care staff could provide
counseling and referrals for abortion without violating
the federal conscience laws. Therefore, plaintiffs urge,
HHS’s reliance on federal conscience laws as justification was arbitrary and capricious. We reject this argument, because it amounts to little more than the
claim that HHS should have adopted plaintiffs’ preferred regulatory approach. But HHS acted well within its authority in deciding how best to avoid conflict
with the federal conscience laws. We do not “ask
whether a regulatory decision is the best one possible
or even whether it is better than the alternatives.”
Elec. Power Supply Ass’n, 136 S. Ct. at 782. Rather,
we defer to the agency’s reasoned conclusion.
Plaintiffs also argue that HHS failed to consider
claims by some commenters that the restrictions would
require “providers to violate their ethical obligations to
stay in the program” because they require “providers
to withhold information about abortion (including referral) that the patient needs,” and to provide “a biased

33

The plaintiffs’ argument that the referral restrictions are
arbitrary and capricious because they conflict with guidelines in
the QFP is meritless, because these guidelines were based on the
2000 Rule, and are superseded by the Final Rule. See Dep’t
Health & Human Servs., Announcement of Availability of Funds
for Title X Family Planning Services Grants, at 14–15 (2019).

63a
and misleading list of primary health care providers.”34
But HHS specifically addressed those concerns. It
stated that the counseling and referral restrictions
would not result in ethical violations because the Final
Rule permitted providers to give “nondirective pregnancy counseling to pregnant Title X clients on the patient’s pregnancy options, including abortion.” 84 Fed.
Reg. at 7724.35 HHS reasoned that the Final Rule al34

The dissent repeatedly echoes the plaintiffs’ claims that the
Final Rule contradicts or violates medical ethics because it limits
Title X projects from encouraging and supporting abortion and
from referring clients to abortion providers. See Dissent at 92–93,
98–99 & n.13. Despite the dissent’s and plaintiffs’ ethical claims,
neither cites an opinion from the AMA’s Code of Medical Ethics
directly addressing abortion. See, e.g., Dissent at 99 n.13. Rather,
the dissent and plaintiffs cite more general guidance regarding a
physician’s obligation to inform the patient regarding “treatment
alternatives” for medical conditions; because a nontherapeutic
abortion is not a “treatment” option for a medical condition but
rather a procedure for terminating a healthy pregnancy, such
guidance does not directly relate to this issue.
It is not surprising that medical ethical rules are not as absolute as the dissent claims; as noted in Roe v. Wade, the AMA’s
views of medical ethics and abortion changed from a condemnation
of the “unwarrantable destruction of human life” to the conclusion
that abortions could properly be performed in some circumstances.
410 U.S. 113, 142 (1973). Despite greater public acceptance of
abortion today, the issue raises controversial ethical questions, as
demonstrated by (among other things) the continued enactment of
federal conscience laws and public comments urging HHS to protect physicians’ ability to decline to counsel on or refer for abortion. See 84 Fed. Reg. at 7746–47; see also Brief of Amici Curiae
Ohio, supra at 16 (many citizens “believe that permitting abortion
providers or advocates to participate in providing a governmentfunded service implies a public imprimatur on abortion—an imprimatur that citizens legitimately seek to withhold”).
35

The dissent argues that in reaching this conclusion, HHS
contradicted its prior conclusion in the 2000 Rule as to “what medical ethics demand.” Dissent at 99. But HHS did not provide an

64a
lows physicians “to discuss the risks and side effects of
each option, [including abortion,] so long as this counsel
in no way promotes or refers for abortion as a method
of family planning.” Id. A client may “ask questions
and … have those questions answered by a medical professional.” Id. HHS also noted that where care is medically necessary, referral for that care is required, notwithstanding the Final Rule’s other requirements. Id.
Consistent with Rust, HHS concluded that “it is not
necessary for women’s health that the federal government use the Title X program to fund abortion referrals, directive abortion counseling, or give to women
who seek abortion the names of abortion providers.”
Id. at 7746.36 These statements show HHS examined
the relevant considerations arising from commenters
citing medical ethics and rationally articulated an exopinion on this issue when it overruled its prior 1988 Rule; it merely referenced the views of commenters, without adopting those
views as its own. See 65 Fed. Reg. at 41,273. Thus, the dissent’s
argument that HHS “changed its position on what medical ethics
demand” is meritless.
36

Rust rejected ethical arguments similar to those raised
here. See 500 U.S. at 213–14 (Blackmun, J. dissenting) (arguing
that “the ethical responsibilities of the medical profession demand”
that a physician be free to inform patients about abortion). According to the Court, “the Title X program regulations do not significantly impinge upon the doctor-patient relationship” because,
among other reasons, “the doctor-patient relationship established
by the Title X program [is not] sufficiently all encompassing so as
to justify an expectation on the part of the patient of comprehensive medical advice,” and “a doctor’s silence with regard to abortion cannot reasonably be thought to mislead a client into thinking
that the doctor does not consider abortion an appropriate option
for her,” given that “[t]he program does not provide post conception medical care.” Id. at 200. And under the Final Rule, as under
the 1988 Rule, “[t]he doctor is always free to make clear that advice regarding abortion is simply beyond the scope of the program.” Id.

65a
planation for its conclusion. See Elec. Power Supply
Ass’n, 136 S. Ct. at 782.
Because HHS’s decisionmaking path “may reasonably be discerned,” Dep’t of Commerce, 139 S. Ct. at
2578, we reject plaintiffs’ claims that the counseling and
referral restrictions are arbitrary and capricious.
D
We next consider plaintiffs’ claim that the Final
Rule’s requirement that all pregnancy counseling be
provided by medical doctors or advanced practice providers is arbitrary and capricious. Plaintiffs argue that
because HHS defined the term “advanced practice providers” too narrowly, and did not have a reasoned basis
for drawing the line at which medical professionals may
provide pregnancy counseling, the provision is arbitrary and capricious.
We disagree. HHS explained that, in its judgment,
“medical professionals who receive at least a graduate
level degree in the relevant medical field and maintain
a federal or State-level certification and licensure to
diagnose, treat, and counsel patients … are qualified,
due to their advanced education, licensing, and certification to diagnose and treat patients while advancing
medical education and clinical research.” 84 Fed. Reg.
at 7728.37 We have no basis to conclude that this line37

Although the dissent asserts that this requirement will
“reduce the number of people who can provide pregnancy counseling and … require significant changes in Title X providers’ staffing,” Dissent at 102, HHS’s definition covers a wide range of licensed medical professionals that HHS reasonably deemed qualified to provide health care advice, including physician assistants,
certified nurse practitioners, clinical nurse specialists, certified
registered nurse anesthetists, and certified nurse-midwifes, see 42
C.F.R. § 59.2.

66a
drawing determination, an inherently discretionary
task, “is so implausible” that a difference with plaintiffs’
views “could not be ascribed to a difference in view or
the product of agency expertise.” Motor Vehicle Mfrs.
Ass’n of U.S., Inc. v. State Farm Mut. Auto. Ins. Co.,
463 U.S. 29, 43 (1983). Accordingly, we reject plaintiffs’
arguments that HHS’s technical determination of
which medical professionals may provide pregnancy
counseling is arbitrary and capricious.
E
Finally, we reject plaintiffs’ argument that HHS
was arbitrary and capricious in reestablishing the language of the 1988 Rule’s requirement that all family
planning methods and services be “acceptable and effective,” instead of retaining the 2000 Rule’s revision
requiring that such methods and services also be “medically approved.” 84 Fed. Reg. at 7732.
HHS adequately explained its reasons for reestablishing the 1988 Rule. HHS explained that the change
was intended to “ensure that the regulatory language is
consistent with the statutory language,” id. at 7740,
which requires Title X projects to “offer a broad range
of acceptable and effective family planning methods and
services,” 42 U.S.C. § 300(a). HHS also explained that
the meaning of “medically approved” was unclear. 84
Fed. Reg. at 7741. “For example, would approval by
one medical doctor suffice, or would some larger number need to approve, and if so, how many; would certain
medical organizations, or governmental organizations,
or both, need to approve, and if so, which ones; would a
certain level of medical consensus need to exist concerning a particular method or service, and if so, how
would the Department measure that consensus; and
when doctors and medical organizations disagree either

67a
about a family planning method or service, how would
that requirement apply?” Id. at 7732.
HHS also explained its rejection of the comment
suggesting the phrase “medically approved” means
“FDA approved.” HHS stated that “[s]ome family
planning methods cannot be medically approved by …
the [FDA], because they do not fall within its jurisdiction,” and provided examples, such as fertilityawareness based methods of family planning. Id. at
7741 & n.69. In HHS’s judgment, “[t]his did not mean
that such methods of family planning are unacceptable
or ineffective in the view of medical sources.” Id. at
7741. Accordingly, HHS determined that “[t]he statutory language of ‘acceptable and effective family methods or services,’ without the phrase ‘medically approved[,]’ provides sufficient guidance to Title X projects in considering the types of family planning methods and services that they provide.” Id.
HHS likewise sufficiently addressed comments
that its decision to omit the phrase “medically approved” would promote political ideology over science,
lead to negative health consequences for clients, and
undermine recommendations from other agencies. See
id. at 7740–41. We defer to HHS’s reasonable conclusion that Title X’s statutory requirement that family
planning methods and services must be “acceptable and
effective” sufficiently prohibits Title X projects from
engaging in health fraud or quackery. Id. at 7741.
Because HHS “examined the relevant considerations and articulated a satisfactory explanation for its
action,” Elec. Power Supply Ass’n, 136 S. Ct. at 782
(cleaned up), we reject plaintiffs’ argument that this
change was arbitrary and capricious.

68a
In sum, we hold that the Final Rule is not arbitrary
and capricious.
***
Because plaintiffs’ claims will not succeed given our
resolution of the underlying legal questions, we end our
analysis here. See Munaf, 553 U.S. at 691; Garcia, 786
F.3d at 740. We hold that the Final Rule is a reasonable interpretation of § 1008, it does not conflict with the
1996 appropriations rider or other aspects of Title X,
and its implementation of the limits on what Title X
funds can support does not implicate the restrictions
found in § 1554 of the ACA. Moreover, the Final Rule
is not arbitrary and capricious because HHS properly
examined the relevant considerations and gave reasonable explanations. See Elec. Power Supply Ass’n, 136
S. Ct. at 782. Plaintiffs will not prevail on the merits of
their legal claims, so they are not entitled to the “extraordinary remedy” of a preliminary injunction. See
Winter, 555 U.S. at 22. Accordingly, the district courts’
preliminary injunction orders are vacated and the cases
are remanded for further proceedings consistent with
this opinion. The government’s motion for a stay pending appeal is denied as moot.
VACATED AND REMANDED.38

38

Costs on appeal shall be taxed against plaintiffs.

69a
PAEZ, Circuit Judge, joined by THOMAS, Chief
Judge, WARDLAW and FLETCHER, Circuit Judges,
dissenting:
Millions of Americans depend on Title X for their
health care, including lifesaving breast and cervical
cancer screenings, HIV testing, and infertility and contraceptive services. Congress created the Title X program in 1970 to ensure that family planning services
would be “readily available to all persons desiring such
services,” Pub. L. No. 91-572 § 2, 84 Stat. 1504 (1970),
and entrusted the United States Department of Health
and Human Services (“HHS”) with the responsibility of
disbursing Title X funds to health care providers serving low-income Americans.
Since then, Congress has twice circumscribed
HHS’s authority in administering the Title X program.
First, Congress directed that the health care providers
who receive Title X funds inform pregnant patients of
their options without advocating one choice over another. Second, Congress barred HHS from promulgating
regulations that burden patients’ access to health care,
interfere with communications between patients and
their health care providers, or delay patients’ access to
care.
In 2019, HHS promulgated the regulations at issue
in this litigation (“the Rule”). See Compliance with
Statutory Program Integrity Requirements, 84 Fed.
Reg. 7714 (Mar. 4, 2019). Among other things, the Rule
gags health care providers from fully counseling women
about their options while pregnant and requires them
to steer women toward childbirth (the “Gag Rule”). It
also requires providers to physically and financially
separate any abortion services they provide (through

70a
non-Title X funding sources) from all other health care
services they deliver (the “Separation Requirement”).
Three separate district courts in well-reasoned
opinions recognized that the Rule breaches Congress’s
limitations on the scope of HHS’s authority and enjoined enforcement of the Rule.1 In vacating the district courts’ preliminary injunctions, the majority sanctions the agency’s gross overreach and puts its own policy preferences before the law. Women2 and their families will suffer for it. I strongly dissent.
*

*

*

The majority would return us to an older world,
one in which a government bureaucrat could restrict a
medical professional from informing a patient of the full
range of health care options available to her. Fortunately, Congress has ensured such federal intrusion is
no longer the law of the land.
The majority heavily relies, mistakenly, on Rust v.
Sullivan and Harris v. McRae, decisions that held the
Constitution confers no affirmative entitlement to state
1

See Oregon v. Azar (Oregon), 389 F. Supp. 3d 898 (D. Or.
2019); State of California v. Azar (California), 385 F. Supp. 3d 960
(N.D. Cal. 2019); Washington v. Azar (Washington), 376 F. Supp.
3d 1119 (E.D. Wash. 2019).
2

While the Rule disproportionately impacts women, people of
all genders rely on Title X services, can become pregnant, and will
suffer the consequences of the Rule. See, e.g., Cal. Code Regs., tit.
2, § 11035(g) (defining individuals eligible for pregnancy accommodation as including “transgender employee[s] who [are] disabled
by pregnancy”); Jessica A. Clarke, They Them, and Theirs, 132
Harv. L. Rev. 894, 954 (2019) (“People of all gender identities can
be pregnant[.]”); see also Juno Obedin-Maliver & Harvey J. Makadon, Transgender Men and Pregnancy, 9 Obstetric Med., 4, 5
(2016).

71a
subsidization of abortion. Maj. Op. 22–24, 50 n.21, 55–
59; Rust, 500 U.S. 173, 201 (1991); McRae, 448 U.S. 297,
318 (1980); see also Webster v. Reproductive Health
Services, 492 U.S. 490, 509 (1989); Maher v. Roe, 432
U.S. 464, 474 (1977). “Whether freedom of choice that
is constitutionally protected warrants federal subsidization,” the Court reasoned in McRae, “is a question for
Congress to answer, not a matter of constitutional entitlement.” 448 U.S. at 318. It is constitutionally permissible to “leave[] an indigent woman with at least the
same range of choice in deciding whether to obtain a
medically necessary abortion as she would have had if
Congress had chosen to subsidize no health care costs
at all.” Id. at 317. In other words, Congress can choose
to disburse its funds however it likes. I do not take issue with that principle.
The problem for the majority’s position is that
Congress has in fact chosen to disburse public funds differently since the days of Rust. Perhaps recognizing
that medical ethics and gender norms have evolved,
Congress in 1996 and again in 2010 enacted statutory
protections that exceed the constitutional floor set decades ago. In 1996 (and every year since) Congress clarified that its decision not to subsidize abortion does not
prohibit pregnancy counseling on the range of women’s
options; to the contrary, Congress explicitly required
that “all pregnancy counseling shall be nondirective.”
Omnibus Consolidated Rescissions and Appropriations
Act of 1996, Pub. L. No. 104-134, 110 Stat. 1321 (1996)
(“the nondirective mandate”). And, in 2010, Congress
prohibited HHS from promulgating regulations that
frustrate patients’ ability to access health care. 42
U.S.C. § 18114.
The majority disregards twenty years of progress,
insistent on hauling the paternalism of the past into the

72a
present. Because Congress has clarified the scope of
HHS’s authority, the Rust line of cases has little bearing on the matter before us. Our only task is to determine whether HHS has exceeded the authority Congress granted it. And as the district courts concluded,
it has.
I.

THE RULE VIOLATES CONGRESS’S NONDIRECTIVE
MANDATE

Since 1996, Congress has provided a clear limitation on Title X funding, specifying “that all pregnancy
counseling shall be nondirective.” Department of Defense and Labor, Health and Human Services, and Education Appropriations Act, and Continuing Appropriations Act, Pub. L. No. 115-245, 132 Stat. 2981, 3070–71
(2018) (emphasis added). The district courts separately
determined that the Rule conflicts with Congress’s
nondirective mandate. 5 U.S.C. § 706(2)(A); see Oregon, 389 F. Supp. 3d at 909–13; California, 385 F. Supp.
3d at 986–92; Washington, 376 F. Supp. 3d at 1130. I
agree.3

3

We review for abuse of discretion the district courts’ grant
of the preliminary injunctions. Alliance for the Wild Rockies v.
Cottrell, 632 F.3d 1127, 1131 (9th Cir. 2011). “The district court’s
interpretation of the underlying legal principles, however, is subject to de novo review and a district court abuses its discretion
when it makes an error of law.” Sw. Voter Registration Educ. Project v. Shelley, 344 F.3d 914, 918 (9th Cir. 2003). Because Plaintiffs’
first two claims, namely whether the Rule violates Congress’s
nondirective mandate or the Affordable Care Act, turn on the merits of several legal issues, I agree with the majority that we may
address the merits of those issues directly. The majority goes too
far, however, in adjudicating the merits of the third claim, namely
whether the promulgation of the Rule was arbitrary and capricious, for the reasons discussed in Section III, infra.

73a
The Rule is nothing but directive. By its very
terms, it requires a doctor to refer a pregnant patient
for prenatal care, even if she does not want to continue
the pregnancy, while gagging her doctor from referring
her for abortion, even if she has requested specifically
such a referral. 42 C.F.R. §§ 59.14(a), (b). The Rule
does not stop there. If a doctor provides a patient a referral list of primary health care providers, no more
than half of those providers may offer abortion services. 42 C.F.R. § 59.14(c)(2). And if the patient asks
who on the list might actually provide her an abortion?
The Rule muzzles her doctor from telling her. Id. The
result is that patients are steered toward childbirth at
every turn.
What can a doctor even say when confronted with
her patient’s questions about abortion? The Rule bars
doctors from “promot[ing] … or support[ing] abortion
as a method of family planning, []or tak[ing] any other
affirmative action to assist a patient” in exercising her
right to abortion. 42 C.F.R. § 59.14(a); see also 42
C.F.R. § 59.5(a)(5). Imagine a patient visits her Title X
provider and asks whether she can get an abortion at
the local hospital. Would it qualify as “promoting”
abortion to answer the question? The Gag Rule makes
doctors who desire to provide their patients with accurate information “walk on eggshells to avoid a potential
transgression of the … Rule, whereas those describing
the option of continuing the pregnancy face no comparable risk.” California, 385 F. Supp. 3d at 992.
The result is Kafkaesque. Oregon, 389 F. Supp. 3d
at 912. As Judge McShane of the District of Oregon observed:
The Gag Rule is remarkable in striving to make
professional health care providers deaf and

74a
dumb when counseling a client who wishes to
have a legal abortion or is even considering the
possibility. The rule handcuffs providers by restricting their responses in such situations to
providing their patient with a list of primary
care physicians who can assist with their pregnancy without identifying the ones who might
perform an abortion. Again, the response is
required to be, “I can’t help you with that or
discuss it. Here is a list of doctors who can assist you with your pre-natal care despite the
fact that you are not seeking such care. Some
of the providers on this list—but in no case
more than half—may provide abortion services,
but I can’t tell you which ones might. Have a
nice day.” This is madness.
Id. at 913 (footnote omitted).
The majority purports to see no problem here.
Although HHS itself defines “nondirective counseling”
as “the meaningful presentation of options where the
[medical professional] is ‘not suggesting or advising one
option over another,’ ” 84 Fed. Reg. at 7716 (citation
omitted), the majority insists such counseling does not
require the meaningful presentation of “all” options.
Maj. Op. 47. Rather, in the majority’s tortured telling,
“nondirective” requires only the “neutral” presentation
of some options.4 Maj. Op. 47.

4

The majority sanctions HHS’s post hoc interpretation that
“counseling” does not include “referrals.” Maj. Op. 41–46. Judge
Chen of the Northern District of California readily dismissed this
argument. California, 385 F. Supp. 3d at 988–91. As Judge Chen
explained, nondirective counseling encompasses referrals for three
reasons. First, Congress expressly stated so, a point HHS recognized when it promulgated the Rule. See 42 U.S.C. § 254c-6(a)(1)

75a
Excluding an entire category of options is neither
meaningful nor neutral. If a man were diagnosed with
prostate cancer, and his doctor concluded that chemotherapy, radiation, or hospice were equally viable responses, each with different consequences for his quality of life, he would be upset, to say the least, to discover
that he had been referred only for hospice care. Such a
sham “presentation” of options would in no sense be
nondirective.
So too here. Indeed, HHS itself has recognized
that there can be no meaningful choice when a whole
category of options is hidden from a patient: “In nondirective counseling, abortion must not be the only option presented by [medical professionals]; otherwise the
counseling would violate … the Congressional directive
that all pregnancy counseling be nondirective[.]” 84
Fed. Reg. at 7747. The Gag Rule does exactly that.
For all pregnancy counseling not involving abortion,
women can take an “active” and “informed” role in their
pregnancy and family planning process; but once a
(requiring HHS to make training grants on “providing adoption
information and referrals to pregnant women on an equal basis
with all other courses of action included in nondirective counseling
to pregnant women”) (emphasis added); 84 Fed. Reg. at 7733
(“Congress has expressed its intent that postconception adoption
information and referrals be included as part of any nondirective
counseling in Title X projects when it passed … 42 U.S.C. 254c6[.]”) (emphasis added). Second, HHS itself describes referrals as
part of counseling throughout the Rule and has done so across administrations. See, e.g., 84 Fed. Reg. at 7730, 7733–34; U.S. Dep’t
Health & Human Services, Program Guidelines for Project Grants
for Family Planning Services § 8.2 (1981) (“Post-examination
counseling should be provided to assure that the client … receives
appropriate referral for additional services as needed.”). Third,
industry understanding recognizes that counseling includes referrals. See California, 385 F. Supp. 3d at 989.

76a
woman asks for abortion information, she can no longer
be provided all the information she seeks about her own
medical care.
See 84 Fed. Reg. at 7716–17.
“[E]mpower[ed]” so long as she does what the agency
and the majority want; “coerc[ed]” and demeaned if she
tries to “take an active role in … identifying the direction” of her life’s course. 84 Fed. Reg. at 7716; 65 Fed.
Reg. at 41275.5 The consequences will be profound, de5

Indeed, in 2000, the agency concluded that “requiring a referral for prenatal care and delivery or adoption where the client
rejected those options would seem coercive and inconsistent with
the concerns underlying the ‘nondirective’ counseling requirement.” 65 Fed. Reg. at 41275 (emphasis added).
The majority attempts to salvage the prenatal care referral
requirement by claiming that prenatal care is medically necessary
for all patients’ health, regardless of their intent to end a pregnancy. Maj. Op. 48 & n.19. That’s not true, as the American College of
Obstetricians and Gynecologists (“ACOG”) and other professional
medical associations, as well as numerous physicians and other
health care providers have attested. See, e.g., Br. of Amici Curiae
Am. Coll. of Obstetricians & Gynecologists, et al., at 14–15 (“Prenatal care is not medically indicated when a pregnant patient plans
to terminate her pregnancy—it is recommended only when a patient plans to continue her pregnancy.”); Decl. of J. Elisabeth
Kruse, Nat’l Family Planning & Reprod. Health Ass’n Supplemental Excerpts of Record (“SER”) at 256 (Washington) (“[O]f
course, such care is not medically necessary for someone who
wishes to terminate her pregnancy.”); Decl. of Dr. Melissa Marshall, California SER 579 (California) (“[P]renatal health care is
not medically necessary when a patient is terminating her pregnancy.”); Decl. of Dr. Judy Zerzan-Thul, Washington SER 161
(Washington) (“[I]f a patient determined to be pregnant elects to
terminate the pregnancy, pre-natal care would not be medically
necessary.”). And, regardless, that’s not how HHS justified the
requirement. Rather, HHS required the prenatal care referral
because “such care is important” not only for women’s health but
also “for healthy pregnancy and birth.” 84 Fed. Reg. at 7722 (emphasis added).

77a
laying some women’s access to time-sensitive care and
preventing others from accessing abortion altogether.6
Congress has prohibited such a result. Contrary to
the majority’s contention that HHS is owed Chevron
deference because Congress has not clarified the meaning of the term “nondirective”, Maj. Op. 46, Congress
6

As health care providers and amici make clear, the notion
that “information about abortion is readily available ‘on the internet’ betrays a complete lack of understanding of the realities of our
Title X patient population” who, “because of language, literacy
(including health literacy and electronic literacy), or economic barriers[,]” depend on referrals from Title X providers in order to access care. Kruse, Nat’l Family Planning & Reprod. Health Ass’n
SER 262 (Washington); see also Decl. of Dr. Sarah Prager, id. at
298–99 (“Because many Title X patients have linguistic, educational, informational, and financial barriers to accessing healthcare, the
impediments introduced by the New Rule may prevent such patients from accessing abortion altogether.”); Decl. of Dr. Blair
Darney, Oregon SER 41 (Oregon) (“Researchers have studied the
reasons women delay entry to care for abortion; logistics such as
knowing where to go is among the reasons.”); cf. Maj. Op. 50 n.21.
The barriers created by the Gag Rule are particularly substantial for young people, LGBTQ people, those with limited English proficiency, and patients in rural areas. See, e.g., Br. of Amici
Curiae Nat’l Ctr. for Youth Law, et al., at 16–17 (“Adolescents
without easy access to transportation, a phone, and the Internet
might be unable to research the providers on the list they are given. They also might not immediately comprehend that a medical
professional, whom they trust, has referred them for care that
they do not need or want … Particularly for adolescents who are
homeless or in foster care, navigating a maze of providers that
might or might not offer abortion services could prove impossible.”); Br. of Amici Curiae Nat’l Ctr. for Lesbian Rights, et al., at
13; Decl. of Kathryn Kost, California SER 156 (California). As
one health care provider concluded, “The New Rule’s coercive requirements would force me to disrespect, contradict, and patronize
my patient, and violate her trust[.]” Kruse, Nat’l Family Planning
& Reprod. Health Ass’n SER 262 (Washington).

78a
has in fact done so. And where Congress’s intent is
clear, we “must give effect to the unambiguously expressed intent of Congress.” Chevron, U.S.A., Inc. v.
Nat. Res. Def. Council, Inc., 467 U.S. 837, 843 (1984).
Congress has used “nondirective counseling” in only two instances: the annual HHS Appropriations Act
at issue here and section 254c-6(a)(1) of the Public
Health Service Act (“PHSA”). The latter provides that
HHS shall make training grants “providing adoption
information and referrals to pregnant women on an
equal basis with all other courses of action included in
nondirective counseling to pregnant women.”
42
U.S.C. § 254c-6(a)(1) (emphasis added).
In response, the majority asserts that because
§ 254c-6(a)(1) is not part of Title X and was enacted for
a different purpose, “it sheds no light on Congress’s intent in enacting the appropriations rider or on the interpretation of its statutory language.” Maj. Op. 44. If
§ 254c-b(a)(1) sheds no light, HHS certainly didn’t think
so: it relied on the PHSA definition in formulating the
Rule. See 84 Fed. Reg. at 7733 (“Congress has expressed its intent that … referrals be included as part
of any nondirective counseling in Title X projects when
it passed the … Public Health Service Act[.]”); 84 Fed.
Reg. at 7745. As HHS apparently recognized, Congress’s use of the term “nondirective counseling”
should be read consistently between the PHSA and the
nondirective appropriations rider to include providing
referrals on an equal basis with all other options. See
Erlenbaugh v. United States, 409 U.S. 239, 243 (1972)
(“[A] legislative body generally uses a particular word
with a consistent meaning in a given context.”); see also
Dir., Office of Workers’ Comp. Prog., Dep’t of Labor v.
Newport News Shipbldg. & Dry Dock Co., 514 U.S. 122,
130 (1995) (instructing that in interpreting an ambigu-

79a
ous statutory phrase, “[i]t is particularly illuminating to
compare” two different statutes employing the “virtually identical” phrase).
Because the Gag Rule requires doctors to push patients toward one option over another, it violates Congress’s mandate that patients receive counseling on
their pregnancy options in a nondirective manner.
II. THE RULE VIOLATES SECTION 1554 OF THE AFFORDABLE CARE ACT
In 2010, as part of the Affordable Care Act’s
(“ACA”) sweeping reforms, Congress imposed limits on
the scope of HHS’s regulatory authority:
Notwithstanding any other provision of this
Act, the Secretary of Health and Human Services shall not promulgate any regulation
that—
(1) creates any unreasonable barriers to the
ability of individuals to obtain appropriate
medical care;
(2) impedes timely access to health care services;
(3) interferes with communications regarding a
full range of treatment options between the patient and the provider;
(4) restricts the ability of health care providers
to provide full disclosure of all relevant information to patients making health care decisions;
(5) violates principles of informed consent and
the ethical standards of health care professionals; or

80a
(6) limits the availability of health care treatment for the full duration of a patient’s medical
needs.
42 U.S.C. § 18114 (“section 1554”). The three district
courts separately determined that the Rule violates
section 1554 of the ACA. See Oregon, 389 F. Supp. 3d
at 914–15; California, 385 F. Supp. 3d at 992–1000;
Washington, 376 F. Supp. 3d at 1130. I agree.
First, the Gag Rule—which restricts communications between health care providers and patients, 42
C.F.R. §§ 59.14(a)–(c)—will “obfuscate and obstruct patients from receiving information and treatment for
their pressing medical needs.” California, 385 F. Supp.
3d at 998; see also Washington, 376 F. Supp. 3d at 1130.
In so doing, the Rule exceeds HHS’s statutory authority: it “impedes timely access to health care services[,]”
“interferes with communications regarding a full range
of treatment options[,]” “restricts the ability of health
care providers to provide full disclosure of all relevant
information to patients making health care decisions[,]”
and “violates … the ethical standards of health care
professionals[.]” 42 U.S.C. § 18114.
Second, the Separation Requirement—which requires Title X recipients to physically and financially
separate abortion provision from all other medical services, through the use of separate entrances and exits
as well as separate accounting, personnel, and medical
records, 42 C.F.R. § 59.15—plainly will impinge on the
ability of providers to offer care. See Oregon, 389 F.
Supp. 3d at 915; Washington, 376 F. Supp. 3d at 1130.
By its own terms, HHS’s Separation Requirement creates unreasonable barriers to health care; it also frustrates “timely access” to care, contrary to Congress’s

81a
plain directive that HHS may not do so. 42 U.S.C.
§ 18114.
Finally, the Rule’s requirement that doctors encourage family participation in reproductive decisions
will “force [doctors] to breach their ethical obligations”
in certain circumstances. California, 385 F. Supp. 3d at
1000; see also Washington, 376 F. Supp. 3d at 1130.
This requirement directly contravenes Congress’s prohibition on promulgating regulations that “violate[] …
the ethical standards of health care professionals[.]” 42
U.S.C. § 18114.
Tellingly, the majority does not even attempt to
argue that the Rule complies with the ACA. Instead, it
characterizes the Rule as falling conveniently outside
the scope of the limitations Congress imposed on HHS
in the ACA. It relies on the Rust and McRae line of
cases for the proposition that, as a constitutional matter, Congress need not subsidize abortion. It then asserts that the constitutional minima identified in those
cases “applies equally” to statutory claims. Maj. Op.
55–59. The majority offers no support for this bold
proposition.
How could it? Congress may, and regularly does,
enact statutory requirements and protections that exceed the constitutional floor. Aetna Life Ins. Co. v. Lavoie, 475 U.S. 813, 828 (1986) (“The Due Process Clause
demarks only the outer boundaries … Congress and the
states, of course, remain free to impose more rigorous
standards[.]”); Am. Legion v. Am. Humanist Assoc.,
139 S. Ct. 2067, 2094 (2019) (Kavanaugh, J., concurring)
(“The constitutional floor is sturdy and often high, but
it is a floor.”). That is exactly what Congress has done

82a
here.7 That a congressional decision not to subsidize
abortion does not burden the abortion right in the constitutional sense, see e.g., McRae, 448 U.S. at 316, has
no bearing whatsoever on whether an agency has overstepped its statutory authority. And, here, the agency
has.8
III. THE RULE IS LIKELY ARBITRARY AND CAPRICIOUS
Finally, I turn to Plaintiffs’ claim that the promulgation of the Rule was arbitrary and capricious under
the Administrative Procedure Act (“APA”). As an initial matter, the majority contends that it is appropriate,
on review of the district courts’ preliminary injunctions, to adjudicate the merits of the arbitrary and capricious claim. Maj. Op. 35–39. It is not. Unlike our
7

The majority’s assertion that the ACA does not impact Title
X is contradicted by the terms of the ACA. Maj. Op. 59–60. Section 1554 governs “any regulation,” 42 U.S.C. § 18114 (emphasis
added). If Congress had meant to restrict its scope to the ACA, it
would have said “any regulation pursuant to this Act.” Cf. St.
Paul Fire & Marine Ins. Co. v. Barry, 438 U.S. 531, 550 (1978)
(discussing the breadth of the word “any” and concluding that if
Congress intends to limit the scope of statutory language, it will
make that explicit).
As Judge Chen reasoned, the clause
“[n]otwithstanding any other provision of this Act” is most naturally read to mean that the Secretary “cannot engage in the type
of rulemaking proscribed by [s]ection 1554 even if another provision … could be construed to permit it.” California, 385 F. Supp.
3d at 995. In other words, “the directive of [s]ection 1554 is to be
given primacy” over other parts of the ACA.
8

The majority makes much of the fact that the Rule is purportedly “less restrictive in at least one important respect” than
the 1988 regulation upheld in Rust. Maj. Op. 16. That is immaterial. The Rust decision predated the passage of the nondirective
mandate by half a decade and the ACA by two decades, so whether the Rule or its 1988 predecessor violated those laws was not and
could not possibly have been before the Court.

83a
consideration of Plaintiffs’ first two claims, which required us to address the underlying legal question to
determine whether the district courts abused their discretion, review of the arbitrary and capricious claim requires examination of the administrative record. We do
not have the complete administrative record before us,
and neither did the district courts when they issued the
preliminary injunctions. Deciding the merits of Plaintiffs’ arbitrary and capricious claim is therefore premature. See Walter O. Boswell Mem’l Hosp. v. Heckler,
749 F.2d 788, 792 (D.C. Cir. 1984) (“If a court is to review an agency’s action fairly, it should have before it
neither more nor less information than did the agency
when it made its decision.”) (emphasis added); Nat.
Res. Def. Council, Inc. v. Train, 519 F.2d 287, 291 (D.C.
Cir. 1975) (“The Administrative Procedure Act and the
cases require that the complete administrative record
be placed before a reviewing court.”); see also Univ. of
Texas v. Camenisch, 451 U.S. 390, 395 (1981) (“[G]iven
the haste that is often necessary … a preliminary injunction is customarily granted on the basis of procedures that are less formal and evidence that is less
complete than in a trial on the merits. A party thus is
not required to prove his case in full at a preliminaryinjunction hearing[.]”).9 Indeed, “[t]o review less than
the full administrative record might allow a party to
withhold evidence unfavorable to its case, and so the
9

Indeed, while Defendants pursued their appeals of the preliminary injunctions, briefing advanced to the merits in the Eastern District of Washington. There, Defendants produced to Plaintiffs the full administrative record (two months after the preliminary injunction issued), see Case No. 1:19-cv-03040-SAB, Dkt. No.
88 (June 24, 2019) and, with the benefit of the complete record,
Plaintiffs further developed their arbitrary and capricious claim.
See Case No. 1:19-cv-03040-SAB, Dkt. No. 121 (Nov. 20, 2019).

84a
APA requires review of ‘the whole record.’ ” Boswell
Mem’l Hosp., 749 F.2d at 792. Accordingly, I address
only Plaintiffs’ likelihood of success on the merits. The
majority should have done the same.10
Under the APA, a court “shall … hold unlawful and
set side agency action … found to be … arbitrary [and]
capricious.” 5 U.S.C. § 706(2)(A). An agency action is
arbitrary and capricious if “the agency has relied on
factors which Congress has not intended it to consider,
entirely failed to consider an important aspect of the
problem, [or] offered an explanation for its decision that
runs counter to the evidence before the agency.” Motor
Vehicle Mfrs’ Ass’n v. State Farm Mut. Auto. Ins. Co.,
463 U.S. 29, 43 (1983). “[T]he agency must examine the
relevant data and articulate a satisfactory explanation
for its action including a rational connection between
the facts found and the choice made.” Id. (internal quotation marks omitted).
10

The cases on which the majority relies to proceed to the
merits are inapt. First, unlike the cases the majority cites, Maj.
Op. 35–39, we do not have the full administrative record before us.
Cf. Beno v. Shalala, 30 F.3d 1057, 1064 n.11 (9th Cir. 1994) (reaching the merits because “Plaintiffs’ … claim requires a review of the
administrative record, which is complete, and interpretation of
relevant statutes; additional fact-finding is not necessary to resolve this claim”) (emphasis added); Blockbuster Videos, Inc. v.
City of Tempe, 141 F.3d 1295, 1297 (9th Cir. 1998) (same, because
“[t]he record … is fully developed”); see also Fla. Power & Light
Co. v. Lorion, 470 U.S. 729, 744 (1985) (“The APA specifically contemplates judicial review on the basis of the agency record compiled in the course of … [the] agency action[.]”) (emphasis added).
Nor is this a case that implicates sensitive foreign policy concerns.
Munaf v. Geren, 553 U.S. 674, 692 (2008) (reasoning that reaching
the merits was “the wisest course” because the case “implicate[d]
sensitive foreign policy issues in the context of ongoing military
operations”).

85a
When an agency changes its policy, the agency
must provide a “reasoned explanation for its action.”
FCC v. Fox Television Stations, Inc., 556 U.S. 502, 515
(2009). The new policy need not be better than the old
one, but it must be permissible and based on “good reasons.” Id. When the reasons the agency relies on for
changing its position are “not new,” the agency fails to
provide a “reasoned explanation.” Org. Vill. of Kake v.
U.S. Dep’t of Agric., 795 F.3d 956, 967 (9th Cir. 2015)
(en banc). “In explaining its changed position, an agency must also be cognizant that longstanding policies
may have engendered serious reliance interests that
must be taken into account.” Encino Motorcars, LLC
v. Navarro, 136 S. Ct. 2117, 2126 (2016) (internal quotation marks omitted). Here, the Rule replaced the regulation adopted in 2000, not the 1988 regulation addressed in Rust; thus the 2000 Rule is the one to which
we must look to assess HHS’s changed positions. See
Standards of Compliance for Abortion-Related Services
in Family Planning Services Projects, 65 Fed. Reg.
41270 (Jul. 3, 2000). Plaintiffs are likely to prevail on
their claim that the promulgation of the Rule was arbitrary and capricious for at least two reasons.11
11

None of the district courts needed to address Plaintiffs’ arbitrary and capricious arguments because they had independently
found Plaintiffs were likely to succeed on their other merits arguments. Nevertheless, each district court recognized the strength
of Plaintiffs’ APA challenge. California, 385 F. Supp. 3d at 1000–
19 (addressing—with painstakingly detailed analysis—the shortcomings of HHS’s justifications for the physical separation requirement, the counseling and referral restrictions, the “physicians
or advanced practice providers” requirement, and the removal of
the “medically approved” requirement, as well as HHS’s inadequate cost-benefit analysis); Oregon, 389 F. Supp. 3d at 917–18
(noting that HHS “nowhere squares” particular medical ethics requirements with the requirements of the Rule and that HHS “ap-

86a
A. HHS Failed to Provide a Reasoned Justification for Its Policy Change
First, the Rule represents a dramatic shift in policy, yet HHS failed to provide the required “reasoned
explanation for its action.” Fox Television, 556 U.S. at
515. Take the Gag Rule and Separation Requirement,
for example. In 2000, when it adopted regulations rescinding the 1988 version of the Gag Rule, HHS explicitly considered Congress’s recently enacted nondirective mandate as well as comments emphasizing
that “medical ethics and good medical care … requir[e]
that patients receive full and complete information to
enable
them
to
make
informed
decisions”;
“[c]onsequently,” the agency “decided to reflect [the
nondirective requirement] … in the regulatory text.”
65 Fed. Reg. at 41273. By contrast, here HHS has
changed its position on what medical ethics demand
without providing a reasoned explanation for or acknowledgment of the change, as is required by the
APA.12 See Org. Vill. of Kake, 795 F.3d at 966 (“Unexplained inconsistency between agency actions is a reason for holding an interpretation to be an arbitrary and

pears to have failed to seriously consider persuasive evidence”);
Washington, 376 F. Supp. 3d at 1131 (recognizing that Plaintiffs
and amici had “presented facts and argument that the … Rule is
arbitrary and capricious because it reverses long-standing positions of [HHS]” without considering relevant medical opinions and
likely consequences).
12

That abortion remains controversial, as the majority contends, Maj. Op. 75 n.34, does not explain why HHS may shift its
understanding of medical ethics from 2000 without a reasoned explanation.

87a
capricious change.”) (internal quotation marks and citation omitted).13
Similarly, in 2000, HHS recognized that “Title X
grantees are subject to rigorous financial audits” and
ultimately concluded that a physical separation requirement “is not likely ever to result in an enforceable
compliance policy that is consistent with the efficient
13

I also agree with Judge McShane of the District of Oregon
that HHS’s “failure to respond meaningfully to the evidence” that
the Gag Rule contradicts medical ethics “renders its decision[] arbitrary and capricious.” Oregon, 389 F. Supp. 3d at 918 (quoting
Tesoro Alaska Petroleum Co. v. FERC, 234 F.3d 1286, 1294 (D.C.
Cir. 2000)). A doctor and leader of the American Medical Association—the organization that “literally wrote the book on medical
ethics”—stated that the American Medical Association’s Code of
Medical Ethics prohibits withholding information from a patient,
except in emergency situations, and requires decisions or recommendations to be based on the patient’s medical needs. Id. at 916.
He concluded that the Gag Rule “is an instruction to physicians to
intentionally mislead patients, which, if followed, is an instruction
for physicians to directly violate the Code of Medical Ethics[.]” Id.
at 917.
In its cursory response, HHS merely announced that it “believes” the Rule presents no ethical problems because patients are
permitted to ask questions “and to have those questions answered
by a medical professional.” 84 Fed. Reg. at 7724. That assertion is
contradicted by the plain text of the Rule, which specifically prohibits medical professionals from answering certain questions,
such as, “who on this list is an abortion provider?” 42 C.F.R.
§ 59.14(c)(2). HHS’s insistence that the Gag Rule is “nondirective”
does not salvage the Rule either, as it is both conclusory and, for
the reasons explained in Section I, supra, false. Because the Gag
Rule “contradicts … persuasive evidence from the leading expert
on medical ethics,” and HHS has failed to present even a “plausible
explanation outlining its rationale for rejecting the evidence and
reaching a different conclusion,” Oregon, 389 F. Supp. 3d at 917
(citing State Farm Mut., 463 U.S. at 43), it is arbitrary and capricious. The majority is wrong to conclude otherwise.

88a
and cost-effective delivery of family planning services.”
65 Fed. Reg. at 41275–76 (2000) (emphasis added). As
justification for its about-face in the new Rule, HHS
speculated about a “risk” of Title X funds being used
for impermissible purposes.14 84 Fed. Reg. at 7765
(discussing the risk of “potential co-mingling” without
citing any evidence of co-mingled funds). A speculative
risk is not a reasoned explanation. Ariz. Cattle Growers’ Ass’n v. U.S. Fish & Wildlife, 273 F.3d 1229, 1244
(9th Cir. 2001); see also Nat’l Fuel Gas Supply Corp. v.
FERC, 468 F.3d 831, 841 (D.C. Cir. 2006).
B. HHS’s Cost-Benefit Analysis Is Contrary to
the Evidence
Second, the Rule is likely arbitrary and capricious
because HHS offered an explanation for its cost-benefit
analysis that runs contrary to the evidence before the
agency. See State Farm Mut., 463 U.S. at 43. As the
district courts explained, there are at least three provisions of the Rule that will cause providers to leave the
Title X program, leading to decreased access to Title Xfunded care, which will in turn create costs that HHS
did not account for.
First, the Gag Rule. Because it “require[s] doctors
to violate … fundamental ethical and professional
norms[,]” Oregon, 389 F. Supp. 3d at 916, the Gag Rule
will trigger providers to leave the Title X program,
“drastically reduc[ing] access to Title X services, and
lead[ing] to serious disruptions in care for Title X pa14

To be clear: the “recent studies” that the majority notes
HHS relied on do not demonstrate any actual misuse of Title X
funds. Maj. Op. 66. Rather, they reflect facilities that comply with
Title X but likely will be forced out of the program by the Separation Requirement. 84 Fed. Reg. at 7765.

89a
tients.” California, 385 F. Supp. 3d at 1008. For example, the provider serving approximately 40% of all
Title X patients—1.6 million people—which is also the
only family planning provider in ten percent of rural
counties, declared that if the Gag Rule is implemented,
it will leave the Title X program in order to maintain its
ethical obligations to patients.15 Oregon, 389 F. Supp.
3d at 918; California, 385 F. Supp. 3d at 979.
Second, the Separation Requirement. Compliance
with the Separation Requirement will be so costprohibitive for many providers that they will have to
leave the Title X program.16 California, 385 F. Supp.
3d at 1008–11.
15

Indeed, this exodus has come to pass. Plaintiffs informed
us that all Planned Parenthood Title X direct grantees would
withdraw from Title X beginning August 19, 2019, as a result of
enforcement actions by HHS, and they have done so. See Sarah
McCammon, Planned Parenthood Withdraws From Title X Program Over Trump Abortion Rule, Nat’l Pub. Radio (Aug. 19,
2019),
https://www.npr.org/2019/08/19/752438119/plannedparenthood-out-of-title-x-over-trump-rule. Planned Parenthood is
not alone. See Nicole Acevedo, Nearly 900 Women’s Health Clinics Have Lost Federal Funding Over Gag Rule, NBC News (Oct.
22,
2019)
https://www.nbcnews.com/news/latino/nearly-900women-s-healthclinics-have-lost-federal-funding-n1069591; Anna
North, How A Beloved Clinic for Low-Income Women Is Fighting
to Stay Alive in the Trump Era, Vox (Nov. 22, 2019),
https://www.vox.com/identities/2019/11/22/20952297/title-xfunding-abortion-birth-control-trump.
16

HHS also calculated costs of compliance with the physical
separation requirement in a “mystifying” way. California, 385 F.
Supp. 3d at 1008. HHS’s internal guidelines—and common sense—
suggest that compliance costs for making physically separate facilities would include expenses related to equipment, leasing space,
utilities, and personnel. Yet, HHS estimated that an average of
only $30,000 per affected Title X site would be incurred to comply
with the physical separation requirement. 84 Fed. Reg. at 7782.

90a
Third, the requirement that only “physicians or advanced practice providers” may provide counseling.
See 84 Fed. Reg. at 7727–28 (defining “advanced practice providers”). This limitation will significantly reduce the number of people who can provide pregnancy
counseling and will require significant changes in Title
X providers’ staffing, or else devastate their capacity to
serve patients. Id. at 7778 (noting that for “1.7 million
Title X family planning encounters in 2016,” services
were delivered by providers who are not “physicians or
advanced practice providers”); California, 385 F. Supp.
3d at 1013 (recognizing that “65% of Title X sites
rel[ied] on trained health educators, registered nurses,
and other qualified providers (excluding physicians and
advanced practice clinicians) to counsel patients in selecting contraceptive methods”) (internal quotation
marks and citation omitted).
HHS dismissed the loss of access by speculating
that there would not “be a decrease in the overall number of facilities offering [Title X] services, since [HHS]
anticipates other, new entities will apply for funds, or
seek to participate as subrecipients, as a result of the
final rule.” 84 Fed. Reg. at 7782. HHS simultaneously
contradicted that very prediction, by stating, “[HHS]
cannot calculate or anticipate future turnover in grantees.” Id. (emphasis added). Nonetheless, HHS stated,
“[b]ased on [HHS’s] best estimates, it anticipates that
the net impact on those seeking services from current
grantees will be zero[.]” Id. HHS provided no explaAs Plaintiffs’ counsel indicated at oral argument, even just hiring a
single front desk staff member to staff a new entrance to a facility
would exceed that estimate, not to mention all the other costs that
would accompanying creating and maintaining such a facility. See,
e.g., Washington SER 355–56 (Washington); California SER 396–
97 (California).

91a
nation of how it arrived at its “best estimates.” See also California, 385 F. Supp. 3d at 983 (“[A]t oral argument [before the district court], when pressed for any
record evidence substantiating this (highly consequential) assertion, Defendants’ counsel could offer none.”).
Nor did HHS provide any specifics about its estimates,
such as the locations or geographic distribution of any
“new” clinics, their number or size, or how long it would
take them to become operational grantees. Thus, HHS
failed to offer “an explanation for its decision that runs
counter to the evidence before” it. State Farm Mut.,
463 U.S. at 43. Proceeding in this manner is the hallmark of arbitrary and capricious administrative action.
The majority disagrees, citing readily distinguishable case law and a poll that did not conclude what the
majority purports it does.17 Maj. Op. 68–69. The “poll”
that HHS cited is a summary showing both that a ma17

The majority relies extensively on the Supreme Court’s recent opinion, Dep’t of Commerce v. New York, 139 S. Ct. 2551
(2019). Maj. Op. 62, 63–64, 70–77. That case raised the issue of
whether the Secretary of Commerce was required to accept the
Census Bureau’s predictions about accurate gathering of citizenship data. Dep’t of Commerce, 139 S. Ct. at 2569. The Court held
that the Secretary was not beholden to the Bureau’s analysis because “the Census Act authorizes the Secretary, not the Bureau,
to make policy choices within the range of reasonable options[,]”
id. at 2571 (emphasis added), and there was support for the Secretary’s decision, id. at 2569. Conversely, here, we are reviewing
HHS’s own administrative decisions in the face of contravening
evidence, and there is no support for HHS’s decisions.
Moreover, the Court struck down the Secretary of Commerce’s attempt to reinstate the citizenship question on the census. See 139 S. Ct. at 2575–76 (“Our review is deferential, but we
are ‘not required to exhibit a naiveté from which ordinary citizens
are free.’ ” ). Similarly, here, deference to HHS does not mean
turning a blind eye to the agency’s actions, as the majority does.

92a
jority of “faith-based healthcare professionals” would
prefer not to violate their conscience and that a majority of them never experienced pressure to refer a patient for a procedure to which the professional had
moral, ethical, or religious objections. 84 Fed. Reg. at
7780 n.138; Freedom2Care & The Christian Med. Ass’n,
National Poll Shows Majority Support Healthcare
Conscience Rights, Conscience Law (May 3, 2011),
https://perma.cc/3AU4-ACGA. Nothing suggests that
the poll asked medical professionals about expanding
into Title X. It is baffling how HHS made the leap from
the poll data—the quality and veracity of which is unclear from the summary the agency cited—to its conclusion that there would be no decrease in facilities. Id.
And a predicate to giving deference to an agency is that
the agency’s inferences must not contradict the findings of the study. State Farm Mut., 463 U.S. at 43.
That is by no means de novo review, contrary to the
majority’s contention. Maj. Op. 69 n.29.
Moreover, the cases on which the majority relies to
endorse HHS’s guesswork arose in different circumstances. Maj. Op. 68–71. When the Supreme Court in
FCC v. National Citizens Committee for Broadcasting
condoned an agency’s “forecast” for future behaviors
without “complete factual support,” the underlying
agency decision was “to ‘grandfather’ ” existing policies
into a new rule. 436 U.S. 775, 813–14 (1978). There, the
agency’s predictions concerned maintenance of the status quo, rather than the change in policy HHS made
here. And in other cases cited by the majority, the
regulations at issue “reflect[ed] reasoned predictions
about technical issues.” BNSF Ry. Co. v. Surface
Transp. Bd., 526 F.3d 770, 781 (D.C. Cir. 2008) (citation
omitted); see also Trout Unlimited v. Lohn, 559 F.3d
946, 959 (9th Cir. 2009) (noting that the record showed

93a
that the agency relied on “scientific data, and not on
mere speculation”). HHS’s prediction here is not reasoned or based on any data or studies, and should not
be afforded deference. See Sorenson Commc’ns Inc. v.
FCC, 755 F.3d 702, 708 (D.C. Cir. 2014) (“[T]he wisdom
of agency action is rarely so self-evident that no other
explanation is required.”); McDonnell Douglas Corp. v.
U.S. Dep’t of the Air Force, 375 F.3d 1182, 1187 (D.C.
Cir. 2004) (“[W]e do not defer to the agency’s conclusory or unsupported suppositions.”).
Further, because of HHS’s sunny, and baseless,
prediction that new clinics will appear to provide services to at least 40% of the patient population served by
Title X, HHS did not address the potential health consequences of decreased services and their corresponding costs in its cost-benefit analysis. As the Northern
District of California recognized, the decreased services
could cause a 31% increase in the nation’s unintended
pregnancy rate, which would lead to “[b]illions of dollars in public costs[.]” California, 385 F. Supp. 3d at
1016. Even if the number of clinics were to remain the
same, a changed geographic reach would have devastating consequences. See 84 Fed. Reg. at 7782 (recognizing that patients will have to travel further to obtain
health care); California, 385 F. Supp. 3d at 1017–18
(noting that when a rural Indiana county lost a Planned
Parenthood clinic, “the county lost free HIV testing
services and almost immediately experienced one of the
largest and most rapid HIV outbreaks the country has
ever seen”) (internal quotation marks omitted). An
agency governed by the APA must grapple with potential costs, and HHS—an agency with power over public
health, no less—failed to do so here. See State Farm
Mut., 463 U.S. at 43; Nat’l Ass’n of Home Builders v.
EPA, 682 F.3d 1032, 1040 (D.C. Cir. 2012).

94a
The majority is correct that we give agencies deference—but only insofar as the agency “examine[s] the
relevant data and articulate[s] a satisfactory explanation for its action including a rational connection between the facts found and the choice made.” State
Farm Mut., 463 U.S. at 43 (internal quotation marks
omitted). The majority fails to hold HHS to that basic
standard here.
*

*

*

In vacating the preliminary injunctions, the majority blesses an executive agency’s disregard of the clear
limits placed on it by Congress. The consequences will
be borne by the millions of women who turn to Title Xfunded clinics for lifesaving care and the very contraceptive services that have caused rates of unintended
pregnancy—and abortion—to plummet.
I strongly dissent.

95a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
6:19-cv-00317-MC (Lead Case)
6:19-cv-00318-MC (Trailing Case)
STATE OF OREGON ET AL.,
Plaintiffs,
v.
ALEX M. AZAR II ET AL.
Defendants,
and
AMERICAN MEDICAL ASSOCIATION, ET AL.,
Plaintiffs,
v.
ALEX M. AZAR II ET AL.
Defendants.
Filed April 29, 2019
OPINION AND ORDER

MCSHANE, Judge:
Plaintiffs in these consolidated actions are 20
states, the District of Columbia, the American Medical
Association, the Oregon Medical Association, the
Planned Parenthood Federation and their local affiliates, and individual medical providers. They seek to

96a
enjoin the United States Department of Health and
Human Services, the Office of Population Affairs, and
their respective leadership (collectively, the “Defendants” or “HHS”) from implementing certain rules (the
“Final Rule”) that would alter the family planning program established by Title X of the Public Health Service Act, 42 U.S.C. § 300 et seq. The Final Rule was issued by HHS on March 4, 2019, and its effective date is
May 3, 2019.
At the heart of their claims, Plaintiffs allege that
the Final Rule is antithetical to public health and is a
fundamental shift in policy away from Title X’s emphasis on nondirective and voluntary family planning between low-income patients and their medical providers.
Indeed, the rule would, among other things, dramatically limit medical professionals from discussing abortion
options with their patients and completely prohibit
them from referring patients seeking an abortion to a
qualified provider (the “Gag Rule”). It would also require Title X providers to physically and financially divorce health services funded under Title X from abortion services funded from sources other than Title X
(the “Separation Requirement”).
At best, the Final Rule is a solution in search of a
problem. At worst, it is a ham-fisted approach to
health policy that recklessly disregards the health outcomes of women, families, and communities. In the
guise of” program integrity,” the Gag Rule prevents
doctors from behaving like informed professionals. It
prevents counselors from providing comprehensive
counseling. It prevents low-income women from making an informed and independent medical decision. At
the heart of this rule is the arrogant assumption that
government is better suited to direct the health care of
women than their medical providers. At a time in our

97a
history where government is assessing how we can improve and lower the costs of medical care to all Americans, the Final Rule would create a class of women who
are barred from receiving care consistent with accepted
and established professional medical standards. On top
of that, the Separation Requirement would create such
a financial strain on Title X providers that, ironically, it
would create a geographic vacuum in family planning
that experts warn would lead to substantially more unintended pregnancies and, correspondingly, more abortions.
The harms outlined in the record before me, should
the Final Rule be implemented, are extensive and are
not rebutted by the government. A review of the
scores of declarations from public health policy experts,
medical organizations, doctors, and Title X providers
lead to the inescapable conclusion that the Final Rule
will result in negative health outcomes for low income
women and communities. It will result in less contraceptive services, more unintended pregnancies, less
early breast cancer detection, less screening for cervical cancer, less HIV screening, and less testing for sexually transmitted disease. HHS’s response to these
negative health outcomes is one of silence and indifference. Rather than providing contradictory data to support any positive health outcomes, they rationalize that
the Final Rule “will ensure compliance with, and implementation of, the statutory requirement that none of
the funds appropriated for Title X may be used in programs where abortion is a method of family planning.”
At the same time, despite the nearly fifty-year history
of Title X, they cannot point to one instance where Title
X funds have been misapplied under past or current
rules.

98a
Without revealing what evidence, if any, helped
shape its opinions, HHS essentially says, “trust us, this
will work out fine.” But dramatic changes to the only
federal program providing family planning services to
millions of clients in marginalized communities requires
something more than a mere hunch. The dearth of evidence and lack of transparency in HHS’s rulemaking is
particularly concerning as HHS earlier concluded that
there was “no evidence that [the Gag Rule] can and will
work operationally on a national basis in the Title X
program.” 65 Fed. Reg. at 41,271.
Should the Final Rule go into effect in mere days,
the risk of irreparable damage to the health of women
and communities is grave. In contrast, keeping the
current regulations in place—regulations that “have
been used by the program for virtually its entire history,” id., and have provided critical medical services for
at-risk communities—poses no harm to Defendants.
As discussed below, Plaintiffs are likely to succeed
on the merits of their claim that the Final Rule is contrary to law. Additionally, Plaintiffs raise serious questions going to the merits of their claims that the Final
Rule is arbitrary and capricious.
Plaintiffs have
demonstrated the likelihood of “irreparable harm” and
that the balance of equities tips sharply in their favor.
Plaintiffs’ Motions for a Preliminary Injunction are
GRANTED.
FACTUAL BACKGROUND
Congress enacted the Title X program, known as
the “Population Research and Voluntary Planning Program,” in 1970 as part of the Public Health Services
Act. Its mission is to provide grants to public and nonprofit organizations “to assist in the establishment and

99a
operation of voluntary family planning projects which
shall offer a broad range of acceptable and effective
family planning methods and services (including natural family planning methods, infertility services, and
services for adolescents).” 42 U.S.C. § 300(a). Title X
targets low income families and individuals and provides family planning services at low or no cost. The
stated purpose of Title X is to promote positive birth
outcomes and healthy families by allowing individuals
to decide the number and the spacing of their children.
Congress authorized HHS to promulgate regulations to effectuate Title X’s mission, largely through
the award of grants to providers of family planning
services to low income individuals. 42 U.S.C. § 300a-4.
Title X grants are administered by the Office of the Assistant Secretary for Health through the Office of Population Affairs. The statute and regulations of Title X
require that 90 percent of congressional appropriations
be used for clinical family planning purposes. Title X
funds a broad array of family planning services: contraceptive services, information, and education; natural
family planning and education; infertility services; services to adolescents; HIV and sexually transmitted disease screening and referral; breast and cervical cancer
screenings; and pregnancy testing.
By all accounts, for nearly 50 years, the Title X
program has been a great success in meeting its stated
goals. According to HHS’s 2017 Summary, the program served over 4 million family planning clients at
3,858 service sites through 6.6 million family planning
encounters. Those served are largely from vulnerable
populations who would not otherwise have access to
health care. Title X clinics provided over 2 million
Chlamydia tests, 2.5 million Gonorrhea tests, 2 million
HIV tests, and over 700,000 syphilis tests. Title X pro-

100a
viders conducted Pap screening on nearly 650,000 clients and breast exams on 878,492 women. See Title X
Family Planning Annual Report 2017 Summary,
www.hhs.gov/opa/title-x-family-planning/fp-annualreport/fpar-2017 (last visited April 25, 2019). By regularly providing millions of patients with contraceptive
services, the Title X program has significantly reduced
the rates of unintended pregnancy and abortion. In
fact, unintended pregnancies and abortions are now at
historic lows, in large part due to Title X. Kost Decl. ¶¶
7, 35, ECF No. 53; Brindis Decl. ¶ 26, ECF No. 52;
Lawrence B. Finer & Mia R. Zolna, Declines in Unintended Pregnancy in the United States, 2008-2011, 374
New Eng. J. Med. 843, 850 (2016) (noting unintended
pregnancy rate in United States dropped to a 30-year
low in 2011).
At issue in this case is the agency’s interpretation
of the congressional mandate found in the final sentence of Title X known as “Section 1008.” 42 U.S.C. §
300a-6. This mandate requires that “None of the funds
appropriated under this title shall be used in programs
where abortion is a method of family planning.” 42
U.S.C. § 300a-6. Historically, HHS has taken the position that medical professionals may provide neutral and
factual information, even concerning abortion, as a part
of pregnancy counseling. The agency squared such
counseling with Section 1008 because “the provision of
neutral and factual information about abortion is not
considered to promote or encourage abortion as a
method of family planning.” 65 Fed. Reg. at 41,271.
HHS generally allowed the medical professional’s objective professional judgment, aided by the patient’s
particular needs, to drive pregnancy counseling. Earlier rules also allowed abortion referrals.

101a
The Final Rule deviates sharply from the historical
interpretation of Section 1008. HHS used the same justification—that the Final Rule will ensure compliance
with Section 1008’s requirement that no Title X funds
“shall be used in programs where abortion is a method
of family planning”—in 1988 when it promulgated similar rules. Those rules, like the Final Rule at issue here,
prohibited abortion referrals and required strict financial and physical separation between Title X projects
and services prohibited by Title X.
Numerous Title X grantees and doctors impacted
by the 1988 rule challenged the regulations alleging, as
relevant here, that the Gag Rule and Separation Requirement were not authorized by Title X and thus
were arbitrary and capricious. The Supreme Court ultimately upheld the 1988 rules. The Court examined
Section 1008’s prohibition on using Title X funds “in
programs where abortion is a method of family planning.” The Court, like every other court to examine the
statutory language and legislative history of Section
1008, found the statute ambiguous. “If a statute is silent or ambiguous with respect to the specific issue, the
question for the court is whether the agency’s answer is
based on a permissible construction of the statute. The
Secretary’s construction of Title X may not be disturbed as an abuse of discretion if it reflects a plausible
construction of the plain language of the statue and
does not otherwise conflict with Congress’ expressed
intent.” Rust, v. Sullivan, 500 U.S. 173, 184 (1991) (internal quotations and citation omitted). The fact that
the 1988 rules represented a “sharp break with prior
interpretations” by HHS did not mean the new rules
were invalid, because “the agency, to engage in informed rulemaking, must consider varying interpretations and the wisdom of its policy on a continuing ba-

102a
sis.”‘ Id. at 185 (quoting Chevron U.S.A. Inc. v. Nat.
Res. Def Council, Inc., 467 U.S. 837, 862 (1984)). In rejecting Plaintiffs’ arguments challenging the Gag Rule,
Justice Rehnquist concluded HHS adequately justified
the change from prior policy:
The Secretary explained that the regulations
are a result of his determination, in the wake of
the critical reports of the General Accounting
Office (GAO) and the Office of the Inspector
General (OIG), that prior policy failed to implement properly the statute and that it was
necessary to provide ‘clear and operational
guidance’ to grantees about how to preserve
the distinction between Title X programs and
abortion as a method of family planning.’ 53
Fed. Reg. 2923-2924 (1988). He also determined that the new regulations are more in
keeping with the original intent of the statute,
are justified by client experience under the prior policy, and are supported by a shift in attitude against the ‘elimination of unborn children
by abortion.’ We believe that these justifications are sufficient to support the Secretary’s
revised approach. Having concluded that the
plain language and legislative history are ambiguous as to Congress’ intent in enacting Title
X, we must defer to the Secretary’s permissible
construction of the statute.
Id. at 173.
As for the Separation Requirement, the Court
found that “the program integrity requirements are
based on a permissible construction of the statute and
are not inconsistent with congressional intent.” Id. at

103a
188. Once again, the Secretary adequately justified his
reasoning:
Indeed, if one thing is clear from the legislative
history, it is that Congress intended that Title X funds be kept separate and distinct from
abortion-related activities. It is undisputed
that Title X was intended to provide primarily
prepregnancy preventative services. Certainly
the Secretary’s interpretation of the statute
that separate facilities are necessary, especially
in light of the express prohibition of § 1008,
cannot be judged unreasonable. Accordingly,
we defer to the Secretary’s reasoned determination that the program integrity requirements
are necessary to implement the prohibition.
Id at 190.
Although the Court allowed the 1988 rules to stand,
HHS never implemented those regulations on a national scale. 65 Fed. Reg. at 41,271. And, in 1993, HHS
suspended the 1988 regulations, finding them to be “an
inappropriate implementation of the Title X statute.”
58 Fed. Reg. at 7464.
In 1996 (five years after the Supreme Court’s decision in Rust), Congress clarified that its prohibition on
Title X abortion funding did not prohibit the nondirective counseling of pregnant women. To the contrary, Congress mandated that “all pregnancy counseling shall be nondirective” with respect to Title X. Omnibus Consolidated Rescissions and Appropriations
Act, 1996, Pub. L. No. 104-134, Title II, 110 Stat. 1321
(1996). This congressional mandate has appeared in
every subsequent Title X appropriations statute from
1996 until present. See Department of Defense and
Labor, Health and Human Services, and Education

104a
Appropriations Act, 2019 and Continuing Appropriations Act, 2019, Pub. Law. No 115-245, Title II, 132
Stat. 2981, 3070-71 (September 28, 2018).
In 2000, HHS issued new Title X rules that remain
in effect to this day. The 2000 regulations officially revoked the 1988 rules that were validated by the Rust
court but never implemented by HHS. The agency
concluded that the Gag Rule from the 1988 rules “endangers women’s lives and health by preventing them
from receiving complete and accurate medical information and interferes with the doctor-patient relationship by prohibiting information that medical professionals are otherwise ethically and legally required to
provide to their patients.” 65 Fed. Reg. at 41,270. The
2000 rules required the provider to offer the pregnant
woman the opportunity to be “provided information
and counseling regarding each of the following options:
(A) Prenatal care and delivery; (B) Infant care, foster
care, or adoption; and (C) Pregnancy termination. 65
Fed. Reg. at 41,279. Regarding nondirective counseling, the 2000 rules provided:
If requested to provide such information and
counseling, provide neutral, factual information
and nondirective counseling on each of the options, and referral upon request, except with
respect to any option(s) about which the pregnant woman indicates she does not wish to receive such information and counseling.
Id.
Nondirective counseling meant the grantee “may
not steer or direct clients toward selecting any” option,
including abortion[.]” Id. at 41,273. Referrals for abortion were once again allowed, provided the client requested such a referral. Id. at 41,274. Finally, HHS

105a
determined that financial separation, rather than financial and physical separation, was sufficient to abide by
Section 1008.
Ten years after HHS implemented the 2000 regulations still in place today, Congress spoke again on the
matter. In passing the Affordable Care Act in 2010,
Congress once again limited the rulemaking authority
of HHS. There, Congress expressly prohibited HHS
from promulgating any regulation that:
(1) creates any unreasonable barriers to the
ability of individuals to obtain appropriate
medical care; (2) impedes timely access to
health care services; (3) interferes with communications regarding a full range of treatment
options between the patient and the provider;
(4) restricts the ability of health care providers
to provide full disclosure of all relevant information to patients making health care decisions; (5) violates the principles of informed
consent and the ethical standards of health care
professionals; or (6) limits the availability of
health care treatment for the full duration of a
patient’s medical needs.
42 U.S.C. § 18114.
Given the above context, I turn to the Final Rule at
issue here. HHS published the Final Rule in the Federal Register on June 1, 2018. During the 60-day public
comment period, HHS received more than 500,000
comments. Certain revisions were made to the proposed rule and HHS published the Final Rule in the

106a
Federal Register on March 4, 2019.1 The rule has an
implementation date of May 3, 2019.
As expressed by HHS in its executive summary,
the purpose of the Final Rule, as it relates to Section
1008, is “to ensure compliance with, and enhance implementation of, the statutory requirement that none of
the funds appropriated for Title X may be used in programs where abortion is a method of family planning.”
84 Fed. Reg. at 7717. For purposes of this litigation,
Plaintiffs’ claims center on two aspects of the final rule
that they refer respectively to as: (1) The Gag Rule;
and (2) The Separation Requirement.
Turning first to the Gag Rule, the Final Rule provides that a “Title X project may not perform, promote,
refer for, or support abortion as a method of family
planning, nor take any other affirmative action to assist
a patient to secure such an abortion.” 84 Fed. Reg. at
7788-89 (to be codified at 42 C.F.R. § 59.14). Without
doubt, the Final Rule limits the provider’s options
when presented with a pregnant woman.
First, once a patient is identified as pregnant, “she
shall be referred to a health care provider for medically
necessary prenatal health care.” 84 Fed. Reg. at 7789
(to be codified at 42 C.F.R. § 59.14). This referral for
prenatal health care is mandatory. Next, the provider
may, but is not required to, “provide the following
counseling and/or information to her:”

1

Plaintiffs filed their complaints the following day, on March
5, 2019. Due to the closely-approaching implementation date, the
court set an expedited briefing schedule and, just days ago, heard
oral arguments.

107a
(i) Nondirective pregnancy counseling, when
provided by physicians or advanced practice providers;
(ii) A list of licensed, qualified, comprehensive
primary health care providers (including
providers of prenatal care);
(iii) Referral to social services or adoption
agencies; and/or
(iv) Information about maintaining the health
of the mother and unborn child during
pregnancy.
Id.
If the provider chooses to provide a list of comprehensive health care providers, the list “may be limited
to those that do not provide abortion, or may include
licensed, qualified, comprehensive primary health care
providers (including providers of prenatal care), some,
but not the majority, of which also provide abortion as
part of their comprehensive health care services. Neither the list nor project staff may identify which providers on the list perform abortions.” Id.
Plaintiffs also challenge the Final Rule’s Separation
Requirement. The Separation Requirement provides
that any “Title X project must be organized so that it is
physically and financially separate ... from activities
which are prohibited [in the Final Rule].” 84 Fed. Reg.
at 7789 (to be codified at 42 C.F.R. § 59.15). According
to HHS, complete physical and financial separation between a Title X program and any activities falling outside of Title Xis necessary to: (1) comply with Section
1008; (2) eliminate the “significant risk for public confusion” over whether Title X funds are allocated for abortion-related purposes; and (3) “address the concern that
Title X resources could facilitate the development of,

108a
and ongoing use of, infrastructure for non-Title X activities.” 84 Fed. Reg. at 7715.
Plaintiffs ask the court to issue a nationwide preliminary injunction restraining HHS from implementing· the Final Rule. Absent an injunction, the Final
Rule goes into effect in four days, on May 3, 2019.
STANDARDS
A plaintiff seeking a preliminary injunction must
establish: ( 1) likelihood of success on the merits; (2)
irreparable harm in the absence of preliminary relief;
(3) the balance of equities tips in his favor; and (4) an
injunction is in the public interest. Winter v. Nat. Res.
Def Council, Inc., 555 U.S. 7, 20 (2008). When, as here,
the government is a party, the last two factors merge.
Drakes Bay Oyster Co. v. Jewell, 747 F.3d 1073, 1092
(9th Cir. 2014). When there are “serious questions going to the merits,” a court may still issue a preliminary
injunction when “the balance of hardships tips sharply
in the plaintiffs favor,” and the other two factors are
met. All. for the Wild Rockies v. Pena, 865 F.3d 1211,
1217 (9th Cir. 2017) (quoting All. for the Wild Rockies
v. Cottrell, 632 F.3d 1127, 1135 (9th Cir. 2011)). The
court’s decision on a motion for a preliminary injunction
is not a ruling on the merits. See Sierra On-Line, Inc.
v. Phoenix Software, Inc., 739 F.2d 1415, 1422 (9th Cir.
1984).
DISCUSSION
Under the APA, a court’s review of an agency decision should be searching but narrow, and the reviewing
court should take care not to substitute its judgment
for that of the agency. Oregon Wild v. United States,
107 F. Supp. 3d 1102, 1109 (D. Or. 2015) (citing Citizens
to Preserve Overton Park v. Volpe, 401 U.S. 402,416

109a
(1971)). Under this review, the court “shall hold unlawful and set aside agency action, findings, and conclusions found to be arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law.”
5 U.S.C. § 706.
As noted, many of the arguments put forward by
Plaintiffs are ones the Supreme Court previously rejected when considering the (remarkably similar) rules
in Rust. At first blush, one could be persuaded that
Rust controls the outcome here. In fact, most of HHS’s
arguments—specifically in its written response, where
it cited Rust on 168 occasions—simply point to Rust as
evidence the Final Rule is a lawful exercise of agency
discretion. See Defs.’ Opp’n, 17; ECF No. 83 (“Rust’s
on-point statutory holding—and the remarkable overlap between Plaintiffs’ arguments and the ones Rust
rejected—disposes of the claim that the materially indistinguishable Rule is unlawful.”).
HHS would seemingly have the court believe Rust
concluded the Gag Rule and Separation Requirement
were required interpretations of Section 1008. But
Rust contains no such holding. Rust merely held that
in light of the ambiguous nature behind Congress’s intent in enacting Title X generally, and Section 1008
specifically, HHS’s interpretation of Section 1008 was
not unreasonable:
The broad language of Title X plainly allows
the Secretary’s construction of the statute. By
its own terms, § 1008 prohibits the use of Title
X funds “in programs were abortion is a method of family planning.” Title X does not define
the term “method of family planning,” nor does
it enumerate what types of medical and counseling services are entitled to Title X funding.

110a
Based on the broad directives provided by
Congress in Title X in general and § 108 in particular, we are unable to say that the Secretary’s construction of the prohibition in § 1008
to require a ban on counseling, referral, and
advocacy within the Title X project is impermissible.
Rust, 500 U.S. at 184.
Additionally, the Court clarified that “[a]t no time
did Congress directly address the issues of abortion
counseling, referral, or advocacy.” Id. at 185. Given
the lack of direction from Congress, and considering
HHS provided ample justification for its reasoning in
revising the rules, the Court deferred to the agency’s
“permissible construction of the statute.” Id. at 187.
Two significant facts, however, separate this case
from Rust. First, Congress has consistently mandated
since 1996 that “that all pregnancy counseling shall be
nondirective” with respect to Title X. Omnibus Consolidated Rescissions and Appropriations Act, 1996 Pub.
L. No. 104-134, Title II, 110 Stat. 1321, 1321-22 (1996).
Second, the 2010 limitations Congress included in the
Affordable Care Act significantly limit HHS’s rulemaking authority. Therefore, HHS must do more than
merely dust off the 30-year old regulations and point to
Rust.
HHS makes the head-scratching argument that
neither of the post-Rust laws enacted by Congress can
serve as an implied repeal of Section 1008 or overrule
Rust. HHS argues, “A clear, authoritative judicial
holding on the meaning of a particular provision should
not be cast in doubt and subjected to challenge whenever a related though not utterly inconsistent provision
is adopted in the same statute or even in an affiliated

111a
statute.” Defs.’ Opp’n, 19 (quoting TC Heartland LLC
v. Kraft Foods Grp. Brands LLC, 137 S. Ct. 1514, 1520
(2017)). That premise is certainly correct. But TC
Heartland involved a statutory term the Supreme
Court previously had “definitively and unambiguously
held ... has a particular meaning[.]” 137 S. Ct. at 1520.
The Court therefore quite appropriately pointed out
that “[T]he modification by implication of the settled
construction of an earlier and different section is not
favored.” Id. (quoting United States v. Madigan, 300
U.S. 500, 506 (1937)). But the rule regarding implied
repeal has no application here, where Rust expressly
held that the statute in question was ambiguous.
Again, Rust merely held that because Congress had not
spoken on the matter, HHS’s Gag Rule and Separation
Requirement were reasonable interpretations of Section 1008 at that time. But Congress has since spoken
on the matter.
Additionally, I note that absolutely nothing in the
appropriations mandate that “all pregnancy counseling
shall be nondirective,” or the express limitations Congress placed on HHS’s rulemaking authority in the
ACA, necessarily conflict with Section 1008’s requirement that “[n]one of the funds appropriated under this
subchapter shall be used in programs where abortion is
a method of family planning.” HHS’s vigor in arguing
that the appropriations act and the ACA “cannot repeal
Section 1008” or “overrule Rust” only demonstrates
that the Final Rule conflicts with both statutes. After
all, not all interpretations place the three statutes at
odds with one another. The current regulations, which
have been in place for nearly five decades, allow Section 1008, the appropriations language, and the ACA
restrictions to live in harmony. Rust explicitly commented that the plaintiffs’ argument that the legislative

112a
history behind Title X rendered the 1988 rules contrary
to law was, in fact, one permissible interpretation.
Rust, 500 U.S. at 189. But because HHS’s interpretation was also a permissible interpretation, deference to
the agency’s reasonable interpretation carried the day.
Id. (“While petitioner’s interpretation of the legislative
history may be a permissible one, it is by no means the
only one, and it is certainly not the one found by the
Secretary.”). The question now is whether, given the
two new statutes, HHS’s 30-year-old rules remain “one
permissible interpretation.”
I turn first to the Final Rule’s Gag Rule. As noted,
the Final Rule prohibits referrals for abortions. HHS
argues that although “all pregnancy counseling shall be
nondirective,” Congress said nothing about referrals.
This argument appears a stretch. First, HHS includes
referrals within pregnancy counseling in the Final
Rule. For example, in its guidance for nondirective
pregnancy counseling, the agency states, “Title X projects should not use nondirective pregnancy counseling,
or referrals made for prenatal care or adoption during
such counseling, as an indirect means of encouraging or
promoting abortion as a method of family planning.” 84
Fed. Reg. at 7747 (emphasis added). The above guidance aligns with Congress’s thoughts on referrals.
Congress, in ordering HHS to make grants available to
assist “in providing adoption information and referrals
to pregnant women on an equal basis with all other
courses of action included in nondirective counseling
to pregnant women,” clearly included referrals in nondirective counseling. 42 U.S.C. § 254c-6(a)(l) (emphasis
added).
Although common sense, the agency’s own guidance, and Congress’s statutory language indicate pregnancy counseling includes referrals, a different outcome

113a
would not save the Final Rule from violating the requirement that all pregnancy counseling be nondirective. Regardless of the referral process (discussed
further below), the Final Rule blatantly requires that
any pregnancy counseling for abortion be directive.
For the Final Rule, this is a problem, as it is well established that Congress “may amend substantive law in an
appropriations statute, as long as it does so clearly.”
Robertson v. Seattle Audobon Soc’y, 503 U.S. 429,441
(1992). Congress is quite clear on its thoughts regarding pregnancy counseling: “all pregnancy counseling
shall be nondirective.”
Although the Final Rule does not define “nondirective counseling,” it provides guidance on the term.
The agency describes “nondirective counseling” as:
the meaningful presentation of options where
the physician or advanced practice provider
(APP) is not suggesting or advising one option
over another. ... Nondirective counseling does
not mean that the counselor is uninvolved in
the process or that counseling and education offer no guidance, but instead that clients take an
active role in processing their experiences and
identifying the direction of the interaction. In
nondirective counseling, the Title X physicians
and APPs promote the client’s self-awareness
and empower the client to be informed about a
range of options, consistent with the client’s
expressed need and with the statutory and
regulatory requirements governing the Title X
program. In addition, the Title X provider
may provide a list of licensed, qualified, comprehensive primary health care providers (including providers of prenatal care), some (but
not the majority) of which may provide abor-

114a
tion in addition to comprehensive primary
care.”2
84 Fed. Reg. at 7716 (internal quotations, citation, and
footnote omitted) (emphasis added).
Examining the Final Rule’s requirement for abortion counseling confirms it is anything but nondirective.
After confirming that the provider need not provide
any pregnancy counseling at all, the Final Rule outlines
what counseling is permissible should the provider decide to offer such counseling:
Nondirective counseling is designed to assist
the patient in making a free and informed decision. In nondirective counseling, abortion
must not be the only option presented by physicians or APPs; otherwise the counseling would
violate the Congressional directive that all
pregnancy counseling be nondirective, but also
the prohibitions in this rule on encouraging,
advocating, or supporting abortion as a method
of family planning, which the Department prohibits in order to implement, among other provisions, section 1008. Each option discussed in
such counseling must be presented in a nondirective manner. This involves presenting the
options in a factual, objective, and unbiased
manner and (consistent with the other Title X
requirements and restrictions) offering factual
resources that are objective, rather than pre2

The emphasized portion, concerning a type of referral, which
appears in the Final Rule’s section on guidance for what “Nondirective pregnancy counseling is,” is yet another example that the
agency (along with all of the expert opinions submitted in the record) views referrals as simply one portion of the entire counseling
process.

115a
senting the options in a subjective or coercive
manner. Physicians or APPs should discuss
the possible risks and side effects to both mother and unborn child of any pregnancy option
presented, consistent with the obligation of
health care providers to provide patients with
accurate information to inform their health care
decisions.
84 Fed. Reg. at 7747 (emphasis added).
Like nearly every other aspect of the Final Rule,
the agency creates one set of rules for abortion, and a
separate set of rules for everything else. Back in 1988,
this was a permissible interpretation of the then lone
congressional requirement that no Title X funds “be
used in programs where abortion is a method of family
planning.” But when implementing a rule in 2019, HHS
must comply not only with Section 1008, but also with
Congress’s requirement that “all pregnancy counseling
be nondirective.” HHS’s mistake, here and throughout
the Final Rule, assumes that Section 1008 trumps Congress’s other mandates. But as noted above, the statutes are not irreconcilable.
For all pregnancy counseling not involving abortion, the Final Rule allows “the clients [to] take an active role in processing their experiences and identifying
the direction of the interaction ... [while allowing the
providers to] promote the client’s self-awareness and
empower the client to be informed about a range of options, consistent with the client’s expressed need[.]” 84
Fed. Reg. at 7716 (emphasis added). This is not the
case, however, if the empowered client wishes to exercise abortion in that range of options. During abortion
counseling, the medical professional no longer provides
neutral, factual information “consistent with the client’s

116a
expressed need[.]” Fed. Reg. at 7716. Instead, the
provider must provide counseling regarding some other
option the client has no use for, even when it is not requested by the client or even medically relevant.3 The
Gag Rule is the very definition of directive counseling.
It makes no difference that HHS labels this process
“nondirective counseling,” or that HHS states such requirements are necessary to avoid, according to HHS’s
own interpretation, “the prohibitions in this rule on encouraging, advocating, or supporting abortion as a
method of family planning [under Section 1008].” 84
Fed. Reg. at 7747. It is clear that while giving lip service to the requirement that all pregnancy counseling
be nondirective, HHS never sought to actually interpret that mandate in coordination with Section 1008.
As the Gag Rule is not “in accordance with the law,” it
violates the APA. 5 U.S.C. § 706(2)(A).
As odd as the pregnancy counseling process is, it
pales in comparison to the Final Rule’s requirements
for abortion referrals. One would expect to find such a
process not in a federal program serving millions of clients, but in a Kafka novel. As described above, if a
woman seeks to have a legal abortion and requests a
referral from her Title X provider, the Final Rule requires a referral for prenatal care. That is, the provider is mandated to refuse to provide the referral the client wants, and instead provide a referral the client nei3

For some reason—and the Court struggles here with finding
any rational relationship to any medical purpose—the Final Rule
allows, and in fact encourages, that the provider “should discuss
the possible risks and side effects to both mother and unborn child
of any pregnancy option presented[.]” 84 Fed. Reg. at 7747. In
other words, the Final Rule encourages the provider to counsel a
woman who has chosen to proceed with a legal abortion on the
possible risks and side effects to the fetus.

117a
ther needs nor requested. See 84 Fed. Reg. 7789 (to be
codified at 42. C.F.R. § 59.14(b)) (requiring that after
the client is “verified as pregnant, she shall be referred
to a health care provider for medically necessary prenatal health care”).
Amazingly, the Final Rule allows the provider, at
its whim, to refer the woman not to an abortion clinic,
but to an adoption agency. Id. § 59.14(b)(l)(iii).4 Or, the
provider may provide a list of primary care providers,
none of whom actually perform abortions.
Id.
§ 59.14(c)(2). The rule also allows the counselor to provide “[i]nformation about maintaining the health of the
... unborn child during pregnancy.” Id. § 59.14(b)(l)(iv).
Possibly, the woman might be lucky enough to live
near a Title X provider who—in accordance with the
professional ethical obligations of medical providers—
agrees to refer a woman seeking an abortion to an actual abortion clinic. Even then, the woman is not much
closer to actually receiving a proper referral. One
would think the provider could simply say, “We do not
perform abortions. Title X does not allow Title X funds
to be used to perform abortions. But here is a referral
to an independent medical provider, who receives no
Title X funds, who will help you.” But the Final Rule
does not allow that. Instead, after referring the woman
to a provider of prenatal care (as is mandatory), the
provider may provide “[a] list of licensed, qualified,
comprehensive primary health care providers (including providers of prenatal care)[.]” Id. § 59.14(b)(l)(ii). If
the sympathetic counselor provides this list, HHS al4

It is difficult to comprehend that Congress would so adamantly require that all pregnancy counseling be nondirective, only
to later allow the provider to refer a woman seeking an abortion to
an adoption agency.

118a
lows the list to include some providers “which also provide abortion as part of their comprehensive health
care services.” Id. § 59.14(c)(ii). However, in what one
imagines would come as a shock to this poor woman,
the list is prohibited from including a majority of providers who actually provide abortion services. Id. At
this point, the woman is staring at multiple names on a
list. As is usual in the medical setting, she might ask
the provider, whom she trusts, for a single recommendation. At this point, the provider may only say, “I’m
sorry, I cannot help you.” In the agency’s zeal to limit
any abortions, even legal abortions provided outside
the Title X program, the Final Rule states, “Neither
the list nor project staff may identify which providers
on the list perform abortions.” Id.
The Gag Rule is remarkable in striving to make
professional health care providers deaf and dumb when
counseling a client who wishes to have a legal abortion
or is even considering the possibility. The rule handcuffs providers by restricting their responses in such
situations to providing their patient with a list of primary care physicians who can assist with their pregnancy without identifying the ones who might perform
an abortion. Again, the response is required to be, “I
can’t help you with that or discuss it. Here is a list of
doctors who can assist you with your pre-natal care despite the fact that you are not seeking such care. Some
of the providers on this list—but in no case more than
half—may provide abortions services, but I can’t tell
you which ones might. Have a nice day.”5 This is madness. Plaintiffs have shown what is reflected in the
5

This is as silly as it is insulting. I cannot imagine visiting my
urologist’s office to request a vasectomy, only to be given a list of
fertility clinics. I would think that my doctor had gone mad.

119a
sophistry of the Final Rule itself—that they are likely
to succeed on their claim that the Gag Rule is contrary
to law. I tum now to the Separation Requirement.
As noted, the Separation Requirement requires
physical and financial separation of Title X services and
those services prohibited under the Final Rule. 84 Fed.
Reg. at 7789 (to be codified at 42 C.F.R. § 59.15). Separation is required not only if the provider itself performs abortions, but when the provider performs any
activities that, in HHS’s view, “promote ... or support
abortion as a method of family planning[.]” Id. at 778889 (to be codified at 42 C.F.R. § 59.14). In short, any
activity prohibited by the Gag Rule must have no connection, physically or financially, from activities allowed under the Final Rule. See id. at 7789 (to be codified at 42 C.F.R. § 59.15 (requiring separation of activities prohibited under Section 1008 as well as 42 C.F.R.
§§ 59.13, 59.14, 59.16)).
To ensure that a Title X grantee is in compliance
with the Separation Requirement, the Final Rule allows the agency to consider the following facts and circumstances:
(a) The existence of separate, accurate accounting records;
(b) The degree of separation from facilities
(e.g. treatment, consultation, examination
and waiting rooms, office entrances and exits, shared phone numbers, email addresses, educational services, and websites) in
which prohibited activities occur and the
extent of such prohibited activities;
(c) The existence of separate personnel, electronic or paper-based health care records,
and workstations; and

120a
(d) The extent to which signs and other forms
of identification of the Title X project are
present, and signs and material referencing
or promoting abortion are absent.
Id. at 7789 (to be codified at 42 C.F.R. § 59.15)
In explaining its reasoning for adding physical separation in addition to the previous requirement of financial separation, the agency does not once mention
consideration of any limitations Congress imposed under the ACA. Instead, the agency focuses solely on
Section 1008 and Rust. Id. at 7763-7767.
As noted, Congress passed the Affordable Care Act
in 2010. The ACA spoke directly to HHS, prohibiting it
from promulgating any regulation that:
(1) creates any unreasonable barriers to the
ability of individuals to obtain appropriate
medical care; (2) impedes timely access to
health care services; (3) interferes with communications regarding a full range of treatment
options between the patient and the provider;
(4) restricts the ability of health care providers
to provide full disclosure of all relevant information to patients making health care decisions; (5) violates the principles of informed
consent and the ethical standards of health care
professionals; or (6) limits the availability of
health care treatment for the full duration of a
patient’s medical needs.
42 U.S.C. § 18114.
HHS first argues that Plaintiffs waived any ACAbased challenge to the Final Rule. First, the court is
skeptical that an agency may defend an action challenging the scope of the agency’s authority solely with an

121a
argument that the plaintiff waived any such challenge.
See Sierra Club v. Pruitt, 293 F. Supp. 3d 1050, 1061
(N.D. Cal. 2018) (noting “the waiver rule does not apply
to preclude argument where the scope of the agency’s
power to act is concerned.”). HHS’s waiver argument
relies on the premise that, so long as no one specifically
challenges the agency’s authority during the notice and
comment period, the agency has the freedom to act in
blatant violation of its Congressional authorization.
Regardless, I conclude Plaintiffs have not waived
any challenge based on the ACA. Waiver does not apply “if an agency has had the opportunity to consider
the issue.” Portland Gen. Elec. Co. v. Bonneville Power Admin., 501 F.3d 1009, 1024 (9th Cir. 2007). This is
true even if a third party, as opposed to the plaintiffs,
put the agency on notice by providing the agency the
opportunity to correct its error. Id. Here, while not
specifically pointing to 42 U.S.C. § 18114, multiple
commenters objected under each prong of the statute.
See AMA Reply, 11-12 n.3; ECF No. 119 (meticulously
matching specific comments to each prong of 42 U.S.C.
§ 18114); see also States’ Reply, 9 n.7; ECF No. 121
(same).
HHS’s other arguments regarding why Section
18114 does not apply to Title X are unpersuasive. HHS
argues that had Congress wanted to limit Title X, it
would have listed the title in Section 18114. HHS also
argues the restrictions are somehow “overbroad” or
“open-ended.” Simply because Congress specifically
sought to limit the general scope of HHS’s rulemaking
abilities, however, does not somehow render the limitations invalid. See Bowen v. Georgetown Univ. Hosp.,
488 U.S. 204,208 (1988) (“It is axiomatic that an administrative agency’s power to promulgate legislative regulations is limited to the authority delegated by Con-

122a
gress.”). That regulations issued by HHS 30 years ago
might clash with limitations Congress later placed on
HHS does not mean HHS may ignore the newer restrictions.
That Congress intended in Section 18114 to limit
HHS’s rulemaking authority appears clear. Before delineating the six new restrictions, Congress stated,
“Notwithstanding any other provision of this Act, the
Secretary of Health and Human Services shall not
promulgate any regulation that . ...” 42 U.S.C. § 18114.
The Final Rule, of course, is a regulation promulgated
by HHS. The agency argues the language, ‘‘Notwithstanding any other provision of this Act,” means Congress meant the limitations to apply only to regulations
the ACA authorized HHS to implement. I disagree.
That language merely indicates that the specific limitations in Section 18114 override any conflicting provisions of the ACA. See Field v. Napolitano, 663 F.3d
505, 511 (1st Cir. 2011) (noting that statute’s use of
“Notwithstanding any other provision of law” “clearly
signals the drafter’s intention that the provisions of
‘notwithstanding’ section override conflicting provisions of any other section”) (quoting Cisneros v. Alpine
Ridge Grp., 508 U.S. 10, 18 (1993)). The Supreme Court
agrees that “notwithstanding” language indicates the
drafter intended “to supersede all other laws” and that
a “clearer statement is difficult to imagine.” Cisneros,
508 U.S. at 18 (citation omitted).
I conclude Plaintiffs have demonstrated the limitations in Section 18114 likely apply to the Final Rule.
The first and second limitations prohibit HHS from implementing any regulation that: “(1) creates any unreasonable barriers to the ability of individuals to obtain
appropriate medical care; [or] (2) impedes timely access
to health care services[.]” 42 U.S.C. § 18114. At this

123a
stage, there is at least a strong argument to be made
that the Separation Requirement creates unreasonable
barriers to Title X clients obtaining appropriate medical care and impedes their timely access to such care.
To ensure compliance with the rule, HHS encourages
Title X providers to maintain one set of offices for Title
X services and physically separate offices for any service prohibited by the Gag Rule. 84 Fed. Reg. at 7789.
The provider should ensure the offices do not share entrances or exits, waiting rooms, or even websites. Id.
The provider must ensure the separate offices maintain
“[t]he existence of separate personnel, electronic or paper-based health care record, and workstations[.]” Id.
Although the declarations indicate the financial burdens will severely strain already tight budgets, I also
am mindful of the fact that many of the rules underlying the Separation Requirement would impinge on the
ability of providers to engage in nondirective counseling, in contrast with the congressional mandate.
Even assuming, however, that the ACA does not
apply to the Final Rule, or that the Separation Requirement does not create impermissible barriers to
client care, Plaintiffs have demonstrated, at worst, serious questions going to the merits of their claims that
the Final Rule is arbitrary and capricious. “Normally,
an agency rule would be arbitrary and capricious if the
agency has relied on factors which Congress has not
intended it to consider, entirely failed to consider an
important aspect of the problem, offered an explanation
for its decision that runs counter to the evidence before
the agency, or is so implausible that it could not be ascribed to a difference in view or the produce of agency
expertise.” Motor Vehicle Manufacturers Ass ‘n v.
State Farm Mutual Auto. Ins. Co., 463 U.S. 29, 43
(1983).

124a
Based on the record currently before the Court, the
Final Rule appears to force medical providers to either
drop out of the program or violate their codes of professional ethics. James L. Madara, MD, is a Medical
Doctor, the Chief Executive Officer and Executive Vice
President of the AMA, and an adjunct professor of pathology at Northwestern University. Madara Decl. ¶ 1;
ECF No. 49. The AMA “is the largest professional association of physicians, residents, and medical students
in the United States.” Id. ¶ 5. To call the AMA the
leading organization regarding medical ethics is practically an understatement. The AMA literally wrote the
book on medical ethics. “The AMA has published the
Code of Medical Ethics of the American Medical Association since 1847. This was the first modem national
medical ethics code in the world and continues to be the
most comprehensive and well respected code for physicians, world-wide.” Id. ¶ 13. Dr. Madara outlines several troubling aspects of the Final Rule:6
17. “Except in emergency situations in which a
patient is incapable of making an informed decision, withholding information without the patient’s knowledge or consent is ethically unacceptable.” Code of Medical Ethics Opinion
2.1.3. Withholding Information from Patients.
18. Therefore, patients have the right “to receive information from their physicians and to
have the opportunity to discuss the benefits,
risks, and costs of appropriate treatment alternatives ... [P]atients should be able to expect
6

Dr. Madera alerted HHS to the AMA’s concerns during the
Final Rule’s notice and comment period. Madera Decl. ¶ 3 (citing
July 31, 2018 letter—available at http://www.regulations.gov/
document?D=HHS-OS-2018-0008-179739—from AMA to HHS).

125a
that their physicians will provide guidance
about what they consider the optimal course of
action for the patient based on the physician’s
objective professional judgment.” Code of
Medical Ethics Opinion 1.1.3. Patient Rights.
Further, patients have a right to “expect that
their physician will cooperate in coordinating
medically indicated care with other health care
professionals[.]” Id. Finally, physicians should
“[h]onor a patient’s request not to receive certain medical information.” Code of Medical
Ethics Opinion 2.1.3. Withholding Information
from Patients.
19. Physicians are ethically obligated to “[b]ase
the decision or recommendation [to consult or
refer] on the patient’s medical needs, as they
would for any treatment recommendation, and
consult or refer the patient to only health care
professionals who have appropriate knowledge
and skills and are licensed to provide the services needed.” Code of Medical Ethics Opinion
1.2.3. Consultation, Referral, & Second Opinions.
20. Within the treating relationship, the “physician must be sensitive to the imbalance of
power in the patient-physician relationship, as
well as to the patient’s vulnerability[, and]
must not allow differences with the patient or
family about political matters to interfere with
the delivery of professional care.” Code of
Medical Ethics Opinion 2.3.4. Political Communications.
Madara Decl. (ellipses and alterations in original).

126a
Dr. Madera concludes that “the Final Rule would
require doctors to violate each of these fundamental
ethical and professional norms.”7 Madara Decl. ¶ 21. In
examining the Final Rule, it is readily apparent how
Dr. Madera reached his conclusion. The Final Rule, by
requiring a referral for prenatal care to a woman seeking an abortion, and by requiring that the patient receive unnecessary counseling in addition to abortion
counseling, mandates that providers provide medical
information that patient does not need and, almost certainly, does not request. Those requirements also prohibit the physician from basing the counseling or referral on the patient’s actual medical needs. By requiring
that any list provided for an abortion referral contain
some providers who do not perform abortions, and by
prohibiting physicians from identifying the abortion
providers, the Final Rule “is an instruction to physicians to intentionally mislead patients, which, if followed, is an instruction for physicians to directly violate
the Code of Medical Ethics[.]”8 Madera Decl. ¶ 25 (citing Opinions 1.1.1, 1.1.3, 1.2.3, 2.1.3, and 2.3.4).
As the Final Rule contradicts this persuasive evidence from the leading expert on medical ethics, HHS
must have a plausible explanation outlining its rationale
for rejecting the evidence and reaching a different con7

Although this opinion only references Dr. Madera’s declaration, Plaintiffs presented numerous expert opinions, each essentially arriving at the same conclusion reached by Dr. Madera.
Other than relying on the Final Rule itself and Rust, HHS provided no evidence in rebuttal.
8

Should the ACA in fact apply to the Final Rule, the objections noted by Dr. Madera indicate the Gag Rule likely violates
each of the six limitations Congress imposed on HHS’s rulemaking
authority.

127a
clusion. Motor Vehicle Manufacturers Ass’n, 463 U.S.
at 43. Once again, however, HHS’s justifications are
lacking. HHS simply brushes aside any concerns and,
in a generic and conclusory fashion, asserts the Final
Rule violates no ethical obligations. As HHS’s response to comments is relatively brief, and demonstrates the agency never addressed, and does not appear to have even considered, the specific objections
noted above, I include HHS’s entire explanation:
The Department disagrees with commenters
contending the proposed rule, to the extent it is
finalized here, infringes on the legal, ethical, or
professional obligations of medical professionals. Rather, the Department believes that the
final rule adequately accommodates medical
professionals and their ethical obligations while
maintaining the integrity of the Title X program. In general, medical ethics obligations
require the medical professional to share full
and accurate information with the patient, in
response to her specific medical condition and
circumstance. Under the terms of this final
rule, a physician or APP may provide nondirective pregnancy counseling to pregnant Title X clients on the patient’s pregnancy options,
including abortion. Although this occurs in a
postconception setting, Congress recognizes
and permits pregnancy counseling within the
Title X program, so long as such counseling is
nondirective. The permissive nature of this
nondirective pregnancy counseling affords the
physician or APP the ability to discuss the
risks and side effects of each option, so long as
this counsel in no way promotes or refers for
abortion as a method of family planning. It

128a
permits the patient to ask questions and to
have those questions answered by a medical
professional. Within the limits of the Title X
statue and this final rule, the physician or APP
is required to refer for medical emergencies
and for conditions for which non-Title X care is
medically necessary for the health and safety of
the mother or child.
84 Fed. Reg. at 7724.
Although acknowledging that medical ethics “require the medical professional to share full and accurate
information with the patient, in response to her specific
medical condition and circumstance,” the agency nowhere squares that requirement with the Final Rule’s
requirement that all abortion counseling provide information not in fact specific to the patient’s medical
needs. Despite acknowledging providers must share
accurate information with the patient, HHS requires
any referral for abortion contain, at minimum, an equal
amount of information that is of no use to the pregnant
woman. That HHS appears to have failed to seriously
consider persuasive evidence that the Final Rule would
force providers to violate their ethical obligations suggests that the rule is arbitrary and capricious. See
Tesoro Alaska Petroleum Co. v. FE.R.C., 234 F.3d
1286, 1294 (D.C. Cir. 2000) (“The Commission’s failure
to respond meaningfully to the evidence renders its decisions arbitrary and capricious. Unless an agency answers objections that on their face appear legitimate,
its decision can hardly be said to be reasoned.”).
The Final Rule could well be arbitrary and capricious in other aspects as well. Plaintiffs argue HHS
failed to adequately account for the impact the Final
Rule will have on women, particularly women in rural

129a
areas. Because the Final Rule forces providers to
choose between violating ethical obligations or leaving
the Title X program, many providers, including
Planned Parenthood, informed HHS during the notice
and comment period that if HHS implemented the proposed regulation, the providers would exit the program. Planned Parenthood serves approximately 40%
of all Title X patients. Custer Decl. ¶ 8. Planned
Parenthood’s importance to the program is difficult to
overstate. “Rural and sparsely populated areas will be
harmed most. In those areas, Planned Parenthood is
often the only safety-net reproductive health care provider available to patients seeking publicly funded services. In more than half of the counties were Planned
Parenthood health centers were located in 2015 (238 of
415), Planned Parenthood served at least half of the
women by obtaining publicly supported contraceptive
services from a safety-net health center. In nearly 10%
of the rural counties (38 of 415), Planned Parenthood
was the only safety-net family planning center.” Id.
¶ 37 (internal footnotes omitted).
Planned
Parenthood’s absence would create a vacuum for family
planning services. “Other safety-net clinics that are not
forced from Title X will not be able to pick up the slack
and provide care to the 1.6 million women, men, and adolescents who today receive vital family planning services from Planned parenthood health centers that participate in the Title X program.” Id. ¶ 54.
The elimination of Title X providers would be detrimental to the public health. Many women, but especially low-income women, have no interactions with
health care providers outside of a Title X provider.
Brandis Decl. ¶ 18. The Final Rule will increase not
only unintended (and riskier) pregnancies, id. ¶ 23, but
abortions as well, id. ¶ 26. Reduced access to Title X

130a
health centers will result in less testing, increased
STIs, and more women suffering adverse reproductive
health symptoms. Id. ¶ 29.
One would imagine HHS relied on studies and research to determine the impact on women’s health
should a provider of nearly half of all Title X services
withdraw from the program. If HHS in fact relied on
something, it is not shown in this record. In fact, HHS
does not acknowledge the Title X program stands to be
cut in half on May 3, 2019. Instead, HHS baldly asserts
that “these final rules will contribute to more clients
being served, gaps in service being closed, and improved client care .... ” 84 Fed. Reg. at 7723. HHS anticipates new providers will step forward, providers
who earlier stayed away from the program due to abortion-related concerns. But HHS fails to show its work.
There is no transparency and no way to find out what,
if anything, HHS based its assumptions on. The record
is devoid of comments from potential providers ready,
willing, and able to fill the 1.6 million woman gap in
coverage left by Planned Parenthood’s exit. Again,
when HHS issued the above findings, it knew that,
should it implement the Final Rule, it would lose the
provider of nearly half of all Title X services within two
months. It could be that HHS relied on some internal
reports or studies. But on this record, HHS’s unsupported conclusions appear to run “counter to the evidence before the agency.” State Farm, 463 U.S. at 43.
As Plaintiffs have demonstrated a likelihood of success on the merits of their claims that the Final Rule is
contrary to law and arbitrary and capricious. I tum
next to whether Plaintiffs have shown “that irreparable
injury is likely in the absence of an injunction.” California v. Azar, 911 F.3d 558, 581 (9th Cir. 2018) (quoting Winter, 555 U.S. at 22). As HHS failed to introduce

131a
any evidence on this issue, the only evidence before me
is that if the Final Rule goes into effect, many Title X
providers will exit the program because, amongst other
reasons, the Final Rule violates established standards
of medical ethics. Notably, Planned Parenthood will
exit Title X if the rule is implemented. Kost Decl.
¶ 109; ECF No. 53. Although many other providers
state they too will exit the program, Planned
Parenthood is of unique importance because its “health
centers serve 41 % of women who rely on Title X sites
for contraceptive care.” Id. ¶ 110. In Vermont,
Planned Parenthood is the lone provider of Title X services. Holmes Decl. ¶¶ 6, 19. In fact, every state plaintiff submitted declarations stating they will lose much,
if not all of their current Title X funding should the rule
go into effect. States’ Br. 35-37. The likely harm to the
public health, in the form of an increase in sexually
transmitted disease and unexpected pregnancies, is not
speculative. Brandis Decl. ¶¶ 31, 47. This harm to the
public health will have a detrimental economic impact
on the states. The Ninth Circuit has recognized that
such economic harm (stemming from likely cuts to birth
control), and supported by evidence analogous to the
declarations provided here, sufficiently demonstrates a
threat of harm to a state’s economic interest. Azar, 911
F.3d at 571-73. Additionally, the Azar court concluded
such harm is sufficient to establish a likelihood of irreparable injury. Id. at 581 (noting that because the APA
permits relief “other than money damages,” such economic harm was irreparable) (quoting 5 U.S.C. § 702)).
Additionally, the balance of the equities and the
public interest tips sharply in favor of the Plaintiffs.
“The public interest is served by compliance with the
APA.” Id. “There is generally no public interest in the
perpetuation of unlawful agency action.” League of

132a
Women Voters of US. v. Newby, 838 F.3d 1, 12 (D.C.
Cir. 2016). There is ample evidence at this stage that
the Final Rule is unlawful. The unrebutted evidence
demonstrates, at this stage of the proceedings, that the
Final Rule would force medical providers to violate
their ethical and professional obligations. Additionally,
there is little harm in preserving the status quo. The
current regulations have been in place for nearly 50
years and have an excellent track record. With such
substantial questions surrounding the legality of the
Final Rule, and with the potential for great harm to
low-income women in particular should the rule go into
effect, these prongs of the preliminary injunction
standard tilt quite heavily in Plaintiffs’ favor.
The Ninth Circuit recently outlined concerns regarding overbroad injunctions. See Azar, 911 F.3d at
583-84 (noting detrimental impact on development oflaw and effects on nonparties). In crafting an injunction, “[t]he scope of remedy must be no broader and no
narrower than necessary to redress the injury show by
the plaintiff1s].” Id. at 584. Here, Planned Parenthood
operates in 48 states. Plaintiff AMA’s member physicians practice and reside in every state in the country.
Madara Decl. ¶ 7. AMA members (physicians and licensed health care practitioners) provide counseling to
pregnant women in the Title X program. Id. There is
ample evidence regarding the potential harm to the
public health of not only the plaintiff states, but the nation. Brandis Decl. ¶¶ 35-37, 45-54. Given that the
harm to Plaintiffs would occur in every state, and considering the balance of equities and the fact that Plaintiffs have demonstrated significant likelihood on the

133a
merits of their claims that the Final Rule is contrary to
law, a nationwide injunction is appropriate.9
CONCLUSION
Plaintiffs’ motions for a preliminary injunction are
GRANTED in full. Defendants, and their agents and
officers, are restrained from implementing or enforcing
any portion of the Final Rule detailed in 84 Fed. Reg.
7714-7791 (March 4, 2019) and shall preserve the status
quo under the current regulations pending further order from the Court. No bond is required.
IT IS SO ORDERED.

9

On Friday, HHS filed a response to a notice filed Thursday
regarding an injunction issued by Judge Bastian in the Eastern
District of Washington. Judge Bastian entered a nationwide injunction prohibiting HHS from implementing the Final Rule. HHS
argues there is no longer any likelihood of imminent harm. I disagree. As I understand it, the order submitted as an exhibit to
ECF No. 137 is a preliminary ruling which Judge Bastian intends
to follow with a final opinion sometime before May 3, 2019. Additionally, the Court understands Judge Chen in the Northern District of California issued an injunction last Friday restraining HHS
from implementing the rule in California. HHS here states it is
considering appealing Judge Bastian’s injunction, and asks this
Court to stay this matter. Specifically, HHS states that “Should
the government seek and obtain a stay of the Washington Order,
the Plaintiffs could move this Court to lift the stay, at which point
the Court would be in a position to rule promptly.” ECF No. 138,
3. The Court will allow a full briefing regarding whether a stay is
appropriate. At this point, a ruling on the pending motion is appropriate. Planned Parenthood provides service for nearly half of
the entire Title X program. They are a plaintiff in this action, not
the action pending before Judge Bastian.

134a
DATED this 29 day of April, 2019.
/s/ Michael J. McShane
Michael J. McShane
United States District Judge

135a
APPENDIX C
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WASHINGTON
No. 1:19-cv-03040-SAB
STATE OF WASHINGTON,
Plaintiff,
v.
ALEX M. AZAR II, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF THE UNITED STATES DEPARTMENT OF
HEALTH AND HUMAN SERVICES; AND UNITED STATES
DEPARTMENT OF HEALTH AND HUMAN SERVICES,
Defendants.
NATIONAL FAMILY PLANNING & REPRODUCTIVE
HEALTH ASSOCIATION, FEMINIST WOMEN’S HEALTH
CENTER, DEBORAH OYER, M.D. AND TERESA GALL,
F.N.P.
Plaintiffs,
v.
ALEX M. AZAR II, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF THE UNITED STATES DEPARTMENT OF
HEALTH AND HUMAN SERVICES; AND UNITED
STATES DEPARTMENT OF HEALTH AND
HUMAN SERVICES, DIANE FOLEY, M.D., IN HER
OFFICIAL CAPACITY AS DEPUTY ASSISTANCE
SECRETARY FOR POPULATION AFFAIRS, AND OFFICE
OF POPULATION AFFAIRS
Defendants.

136a
ORDER GRANTING PLAINTIFFS’ MOTIONS FOR
PRELIMINARY INJUNCTION
Filed April 25, 2019
Before the Court are Plaintiffs’ Motions for Preliminary Injunction, ECF Nos. 9 and 18. A hearing on the
motions was held on April 25, 2019. The State of Washington was represented by Jeffrey Sprung, Kristin
Beneski and Paul Crisalli. Plaintiffs National Family
Planning and Reproductive Health Association, et al.,
(NFPRHA) were represented by Ruth Harlow, Fiona
Kaye, Brigitte Amiri, Elizabeth Deutsch, and Joseph
Shaeffer. Defendants were represented by Bradley
Humphreys. The Court also received amicus briefs
from American Academy of Pediatrics, et al.; Institute
of Policy Integrity; State of Ohio, et al., and Susan B.
Anthony List. This Order memorializes the Court’s
oral ruling.
Introduction
Plaintiffs seek to set aside the Office of Population
Affairs (OPA), Department of Health and Human Services (“Department”) March 4, 2019 Final Rule that revises the regulations that govern Title X family planning programs. 84 Fed. Reg. 77141-01, 2019 WL
1002719 (Mar. 4, 2019). The new regulations were proposed to “clarify grantee responsibilities under Title X,
to remove the requirement for nondirective abortion
counseling and referral, to prohibit referral for abortion, and to clarify compliance obligations under state
and local laws … to clarify access to family planning
services where an employer exercises a religious and
moral objection … and to require physical and financial
separation to ensure clarity regarding the purpose of

137a
Title X and compliance with the statutory program integrity provisions, and to encourage family participation in family planning decisions, as required by Federal law.” Id.
Plaintiffs contend the Final Rule is in excess of the
agency’s statutory authority, is arbitrary and capricious, violates the Administrative Procedures Act, violates Title X requirements, violates congressional Nondirective Mandates, violates Section 1554 of the Patient
Protection and Affordable Care Act (“ACA”), and is
otherwise unconstitutional.
Plaintiffs assert the Final Rule is not designed to
further the purposes of Title X, which is to equalize access to comprehensive, evidence-based, voluntary family planning. Rather it is designed to exclude and eliminate health care providers who provide abortion care
and referral—which by extension will impede patients’
access to abortion—even when Title X funds are not
used to provide abortion care, counseling or referral.
Plaintiffs also believe the Final Rule appears to be
designed to limit patients’ access to modern, effective,
medically approved contraception and family planning
health care. Plaintiffs argue the Final Rule was designed by the Department to direct Title X funds to
providers who emphasize ineffective and inefficient
family planning.
Finally, Plaintiffs believe the Final Rule is politically motivated and not based on facts. Instead, it intentionally ignores comprehensive, ethical, and evidencebased health care, and impermissibly interferes with
the patient-doctor relationship.
Defendants assert the Final Rule adopted by the
Secretary is consistent with the Administrative Proce-

138a
dures Act, consistent with Title X, the Non-directive
Mandates, and Section 1554 of the ACA1, and is otherwise constitutional.
Defendants believe the Final Rule is indistinguishable from regulations adopted over 30 years ago, which
were held to be valid by the United States Supreme
Court in Rust v. Sullivan, 500 U.S. 173 (1991). Finally,
Defendants argue Plaintiffs have not shown, at this early stage in the litigation, that the Final Rule violates
Section 1008 of Title X—in fact, Plaintiffs cannot make
that showing—primarily because of Rust.
At issue in this hearing are Plaintiffs’ Motions for
Preliminary Injunction. The Final Rule is scheduled to
take effect on May 3, 2019. Plaintiffs seek to preserve
the status quo pending a final determination on the
merits.
Motion Standard
“A preliminary injunction is a matter of equitable
discretion and is ‘an extraordinary remedy that may
only be awarded upon a clear showing that a plaintiff is
entitled to such relief.’ ” California v. Azar, 911 F.3d
558, 575 (9th Cir. 2018) (quoting Winter v. NRDC, 555
U.S. 7, 22 (2008)). “A party can obtain a preliminary
injunction by showing that (1) it is ‘likely to succeed on
the merits,’ (2) it is ‘likely to suffer irreparable harm in
the absence of preliminary relief,’ (3) ‘the balance of eq1

Defendants also argue Plaintiffs have waived their argument that the Final Rule violates Section 1554 of the ACA by failing to refer to Section 1554 in their comments prior to the Final
Rule being published. It is doubtful that an APA claim asserting
that an agency exceeded the scope of its authority to act can be
waived. Moreover, it appears that during the rule making process
the agency was apprised of the substance of the violation.

139a
uities tips in [its] favor,’ and (4) ‘an injunction is in the
public interest.’ ” Disney Enters., Inc. v. VidAngel,
Inc., 869 F.3d 848, 856 (9th Cir. 2017) (alteration in original) (quoting Winter, 555 U.S. at 20). The Ninth Circuit uses a “sliding scale” approach in which the elements are “balanced so that a stronger showing of one
element may offset a weaker showing of another.”
Hernandez v. Sessions, 872 F.3d 976, 990 (9th Cir. 2017)
(quotation omitted). When the government is a party,
the last two factors merge. Drakes Bay Oyster Co. v.
Jewell, 747 F.3d 1073, 1092 (9th Cir. 2014). This means
that when the government is a party, the court considers the balance of equities and the public interest together. Azar, 911 F.3d at 575. “[B]alancing the equities is not an exact science.” Id. (quoting Youngstown
Sheet & Tube Co. v. Sawyer, 343 U.S. 579, 609 (1952)
(Frankfurter, J., concurring) (“Balancing the equities
… is lawyers’ jargon for choosing between conflicting
public interests”)).
Likelihood of success on the merits is the most important factor; if a movant fails to meet this threshold
inquiry, the court need not consider the other factors.
Disney, 869 F.3d at 856 (citation omitted). A plaintiff
seeking preliminary relief must “demonstrate that irreparable injury is likely in the absence of an injunction.” Winter, 555 U.S. at 22. The analysis focuses on
irreparability, “irrespective of the magnitude of the injury.” Simula, Inc. v. Autoliv, Inc., 175 F.3d 716, 725
(9th Cir. 1999). Economic harm is not normally considered irreparable. L.A. Mem’l Coliseum Comm’n v.
Nat’l Football League, 634 F.2d 1197, 1202 (9th Cir.
1980).
“ ‘ [I]njunctive relief should be no more burdensome
to the defendant than necessary to provide complete
relief to the plaintiffs’ before the Court.” L.A. Haven

140a
Hospice, Inc. v. Sebelius, 638 F.3d 644, 664 (9th Cir.
2011) (quoting Califano v. Yamasaki, 442 U.S. 682, 702
(1979). This is particularly true where there is no class
certification. See Easyriders Freedom F.I.G.H.T. v.
Hannigan, 92 F.3d 1486, 1501 (9th Cir. 1996)
(“[I]njunctive relief generally should be limited to apply
only to named plaintiffs where there is no class certification.”); Meinhold v. U.S. Dep’t of Defense, 34 F.3d
1469, 1480 (9th Cir.1994) (district court erred in enjoining the defendant from improperly applying a regulation to all military personnel (citing Califano, 442 U.S.
at 702)).
That being said, there is no bar against nationwide
relief in the district courts or courts of appeal, even if
the case was not certified as a class action, if such broad
relief is necessary to give prevailing parties the relief
to which they are entitled. Bresgal v. Brock, 843 F.2d
1163, 1170–71 (9th Cir. 1987).
Federal Administrative Agency Rule-Making
Federal administrative agencies are required to
engage in “reasoned decisionmarking.” Michigan v.
E.P.A., __ U.S. __, 135 S.Ct. 2699 (2015). “Not only
must an agency’s decreed result be within the scope of
its lawful authority, but the process by which it reaches
that result must be logical and rational.” Id. (quoting
Allentown Mack Sales & Service, Inc. v. NLRB, 522
U.S. 359, 374 (1998)).
Administrative Procedures Act
The Administrative Procedure Act “sets forth the
full extent of judicial authority to review executive
agency action for procedural correctness.” FCC v. Fox
Television Stations, Inc., 556 U.S. 502, 513 (2009). Under the arbitrary and capricious standard contained in

141a
the APA, a reviewing court may not set aside an agency rule that is rational, based on consideration of the
relevant factors and within the scope of the authority
delegated to the agency by the statute. Motor Vehicle
Mfrs. Ass’n of U.S., Inc. v. State Farm Mut. Auto. Ins.
Co., 463 U.S. 29, 42 (1983). “The scope of review under
the ‘arbitrary and capricious’ standard is narrow and a
court is not to substitute its judgment for that of the
agency. Nevertheless, the agency must examine the
relevant data and articulate a satisfactory explanation
for its action including a rational connection between
the facts found and the choice made.” Id. at 43. (quotation omitted). An agency rule is arbitrary and capricious “if the agency has relied on factors which Congress has not intended it to consider, entirely failed to
consider an important aspect of the problem, offered an
explanation for its decision that runs counter to the evidence before the agency, or is so implausible that it
could not be ascribed to a difference in view or the
product of agency expertise.” Id.
An agency must consider and respond to significant
comments received during the period for public comment. Perez v. Mortgage Bankers Ass’n, __ U.S.__, 135
S.Ct. 1199, 1203 (2015). The public interest is served by
compliance with the APA. Azar, 911 F.3d at 581. “The
APA creates a statutory scheme for informal or noticeand-comment rulemaking reflecting a judgment by
Congress that the public interest is served by a careful
and open review of proposed administrative rules and
regulations.” Alcaraz v. Block, 746 F.2d 593, 610 (9th
Cir. 1984) (internal quotation marks and citation omitted). “It does not matter that notice and comment
could have changed the substantive result; the public
interest is served from proper process itself.” Azar,
911 F.3d at 581.

142a
History of Title X
“No American woman should be denied access to family planning assistance because of her economic
condition.”2
In 1970, Congress created the Title X program3 to
address low-income individuals’ lack of equal access to
the same family planning services, including modern,
effective medical contraceptive methods such as “the
Pill,” available to those with greater economic resources. NFPRHA, et al. Complaint, 1:19-cv-3045SAB, ECF No. 1, ¶4. Title X monetary grants support
family planning projects that offer a broad range of acceptable and effective family planning methods and
services to patients on a voluntary basis, 42 U.S.C.
§ 300(a), creating a nationwide of Title X health care
providers. Id. at ¶5. Title X gives those with incomes
below or near the federal poverty level free or low-cost
access to clinical professional, contraceptive methods
and devices, and testing and counseling services related
to reproductive health, including pregnancy testing and
counseling. Id. Over almost five decades, Title X funding has built and sustained a national network of family
planning health centers that delivers high-quality care.
Id. at ¶41. It has enabled millions of low-income patients to prevent unintended pregnancies and protect
their reproductive health. Id. Approximately 90 federal grants, totaling approximately $260 million, for Title X projects now fund more than 1000 provider organizations across all the states and in the U.S. territories,
2

President Nixon, Special Message to the Congress on Problems of Population Growth (July 18, 1969).
3

Title X became law as part of the “Family Planning Services
and Population Research Act of 1970.” Pub. L. No. 91-572, 84 Stat.
1504 (1970).

143a
with more than 3800 health centers offering Title X
care. Id. at ¶6, ¶52. In 2017, the Title X program
served more than four million patients. Id.
Washington’s Department of Health (“DOH”) Family Planning Program is the sole grantee of Title X
funds in Washington State. Decl. of Cynthia Harris,
ECF No. 11 at ¶14. It provides leadership and oversight to its Family Planning Network of 16 subrecipients offering Title X services at 85 service sites. Id. at
¶4. The Family Planning Program collaborates with
other programs in the DOH, other state agencies, subrecipient network organizations, and other family planning, primary health care, and social service organizations to ensure that Title X services are available
statewide on issues related to women’s health, adolescent health, family planning, sexually transmitted infection (STI) and Human Immunodeficiency Virus
(HIV) prevention and treatment, intimate partner violence, and unintended pregnancy. Id.
NFPRHA represents more than 850 health care
organizations in all 50 states, the District of Columbia
and the U.S. territories, as well as individual professional members with ties to family planning care. ECF
No. 19 at ¶5. NFPRHA currently has more than 65 Title X grantee members and almost 700 Title X subrecipient members. These NFPRHA member organizations operate or fund a network of more than 3,500
health centers that provide family planning services to
more than 3.7 million Title X patients each year. Id. at
¶7.
The scope of the care provided by Title X programs
is summarized in OPA’s current Program Requirements:

144a
All Title X-funded projects are required to offer a broad range of acceptable and effective
medically (U.S. Food and Drug Administration
(FDA)) approved contraceptive methods and
related services on a voluntary and confidential
basis. Title X services include the delivery of
related preventive health services, including
patient education and counseling; cervical and
breast cancer screening; sexually transmitted
disease (STD) and human immunodeficiency virus (HIV) prevention education, testing and referral; and pregnancy diagnosis and counseling.
POA, Program Requirements for Title X Funded Family Planning Projects, at 5 (Apr. 2014),
https://www.hhs.gov/opa.sites/default/files/Title-X2014-Program Requirements.pdf (“Program Requirements”). Title X projects also provide basis infertility
services, such as testing and counseling. 1:19-cv-3045SAB, ECF No. 1, at ¶43.
The Title X statute has always provided that
“[n]one of the funds appropriated under this subchapter
shall be used in programs where abortion is a method of
family planning.” 42 U.S.C. § 300a-6 (“Section 1008”).
The statute authorizes the Secretary to promulgate
regulations governing the program. 42 U.S.C. § 300a-4.
The Secretary adopted regulations in 1971 and they
remained in effect until 1988 when the Secretary
adopted final regulations that drastically altered the
landscape in which Title X grantees operated. To
summarize, the 1988 regulations:
• Prohibited Title X projects from counseling or
referring clients for abortion as a method of family
planning;

145a
• Required grantees to separate their Title X
project—physically and financially—from prohibited abortion-related activities
• Established compliance standards for family
planning projects
• Prohibited certain actions that promote, encourage, or advocate abortion as method of family
planning, such as using project funds for lobbying
for abortion, developing and disseminating materials advocating abortion, or taking legal action to
make abortion available as a method of family planning.
Those regulations were challenged in federal courts
and ultimately upheld by the United States Supreme
Court. See Rust v. Sullivan, 500 U.S. 173 (1991)4. The
1988 rules were never fully implemented due to ongoing litigation and bipartisan concern over its invasion of
the medical provider-patient relation. State of Washington, Complaint, ECF No. 1 at ¶30.
In 1993, President Clinton suspended the 1988
Regulations by way of a Presidential memorandum to
the Department:

4

In Rust, the United States Supreme Court held that (1) the
regulations were based on permissible construction of the statute
prohibiting the use of Title X funds in programs in which abortion
is a method of family planning; (2) the regulations do not violate
First Amendment free speech rights of Title X fund recipients,
their staffs or their patients by impermissibly imposing viewpointdiscriminatory conditions on government subsidies; and (3) regulations do not violate a woman’s Fifth Amendment right to choose
whether to terminate a pregnancy and do not impermissibly infringe on doctor-patient relationship. 500 U.S. at 184-203.

146a
Title X of the Public Health Services Act [this
subchapter] provides Federal funding for family planning clinics to provide services for lowincome patients. The Act specifies that Title X
funds may not be used for the performance of
abortions, but places no restrictions on the ability of clinics that receive Title X funds to provide abortion counseling and referrals or to
perform abortions using non-Title X funds.
During the first 18 years of the program, medical professionals at Title X clinics provided
complete, uncensored information, including
nondirective abortion counseling. In February
1988, the Department of Health and Human
Services adopted regulations, which have become known as the “Gag Rule,” prohibiting Title X recipients from providing their patients
with information, counseling or referrals concerning abortion. Subsequent attempts by the
Bush Administration to modify the Gag Rule
and ensuing litigation have created confusion
and uncertainty about the current legal status
of the regulations.
The Gag Rule endangers women’s lives and
health by preventing them from receiving complete and accurate medical information and interferes with the doctor-patient relationship by
prohibiting information that medical professionals are otherwise ethically and legally required to provide to their patients. Furthermore, the Gag Rule contravenes the clear intent of a majority of the members of both the
United States Senate and House of Representatives, which twice passed legislation to block

147a
the Gag Rule's enforcement but failed to override Presidential vetoes.
For these reasons, you have informed me that
you will suspend the Gag Rule pending the
promulgation of new regulations in accordance
with the “notice and comment” procedures of
the Administrative Procedure Act [5 U.S.C.A.
§§ 551 et seq., 701 et seq.].
“The Title X Gag Rule,” Memorandum for the Secretary of Health and Human Services, 1993 WL 366490
(Jan. 22, 1993).
New regulations were finalized in 2000, 65 Fed.
Reg. 41270 (Jul. 3, 2000), codified at 42 C.F.R. Pt. 59,
and these regulations remain in effect unless and until
the new Final Rule is implemented.
Congressional Intent / The Department’s Program
Requirements
Plaintiffs argue that laws passed by Congress since
Rust limit the Department’s discretion in implementing
Title X regulations. These laws include Section 1554 of
the ACA and congressional Non-directive Mandates
contained in appropriation bills. They also rely on the
Department’s own program requirements to support
their arguments.
1. § 1554 of the ACA
Section 1554 of the ACA states:
Notwithstanding any other provision of this
Act, the Secretary of Health and Human Services shall not promulgate any regulation
that—

148a
(1) creates any unreasonable barriers to the
ability of individuals to obtain appropriate
medical care;
(2) impedes timely access to health care services;
(3) interferes with communications regarding a
full range of treatment options between the patient and the provider;
(4) restricts the ability of health care providers
to provide full disclosure of all relevant information to patients making health care decisions;
(5) violates the principles of informed consent
and the ethical standards of health care professionals; or
(6) limits the availability of health care treatment for the full duration of a patient’s medical
needs.
42 U.S.C. § 18114.
2. Appropriations Mandate
With the Non-directive Mandate, Congress has explicitly required every year since 1996 that “all pregnancy counseling [in Title X projects] shall be nondirective.” NFPRHA, et al. Complaint, 1:19-cv-3045SAB, ECF No. 1, at ¶78. Non-directive counseling provides the patient with all options relating to her pregnancy, including abortion. Id. at ¶76. Congress has
been providing Non-directive Mandates in its appropriations bills for the past 24 years.

149a
3. Department of Health and Human Services
Program Requirements / Quality Family
Planning
Title X grantees are required to follow the Quality
Family Planning (QFP) guidelines, issued by the Centers for Disease Control and Prevention and OPA.
State of Washington, Complaint, ECF No. 1, at ¶45.
This document reflects evidence-based best practices
for providing quality family planning services in the
United States.5 It requires that options counseling
should be provided to pregnant patients as recommended by the American College of Obstetricians and
Gynecologists and others, including that patients with
unwanted pregnancy should be “fully informed in a balanced manner about all options, including raising the
child herself, placing the child for adoption, and abortion.” Id. at ¶46.
The Department’s Program Requirements require
Title X projects to provide nondirective pregnancy
counseling. Id. at ¶44.
Federal Conscience Laws
In the Executive Summary of the Final Rule, the
Department indicates that one of the purposes of revising the Title X regulations was to eliminate provisions
which are inconsistent with the health care conscience
statutory provisions. 84 Fed. Reg. 7714, 7716. These
provisions include the Church Amendment, the CoatsSnowe Amendment and the Weldon Amendment. Id.
5

“Providing Quality Family Planning Services: Recommendations of CDC and the U.S. Office of Population Affairs,” Morbidity and Mortality Weekly Report Vol. 62, No. 4 (April 25, 2014),
available at https:www.cdc.gov/mmwr/pdf/rr/rr6304.pdf (last accessed April 24, 2019) (the QFP).

150a
4. The Church Amendment
“The Church Amendments, among other things,
prohibit certain HHS grantees from discriminating in
the employment of, or the extension of staff privileges
to, any health care professional because they refused,
because of their religious beliefs or moral convictions,
to perform or assist in the performance of any lawful
sterilization or abortion procedures.
The Church
Amendments also prohibit individuals from being required to perform or assist in the performance of any
health service program or research activity funded in
whole or in part under a program administered by the
Secretary contrary to their religious beliefs or moral
convictions. See 42 U.S.C. 300a-7.” 84 Fed. Reg. at
7716, n.7.
5. 1996 Coats-Snowe Amendment
“The Coats-Snowe Amendment bars the federal
government and any State or local government that receives federal financial assistance from discriminating
against a health care entity, as that term is defined in
the Amendment, who refuses, among other things, to
provide referrals for induced abortions. See 42 U.S.C.
238n(a).” 84 Fed. Reg. at 7716, n.8.
6. 2005 Weldon Amendment
“The Weldon Amendment was added to the annual
2005 health spending bill and has been included in subsequent appropriations bills.” 84 Fed. Reg. at 7716, n.
9. “The Weldon Amendment bars the use of appropriated funds on a federal agency or programs, or to a
State or local government, if such agency, program, or
government subjects any institutional or individual
health care entity to discrimination on the basis that

151a
the health care entity does not, among other things, refer for abortions.” Id.
Analysis
As set forth above, the Ninth Circuit uses a sliding
scale approach in determining whether it is appropriate
to grant a preliminary injunction. Although Plaintiffs
have met their burden of showing that all four factors
tip in their favor, the irreparable harm and balance of
equities factors tip so strongly in Plaintiffs’ favor that a
strong showing of likelihood on the merits was not necessary.
7. Likelihood of Success on the Merits
Plaintiffs have presented reasonable arguments
that indicate they are likely to succeed on the merits,
thus meeting the threshold inquiry. In so finding, the
Court has not concluded that Plaintiffs will definitely
prevail on the merits, nor has it concluded that they are
more likely going to prevail. The preliminary injunction standard requires neither of these conclusions. See
Azar, 911 F.3d at 582 (“The purpose of such interim equitable relief is not to conclusively determine the rights
of the parties but to balance the equities as the litigation moves forward.”) (quoting Trump v. Int’l Refugee
Assistance Proj., __ U.S. __, 137 S.Ct. 2080, 2087
(2017)). Rather, it requires a determination that Plaintiff has made a colorable claim—a claim that has merit
and a likely chance of success.
First, Plaintiffs have presented initial facts and argument that the separation requirement in the Final
Rule forces clinics that provide abortion services to
maintain separate facilities and finances for Title X
programs will more likely than not increase their expenses unnecessarily and unreasonably.

152a
Second, Plaintiffs have presented initial facts and
argument that the Final Rule gag requirement would
be inconsistent with ethical, comprehensive, and evidence-based health care.
Third, Plaintiffs have presented initial facts and argument that the Final Rule violates Title X regulations,
the Non-directive Mandates and Section 1554 of the Affordable Care Act and is also arbitrary and capricious.
Specifically, Plaintiffs have demonstrated the Final
Rule likely violates the central purpose of Title X,
which is to equalize access to comprehensive, evidencebased, and voluntary family planning. They have presented facts and argument that the Final Rule violates
the Non-directive Mandate because it requires all
pregnant patients to receive referrals for pre-natal
care, regardless of whether the patient wants to continue the pregnancy, and regardless of the best medical
advice and treatment that might be recommended for
that patient.
They have also presented facts and argument that
the Final Rule likely violates Section 1554 of the ACA
because the Final Rule creates unreasonable barriers
for patients to obtain appropriate medical care; impedes timely access to health care services; interferes
with communications regarding a full range of treatment options between the patient and the heath care
provider, restricts the ability of health care providers
to provide full disclosure of all relevant information to
patients making health care decisions, and violates the
principles of informed consent and the ethical standards
of health care professions.
Fourth, Plaintiffs, with the help from Amicus parties, have presented facts and argument that the Final
Rule is arbitrary and capricious because it reverses

153a
long-standing positions of the Department without
proper consideration of sound medical opinions and the
economic and non-economic consequences.
Finally, Plaintiffs have presented facts and argument that the Department failed to consider important
factors, acted counter to and in disregard of the evidence in the administrative record and offered no reasoned analysis based on the record. Rather, it seems
the Department has relied on the record made 30 years
ago, but not the record made in 2018-19.
8. Irreparable Harm
Plaintiffs have demonstrated they are likely to suffer irreparable harm in the absence of a preliminary injunction by presenting facts and argument that the Final Rule may or likely will: (1) seriously disrupt or destroy the existing network of Title X providers in both
the State of Washington and throughout the entire nation—this network has been carefully knit together
over the past 45 years and there is no evidence presented by the Department that Title X is being violated
or ignored by this network of providers; (2) impose additional and unnecessary costs on the State of Washington and other states; (3) harm the health of the patients
who rely on the existing Title X providers; and (4) drive
many Title X providers from the system either because
of the increased costs imposed by the new separation
requirements or because they cannot or will not comply
with the allegedly unprofessional gag rule requirements.
Washington State has shown that it is not legally or
logistically feasible for Washington to continue accepting any Title X funding subject to the Final Rule. At
the minimum, Washington stands to lose more than $28

154a
million in savings from the loss of federal dollars. It has
demonstrated the harmful consequences of the Final
Rule will uniquely impact rural and uninsured patients.
If the Final Rule is implemented, over half of Washington counties would be unserved by a Title X-funded
family planning provider. Students at Washington colleges and universities will be especially hurt by the Final Rule. DOH reports it does not have the funding
that would be required to comply with the Final Rule,
nor would it be able to comply with the May 3, 2019
deadline.
NFPRHA currently has more than 65 Title X
grantee members and almost 700 Title X sub-recipient
members. These NFPRHA member organizations operate or fund a network of more than 3,500 health centers that provide family planning services to more than
3.7 million Title X patients each year. NFPRHA has
shown that upon its effective date, the Final Rule will
cause all current NFPRHA members grantees, subrecipients, and their individual Title X clinicians to face
a Hobson’s Choice that harms patients as well as the
providers. Faced with this difficult choice, many
NFPRHA members will leave the network once the
Final Rule becomes effective, thereby leaving lowincome individuals without Title X providers.
It is worth noting that Plaintiffs have submitted
substantial evidence of harm, including declarations
from Karl Eastlund, President and CEO of Planned
Parenthood of Greater Washington and North Idaho,
ECF No. 10; Cynthia Harris, program manager for the
Family Planning Program, Washington DOH, ECF No.
11; Anuj Khattar, M.D., primary care physician and reproductive health provider, ECF No. 12; Dr. Judy
Kimelman, practitioner at Seattle Obstetrics & Gynecology Group, ECF No. 13; Bob Marsalli, CEO of the

155a
Washington Association for Community Health, ECF
No. 14; David Schumacher, Director of the Office of Financial Management, State of Washington, ECF No.
15; Dr. Judy Zerzan-Thul, Chief Medical Officer for the
Washington State Health Care Authority, ECF No. 16;
Clare M. Coleman, President and CEO of the National
Family Planning & Reproductive Health Association,
ECF No. 19; Dr. Kathryn Kost, Acting Vice President
of Domestic Research at the Guttmacher Institute,
ECF No. 20; Connie Cantrell, Executive Director of the
Feminist Women’s Health Center, ECF No. 21; Kristin
A. Adams, Ph.D, President and CEO of the Indiana
Family Health Council, ECF No. 22; J. Elisabeth
Kruse, M.S., C.N.M., A.R.N.P, Lead Clinician for Sexual and Reproductive Health and Family Planning at the
Public Health Department for Seattle and King County, Washington, ECF No. 23; Tessa Madden, M.D.,
M.P.H., Director of the Family Planning Division, Department of Obstetrics and Gynecology, Washington
University School of Medicine, ECF No. 24; Heather
Maisen, Manager of the Family Planning Program in
the Public Health Department for Seattle and King
County, Washington, ECF No. 25; and Sarah Prager,
M.D., Title X Director of the Feminist Women’s Health
Center, ECF No. 26.
Yet, the Government’s response in this case is dismissive, speculative, and not based on any evidence
presented in the record before this Court.
9. Balance of Equities/Public Interest
The balance of equities and the public interest
strongly favors a preliminary injunction, which tips the
scale sharply in favor of Plaintiffs.

156a
There is no public interest in the perpetration of
unlawful agency action. Preserving the status quo will
not harm the Government and delaying the effective
date of the Final Rule will cost it nothing. There is no
hurry for the Final Rule to become effective and the
effective date of May 3, 2019 is arbitrary and unnecessary.
On the other hand, there is substantial equity and
public interest in continuing the existing structure and
network of health care providers, which carefully balances the Title X, the congressional Non-directive
Mandates, and Section 1554 of the Affordable Care Act,
while the legality of the new Final Rule is reviewed and
decided by the Court.
Accordingly, IT IS HEREBY ORDERED:
1. The State of Washington’s Motion for Preliminary Injunction, ECF No. 9, is GRANTED.
2. National Family Planning & Reproductive
Health Center, et al.’s Motion for Preliminary Injunction, ECF No. 18, is GRANTED.
3. Defendants and their officers, agents, servants,
employees, and attorneys, and any person in active
concert or participation with them, are ENJOINED
from implementing or enforcing the Final Rule entitled
Compliance with Statutory Program Integrity Requirements, 84 Fed. Reg. 7714-01 (March 4, 2019), in
any manner or in any respect, and shall preserve the
status quo pursuant to regulations under 42 C.F.R., Pt.
59 in effect as of the date of April 24, 2019, until further
order of the Court.
4. No bond shall be required pursuant to Fed. R.
Civ. P. 65(c).

157a
IT IS SO ORDERED. The Clerk of Court is directed to enter this Order and forward copies to counsel.
DATED this 25th day of April 2019.
(SEAL)
/s/ Stanley A. Bastian
Stanley A. Bastian
United States District Judge

159a
APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
Case No. 19-cv-01184-EMC
STATE OF CALIFORNIA,
Plaintiff,
v.
ALEX M. AZAR II, ET AL.,
Defendants.
Case No. 3:19-cv-01195-EMC
ESSENTIAL ACCESS HEALTH, INC., ET AL.,
Plaintiffs,
v.
ALEX M. AZAR II, ET AL.,
Defendants.
ORDER GRANTING IN PART AND DENYING
IN PART PLAINTIFFS’ MOTIONS FOR
PRELIMINARY INJUNCTION
Docket No. 26, C-19-1184
Docket No. 25, C-19-1195
EDWARD M. CHEN, United States District Judge
Title X of the Public Health Service Act provides
federal funding for family-planning services. In the
quarter-century since 1993, the Department of Health
and Human Services’ (“HHS”) guidelines, while prohibiting funding of abortion services pursuant to Title X,
have required Title X grantees to provide neutral, fac-

160a
tual counseling to pregnant clients and to maintain financial separation between their Title X activities and
their abortion services. This permitted grantees to operate effectively while complying with Title X. On
March 4, 2019, HHS promulgated new regulations implementing Title X which substantially changes those
guidelines in a manner that jeopardizes the provision of
essential and counseling and care to thousands of women. See 84 Fed. Reg. 7714 (2019) (the “Final Rule”).
According to Plaintiffs, the Final Rule will create
daunting barriers to California women seeking timely,
effective reproductive health care, impose medically
and ethically unsound restrictions on Title X providers
attempting to provide patient-centered care, and inflict
severe public health consequences and costs on the
State. They contend the Final Rule violates recent acts
of Congress, substantive and procedural provisions of
the Administrative Procedures Act (“APA”), and the
First and Fifth Amendments to the U.S. Constitution.
The Final Rule goes into effect on May 3, 2019.
Plaintiffs in these coordinated actions, the State of California and Essential Access Health, seek to preliminarily enjoin the implementation of the Final Rule.
Unless enjoined, the Final Rule will irreparably
harm individual patients and public health in California
as a whole. The Final Rule commands medical professionals to provide incomplete and misleading information to women seeking to terminate their pregnancies contrary to what patients want and need, delaying
and potentially frustrating their attempts to obtain
time-sensitive care, and thereby jeopardizing their
health and welfare. The Final Rule threatens to decimate the network of Title X providers in California and
drastically restrict patients’ access to a wide range of
vital services, including contraceptive resources and

161a
screenings for sexually transmitted infections, reproductive cancers, and HIV. As a result, the Final Rule
is likely to inflict significant public health consequences
and costs on the State and frustrate Essential Access’s
organizational mission to promote access to quality
healthcare. In contrast, Defendants are unable to articulate any real harm they will suffer if the Final Rule
is preliminarily enjoined during the pendency of this
action.
Plaintiffs have shown that the Final Rule likely violates Congressional directives that Title X providers
must be permitted to give pregnant patients neutral,
factual information regarding the full range of their
medical options, and must not be compelled to act in a
way that is contrary to medical ethics. The record evidence indicates that HHS promulgated the Final Rule,
which represents a sharp break from prior policy, without engaging in any reasoned decisionmaking. In particular, HHS cited speculative, unsubstantiated fears
about the misuse of Title X funds as justification for its
change in policy and touted anticipated benefits of the
Final Rule that have no basis in the record, while cursorily dismissing overwhelming evidence of the significant adverse impact the Rule will have. The Final Rule
is thus contrary to law and arbitrary and capricious.
Having considered the parties’ briefs and accompanying submissions, as well as the oral argument of
counsel and amici briefs filed herein, the Court finds
that Plaintiffs have established they are likely to succeed on the merits on several of their claims, are likely
to suffer irreparable injury if the Final Rule is not enjoined, and the balance of hardships and the public interest tip sharply in favor of granting injunctive relief.
Accordingly, Plaintiffs’ motions for a preliminary injunction are GRANTED in part and DENIED in

162a
part.1 The Court enjoins implementation of the Final
Rule but limits the injunction to California.
I. BACKGROUND
A. Statutory and Regulatory Background
1. Title X
The Public Health Service Act (“PHSA”), an expansive statutory scheme that consolidated existing
public health laws and established various agencies and
grant programs to support health care and research,
was enacted in 1944. In 1970, Congress amended the
PHSA to add “Title X—Population Research and Voluntary Family Planning Programs.” Pub. L. No. 91572, § 6, 84 Stat. 1504, 1506–08 (1970) (codified at 42
U.S.C. §§ 300–300a-6). Title X authorizes the Secretary
of HHS “to make grants to and enter into contracts
with public or nonprofit private entities to assist in the
establishment and operation of voluntary family planning projects which shall offer a broad range of acceptable and effective family planning methods and
services.” 42 U.S.C. § 300(a). Such grants and contracts must “be made in accordance with such regulations as the Secretary may promulgate.” Id. § 300a-4.
1

The recent injunction issued against Defendants’ implementation of the Final Rule by Judge Bastian in State of Washington v.
Azar, No. 1:19-cv-3040 (E.D. Wash. filed Mar. 5, 2019), does not
obviate this Court’s duty to resolve the dispute before it. See Batalla Vidal v. Nielsen, 279 F. Supp. 3d 401, 435 (E.D.N.Y. 2018)
(finding “no authority for the proposition that Plaintiffs cannot
establish irreparable harm simply because another court has already enjoined the same challenged action”); e.g., Kravitz v. United States Dep’t of Commerce, 366 F. Supp. 3d 681 (D. Md. 2019);
State v. Ross, 358 F. Supp. 3d 965, 1050 (N.D. Cal. 2019); Nat’l
Ass’n for the Advancement of Colored People v. Trump, 315 F.
Supp. 3d 457, 461 (D.D.C. 2018).

163a
Congress explained that its purpose in enacting Title X
was:
a. to assist in making comprehensive voluntary
family planning services readily available to all
persons desiring such services;
b. to coordinate domestic population and family
planning research with the present and future
needs of family planning programs;
c. to improve administrative and operational
supervision of domestic family planning services and of population research programs related to such services;
d. to enable public and nonprofit private entities to plan and develop comprehensive programs of family planning services;
e. to develop and make readily available information (including educational materials) on
family planning and population growth to all
persons desiring such information;
f. to evaluate and improve the effectiveness of
family planning service programs and of population research; [and]
g. to assist in providing trained manpower
needed to effectively carry out programs of
population research and family planning services....
Pub. L. No. 91-572 § 2, 84 Stat. 1504.
Per Section 1008 of the PHSA, “[n]one of the funds
appropriated under [Title X] shall be used in programs
where abortion is a method of family planning.” 42
U.S.C. § 300a-6.

164a
2. The 1971 Regulations, 1981 Guidance, 1988 Regulations, and Rust v. Sullivan
Consistent with Section 1008, HHS has never permitted Title X grantees to use Title X funds to perform
or subsidize abortions. See 42 C.F.R. §§ 59.5(a)(5), 59.9
(1986). However, the agency had long interpreted Title
X to allow grantees to provide pregnant women with
nondirective counseling and referrals about their medical options, including abortion. The initial regulations,
issued in 1971, stated that Section 1008 only required
that a Title X “project will not provide abortions as a
method of family planning.” 36 Fed. Reg. 18,465, 18,466
(1971). “During the mid-1970s, HHS General Counsel
memoranda made a further distinction between directive (‘encouraging or promoting’ abortion) and nondirective (‘neutral’) counseling on abortion, prohibiting
the former and permitting the latter.” Nat’l Family
Planning & Reprod. Health Ass’n, Inc. v. Sullivan, 979
F.2d 227, 229 (D.C. Cir. 1992). This distinction was reaffirmed in 1981, when HHS issued guidelines “requir[ing] nondirective ‘options counsleling’ [sic] on
pregnancy termination (abortion), prenatal care, and
adoption and foster care when a woman with an unintended pregnancy requests information on her options,
followed by referral for these services if she so requests.” 53 Fed. Reg. 2922, 2923 (1988). Thus, early on,
HHS distinguished nondirective counseling (and referrals) from the actual provision of abortion services,
permitting the former but prohibiting the latter.
That policy was reversed in 1988 when HHS promulgated new regulations to provide “‘clear and operational guidance’ to grantees about how to preserve the
distinction between Title X programs and abortion as a
method of family planning.” Id. at 2923–24. The term
“family planning” was redefined to encompass solely

165a
“preconceptional counseling, education, and general reproductive health care,” while expressly excluding
“pregnancy care (including obstetric or prenatal care).”
42 C.F.R. § 59.2 (1989).
The thrust of the 1988 regulations was reflected in
three main provisions. First, they provided that a “Title X project may not provide counseling concerning
the use of abortion as a method of family planning or
provide referral for abortion as a method of family
planning,” even in response to a client’s specific request. Id. § 59.8(a)(1). Second, the regulations prohibited a Title X project from engaging in any activities
that “encourage, promote or advocate abortion as a
method of family planning.” Id. § 59.10(a). Third, Title
X projects were required to be “physically and financially separate” from prohibited abortion activities. Id.
§ 59.9. The regulations enumerated nonexclusive factors for the Secretary of HHS to consult in determining
whether the separation requirement was met, including
the existence of separate accounting records and separate personnel, and the degree of physical separation of
the project from facilities for prohibited activities. Id.
The regulations made clear that “[m]ere bookkeeping
separation of Title X funds from other monies is not
sufficient.” Id.
The 1988 regulations were subject to legal challenge, and were upheld by the Supreme Court against a
facial challenge by Title X grantees in Rust v. Sullivan,
500 U.S. 173, 111 S.Ct. 1759, 114 L.Ed.2d 233 (1991).
The Rust plaintiffs objected to the regulations on statutory and constitutional grounds. They argued that the
regulations were arbitrary and capricious and exceeded
the Secretary’s authority under Title X, that the regulations’ proscription of abortion counseling and referral
violated the First Amendment, and that the regulations

166a
violated a woman’s Fifth Amendment right to choose
whether to terminate her pregnancy. Id. at 183, 192,
201, 111 S.Ct. 1759.
The Supreme Court found none of these claims
availing. It rejected the plaintiffs’ first statutory claim
after applying Chevron deference to the Secretary’s
construction of Title X. The Court determined that
statutory text and legislative history of Title X were
ambiguous regarding abortion counseling and referral
as well as the separation of Title X and non-Title X services. Id. at 184, 111 S.Ct. 1759 (“The language of
§ 1008—that ‘[n]one of the funds appropriated under
this subchapter shall be used in programs where abortion is a method of family planning’—does not speak directly to the issues of counseling, referral, advocacy, or
program integrity.”). In the face of that ambiguity, the
Court decided that the Secretary’s construction of the
statute “to require a ban on counseling, referral, and
advocacy within the Title X project” was reasonable,
noting that the “broad language” of “§ 1008 prohibits
the use of Title X funds ‘in programs where abortion is
a method of family planning’” and that “the legislative
history is ambiguous and fails to shed light on relevant
congressional intent.” Id. at 184–85, 111 S.Ct. 1759.
Similarly, the Court ruled that the Secretary’s construction of Title X to require physical and financial
separation between Title X projects and abortion activities was permissible. Id. at 188–90, 111 S.Ct. 1759.
Importantly, even after finding the 1988 regulations
facially reasonable under Chevron, the Court required
the Secretary to justify his change of interpretation
from the prior rules with a “reasoned analysis.” Id. at
187, 111 S.Ct. 1759 (quoting Motor Vehicle Mfrs. Ass’n
of U.S., Inc. v. State Farm Mut. Auto. Ins. Co., 463 U.S.
29, 41, 103 S.Ct. 2856, 77 L.Ed.2d 443 (1983)). In this

167a
regard, the Court observed that the Secretary’s decision to reverse course from the prior regulations was
justified in part because it responded to “critical reports of the General Accounting Office (GAO) and the
Office of the Inspector General (OIG) that prior policy
failed to implement properly the statute and that it was
necessary to provide ‘clear and operational guidance to
grantees about how to preserve the distinction between
Title X programs and abortion as a method of family
planning,’” as well as “client experience under the prior
policy” and “a shift in attitude against the elimination of
unborn children by abortion.” Id. (quoting 53 Fed. Reg.
at 2923–24).
Rust further held that the regulations did not “violate the First Amendment by impermissibly discriminating based on viewpoint” because “[t]he Government
can, without violating the Constitution, selectively fund
a program to encourage certain activities it believes to
be in the public interest, without at the same time funding an alternative program which seeks to deal with the
problem in another way.” Id. at 192–93, 111 S.Ct. 1759.
The Court noted its previous holding that “the government may ‘make a value judgment favoring childbirth over abortion, and ... implement that judgment by
the allocation of public funds.’” Id. (quoting Maher v.
Roe, 432 U.S. 464, 474, 97 S.Ct. 2376, 53 L.Ed.2d 484
(1977)) (alteration in original). Rust thus determined
that “[t]he Secretary’s regulations do not force the Title X grantee to give up abortion-related speech; they
merely require that the grantee keep such activities
separate and distinct from Title X activities.” Id. at
196, 111 S.Ct. 1759. Grantees “remain[ed] free ... to
pursue abortion-related activities when they [we]re not
acting under the auspices of the Title X project.” Id. at
198, 111 S.Ct. 1759. The Court cautioned, however,

168a
that it was “not ... suggest[ing] that funding by the
Government, even when coupled with the freedom of
the fund recipients to speak outside the scope of the
Government-funded project, is invariably sufficient to
justify Government control over the content of expression.” Id. at 199, 111 S.Ct. 1759.
Lastly, the Court ruled that the 1988 regulations
did not impermissibly burden a woman’s Fifth Amendment right to choose whether to terminate her pregnancy. Citing the principle that “the Due Process
Clauses generally confer no affirmative right to governmental aid,” the Court held that “[t]he Government
has no constitutional duty to subsidize an activity merely because the activity is constitutionally protected and
may validly choose to fund childbirth over abortion.”
Id. at 201, 111 S.Ct. 1759 (quoting Webster v. Reprod.
Health Servs., 492 U.S. 490, 507, 109 S.Ct. 3040, 106
L.Ed.2d 410 (1989)). In support of this holding, Rust
reasoned that “[t]he difficulty that a woman encounters
when a Title X project does not provide abortion counseling or referral leaves her in no different position
than she would have been if the Government had not
enacted Title X.” Id. at 202, 111 S.Ct. 1759. The Court
also found unpersuasive the plaintiffs’ contention that
“the regulations violate a woman’s Fifth Amendment
right to medical self-determination and to make informed medical decisions free of government-imposed
harm” by “depriving a Title X client of information concerning abortion as a method of family planning.” Id.
The Court observed that under the regulations, “a doctor’s ability to provide, and a woman’s right to receive,
information concerning abortion and abortion-related
services outside the context of the Title X project remains unfettered.” Id. at 203, 111 S.Ct. 1759.

169a
3. 1993 Suspension of the 1988 Regulations and Promulgation of the 2000 Regulations
Although they survived legal challenges, the 1988
regulations were never fully implemented. The Secretary suspended the regulations in 1993 “based, in part,
upon her conclusion that the ‘Gag Rule’ is an inappropriate implementation of the Title X statute because it
unduly restricts the information and other services
provided to individuals under this program.” 58 Fed.
Reg. 7462, 7462 (1993). As a result, after 1993, Title X
grantees returned to operating under the 1981 guidelines.
In 2000, HHS formally issued new regulations “revoking the regulations published on February 2, 1988”
and largely restoring the 1981 regulatory scheme. 65
Fed. Reg. 41270 (2000); 65 Fed. Reg. 41281 (2000).
Most notably, under the 2000 regulations, Title X
grantees were required to “[o]ffer pregnant women the
opportunity to be provided information and counseling
regarding ... [p]regnancy termination” and “provide
neutral, factual information and nondirective counseling on each of the options, and referral” upon request.
42 C.F.R. § 59.5(a)(5) (July 3, 2000). Grantees’ non-Title
X abortion activities had to be “separate and distinct”
from Title X activities, but “[c]ertain kinds of shared
facilities [we]re permissible, so long as it [wa]s possible
to distinguish between the Title X supported activities
and non-Title X abortion-related activities.” 65 Fed.
Reg. at 41281. For example, common waiting rooms and
staff were permissible, as long as the costs and salaries
were properly pro-rated and allocated. Id. The agency
provided the following explanation for doing away with
the physical separation requirement:

170a
If a Title X grantee can demonstrate by its financial records, counseling and service protocols, administrative procedures, and other
means that—within the identified set of Title
X-supported activities—promotion or encouragement of abortion as a method of family
planning does not occur, then it is hard to see
what additional statutory protection is afforded
by the imposition of a requirement for “physical” separation. Indeed, in the light of the enforcement history noted above, it is not unreasonable to say that the standard of “physical”
separation has, as a practical matter, had little
relevance or applicability in the Title X program to date. Moreover, the practical difficulty
of drawing lines in this area, both as experienced prior to 1988 and as evident in the history of the Gag Rule itself, suggests that this legal interpretation is not likely ever to result in
an enforceable compliance policy that is consistent with the efficient and cost-effective delivery of family planning services.
65 Fed. Reg. at 41276.
4. Statutory Developments
Two statutory developments since Rust are germane to this case. First, in every year since 1996, Congress has specified in HHS appropriations acts (part of
annual omnibus appropriations acts containing a subsection specific to HHS funding) that “amounts provided to [Title X] projects under such title shall not be expended for abortions, [and] that all pregnancy counseling shall be nondirective.” E.g., Department of Defense
and Labor, Health and Human Services, and Education
Appropriations Act, 2019 and Continuing Appropria-

171a
tions Act, Pub. L. No. 115-245, Div. B, Tit. II, 132 Stat
2981, 3070–71 (2018) (emphasis added).
Second, in Section 1554 of the Affordable Care Act
(“ACA”), enacted in 2010, Congress directed that HHS:
shall not promulgate any regulation that—
(1) creates any unreasonable barriers
to the ability of individuals to obtain
appropriate medical care;
(2) impedes timely access to health
care services;
(3) interferes with communications
regarding a full range of treatment options between the patient and the provider;
(4) restricts the ability of health
care providers to provide full disclosure of all relevant information to patients making health care decisions;
(5) violates the principles of informed consent and the ethical standards of health care professionals; or
(6) limits the availability of health
care treatment for the full duration of a
patient’s medical needs.
42 U.S.C. § 18114. As discussed below, these laws affect
the enforcement of Title X.
B. The Final Rule
On March 4, 2019, HHS promulgated the Final
Rule that is the subject of this suit. 84 Fed. Reg. 7714.
The Final Rule represents a sharp break from the 2000

172a
regulations, and a return in many aspects to the 1988
regulations. Its key provisions are detailed below.
1. Restrictions on Abortion Counseling and Referrals
The Final Rule contains several overlapping provisions regarding abortion counseling. It directs that Title X grantees may “[n]ot provide, promote, refer for,
or support abortion as a method of family planning.” 42
C.F.R. § 59.5(a)(5) (2019).2 Similarly, it provides that
“[a] Title X project may not encourage, promote or advocate abortion as a method of family planning.”
§ 59.16(a)(1). And “[a] Title X project may not perform,
promote, refer for, or support abortion as a method of
family planning, nor take any other affirmative action
to assist a patient to secure such an abortion.”
§ 59.14(a). The Final Rule does not define what it means
to “encourage,” “promote,” or “support” abortions. Nor
does it fully illuminate the lines between permissible
provision of information and impermissible encouragement, promotion, and support.
However, when a Title X client is confirmed to be
pregnant, the Final Rule requires that the client “shall
be referred to a health care provider for medically necessary prenatal health care.” § 59.14(b)(1). Such referral is mandated even if the client has decided not to
carry the pregnancy to term. The “Title X provider
may”—but is not required to—provide “[n]ondirective
pregnancy counseling.” Id. That counseling can only be
“provided by physicians or advanced practice providers
[ (“APPs”) ],” id., defined as “a medical professional
who receives at least a graduate level degree in the relevant medical field and maintains a license to diagnose,
2

Unless otherwise indicated, all citations in the form of
“§ ___” are to the Final Rule published at 84 Fed. Reg. at 7786–91.

173a
treat, and counsel patients,” § 59.2. As a result, medical
professionals without a graduate level degree, such as
registered nurses or licensed practical nurses, cannot
provide such counseling.
The Final Rule forbids Title X grantees from making referrals for abortion services. See § 59.5(a)(5) (A
Title X project “must.... [n]ot provide, promote, refer
for, or support abortion as a method of family planning.”); § 59.14(a) (“A Title X project may not ... refer
for ... abortion as a method of family planning, nor take
any other affirmative action to assist a patient to secure
such an abortion.”). Even if a client specifically requests a referral to an abortion provider, the Title X
project can at most provide “[a] list of licensed, qualified, comprehensive primary health care providers (including providers of prenatal care).” § 59.14(b)(1)(ii),
(c)(2). The list cannot include specialty clinics that do
not also provide comprehensive primary health care.
Further, the referral list “may be limited to those that
do not provide abortion.” § 59.14(c)(2). If the referral
list includes abortion providers, those providers may
not comprise “the majority” of the providers on the list,
and “[n]either the list nor project staff may identify
which providers on the list perform abortion.” Id.
Hence, a Title X project may provide a client seeking
an abortion a referral list of only providers who do not
perform abortions without so indicating. A Title X project responding to a client’s request for an abortion referral can, at most, provide a list on which more than
half of the providers do not provide abortions. And the
project cannot tell the patient which of the providers
actually performs abortions. With respect to medical
emergencies, the Final Rule states: “In cases in which
emergency care is required, the Title X project shall
only be required to refer the client immediately to an

174a
appropriate provider of medical services needed to address the emergency.” § 59.14(b)(2). The Final Rule
provides as the single example of a qualifying emergency “an ectopic pregnancy.” § 59.14(e)(2).
These counseling and referral restrictions represent a sharp break from the 2000 regulations, as well as
the prior 1981 guidelines effective since 1993. Until
now, Title X grantees have been required3 to offer
pregnant women nondirective pregnancy counseling
and referral upon request. 42 C.F.R. § 59.5(a)(5).
Grantees were not required to refer a woman who did
not intend to continue her pregnancy to prenatal care,
and no restrictions were placed on referral lists.
2. Requirement of Physical and Financial Separation
Under the Final Rule, “[a] Title X project must be
organized so that it is physically and financially separate ... from activities which are prohibited under section 1008 of the Act and §§ 59.13, 59.14, and 59.16 of
these regulations from inclusion in the Title X program.” § 59.15. “In order to be physically and financially separate, a Title X project must have an objective
integrity and independence from prohibited activities,”
and “[m]ere bookkeeping separation of Title X funds
from other monies is not sufficient.” Id. The Secretary
will determine whether such objective integrity and
independence exist by looking to relevant factors that
include: “The existence of separate, accurate accounting records”; “[t]he degree of separation [of] facilities
(e.g., treatment, consultation, examination and waiting
rooms, office entrances and exits, shared phone numbers, email addresses, educational services, and web3

An exception is made for grantees with moral and religious
objections to abortion. See 76 Fed. Reg. 9968 (2011).

175a
sites)”; “[t]he existence of separate personnel, electronic or paper-based health care records, and workstations”; and the “extent to which signs and other
forms of identification of the Title X project are present, and signs and material referencing or promoting
abortion are absent.” Id.
The new separation requirements again represent
a marked departure from the current rule. Under the
2000 regulations, grantees’ abortion activities were required to be financially separate from their Title X activities, but “[c]ertain kinds of shared facilities [we]re
permissible, so long as it [wa]s possible to distinguish
between the Title X supported activities and non-Title
X abortion-related activities.” 65 Fed. Reg. at 41281.
For example, common waiting rooms and staff were
permissible, as long as the costs and salaries were
properly pro-rated and allocated. Id.
3. Removal of Requirement that Family Planning
Methods and Services be “Medically Approved”
Previous Title X regulations required projects to
“[p]rovide a broad range of acceptable and effective
medically approved family planning methods ... and
services.” 42 C.F.R. § 59.5(a)(1) (2000) (emphasis added). The Final Rule removes the “medically approved”
language; it simply requires Title X projects to
“[p]rovide a broad range of acceptable and effective
family planning methods ... and services.” § 59.5(a)(1).
4. Encouragement of Family Participation
The Final Rule requires Title X grantees to
“[e]ncourage family participation in the decision to seek
family planning services; and, with respect to each minor patient, ensure that the records maintained document the specific actions taken to encourage such fami-

176a
ly participation (or the specific reason why such family
participation was not encouraged).” § 59.5(a)(14).
The 2000 regulations contained no such requirement, although Title X itself provides that “[t]o the extent practical, entities which receive grants or contracts under this subsection shall encourage family participation in projects assisted under this subsection.” 42
U.S.C. § 300(a).
C. Procedural Background
The motions currently before the Court arise from
two lawsuits. The first is brought by the State of California (“California”). See State of California v. Azar et
al., No. 3:19-cv-1184-EMC, 2019 WL 1023794 (N.D. Cal.
filed March 4, 2019) (“California”), Docket No. 1 ¶ 1.
The second is brought by Essential Access Health, Inc.
and Dr. Melissa Marshall (collectively, “Essential Access”). See Essential Access Health, Inc., et al. v. Azar
et al., No. 3:19-cv-1195-EMC (N.D. Cal. filed March 4,
2019) (“Essential Access”), Docket No. 1 ¶¶ 15–16. California’s Title X network is the largest in the nation.
California Docket No. 1 ¶ 3. Essential Access is a nonprofit corporation that is California’s sole Title X
grantee and administers the state’s Title X program.
Essential Access Docket No. 1 ¶ 15. Dr. Marshall is the
Chief Executive Officer of CommuniCare Health Centers in Yolo County, California, which has been part of
the State’s Title X network since 1993. Id. ¶ 16. California, Essential Access Health, and Dr. Marshall are
hereinafter referred to collectively as “Plaintiffs.” Defendants are HHS and Alex M. Azar, II, sued in his official capacity as Secretary of HHS.
California and Essential Access filed their respective motions for preliminary injunction on March 21,
2019. California Docket No. 26 (“California Mot.”); Es-

177a
sential Access Docket No. 25 (“Essential Mot.”). Defendants filed a consolidated opposition on April 8,
2019. California Docket No. 61 (“Opp.”). Plaintiffs filed
replies on April 11, 2019. California Docket No. 84
(“California Reply”); Essential Access Docket No. 63
(“Essential Reply”). The Court held a hearing on the
motions on April 18, 2019.
II. LEGAL STANDARD
A preliminary injunction is a matter of equitable
discretion and “an extraordinary remedy that may only
be awarded upon a clear showing that the plaintiff is
entitled to such relief.” Winter v. Natural Res. Def.
Council, Inc., 555 U.S. 7, 22, 129 S.Ct. 365, 172 L.Ed.2d
249 (2008). Its “purpose ... is to preserve the status quo
and the rights of the parties until a final judgment issues in the cause.” U.S. Philips Corp. v. KBC Bank
N.V., 590 F.3d 1091, 1094 (9th Cir. 2010).
A party seeking a preliminary injunction must
meet one of two variants of the same standard. The
traditional Winter standard requires the movant to
show “that he is likely to succeed on the merits, that he
is likely to suffer irreparable harm in the absence of
preliminary relief, that the balance of equities tips in
his favor, and that an injunction is in the public interest.” Winter, 555 U.S. at 20, 129 S.Ct. 365. Under the
“sliding scale” variant of the same standard, “if a plaintiff can only show that there are ‘serious questions going to the merits’—a lesser showing than likelihood of
success on the merits—then a preliminary injunction
may still issue if the ‘balance of hardships tips sharply
in the plaintiff’s favor,’ and the other two Winter factors are satisfied.” All. for the Wild Rockies v. Pena,
865 F.3d 1211, 1217 (9th Cir. 2017) (emphasis in original) (quoting Shell Offshore, Inc. v. Greenpeace, Inc.,

178a
709 F.3d 1281, 1291 (9th Cir. 2013)). In other words, irrespective of the robustness of the showing on the merits required, a plaintiff must demonstrate it is likely to
suffer irreparable injury in the absence of preliminary
relief. Accordingly, the Court begins by addressing that
factor.
III. DISCUSSION
A. Likelihood of Irreparable Harm, the Balance of Equities, and the Public Interest
The record evidence establishes that the irreparable injury, balance of hardships, and public interest factors tip sharply in Plaintiffs’ favor. All. for the Wild
Rockies, 865 F.3d at 1217.
1. Harm to California’s Public Health and Essential Access’s Organizational Mission
Plaintiffs are likely to suffer several forms of irreparable harm unless the Final Rule is enjoined pending
resolution of this case on the merits. The first type of
harm is to California’s public health and to Essential
Access’s organizational mission to promote access to
high-quality healthcare. See State v. Bureau of Land
Mgmt., 286 F. Supp. 3d 1054, 1074 (N.D. Cal. 2018)
(finding irreparable harm from agency rule that “will
have irreparable consequences for public health”) (citing Sierra Club v. U.S. Dep’t of Agric., Rural Utilities
Serv., 841 F. Supp. 2d 349, 358–59 (D.D.C. 2012)); Valle
del Sol Inc. v. Whiting, 732 F.3d 1006, 1029 (9th Cir.
2013) (finding irreparable harm where “organizational
plaintiffs have shown ongoing harms to their organizational missions as a result of the statute”); League of
Women Voters of United States v. Newby, 838 F.3d 1, 9
(D.C. Cir. 2016) (holding that obstacles that “make it
more difficult for the [organizations] to accomplish their

179a
primary mission ... provide injury for purposes both of
standing and irreparable harm”).
California’s efforts to advance its public health objectives by “provid[ing] women and men a means by
which they decide for themselves the number, timing,
and spacing of their children,” Cantwell Decl. ¶ 3, and
Essential Access’s mission “to champion and promote
quality sexual and reproductive health care for all,”
Rabinovitz Decl. ¶ 3, are in accord. Both will be undermined by the Final Rule qualitatively and quantitatively.
First, the Final Rule will directly compromise providers’ ability to deliver effective care and force them
to obstruct and delay patients with pressing medical
needs. Abortion is a time-sensitive procedure; the medical risks and costs associated with it “increase with any
delay.” Kost Decl. ¶ 93. Yet, the Final Rule erects barrier after barrier between patients trying to make an
informed decision about whether to continue their
pregnancies and their clinicians. A clinician must refer
a pregnant patient to prenatal care that focuses on carrying the pregnancy to term, even if the patient has
made clear her decision to terminate her pregnancy. Id.
¶¶ 87, 91. The clinician cannot refer the patient to a
provider of abortion services, even if the patient specifically requests such a referral. Id. ¶ 88. At most the clinician may provide a referral list. Most of the list must
be non-abortion providers—in other words, most of the
list must be non-responsive to what the patient requests. Id. And the clinician is barred from even identifying to the patient which providers on the referral list
are the ones she asked for (providers of abortion services), so the patient must expend further time and effort figuring out for herself which providers on the list
in fact can give her the care she wants and needs. Id.

180a
Incredibly, the Final Rule does not require a clinician
who furnishes a patient with a referral list that is wholly non-responsive to even notify her that the list does
not contain a single provider of the services she requested. Id. This pregnancy counseling process is thus,
as the President of Essential Access aptly puts it, a
“charade” from beginning to end. Rabinovitz Decl. ¶ 50.
The overall effect of the Final Rule is to “harm and confuse all patients” during a medically and emotionally
sensitive period and “ultimately threaten their health
and well-being.” Kost Decl. ¶¶ 90, 92, 94.
Second, the Final Rule threatens to drastically reduce access to the wide array of services provided by
Title X projects by driving large numbers of providers
out of the program. Compliance with the physical separation requirement, which in many cases effectively requires providers to establish “mirror” facilities and
staff, would be cost-prohibitive for many providers in
California’s Title X network. See Rabinovitz Decl. ¶ 43;
Nestor Decl. ¶ 13; McKinney Decl. ¶ 10; Forer Decl. ¶
31. In addition, a significant number of Title X projects
have indicated that they will likely drop out of the program because they believe the Final Rule compels
them to compromise the quality of care they provide
and violate their ethical obligations. Sub-recipients of
Essential Access’s Title X funds representing 233 clinic
sites serving over 774,000 patients “would leave or consider leaving” Title X if they are prohibited from referring patients for abortion services. Rabinovitz Decl. ¶
42. Sub-recipients representing 194 clinic sites serving
over 682,000 patients “will leave or consider leaving” if
they are required by the Final Rule to encourage family involvement where an adolescent patient seeks confidential services. Id.; see, e.g., Nestor Decl. ¶¶ 11–12;
McKinney Decl. ¶ 9. Likewise, “Planned Parenthood

181a
affiliates and their health centers”—which serve over
40% of all Title X patients nationwide—“would be
forced to discontinue their participation in Title X if the
Proposed Rule takes effect.” Rich Decl., Exh. M at 15–
16.
The net effect of so many providers leaving Title X
will be a significant reduction in the availability of important medical services. The substantial Title X funding
Essential
Access
currently
receives—
approximately $ 20 million per year—provides “comprehensive sexual and reproductive health care for
more than 1 million” patients in California annually.
Rabinovitz Decl. ¶¶ 1, 13–15. Essential Access has
submitted evidence that the vast majority of its subrecipients—85 percent—would be forced to lay off staff,
cut training, and reduce outreach and education activities without that funding. Id. ¶ 44. A third would have
to reduce clinic hours. Id. Some would have to shut
down core services and programs entirely. See, e.g.,
Thomas Decl. ¶¶ 11–13 (Fresno Economic Opportunities Commission “will not be able to operate”
HEARTT, its family planning and reproductive health
service for youth, without Title X funds); Nestor Decl.
¶¶ 5–10, 14 (Without Title X funds, the San Francisco
Department of Public Health will have to “substantially
curtail” its training programs, public education and
outreach projects, and “special projects to address
emerging public health challenges”); Marshall Decl. ¶
28 (“Without Title X funding, CommuniCare will not
run the outreach services that inform young people of
its teen clinic services, nor provide teen clinic services
at all.”); Wilburn Decl. ¶¶ 16–21, (“The loss of Title X
funds will be nearly fatal to [the Community Action
Partnership of San Luis Obispo County]’s Health and

182a
Prevention Division,” including its outreach programs,
teen program, and Hepatitis C testing services).
If Title X funding is reduced, patients in California
accordingly stand to lose access to a wide range of “vital health services,” many of which have nothing to do
with abortion, since Title X providers “serve as a trusted entry point for medical care generally.” California
Mot. at 24; see, e.g., Rabinovitz Decl. ¶ 12 (“In 2017
alone, Essential Access sub-recipients ... provided more
than 1.6 million family planning visits” and administered “more than 148,000 Pap tests, more than 118,000
clinical breast exams, more than 642,000 chlamydia
screenings, more than 700,000 gonorrhea screenings,
and more than 341,000 HIV tests.”); Brindis Decl. ¶¶
59–60; Tuttle Decl. ¶ 8; McCarthy Decl. ¶ 7; Wilburn
Decl. ¶¶ 17–19. In particular, “[i]n less populous regions, the Rule will create ‘contraceptive deserts’
where women in need of Title X-funded contraceptive
services will be unable to find an affordable, wellqualified provider within their county.” California Mot.
at 21. Nationwide, in one-fifth of U.S. counties the only
safety-net family planning center is a Title X site. Kost
Decl. ¶ 78. Should any of these sites drop out of the Title X program as a result of the Final Rule, many individuals would have no access to high-quality, affordable
family planning care in their counties at all. Id. In California specifically, eighteen counties would be left
without a single Title X-funded health center if all the
family planning providers that perform abortions were
to close. Rabinovitz Decl. ¶ 43.
Even among providers who remain in Title X, service capacity will decrease because the requirement
that pregnancy counseling can only be provided by
physicians and APPs excludes “vast numbers of medical professionals” who currently provide such counsel-

183a
ing. Rabinovitz Decl. ¶ 52; McKinney Decl. ¶ 11; Kost
Decl. ¶ 86. This will compound an already “severe crisis
in physician and nurse practitioner availability,” creating even more critical shortages in counseling resources. Castellano-Garcia Decl. ¶ 11. Many Title X
grantees do not have enough physicians and APPs on
staff to serve their patients, so those patients will have
to either wait for much longer to receive counseling
that is often time-sensitive, or simply will not receive
the family-planning information they need. See, e.g.,
McKinney Decl. ¶ 11; Forer Decl. ¶ 30.
Third, the quality of Title X services will be compromised. Patients served by Title X-funded providers
use more effective contraceptive methods at higher
rates than those served by non-Title X-funded providers. Rabinovitz Decl. ¶ 46. Title X patients “are more
likely [than non-Title X patients] to adopt or continue
using long-acting and reversible contraceptive methods
(‘LARCs’),” which “are highly effective [in preventing
pregnancy] because they obviate the need for daily administration or use at the time of intercourse.” Id.; see
also Kost Decl. ¶¶ 119–121 (describing a 35 percent reduction in women using LARCs after Texas “made a
series of changes to its family planning program ...,
which included disqualifying agencies providing abortion”). “Diminishing access to LARCs may result in a
greater number of unintended pregnancies.” Rabinovitz Decl. ¶ 46. Moreover, the Final Rule’s separation provision requires health centers to maintain duplicate records systems. Such non-integrated records
systems threaten patient health by increasing the risk
of error due to “incomplete medical histories, missing
data, lost test results, incorrect medication, dosage instructions, and allergy warnings, and other miscommunications across patient records.” Id. ¶ 70.

184a
Ultimately, the consequence of the reduced availability and quality of health services is worse health outcomes for patients and the public as a whole. The number of unintended pregnancies will increase, which is
“likely to result in premature births, low birth weight
infants, and congenital defects.” Cantwell Decl. ¶¶ 24,
29; Brindis Decl. ¶¶ 52–55. Indeed, the Final Rule could
have the perverse effect of increasing abortion rates,
since “[o]ver half of unintended pregnancies end in miscarriage or abortion.” California Mot. at 23; Tosh Decl.
¶ 25 (citing report documenting that 45% of unintended
pregnancies result in abortion, and another 13% result
in miscarriages). Instances of STIs and other conditions
that would otherwise be diagnosed by Title X-funded
testing will also likely increase. See Brindis Decl.
¶¶ 59–65 (citing study estimating that in 2017, Title Xfunded testing “averted approximately 90 to 400 cases
of HIV and 47,740 to 56,670 other STIs,” diagnosed
“many pelvic inflammatory disease (PID) cases, ectopic
pregnancies, ... infertility cases” and “reproductive cancers”); Kost Decl. ¶ 82.
In short, there is substantial evidence in the record
before the Court which establishes that California’s
public health and Essential Access’s mission to promote
quality sexual and reproductive care will be irreparably
harmed unless the Final Rule is enjoined.
2. Economic Harm to California
Next, the economic harms that flow from the Final
Rule’s detrimental effects on public health also constitute irreparable harm to California. See California v.
Health & Human Servs., 351 F. Supp. 3d 1267, 1297
(N.D. Cal. 2019) (“HHS”) (finding irreparable harm to
plaintiff states where HHS rule creating exemptions to
the ACA contraceptive mandate will cause “tens of

185a
thousands of women” to lose contraceptive coverage,
and the states “document[ed] the fiscal harm that will
flow to them as a result”); see also California v. Azar,
911 F.3d 558, 581 (9th Cir. 2018) (“Azar”) (affirming
finding of irreparable economic harm to states from the
same HHS rules “because the states will not be able to
recover monetary damages” for their APA claims per 5
U.S.C. § 702).
California’s state Medicaid program, Medi-Cal, “is
the primary funder for low-income Californians’
healthcare services.” Cantwell Decl. ¶ 28. Via Medi-Cal,
the Final Rule’s impact on public health translates to
substantial financial and administrative burdens for
California. For example, Medi-Cal insures 64% of unplanned births in the state. Tosh Decl. ¶¶ 26, 44. It is
estimated that each unintended pregnancy in California
costs the public fisc $ 6,557 in medical, welfare, and other social service costs. Id. ¶ 27. Moreover, Medi-Cal
“would likely also bear a portion of the costs associated
with any delays in the diagnosis and treatment of STIs
or breast or cervical cancer.” Cantwell Decl. ¶ 30.
3. Economic Harm to Essential Access
Essential Access will also suffer irreparable economic harm if the Final Rule’s physical separation requirement becomes effective. Because that requirement is so stringent, Essential Access estimates that it
“will be forced to spend exorbitant sums to construct a
‘mirror’ office,” at the cost of $ 325,000 in the first year
and $ 212,500 every year thereafter. Essential Reply at
13; Rabinovitz Decl. ¶ 66. Its sub-recipients estimate
that compliance with the separation requirement will
cost an average of $ 119,000 per agency. Rabinovitz
Decl. ¶ 69. Bringing its infrastructure into compliance
with the separation requirement will also require Es-

186a
sential Access to divert resources it “otherwise devotes
to its core operations and its mission.” Essential Mot. at
32 (citing Rabinovitz Decl. ¶ 67); see E. Bay Sanctuary
Covenant v. Trump, 354 F. Supp. 3d 1094, 1116 (N.D.
Cal. 2018) (holding that organizational plaintiffs “ ‘have
established a likelihood of irreparable harm’ based on
their showing of serious ‘ongoing harms to their organizational missions,’ including diversion of resources”)
(quoting Valle del Sol, 732 F.3d at 1029). As with the
economic harm to California, Essential Access’s economic harm is irreparable because it “will not be able to
recover monetary damages” for its APA claims. Azar,
911 F.3d at 581 (citing 5 U.S.C. § 702).
4. Defendants’ Responses to Plaintiffs’ Evidence of Irreparable Harm
Defendants attack Plaintiffs’ assertions of irreparable harm on several grounds.
First, Defendants do not dispute that damage to
public health can constitute irreparable harm, but instead claim that the public health impact California is
describing depends on the response of regulated third
parties—i.e., recipients of Title X funding—to the Final
Rule, and therefore that the “chain of events necessary
to create these speculative harms” is too “attenuated.”
Opp. at 43 (citing Lujan v. Defs. Of Wildlife, 504 U.S.
555, 562, 112 S.Ct. 2130, 119 L.Ed.2d 351 (1992)). Not
so.
To begin with, Defendants ignore that the Final
Rule’s harm to Title X patients described above directly undermines California’s public health objectives.
Moreover, uncontroverted record evidence Plaintiffs
have submitted shows that the harms they describe are
not speculative; they are “likely in the absence of an
injunction.” Winter, 555 U.S. at 22, 129 S.Ct. 365 (em-

187a
phasis in original). As detailed above, Planned
Parenthood has stated unequivocally that its whole
network of health centers “would be forced to discontinue their participation in Title X if the Proposed Rule
takes effect.” Rich Decl., Exh. M at 15. So have many
Title X providers in California’s network. See, e.g., Nestor Decl. ¶ 11; McKinney Decl. ¶ 9. Indeed, one has already dropped out of Title X as of April 4, 2019 in response to the Final Rule. Essential Access Docket No.
64 (Supplemental Rabinovitz Decl.) ¶ 5. Hundreds more
have indicated that they “would leave or consider leaving” Title X if the Final Rule is implemented. Rabinovitz Decl. ¶ 42.
Equally unambiguous are the adverse health consequences that will follow from the mass departure of
Title X providers. The inverse correlation between the
availability of publicly-funded contraceptives and the
rate of unintended pregnancies is well-documented in
the record. See Brindis Decl., Exh. B at 11, 12 n.73 (citing a 2015 report showing that 286,700 unintended
pregnancies were averted in California in a single year
as a result of publicly funded contraceptive services);
Rich Decl., Exh. L at 31–32 (“Title X-funded services
helped women avert an estimated 822,300 unintended
pregnancies in 2015 alone, thus preventing 387,200 unplanned births and 277,800 abortions. Without services
provided by these providers, the U.S. unintended
pregnancy rate would have been 31% higher.”). Plaintiffs have also cited three case studies documenting the
adverse health consequences that directly resulted
when family planning services providers that offer
abortion-related services were excluded from public
funding. See Brindis Decl., Exh. B at 6–7 (Indiana county that cut funding to Planned Parenthood facility almost immediately experienced “one of the largest and

188a
most rapid HIV outbreaks the country has ever seen”);
Kost Decl. ¶¶ 119–22 (disqualifying agencies that provided abortion services from public funding in Texas
and Iowa led to marked decreases in family planning
services rendered and the use of effective contraceptives).
Moreover, there is already a “severe” shortage of
physician and nurse practitioner availability, so implementation of the Final Rule’s physician and APP requirement will directly exacerbate patients’ lack of access to pregnancy counseling. Castellano-Garcia Decl. ¶
11; McKinney Decl. ¶ 11; Forer Decl. ¶ 30. The resulting shortfall in service capacity caused would manifest
immediately, before any final decision on the merits in
this case will be reached. See 11A Charles Alan Wright
et al., Federal Practice and Procedure § 2948.1 (3d ed.
2013) (“Perhaps the single most important prerequisite
for the issuance of a preliminary injunction is a demonstration that if it is not granted the applicant is likely to
suffer irreparable harm before a decision on the merits
can be rendered.”). Nothing about this chain of causation is attenuated.
What is speculative is Defendants’ assurance that
any gap left by an exodus in current Title X providers
will be fully filled by new providers entering the program. Defendants point to HHS’s claim in the Final
Rule that it “does not anticipate that there will be a decrease in the overall number of facilities offering [Title
X] services, since it anticipates other, new entities will
apply for funds, or seek to participate as subrecipients,
as a result of the final rule.” 84 Fed. Reg. at 7782; see
also id. at 7756. But this claim is not backed by any dis-

189a
cernible evidence or analysis.4 See Part III.C.2.f., infra
(discussing HHS’s analysis of the expected costs and
benefits of the Final Rule). In fact, at oral argument,
when pressed for any record evidence substantiating
this (highly consequential) assertion, Defendants’ counsel could offer none. Counsel insisted that it is “just intuitive” that new grantees will fully replace departing
ones in the “fluid marketplace” for medical services. Intuition is no rebuttal to Plaintiffs’ evidence of threatened irreparable harm. Nor is Defendants’ “intuition”
presumed as a matter of logic and common sense. Plaintiffs note that nationwide, in one-fifth of U.S. counties,
including rural counties in California, the only safetynet family planning center is a Title X site. Kost Decl.
¶ 78; see also Rabinovitz Decl. ¶ 51 (stating that in
some rural areas of California, a patient would have to
travel more than five hours in order to access an abortion provider that qualifies for a referral under the Final Rule). It defies common sense to assume that in
these regions, new healthcare centers will simply materialize and seamlessly assume the client load of exiting
grantees.
Second, Defendants insist that the claimed harm to
Essential Access is not imminent. Opp. at 43–44. This
argument is unavailing for the same reason that the
expected harm to California is not speculative—
Plaintiffs’ evidence demonstrates that access to and the
quality of family planning services will be adversely af4

Given the lack of evidence that new grantees will enter the
Title X program, it is hardly surprising that Defendants do not
appear to have considered how much time it would take these hypothetical new grantees to become operational Title X providers,
and what the impact on patients might be from even a temporary
disruption in services.

190a
fected as soon as the Final Rule goes into effect. With
respect to compliance costs, the process for establishing
a physically and financially separate “mirror” office
would “requir[e] Essential Access to expend resources
on planning and implantation of operational changes
immediately after the Final Rule takes effect.”5 Rabinovitz Decl. ¶ 66 (emphasis added); see id. ¶ 68. The
same time pressure extends to Essential Access’s subrecipients. McKinney Decl. ¶ 10. Furthermore, as to
Essential Access’ ability to deliver quality health care,
it cannot be ignored that abortion is a time-sensitive
procedure, and the medical risks and costs associated
with it “increase with any delay.” Kost Decl. ¶ 93; cf.
Chalk v. U.S. Dist. Court Cent. Dist. of California, 840
F.2d 701, 710 (9th Cir. 1988) (finding that time-sensitive
nature of AIDS diagnosis is a “factor favoring a preliminary injunction”). The Final Rule, by requiring Title X
projects to provide incomplete and perhaps even misleading information to patients, and prohibiting projects from referring patients to abortion providers,
forces patients to expend more time and effort to secure information and referrals regarding abortions. In
doing so, it increases the health risks and limits the
care options for pregnant women, whether they have
already decided to obtain an abortion or are simply
seeking more information to guide their determination
of whether to continue their pregnancies. See Kost
Decl. ¶ 94 (“[T]he inability to make a fully informed decision on how to proceed with a pregnancy would be especially harmful for women with severe diabetes, heart
conditions, HIV/AIDS and estrogen-dependent tu5

The Final Rule sets a compliance date for the physical separation requirement of March 4, 2020. 84 Fed. Reg. at 7791. But of
course, grantees will have to begin the process for bringing their
operations into compliance far before that.

191a
mors—all conditions that could be exacerbated by continuing a pregnancy.”). In other words, the Final Rule
is likely to jeopardize patients’ welfare as soon as it is
implemented, thus impairing both patient health and
Essential Access’ central mission.
Third, Defendants argue that the alleged harm to
Essential Access’s sub-recipients and Title X patients
is not harm to Essential Access itself. See Opp. at 43.
This argument misses the point. As noted above, Essential Access’s organizational mission is to “promote
quality sexual and reproductive health care for all.”
Rabinovitz Decl. ¶ 3. It works toward this mission in
part by distributing Title X funds to its sub-recipients
to facilitate their provision of family planning services
to patients. Id. ¶ 6. Thus, the potentially detrimental
impact the Final Rule will have on those sub-recipients’
capacities to provide services to Title X patients is just
one manifestation of the harm that Essential Access
will suffer with respect to its organizational mission.
Fourth, Defendants recite the proposition that “ordinary compliance costs are typically insufficient to
constitute irreparable harm.” Opp. at 45 (quoting Freedom Holdings, Inc. v. Spitzer, 408 F.3d 112, 115 (2d Cir.
2005)). “But as the Ninth Circuit recently reiterated,
the general rule that ‘[e]conomic harm is not normally
considered irreparable’ does not apply where there is
no adequate remedy to recover those damages, such as
in APA cases.” E. Bay Sanctuary Covenant, 354 F.
Supp. 3d at 1116 (quoting Azar, 911 F.3d at 581). In
East Bay Sanctuary, the court found that the plaintiffs
established a likelihood of irreparable harm “based on
their showing of serious ‘ongoing harms to their organizational missions,’ including diversion of resources and
the non-speculative loss of substantial funding from
other sources.” 354 F. Supp. 3d at 1116 (citing Valle del

192a
Sol, 732 F.3d at 1029). The same reasoning obtains
here, because Essential Access and its sub-recipients
will not be able to recover for the substantial costs they
would need to expend to come into compliance with the
new separation requirements even if the Final Rule is
found to violate the APA.
Accordingly, Plaintiffs have satisfied the irreparable harm prong of the preliminary injunction inquiry.
B. The Balance of Equities and the Public Interest
Where the government is a party to a case in which
a preliminary injunction is sought, the balance of the
equities and public interest factors merge. Drakes Bay
Oyster Co. v. Jewell, 747 F.3d 1073, 1092 (9th Cir. 2014).
Here, both factors weigh in favor of preliminarily enjoining the Final Rule.
On Plaintiffs’ side is their interest in averting the
“potentially dire public health and fiscal consequences
from the implementation of the Final Rules,” HHS, 351
F. Supp. 3d at 1298, discussed above. The Final Rule
threatens to impair the health and welfare of women
who benefit from Title X-funded services and Plaintiffs’
mission to provide quality healthcare. Moreover, there
are the “substantial costs stemming from a higher rate
of unintended pregnancies that are likely to occur if
women lose access to the [family planning] coverage
afforded under the rules now in place.” Id. And Plaintiffs are not the only ones that will suffer hardship absent an injunction. See Golden Gate Rest. Ass’n v. City
& Cty. of San Francisco, 512 F.3d 1112, 1126 (9th Cir.
2008) (“In considering the public interest, we may consider the hardship to all individuals covered by the
[challenged law], not limited to parties....”). As explained above, public health problems will adversely
impact the general public. See Stormans, Inc. v. Se-

193a
lecky, 586 F.3d 1109, 1139 (9th Cir. 2009) (“The ‘general
public has an interest in the health’ of state residents.”)
(quoting Golden Gate Rest. Ass’n, 512 F.3d at 1126). A
group of thirteen municipalities has also submitted an
amicus brief explaining that they will be harmed by the
Final Rule in analogous ways to California by the implementation of the Final Rule. See Essential Access
Docket No. 62 at 7–13. Each of these municipalities receives substantial Title X funding annually and they
collectively serve hundreds of thousands of patients
through their Title X programs. See id. at 4–7.
On the other hand, Defendants identify no substantiated harm if a preliminary injunction were to issue.
They have not documented any substantial abuse of Title X funds. See Part III.C.2.b., infra. The only harm
Defendants currently assert is that which the government will suffer “if it ‘is enjoined by a court from effectuating statutes enacted by representatives of its people.’” Opp. at 46 (quoting Maryland v. King, 567 U.S.
1301, 133 S.Ct. 1, 183 L.Ed.2d 667 (2012) (Roberts, C.J.,
in chambers)). But as Judge Gilliam pointed out in another case: “Here, of course, the ‘representatives of the
people’—the United States Congress—passed the [relevant statute], and the precise question in this case is
whether the Executive’s attempt to implement the Final Rules is inconsistent with Congress’s directives.”
HHS, 351 F. Supp. 3d at 1299. As set forth in detail below, this Court finds a high likelihood that the Final
Rule was promulgated in violation of substantive statutory law and APA-mandated procedures, and “[t]here
is generally no public interest in the perpetuation of unlawful agency action.” League of Women Voters of
United States v. Newby, 838 F.3d 1, 12 (D.C. Cir. 2016)
(citations omitted). “To the contrary, there is a substantial public interest ‘in having governmental agen-

194a
cies abide by the federal laws that govern their existence and operations.’” Id. (quoting Washington v. Reno, 35 F.3d 1093, 1103 (6th Cir. 1994)). It may be true
that Defendants intend the Final Rule to represent the
government’s “value judgment favoring childbirth over
abortion,” Opp. at 46 (quoting Rust, 500 U.S. at 192–93,
111 S.Ct. 1759), but that value judgment cannot be effectuated in an unlawful manner or in violation of other
Congressional directives.
Hence, the balance of hardships and the public interest tip sharply in favor of Plaintiffs. Although injunctive relief is thus warranted “if [Plaintiffs] can only
show that there are ‘serious questions going to the merits,’” All. for the Wild Rockies, 865 F.3d at 1217, for the
reasons discussed below, Plaintiffs have done more
than show “serious questions.” They have established
they are likely to succeed on the merits of many of their
claims.
C. Likelihood of Success on the Merits/Serious Questions Going to the Merits
California argues that it is likely to succeed on its
APA claims because the Final Rule is not in accordance
with law and exceeds statutory authority, in violation
of 5 U.S.C. § 706(2)(A) and (2)(C). California also contends the Rule is arbitrary and capricious, in violation
of 5 U.S.C. § 706(2)(A).6 California Mot. at 10–19. Essential Access makes similar arguments under the
APA, as well as an additional contention that the Final
Rule was promulgated without proper notice and com6

California’s complaint also alleges that the Final Rule denies
women equal protection of the laws in violation of the Fifth
Amendment. See California Docket No. 1 ¶¶ 221–29. However,
California does not rely on that claim in its preliminary injunction
motion.

195a
ment. Essential Mot. at 9–21. It also presses two constitutional claims: that the Final Rule infringes upon Dr.
Marshall’s First Amendment rights, and that it is void
for vagueness under the Fifth Amendment Due Process Clause. Id. at 21–25. Each claim is addressed below.
1. The Final Rule is Not in Accordance with Law
The APA requires a reviewing court to “hold unlawful and set aside agency action” that is “arbitrary,
capricious, an abuse of discretion, or otherwise not in
accordance with law.” 5 U.S.C. § 706(2)(A). “ ‘[N]ot in
accordance with law’ ... means, of course, any law, and
not merely those laws that the agency itself is charged
with administering.” F.C.C. v. NextWave Pers.
Commc’ns Inc., 537 U.S. 293, 300, 123 S.Ct. 832, 154
L.Ed.2d 863 (2003) (emphasis in original). Defendants
assert that the Final Rule cannot be unlawful under §
706(2)(A) because it is “materially indistinguishable
from [the 1988 rule] the Supreme Court has already
upheld” in Rust. Opp. at 8. Plaintiffs, however, rely on
HHS Appropriations Acts and the ACA, which were
enacted after Rust was decided, so their claim is not
automatically foreclosed by Rust. The Court therefore
must determine whether the Final Rule is inconsistent
with the Appropriations Acts and the ACA.
a. The Nondirective Counseling Provision
The most recent “Department of Defense and Labor, Health and Human Services, and Education Appropriations Act” provides:
For carrying out the program under title X of
the PHS Act to provide for voluntary family
planning projects, $ 286,479,000: Provided, That
amounts provided to said projects under such

196a
title shall not be expended for abortions, that
all pregnancy counseling shall be nondirective,
and that such amounts shall not be expended
for any activity (including the publication or
distribution of literature) that in any way tends
to promote public support or opposition to any
legislative proposal or candidate for public office.
Pub. L. No. 115-245, Div. B, Tit. II, 132 Stat 2981, 3070–
71 (2018) (emphasis added). This “Nondirective Counseling Provision” has been included in HHS appropriations acts (“Appropriations Acts”) every year since
1996 in substantially similar form. See, e.g., Omnibus
Consolidated Rescissions and Appropriations Act of
1996, Pub. L. No. 104-134, 110 Stat. 1321, 1321–22
(1996) (requiring that “all pregnancy counseling shall be
nondirective....”).
According to Plaintiffs, the provisions of the Final
Rule that restrict abortion counseling and referral conflict with the Nondirective Counseling Provision. See
California Mot. at 11–12; Essential Mot. at 13–14. Defendants in their briefing initially took this to mean that
Plaintiffs were arguing that “the nondirective provision
implicitly repealed section 1008 and Rust,” Opp. at 14,
because Rust upheld similar provisions in the 1988 regulations as a permissible construction of Section 1008.
However, Defendants subsequently recognized that the
doctrine of implied repeal is not apposite here because
the Nondirective Counseling Provision and Section
1008 are not in irreconcilable conflict. See Radzanower
v. Touche Ross & Co., 426 U.S. 148, 154–55, 96 S.Ct.
1989, 48 L.Ed.2d 540 (1976) (explaining that repeals by
implication come into play “where provisions in the two
acts are in irreconcilable conflict”) (citation omitted);
Opp. at 16 (“There is no conflict—much less an irrecon-

197a
cilable one—between Title X ... and the nondirective
provision.”). Rust did not purport to interpret Section
1008 as requiring directive counseling in favor of birth;
rather, it held that HHS’s 1988 rule was one permissible interpretation, not the only permissible interpretation. See Rust, 500 U.S. at 184, 111 S.Ct. 1759 (“The
language of § 1008—that ‘[n]one of the funds appropriated under this subchapter shall be used in programs
where abortion is a method of family planning’—does
not speak directly to the issues of counseling, referral,
advocacy, or program integrity.”). Indeed, at oral argument, Defendants’ counsel agreed with Plaintiffs that
Section 1008 and the Nondirective Counseling Provision can be read in harmony—requiring pregnancy
counseling under Title X to be nondirective does not
necessarily run afoul of Section 1008’s general proscription that no Title X funds “shall be used in programs
where abortion is a method of family planning.” That is
demonstrated by HHS’s 2000 regulations, which proscribed funding of abortions but permitted nondirective
pregnancy counseling.7
The question is whether the Final Rule, as one interpretation of Section 1008, is inconsistent with the
Appropriations Acts’ mandate that “pregnancy counseling” be “nondirective.” HHS does not dispute that it
has an obligation to comply with the Nondirective
Counseling Provision. It wrote in the notice of proposed
rulemaking for the Final Rule that “[s]ince it originally
created the Title X program in 1970, Congress has,
from time to time, imposed additional requirements on
it,” including “the annual Title X appropriation includes
7

Apart from the brief period when the 1988 regulations were
effective, HHS has consistently interpreted Section 1008 to allow
nondirective pregnancy counseling.

198a
the provisos that ‘all pregnancy counseling shall be
nondirective.’” 83 Fed. Reg. 25502, 25502 (2018) (“Proposed Rule”); id. at 25507 n.11 (“That counseling on
abortion be nondirective is required by the appropriations law applicable to Title X.”). Similarly, the Final
Rule states that Title X “projects must comply with
Congress’s requirement that pregnancy counseling be
nondirective, and the Department must enforce that
requirement.” 84 Fed. Reg. at 7747 (emphases added).
As Defendants see it, however, the Final Rule is
not inconsistent with the Nondirective Counseling Provision because § 59.14(b)(1) of the Final Rule allows a
Title X provider to “choose to provide ... [n]ondirective
pregnancy counseling” to a pregnant patient. Plaintiffs
contend, on the other hand, that the Final Rule is inconsistent with the Nondirective Counseling Provision
because it mandates referrals to prenatal care while
categorically barring referrals for “abortion as a method of family planning,” and imposes unreasonable restrictions on the provision of referral lists for patients
seeking an abortion. Plaintiffs also argue that even
without the referral prohibition and restrictions, the
Final Rule “effectively prohibits nondirective counseling ... by issuing a vague prohibition on providers who
‘encourage’ or ‘promote’ abortion.” California Mot. at
11. Plaintiffs believe this “unclear guidance will likely
cause providers to forgo discussions altogether for fear
of violating the Rule.” Id. at 12.
i. “Nondirective Counseling” Includes Referrals
The first part of the parties’ dispute focuses on
whether “nondirective counseling” under the Appropriations Acts encompasses referrals. It does, as indicated by statute, regulations, and industry practice.
First, Congress expressed its understanding in the

199a
PHSA that “nondirective counseling” includes referral.
See 42 U.S.C. § 254c-6(a)(1)8 (providing that HHS shall
make training grants “providing adoption information
and referrals to pregnant women on an equal basis with
all other courses of action included in nondirective
counseling to pregnant women”) (emphases added).
The PHSA and the HHS Appropriations Acts appear
to be the only instances in which Congress has used the
term “nondirective counseling,” and Defendants have
not argued otherwise. Notably, the Final Rule, in interpreting Title X, incorporates the definition of “nondirective counseling” from § 254c-6(a)(1) of the PHSA
in the context of adoption. 84 Fed. Reg. at 7733 (“Congress has expressed its intent that postconception
adoption information and referrals be included as part
of any nondirective counseling in Title X projects when
it passed [§ 254c-6(a)(1)].”) (emphasis added). Congress’
use of the identical term “nondirective counseling”
should be read consistently across the PHSA and the
HHS Appropriations Acts to include referrals as part
of counseling. See Dir., OWCP v. Newport News
Shipbldg. & Dry Dock Co., 514 U.S. 122, 130, 115 S.Ct.
1278, 131 L.Ed.2d 160 (1995) (teaching that, in interpreting an ambiguous statutory phrase, “[i]t is particularly illuminating to compare” two different statutes
employing the “virtually identical” phrase); cf. Erlenbaugh v. United States, 409 U.S. 239, 243, 93 S.Ct. 477,
34 L.Ed.2d 446 (1972) (“[A] legislative body generally
uses a particular word with a consistent meaning in a
given context.”).
8

Section 254c-6(a)(1) was enacted in 2000, four years after the
Nondirective Counseling Provision was first enacted. As noted
above, the Nondirective Counseling Provision has been included in
every HHS Appropriations Act since 1996, including from 2000 to
2019.

200a
Second, as a matter of regulatory law, HHS itself
characterizes referrals as part of counseling throughout
the Final Rule. See id. at 7730 (“[N]ondirective pregnancy counseling can include counseling on adoption,
and corresponding referrals to adoption agencies.”);
7733–34 (“Title X providers may provide adoption
counseling, information, and referral as a voluntary
family planning service for non-pregnant clients ... as
part of nondirective postconception counseling....”). The
Final Rule, in this regard, is not unique. As early as
1981, HHS has defined counseling in its Title X Guidelines to include referral. See U.S. Dep’t of Health and
Human Services, Program Guidelines for Project
Grants for Family Planning Services § 8.2 (1981)
(“Post-examination counseling should be provided to
assure that the client ... receives appropriate referral
for additional services as needed.”) (emphases added).
Third, the accepted usage within the medical field
of “nondirective counseling” supports Plaintiffs’ position. See Louisiana Pub. Serv. Comm’n v. F.C.C., 476
U.S. 355, 357, 106 S.Ct. 1890, 90 L.Ed.2d 369 (1986) (articulating “the rule of construction that technical terms
of art should be interpreted by reference to the trade
or industry to which they apply”) (citing Corning Glass
Works v. Brennan, 417 U.S. 188, 201–02, 94 S.Ct. 2223,
41 L.Ed.2d 1 (1974)); Alabama Power Co. v. EPA, 40
F.3d 450, 454 (D.C. Cir. 1994) (“[W]here Congress has
used technical words or terms of art, it is proper to explain them by referring to the art or science to which
they are appropriate.”). This is reflected in the HHS
Office of Population Affairs’ (“OPA”) own “Quality
Family Planning” guidelines (“QFP Guidelines”), which
are incorporated into the agency’s Title X Family

201a
Planning Guidelines.9 See Center for Disease Control
and Prevention, Providing Quality Family Planning
Services (2014), https://www.cdc.gov/mmwr/pdf/rr/
rr6304.pdf; Rich Decl., Exh. A at 5. The “Pregnancy
Testing and Counseling” section of the QFP Guidelines
instructs that “[pregnancy] test results should be presented to the client, followed by a discussion of options
and appropriate referrals.”10 Brindis Decl., Exh. C at
13–14. The QFP Guidelines then advise that “[o]ptions
counseling should be provided in accordance with recommendations from professional medical associations,
such as ACOG [the American College of Obstetricians
and Gynecologists] and AAP [the American Academy
of Pediatrics].” Id. at 14. “Both ACOG and AAP are explicit in their recommendations that all pregnant individuals, including adolescents, be provided with factual,
nondirective pregnancy options counseling that includes information on and timely referral for abortion
services.” Kost Decl. ¶ 25. The American Medical Association’s comment letter to the Proposed Rule likewise
states unequivocally that “[t]he inability to counsel patients about all of their options in the event of a preg9

The OPA website continues to refer providers of family
planning services to these guidelines. See HHS Office of Population Affairs, Quality Family Planning, https://www.hhs.gov/opa/
guidelines/clinical-guidelines/quality-family-planning/index.html
(last visited April 2, 2019) (“The QFP provide recommendations
for use by all reproductive health and primary care providers with
patients who are in need of services related to preventing or for
achieving pregnancy.”).
10

Understanding referral to be a part of the counseling process also conforms to common sense. A patient would presumably
be rather taken aback if, for instance, upon receiving an initial diagnosis of cancer from her doctor, the doctor then refuses to provide a referral for further testing and medically appropriate
treatment.

202a
nancy and to provide any and all appropriate referrals,
including for abortion services, are contrary to the
AMA’s Code of Medical Ethics.” Rich Decl., Exh. I at 3.
See also Rabinovitz Decl. ¶ 33 (“Nondirective counseling ... requires nondirective referrals for particular services—including abortion—upon request of the patient.”).
That Congress intended “nondirective counseling”
include nondirective “referrals” is reinforced by the
fact that Congress repeatedly enacted the Nondirective
Counseling Provision in substantially the same form
every year since 1996. Throughout these last 23 years
the HHS regulations have consistently interpreted Title X to “require[ ], in the event of an unplanned pregnancy and where the patient requests such action,
[grantees] to provide nondirective counseling to the patient on all options relating to her pregnancy, including
abortion, and to refer her for abortion, if that is the option she selects.” 58 Fed. Reg. at 7464. “Congress is
presumed to be aware of an administrative or judicial
interpretation of a statute and to adopt that interpretation when it re-enacts a statute without change.” Lorillard v. Pons, 434 U.S. 575, 580, 98 S.Ct. 866, 55
L.Ed.2d 40 (1978) (citations omitted); see Do Sung Uhm
v. Humana, Inc., 620 F.3d 1134, 1154–55 (9th Cir. 2010).
Defendants counter by relying on general dictionary definitions to urge that “ ‘[c]ounseling’ does not, in
its common usage, necessarily include within its definition the act of ‘referral.’” Opp. at 17 (quoting Black’s
Law Dictionary (10th ed. 2014)). But the Court need
not resort to indications of common usage because
there is ample statutory, regulatory, and industry
guidance on the meaning of “counseling” in the specific
context of medical services at issue here. See United
States v. Lettiere, 640 F.3d 1271, 1274 (9th Cir. 2011)

203a
(“Only in the absence of a statutory definition does this
court normally look to the ordinary meaning or dictionary definition of a term.”); see also United States v.
Costello, 666 F.3d 1040, 1044 (7th Cir. 2012) (cautioning
that “[d]ictionary definitions are acontextual, whereas
the meaning of sentences depends critically on context,
including all sorts of background understandings”).
Next, Defendants point to various instances in the
Final Rule where the phrase “counseling and referral”
is used. See, e.g., 84 Fed. Reg. at 7730 (“[T]he Department believes that Title X providers can provide certain counseling and referrals in a postconception setting....”), 7747 (“Nondirective counseling and referrals
for postconception services ... are the appropriate approach in the context of pregnancy....”), 7778 (“[T]he
final rule eliminates the requirement that Title X projects provide abortion counseling and referral.”). To
Defendants, the conjunction “and” indicates that counseling and referral are discrete activities. Absent any
other interpretive guidance, this may be a plausible
reading. But given the express references to counseling
as “including” referral in the PHSA, elsewhere in HHS
regulations, and in the Final Rules, the phrase “counseling and referral” occasionally used by HHS is more
sensibly read as simply describing sequential aspects of
the same process.
Finally, Defendants cite a 1992 bill that expressly
sought to “reverse[ ] the regulations issued in 1988 and
upheld by the Supreme Court in 1991 to restrict the
provision of information on abortion to Title-Ten patients.” Opp. at 17 (quoting H.R Rep. No. 102-204, at 1
(1991)). The bill, which was passed by Congress but vetoed by President George H. W. Bush, defined “pregnancy management options” to mean “nondirective
counseling and referrals.” S. 323, 102nd Cong. § 2

204a
(1992). Defendants contend that Congress’ later enactment of the Nondirective Counseling Provision without
specific mention of “referral” as in the 1992 bill signifies
that Congress intended to exclude referral from the
scope of nondirective counseling mandated by the subsequent Appropriations Acts. See Opp. at 18. This argument ignores important context. The 1992 bill was
introduced in the immediate wake of and as an explicit
response to the Rust decision. Because Rust upheld the
1988 regulations that expressly banned abortion counseling and referrals, it is not surprising that Congress
felt the need to specify in explicit terms that it was putting both abortion-related counseling and referral back
on the table. But by the time Congress enacted the
Nondirective Counseling Provision in 1996, the pre1988 regulatory scheme that treated abortion referrals
as a part of counseling had already been restored. See
58 Fed. Reg. 7462. Since 1993, the HHS regulations
have permitted abortion referrals. This obviated the
need for the Nondirective Counseling Provision to
make explicit reference to both counseling and referral.
Although Defendants invoke the proposition that
“[f]ew principles of statutory construction are more
compelling than the proposition that Congress does not
intend sub silentio to enact statutory language that it
has earlier discarded in favor of other language,” United States v. Novak, 476 F.3d 1041, 1071 (9th Cir. 2007),
it is hazardous to apply this principle to divine the intent of a Congress that passed the Nondirective Counseling Provision four years after the vetoed 1992 bill
given the different historical contexts of the 1992 bill
and the subsequent 1996 Appropriations Act. See Cohen v. United States, 650 F.3d 717, 730 (D.C. Cir. 2011)
(“[I]t is the enacted text rather than the unenacted legislative history that prevails.”) (citation omitted). De-

205a
fendants cite nothing in the legislative history suggesting that Congress in 1996 considered, and rejected, a
version of the Nondirective Counseling Provision that
expressly required abortion referral or that Congress
otherwise intended to exclude referrals from the provision.
In sum, the Court finds that the statutory language, PHSA, Title X regulations, and usage within the
medical field all indicate that nondirective counseling
includes nondirective referrals.
ii. The Final Rule’s Referral Restrictions Violate the
Nondirective Counseling Provision
Applying this definition, sections 59.14(a),
59.14(b)(1), and 59.14(c)(2) of the Final Rule likely violate the Nondirective Counseling Provision. “Nondirective pregnancy counseling is the meaningful
presentation of options where the [medical professional] is not suggesting or advising one option over another.” 84 Fed. Reg. at 7716; see 42 U.S.C. § 254c-6(a)(1)
(providing that nondirective pregnancy counseling involves “providing adoption information and referrals to
pregnant women on an equal basis with all other courses of action”). To be nondirective, the medical professional must “present[ ] the options in a factual, objective, and unbiased manner and ... rather than present[ ]
the options in a subjective or coercive manner.” 84 Fed.
Reg. at 7747.
The categorical prohibition on providing referrals
for abortion in § 59.14(a) is not nondirective because it
prevents Title X projects from presenting abortion on
an equal basis with other pregnancy options.11 In con11

The overlapping prohibition on abortion referrals in
§ 59.5(a)(5) violates the Nondirective Counseling Provision for the

206a
trast to § 59.14(a), § 59.14(b)(1) mandates that every
pregnant patient be referred to “prenatal health care,”
even a patient who has expressly stated that she does
not want prenatal care. This differential treatment is
not “nondirective.” The mandate compels providers to
present the options in a coercive manner and pushes
patients to pursue one option over another; it does not
allow “clients [to] take an active role in processing their
experiences and identifying the direction of the interaction.” 84 Fed. Reg. at 7716. Indeed, Defendants conceded at oral argument that if referral is considered a part
of counseling, § 59.14(b)(1) violates the Nondirective
Counseling Provision.
Defendants also acknowledged that the referral list
restrictions in § 59.14(c)(2) stand and fall together with
the prohibition on abortion referrals in § 59.14(a). Section 59.14(c)(2) allows Title X projects to provide a client with a referral list “limited to those that do not
provide abortion,” even if the client specifically requests an abortion referral. It further prevents projects from providing a referral list on which “the majority” of the providers perform abortion services, and
from “identify[ing] which providers on the list perform
abortion.” Far from meaningfully presenting a patient
with her medical options, such a “non-referral referral
list” (as Plaintiffs’ counsel labels it) is likely to cause
confusion and delay in her attempt to obtain care. The
patient would have to spend time working through the
list to determine which referrals actually provide the
services she asked for—time she may not have given
the time-sensitive nature of decisions about pregnancy
same reason. See § 59.5(a)(5) (Title X projects may “[n]ot provide,
promote, refer for, or support abortion as a method of family planning.”).

207a
and related care. Imposing these onerous restrictions
only on abortion information does not place abortion on
an equal basis with all other courses of action.
iii. The Final Rule’s Counseling Restrictions Violate
the Nondirective Counseling Provision Apart From
Referrals
There is also merit to Plaintiffs’ contention that,
the referral prohibition aside, the Final Rule onesidedly chills counseling regarding abortion. Sections
59.5(a)(5) and 59.14(a) bar providers from doing anything to “promote” or “support” abortion. See also §
59.16(a)(1) (“A Title X project may not encourage, promote or advocate abortion as a method of family planning.”). At oral argument, Defendants’ counsel struggled to draw a clear boundary between mentioning or
describing abortion as a pregnancy option within the
permissible scope of nondirective counseling and “promoting” or “supporting” abortion impermissible under
§§ 59.5(a)(5) and 59.14(a). Essentially, counsel was only
able to offer a circular definition: A provider can avoid
“promoting” or “supporting” abortion by counseling
nondirectively, and a provider can counsel nondirectively by not “promoting” or “supporting” abortion.
This interpretive murkiness is telling. It suggests that
providers desiring to explain the abortion option have
to walk on eggshells to avoid a potential transgression
of the Final Rule, whereas those describing the option
of continuing the pregnancy face no comparable risk.
This lack of symmetry created by §§ 59.5(a)(5) and
59.14(a) is likely to chill discussions of abortion and thus
inhibits neutral and unbiased counseling.
Accordingly, Plaintiffs have established a likelihood
of success on the merits of their claim that sections
59.14(a), 59.14(b)(1), and 59.14(c)(2) violate the Non-

208a
directive Counseling Provision of the Appropriations
Acts and are thus not in accordance with law.
b. Section 1554 of the ACA
Plaintiffs next argue that the Final Rule violates
Section 1554 of the ACA. See California Mot. at 12–13;
Essential Mot. at 10–13. Section 1554 provides:
Notwithstanding any other provision of this
Act, the Secretary of Health and Human Services shall not promulgate any regulation that–
(1) creates any unreasonable barriers
to the ability of individuals to obtain
appropriate medical care;
(2) impedes timely access to health care
services;
(3) interferes with communications regarding a full range of treatment options between the patient and the provider;
(4) restricts the ability of health care
providers to provide full disclosure of
all relevant information to patients
making health care decisions;
(5) violates the principles of informed
consent and the ethical standards of
health care professionals; or
(6) limits the availability of health care
treatment for the full duration of a patient’s medical needs.
42 U.S.C. § 18114.

209a
i. Defendants’ Threshold Arguments Do Not Foreclose
Plaintiffs’ Section 1554 Claim
Before proceedings to the merits of Plaintiffs’ Section 1554 claim, the Court first addresses several
threshold issues raised by Defendants.
(a) Plaintiffs’ Section 1554 Claim Has Not Been Waived
First, Defendants argue that Plaintiffs have waived
any challenge based on Section 1554 because they did
not raise the issue with HHS during the notice and
comment period. Opp. at 19. It is a “general rule” that
courts “will not review challenges to agency action
raised for the first time on appeal.” Portland Gen. Elec.
Co. v. Bonneville Power Admin., 501 F.3d 1009, 1023
(9th Cir. 2007) (citing Exxon Mobil Corp. v. E.P.A., 217
F.3d 1246, 1249 (9th Cir. 2000)). Parties may thus
“waive[ ] their right to judicial review” of arguments
“not made before the administrative agency” or “in the
comment to the proposed rule.” Exxon Mobil, 217 F.3d
at 1249. Plaintiffs concede that neither they nor any
other commenter specifically notified HHS during the
comment period that the Proposed Rule may violate
Section 1554. However, they assert that numerous
commenters stated that the Final Rule violated the
ACA, and therefore that HHS was “provided sufficient
notice ... to afford it the opportunity to rectify the [Section 1554] violations that the plaintiffs alleged.” Native
Ecosystems v. Dombeck, 304 F.3d 886, 899 (9th Cir.
2002). Plaintiffs compiled these comments in a supplemental submission to the Court. See California Docket
No. 97.
In reviewing whether these comments are sufficient to overcome waiver, the Court heeds the Ninth
Circuit’s guidance that “the exhaustion requirement
should be interpreted broadly.” Nat’l Parks & Conser-

210a
vation Ass’n v. Bureau of Land Mgmt., 606 F.3d 1058,
1065 (9th Cir. 2010). “Plaintiffs need not state their
claims in precise legal terms, and need only raise an issue ‘with sufficient clarity to allow the decision maker
to understand and rule on the issue raised.’” Id. (quoting Great Basin Mine Watch v. Hankins, 456 F.3d 955,
968 (9th Cir. 2006)).
Applying this permissive standard, the Court finds
that, although it is a close call, Plaintiffs have raised at
least a serious question as to whether their Section
1554 claim has been adequately exhausted. The record
suggests that commenters raised issues pertaining to
Section 1554 with sufficient clarity to provide notice to
HHS. Several comments specifically contend the Final
Rule violates the ACA. See, e.g., California Docket No.
97 ¶ 2 (“The proposed definition of what would be considered a ‘medically approved’ family planning method
... would effectively limit access and coverage of reproductive health choices expanded upon in the ACA....”),
¶ 4 (“This proposed change is ... contrary to the Affordable Care Act....”).
In themselves, these comments may not be specific
enough to suggest that the Final Rule violates any specific provision of the ACA. But they were complemented by numerous comments using identical or substantially identical language to Section 1554 to describe how
the Final Rule would impede access to care. Compare,
e.g., § 1554(1) (“... creates any unreasonable barriers to
the ability of individuals to obtain appropriate medical
care”), with California Docket No. 97 ¶ 6 (“The Proposed Rule seeks to create barriers to access to women’s healthcare, including abortion.”) and ¶ 7 (The Proposed Rule “would create barriers to access for an even
larger number of women nationwide.”); § 1554(2) (“...
impedes timely access to health care services”), with

211a
California Docket No. 97 ¶ 14 (The Proposed Rule
“would prevent Title X providers from sharing complete and accurate medical information necessary to ensure that their patients are able to ... obtain timely
care.”) and ¶ 17 (“This proposed gag on providers will
prevent patients from accessing health care in a timely
manner.”); § 1554(3) (“... interferes with communications regarding a full range of treatment options between the patient and the provider”), with California
Docket No. 97 ¶ 20 (“The NPRM would ban Title X
providers from giving women full information about
their health care options.”) and ¶ 22 (“The proposed
rule limits how Title X providers can discuss and/or
counsel on the full-range of sexual and reproductive
health care options with their patients.”); § 1554(4) (“...
restricts the ability of health care providers to provide
full disclosure of all relevant information to patients
making health care decisions”), with California Docket
No. 97 ¶ 25 (The Final Rule “undermines the right to
information by censoring health care providers from
informing patients of all their options related to abortion.”).
The comments raising concerns regarding medical
ethics and informed consent per § 1554(5) are particularly specific. Compare § 1554(5) (“... violates the principles of informed consent and the ethical standards of
health care professionals”), with California Docket No.
97 ¶ 26 (“The Proposed Rule requires physicians to disregard their Code of Medical Ethics....”), ¶ 27 (“The
Proposed Rule directly conflicts with the recommendations of major medical professional associations, including the American College of Obstetricians and Gynecologists and the American College of Physicians....”), ¶ 31
(“[T]he rule’s proposed ban on abortion referral and its
chilling effect (or possibly an effective ban) on abortion

212a
counseling are repudiations of ethical and professional
standards around informed consent....”). The terms
“ethical standards” and “informed consent” are commonly understood within the medical field to refer to
established standards, including those published by the
American College of Physicians (“ACP”) and the American College of Obstetricians and Gynecologists
(“ACOG”). HHS has long referenced these ethical
standards in connection with Title X, including
throughout its QFP Guidelines. See, e.g., QFP Guidelines at 13; 65 Fed. Reg. at 41273–74.
To be sure, these comments did not explicitly reference Section 1554, but the Ninth Circuit has repeatedly emphasized that commenters “need not state their
claims in precise legal terms” to exhaust them, Nat’l
Parks, 606 F.3d at 1065, and “alerting the agency in
general terms will be enough if the agency has been
given a chance to bring its expertise to bear to resolve
the claim,” Lands Council v. McNair, 629 F.3d 1070,
1076 (9th Cir. 2010) (citation and alteration omitted).
See, e.g., Oregon Nat. Desert Ass’n v. McDaniel, 751 F.
Supp. 2d 1151, 1165 (D. Or. 2011) (finding no waiver
where plaintiff raised the issue underlying its Wilderness Act claim by complaining to the agency that its
action would harm “500,000 acres of recommended future wilderness,” “even though it never actually invoked the Wilderness Act before the agency”); Sierra
Forest Legacy v. U.S. Forest Serv., 652 F. Supp. 2d
1065, 1081 (N.D. Cal. 2009). And here, HHS acknowledged that it had received many comments objecting
that the Final Rule created barriers to patients’ access
to care, interfered with provider-patient communications, and violated principles of medical ethics, and addressed them (albeit unsatisfactorily, see Part III.C.2.,
infra). See, e.g., 84 Fed. Reg. at 7722–24, 7745 (ac-

213a
knowledging comments regarding barriers to access to
care and medical ethics).
That HHS dismissed the concerns raised in these
comments, which were couched in the same terms as
Section 1554’s prohibitions, indicates that the commenters “raise[d] [the] issue with sufficient clarity to
allow the decision maker to understand and rule on the
issue raised,” Nat’l Parks, 606 F.3d at 1065, and that
the agency’s response would likely have been no different even if the commenters had specifically cited Section 1554.12 See Native Ecosystems, 304 F.3d at 899
(holding that where “the administrative decisionmaker
understood plaintiffs to raise the issue” and “addressed
this concern in its decision,” there is no waiver); Nat.
Res. Def. Council v. E.P.A., 755 F.3d 1010, 1023 (D.C.
Cir. 2014) (holding that an issue “expressly addressed
by” the agency “is properly before the court”).
Accordingly, the Court concludes that Plaintiffs
have raised a serious question that their Section 1554
claim was not waived.
(b) Section 1554 Limits the Secretary’s Authority under Title X
Second, Defendants argue that Section 1554 does
not affect the scope of HHS’s rulemaking authority under Title X. Defendants reason that the prefatory language in Section 1554, “[n]otwithstanding any other
provision of this Act,” limits the scope of Section 1554
to the ACA. 42 U.S.C. § 18114. According to Defendants, if Congress had intended for Section 1554 to
sweep more broadly beyond the ACA, it could have
12

Notably, HHS specifically discussed Section 1554 in a concurrent rulemaking. See 83 Fed. Reg. 57536, 57551–52 (2018).

214a
written the statute to say, “notwithstanding any other
provision of law.” Opp. at 21–22.
However, the plain text of Section 1554 does not
limit its application to the ACA. “Notwithstanding any
other provision of this Act” simply means that the Secretary cannot engage in the type of rulemaking proscribed by Section 1554 even if another provision of the
ACA could be construed to permit it—the directive of
Section 1554 is to be given primacy. This meaning is
underscored by the expansive second clause of Section
1554: “the Secretary of Health and Human Services
shall not promulgate any regulation....” 42 U.S.C. §
18114 (emphasis added). The literal text of Section 1554
does not support Defendants’ construction.
That Section 1554 has application beyond the ACA
is neither surprising nor unusual; surrounding provisions do too. See, e.g., 42 U.S.C. § 18116(a) (nondiscrimination provision that extends to all federally-funded
health programs). Moreover, where Congress wanted a
provision to apply only to the ACA, it said so explicitly.
For example, Section 1553 directs that “[t]he Federal
Government, and any State or local government or
health care provider that receives Federal financial assistance under this Act ... may not subject an individual
or institutional health care entity to discrimination....”
42 U.S.C. § 18113(a) (emphasis added). Similarly, Section 1555 provides that “[n]o individual, company, business, nonprofit entity, or health insurance issuer offering group or individual health insurance coverage shall
be required to participate in any Federal health insurance program created under this Act.” 42 U.S.C. §
18115 (emphasis added). The “clear” and “express” language in these sections limiting their applicability to
the ACA demonstrates that “Congress knows how to
limit the [statute] when it wishes to do so.” Miller v.

215a
Clinton, 687 F.3d 1332, 1340 (D.C. Cir. 2012). Congress
did not use such express language in Section 1554.
Defendants invoke two other principles of statutory interpretation to argue that Section 1554 does not
apply to Title X. Neither advances Defendants’ cause.
The first is the “principle that Congress ‘does not alter
the fundamental details of a regulatory scheme in
vague terms or ancillary provisions.’” Opp. at 20 (quoting Whitman v. Am. Trucking Associations, 531 U.S.
457, 468, 121 S.Ct. 903, 149 L.Ed.2d 1 (2001)). In Defendants’ telling, it is implausible that Congress would
have “abrogated a Supreme Court decision on an extremely controversial subject”—Rust—by means of an
ancillary ACA provision. Id. (emphasis in original). But
this account is fundamentally flawed because when the
ACA was enacted in 2010, the counseling and referral
restrictions in Rust had long been rescinded, so Section
1554 was entirely consistent with the prevailing Title X
regulatory scheme. And as noted above, Rust merely
upheld one interpretation of Title X; it did not purport
to definitively interpret Title X itself. Thus, Section
1554, to the extent it bars the “gag rule,” would not abrogate Section 1008.
The second principle is that “the specific [statute]
governs the general.” Opp. at 22 (quoting Morales v.
Trans World Airlines, Inc., 504 U.S. 374, 384, 112 S.Ct.
2031, 119 L.Ed.2d 157 (1992)). Defendants assert that
Section 1008, as a specific prohibition on funding abortion as a method of family planning within Title X,
trumps the more general Section 1554. See id. at 23.
This “canon is impotent, however, unless the compared
statutes are ‘irreconcilably conflicting.’” Adirondack
Med. Ctr. v. Sebelius, 740 F.3d 692, 698–99 (D.C. Cir.
2014) (citation omitted). For the reasons just discussed,
Section 1008 and Section 1554 are not irreconcilably

216a
conflicting. And Defendants recognize as much. See
Opp. at 21. The former forbids the use of Title X funds
“in programs where abortion is a method of family
planning,” 42 U.S.C. § 300a-6, whereas the latter limits
HHS’s authority to promulgate any regulation which
violates the principles of informed consent and ethical
standards of medical professionals, id. § 18114. These
“two statutes are capable of co-existence.” Morton, 417
U.S. at 551, 94 S.Ct. 2474. The pre-Final Rule regulatory scheme gives effect to both. It prevents impermissible use of Title X funds by enforcing financial separation between projects that receive Title X funding and
projects that perform services prohibited under Section
1008. At the same time, it permits Title X projects to
give patients nondirective counseling and referrals to
abortion service providers upon request, in compliance
with Section 1554(5).
Because there is no “irreconcilable conflict” between the two statutes, Defendants’ contention that
Plaintiffs’ claim relies on the premise that Section 1554
impliedly repealed Section 1008 is likewise inapposite.
See Opp. at 20; Radzanower, 426 U.S. at 154–55, 96
S.Ct. 1989 (one statute can be found to have impliedly
repealed another “where provisions in the two acts are
in irreconcilable conflict”).
(c) Section 1554 is Not Unreviewably Broad
Third, Defendants suggest that Section 1554 is so
“open-ended” that “it is a substantial question whether
section 1554 claims are reviewable under the APA at
all.” Opp. at 22. Defendants cite Citizens to Pres. Overton Park, Inc. v. Volpe, 401 U.S. 402, 91 S.Ct. 814, 28
L.Ed.2d 136 (1971) for the proposition that there are
times when “statutes are drawn in such broad terms
that in a given case there is no law to apply,” frustrat-

217a
ing judicial review. Id. at 410, 91 S.Ct. 814. But Overton
Park made clear that this is “a very narrow exception”
to the APA only to be applied in “rare instances.” Id.
This is not one of those rare instances. Other, arguably
more open-ended statutory commands have been held
to permit judicial review. See, e.g., Morgan Stanley
Capital Group Inc. v. Pub. Util. Dist. No. 1 of
Snohomish County, 554 U.S. 527, 128 S.Ct. 2733, 171
L.Ed.2d 607 (2008) (wholesale electricity rates must be
“just and reasonable”); Pac. Nw. Generating Co-op. v.
Bonneville Power Admin., 596 F.3d 1065, 1077 (9th Cir.
2010) (agency must operate “consistent with sound
business principles”); City of Los Angeles v. U.S. Dep’t.
of Commerce, 307 F.3d 859, 869 n.6 (9th Cir. 2002) (Secretary of Commerce must use statistical sampling “if he
considers it feasible”); Keating v. FAA, 610 F.2d 611,
612 (9th Cir. 1979) (agency must make decision “in the
public interest”). Section 1554 is not a statute “drawn
so that the court would have no meaningful standard
against which to judge the agency’s exercise of discretion.” Heckler v. Chaney, 470 U.S. 821, 830, 105 S.Ct.
1649, 84 L.Ed.2d 714 (1985).
(d) The Constitutional Reasoning in Rust Does Not
Foreclose Plaintiffs’ Section 1554 Claim
Finally, Defendants, citing reasoning from Rust,
made a further suggestion at oral argument that Plaintiffs’ Section 1554 claim is meritless because, even if the
Final Rule impeded patients’ access to care, “[t]he difficulty that a woman encounters when a Title X project
does not provide abortion counseling or referral leaves
her in no different position than she would have been if
the Government had not enacted Title X.” Rust, 500
U.S. at 202, 111 S.Ct. 1759. This belated challenge is
both legally and factually misguided.

218a
As a legal matter, Defendants are importing language from Rust’s constitutional holding in an attempt
to extinguish Plaintiffs’ statutory claim. The Rust
Court decided that the 1988 regulations did not impermissibly burden a woman’s Fifth Amendment right to
choose whether to terminate her pregnancy because
“Congress’ refusal to fund abortion counseling and advocacy leaves a pregnant woman with the same choices
as if the Government had chosen not to fund familyplanning services at all.” Id. It was in this context of
evaluating a constitutional claim that the Court reasoned the regulations left patients no worse off than if
Title X did not exist. See id. By contrast, Plaintiffs’
claim here is that the Final Rule violates a specific
statutory prohibition. The statutory mandates of Section 1554 are far more specific than the constitutional
requirement asserted in Rust. The claim under Section
1554 is a matter of statutory interpretation to which
Rust is inapposite.
Moreover, as a factual matter, the Final Rule’s referral list restrictions go far beyond anything in the
1988 regulations. The new restrictions: (1) permit a Title X project to give a patient who specifically requests
a referral for abortion a referral list that contains no
abortion providers; (2) require the project to compile a
list of providers, a majority of whom are not responsive
to the patient’s request; (3) prevents the project from
identifying which providers on the list are responsive
to the patient’s needs; and (4) does not require the project to even alert the patient that the list is incomplete
and non-responsive. See § 59.14(c)(2). Because of these
provisions, patients in need of time-sensitive medical
care will be delayed or altogether prevented from obtaining that care because they will receive referrals
that they do not realize are not for the services they

219a
requested. See Rich Decl., Exh. K at 2. In other words,
under the Final Rule, the Government would be subsidizing the misdirection of unsuspecting patients. Unlike
in Rust, the Final Rule may well make patients worse
off than if they had not sought help from a Title X project to begin with.13
ii. The Final Rule Violates Section 1554
Having found that Plaintiffs’ claim under Section
1554 is not foreclosed, the Court must determine
whether the Final Rule in fact violates that provision of
the ACA. Plaintiffs assert that the Final Rule’s restrictions on counseling and referral and requirement
for providers to encourage family participation in family planning decisions are contrary to Section 1554. The
Court agrees.
The Court has already detailed extensively the
ways in which the Final Rule’s overlapping restrictions
on pregnancy counseling (including referral and referral lists) obfuscate and obstruct patients from receiving
information and treatment for their pressing medical
needs. See Parts III.A.1 and III.C.1.a., supra; Kost
Decl. ¶¶ 88–93; Rabinovitz Decl. ¶ 50; Marshall Decl. ¶
22. There is no question that these restrictions “create[]
13

After it received commenters’ objections that the referral
restrictions “will deprive women of the information they need
about abortion or where to obtain one,” HHS offered a rather
astonishing response: “[I]n the Department’s view, it is not necessary for women’s health that the federal government use the Title
X program to ... give to women who seek abortion the names of
abortion providers. Information about abortion and abortion providers is widely available and easily accessible, including on the
internet.” 84 Fed. Reg. at 7746 (emphasis added). The Court does
not share Defendants’ belief that misleading counseling provided
by a medical professional is rendered harmless by information
available “on the internet.”

220a
... unreasonable barriers to the ability of individuals to
obtain appropriate medical care,” “impede[ ] timely access to health care services,” “interfere[ ] with communications regarding a full range of treatment options
between the patient and the provider,” and “restrict[ ]
the ability of health care providers to provide full disclosure of all relevant information to patients making
health care decisions” in violation of subparts (1)–(4) of
Section 1554. Defendants do not even contest this.
Separately, the Final Rule’s prohibition on providing abortion referrals, restrictions on the content of referral lists, and mandate on referrals for prenatal care
are also squarely at odds with established ethical
standards and therefore Section 1554(5). Indeed, they
are inconsistent with HHS’s own QFP Guidelines,
which provide that once a patient receives a positive
pregnancy test:
Referral to appropriate providers of follow-up
care should be made at the request of the client, as needed. Every effort should be made to
expedite and follow through on all referrals.
For example, providers might provide a resource listing or directory of providers to help
the client identify options for care. Depending
upon a client’s needs, the provider may make
an appointment for the client, or call the referral site to let them know the client was referred.
QFP Guidelines at 14. The QFP Guidelines further instruct that “[p]roviders of family planning services
should offer pregnancy testing and counseling services
as part of core family planning services, in accordance
with recommendations of major professional medical
organizations, such as the American College of Obste-

221a
tricians and Gynecologists (ACOG).” Id. at 13. In turn,
ACOG explains that physicians have an ethical obligation to “provide a pregnant woman who may be ambivalent about her pregnancy full information about all
options in a balanced manner, including raising the
child herself, placing the child for adoption, and abortion.” Rich Decl., Exh. G at 6.
Clearly, the Final Rule’s blanket prohibition on
abortion referrals does not comport with providers’
ethical obligation to provide “[r]eferral to appropriate
providers of follow-up care ... at the request of the client.” QFP Guidelines at 14. And § 59.14(c)(2)’s restrictions that prevent Title X from providing any
abortion referrals to a patient who specifically requests
such a referral, and from identifying which providers on
a referral list perform abortion services, do not “help
the client identify options for care.” Id. Comments in
the record show that associations of medical professionals overwhelmingly agree that the Final Rule’s
counseling and referral restrictions violate principles of
medical ethics and informed consent. See, e.g., Rich
Decl., Exh. B at 4–5 (California Medical Association
stating that restrictions “directly conflict[ ] with the
requirements of medical professional associations, including [ACOG].”); Exh. D at 4 (American Academy of
Nursing stating that restrictions “violate[ ] basic ethics
of the profession,” including the Code of Ethics for
Nurses); Exh. E at 7 (Guttmacher Institute stating that
restrictions “constitute[ ] an unacceptable repudiation
of the doctrine of informed consent by denying Title X
patients factual, unbiased information on abortion”);
Exh. G at 3–6 (ACOG stating that restrictions violate
its Code of Professional Ethics); Exh. I at 3 (American
Medical Association stating restrictions “are contrary
to the AMA’s Code of Medical Ethics”); Exh. K at 2

222a
(American Public Health Association stating that “[t]he
gag rule violates core ethical standards”); Exh. N at 3
(American Academy of Pediatrics stating that restrictions “conflict[ ] with medical practice guidelines,
including those of the American Academy of Pediatrics.”); Exh. P at 4–5 (American College of Physicians
stating that restrictions violate “the ethical principle of
respect for patient autonomy”); see also Marshall Decl.
¶ 15; Spirtos Decl. ¶ 18; Kost Decl. ¶¶ 84–85.
The requirement in § 59.14(b)(1) that all pregnant
Title X clients “shall be referred to a health care provider for medically necessary prenatal health care,”
even if it goes against a patient’s wishes, violates ethical standards. As ACOG explains, this provision “require[s] the provision of counseling, information, and
referral for services that the patient has clearly stated
she does not wish to receive.” Rich Decl., Exh. G at 3, 6.
Moreover, as the American Public Health Association details, § 59.14(b)(1) also violates ethical principles
because while it allows Title X providers to abstain
from providing nondirective counseling due to moral or
religious reasons, “it does not contain any requirement
that those providers advise patients of their refusal.”
Rich Decl., Exh. K at 2. “Therefore, patients will not
even know if they are getting complete information.”
Id.
Finally, the Final Rule’s “family participation” requirement also violates ethical standards. Title X itself
only asks grantees to “encourage family participation”
in Title X projects “[t]o the extent practical.” 42 U.S.C.
§ 300(a). But Section 59.5(a)(14) directs Title X grantees to “[e]ncourage family participation in the decision
to seek family planning services; and, with respect to
each minor patient, ensure that the records maintained

223a
document the specific actions taken to encourage such
family participation (or the specific reason why such
family participation was not encouraged).” There is an
exception to the documentation requirement where a
provider “suspects the minor to be the victim of child
abuse or incest.” § 59.2(1)(i). The American Academy of
Pediatrics (“AAP”) notes that healthcare professionals
already “highly encourage[ ] the involvement of families in the care of adolescents and young adults as much
as possible,” and “[a]s a consequence, most adolescents
already involve their families in decisions about family
planning.” Rich Decl., Exh. N at 6. However, the new
requirement in the Final Rule for “clinicians to take
‘specific actions’ to encourage family participation, even
after they have learned that this involvement is not
practicable,” is “contrary to medical ethics.” Id. AAP
explains that “clinicians sometimes learn of circumstances (short of abuse) in a minor’s family that make it
not ‘practicable,’ or unrealistic or even harmful to encourage the minor to involve their parents or guardian.” Id. In these situations, requiring clinicians to nevertheless encourage family participation and document
those efforts would both force them to breach their ethical obligations and “drive some minors away from returning for critical health services.”14 Id. Other com14

Courts have long recognized that “in matters concerning
sexual conduct, minors frequently are reluctant, either because of
embarrassment or fear, to inform their parents of medical conditions relating to such conduct, and consequently that there is a
considerable risk that minors will postpone or avoid seeking needed medical care if they are required to obtain parental consent before receiving medical care for such conditions.” Am. Acad. of Pediatrics v. Lungren, 16 Cal. 4th 307, 317–18, 66 Cal.Rptr.2d 210,
940 P.2d 797 (1997); Ballard v. Anderson, 4 Cal. 3d 873, 880, 95
Cal.Rptr. 1, 484 P.2d 1345 (1971) (“[A]n unmarried pregnant minor
understandably might be reluctant to seek parental consent for

224a
menters, including ACOG, echo AAP’s conclusion that
§ 59.5(a)(14) violates medical ethics. See id., Exh. G at
14.
Accordingly, Plaintiffs have demonstrated that
they are likely to succeed on the merits of their claim
that §§ 59.5(a)(5), 59.5(a)(14), 59.14(a), 59.14(b)(1),
59.14(c)(2), and 59.16(a)(1) of the Final Rule are not in
accordance with Section 1554.
2. The Promulgation of the Final Rule was Arbitrary
and Capricious
Under the APA, agency action must be set aside if
it is arbitrary or capricious. 5 U.S.C. § 706(2)(A). An
agency must “examine the relevant data and articulate
a satisfactory explanation for its action including a rational connection between the facts found and the
choice made.” Motor Vehicle Mfrs. Ass’n of U.S. v.
State Farm Mut. Auto. Ins. Co., 463 U.S. 29, 43, 103
S.Ct. 2856, 77 L.Ed.2d 443 (1983). Although “a court is
not to substitute its judgment for that of the agency,”
F.C.C. v. Fox Television Stations, Inc., 556 U.S. 502,
513, 129 S.Ct. 1800, 173 L.Ed.2d 738 (2009) (citation
omitted), it nevertheless “retain[s] a role, and an important one, in ensuring that agencies have engaged in
reasoned decisionmaking,” Judulang v. Holder, 565
U.S. 42, 53, 132 S.Ct. 476, 181 L.Ed.2d 449 (2011).
In particular, an agency which changes its position
must give a reasoned explanation for the change. “[T]he
requirement that an agency provide reasoned explanation for its action would ordinarily demand that [an
agency] display awareness that it is changing position.”
medical care related to her pregnancy and that the parents of such
a minor might refuse consent for reasons unrelated to the health of
the minor.”).

225a
Fox Television, 556 U.S. at 515, 129 S.Ct. 1800 (emphasis in original). Typically, the agency “need not demonstrate to a court’s satisfaction that the reasons for the
new policy are better than the reasons for the old one; it
suffices that the new policy is permissible under the
statute, that there are good reasons for it, and that the
agency believes it to be better.” Id. (emphases in original). “This means that the agency need not always provide a more detailed justification than what would suffice for a new policy created on a blank slate.” Id. But
“[s]ometimes it must—when, for example, its new policy rests upon factual findings that contradict those
which underlay its prior policy; or when its prior policy
has engendered serious reliance interests that must be
taken into account.” Id. at 515–16, 129 S.Ct. 1800. Indeed, “even when reversing a policy after an election,
an agency may not simply discard prior factual findings
without a reasoned explanation.” Organized Vill. of
Kake v. U.S. Dep’t of Agric., 795 F.3d 956, 968 (9th Cir.
2015).
“Normally, an agency rule would be arbitrary and
capricious if the agency has relied on factors which
Congress has not intended it to consider, entirely failed
to consider an important aspect of the problem, offered
an explanation for its decision that runs counter to the
evidence before the agency, or is so implausible that it
could not be ascribed to a difference in view or the
product of agency expertise.” State Farm, 463 U.S. at
43, 103 S.Ct. 2856.
a. Plaintiffs’ Arbitrary and Capricious Claims are Not
Foreclosed by Rust
Defendants contend Plaintiffs’ arbitrary and capricious claims are foreclosed by Rust. See Opp. at 24–26.
This argument is meritless. When it decided Rust in

226a
1991, the Supreme Court found that “the Secretary
amply justified his change of interpretation [from the
pre-1988 regulations] with a ‘reasoned analysis,’” based
on “critical reports of the General Accounting Office
(GAO) and the Office of the Inspector General (OIG),
that prior policy failed to implement properly the statute.” Rust, 500 U.S. at 187, 111 S.Ct. 1759. “He also determined that the new regulations are more in keeping
with the original intent of the statute, are justified by
client experience under the prior policy, and are supported by a shift in attitude against the ‘elimination of
unborn children by abortion.’” Id.
The justifications supporting the 1988 regulations
upheld in Rust cannot insulate the Final Rule from review now, almost three decades later. In promulgating
the Final Rule, HHS did not purport to rely on the 1988
regulations. See Michigan v. E.P.A., ––– U.S. ––––, 135
S. Ct. 2699, 2710, 192 L.Ed.2d 674 (2015) (It is a “foundational principle of administrative law that a court
may uphold agency action only on the grounds that the
agency invoked when it took the action.” Nor can HHS
rely ipse dixit on the factual bases justifying the 1988
regulations.) See Sierra Club v. U.S. E.P.A., 671 F.3d
955, 966 (9th Cir. 2012) (“[An agency] stands on shaky
legal ground relying on significantly outdated data” to
justify its actions.). Unlike the 1988 regulations considered in Rust, the Final Rule was not enacted in response to critical reports of the GAO and OIG, and
makes no mention of negative “client experiences” under the current regulations that have been in effect
since 1993. Nor does the Final Rule cite any instances
of actual co-mingling or misuse of Title X funds. Accordingly, that Rust upheld the 1988 regulations does
not dispose of Plaintiffs’ APA challenge to the Final

227a
Rule here. This Court must conduct the arbitrary and
capricious analysis anew.
As another threshold issue, Defendants contended
at oral argument that Plaintiffs’ arbitrary and capricious claims are foreclosed by the Chevron analysis in
Rust. According to Defendants, the mere fact that the
1988 regulations were a permissible interpretation of
Title X alone supplies the reasoned basis HHS needs to
justify the Final Rule under the APA. This argument is
belied by Rust itself. If a reasonable and permissible
statutory interpretation was all that was needed for the
1988 regulations to pass muster under arbitrary and
capricious review, the Supreme Court would have said
so. Although the ambiguous language of Section 1008
and equivalent legislative history of Title X might arguably have sustained the 1988 regulations, as noted
above, the Court nevertheless scrutinized the evidentiary basis given for the 1988 regulations to ensure that
they were the product of a “reasoned analysis.” Rust,
500 U.S. at 187, 111 S.Ct. 1759.
On this point, Defendants overlook important differences between Chevron and arbitrary-andcapricious review. As the Ninth Circuit has delineated,
“Chevron ... analyzes the reasonableness of an agency’s
interpretation [of a statute], while ‘arbitrary and capricious’ review under the APA focuses on the reasonableness of an agency’s decision-making processes.”
CHW W. Bay v. Thompson, 246 F.3d 1218, 1223 (9th
Cir. 2001) (emphasis in original) (citation omitted).
Here, it is precisely the reasonableness of HHS’s decisionmaking process in promulgating the Final Rule that
Plaintiffs challenge. Hence, the lens of arbitrary-andcapricious review must be applied. See Encino Motorcars, LLC v. Navarro, ––– U.S. ––––, 136 S. Ct. 2117,
2125, 195 L.Ed.2d 382 (2016) (“[W]here a proper chal-

228a
lenge is raised to the agency procedures, and those procedures are defective, a court should not accord Chevron deference to the agency interpretation.”); New
York Public Interest Research Group v. Whitman, 321
F.3d 316, 324 (2d Cir. 2003) (“When the question is not
one of the agency’s authority but of the reasonableness
of its actions, the ‘arbitrary and capricious’ standard of
the APA governs.”). It would be particularly inappropriate to conflate Chevron and State Farm in this case
because, as detailed below, Plaintiffs have persuasively
shown that the Final Rule “was issued without the reasoned explanation that was required in light of [HHS]’s
change in position and the significant reliance interests
involved.” Encino Motorcars, 136 S. Ct. at 2126.
Accordingly, the Court proceeds to the merits of
Plaintiffs’ arbitrary and capricious claims to determine
whether the Final Rule is supported generally by a
reasoned analysis, and in particular to the extent the
Final Rule represents a change in position which requires a “more detailed justification,” whether HHS
sufficiently justified its change in position.
b. The Physical Separation Requirement is Arbitrary
and Capricious
Plaintiffs contend the physical separation requirement in § 59.15 is arbitrary and capricious. See California Mot. at 17; Essential Mot. at 15–17. The record reveals that Plaintiffs are likely correct. HHS relied on
speculative fears of theoretical abuse of Title X funds to
justify imposing the physical separation requirement
and turned a blind eye to voluminous evidence documenting the significant adverse impact the requirement would have on the Title X network and patient
health. The agency’s actions fell short of reasoned decisionmaking.

229a
i. Defendants Relied on Speculative Justifications Belied by the Record
The Final Rule cites the following justification for
requiring physical separation:
[S]hared facilities create a risk of the intentional or unintentional use of Title X funds for impermissible purposes, the co-mingling of Title
X funds, the appearance and perception that
Title X funds being used in a given program
may also be supporting that program’s abortion
activities, and the use of Title X funds to develop infrastructure that is used for the abortion
activities of Title X clinics. Even with the
strictest accounting and charging of expenses,
a shared facility greatly increases the risk of
confusion and the likelihood that a violation of
the Title X prohibition will occur.
84 Fed. Reg. at 7764. Defendants’ opposition brief affirms that the physical separation requirement is based
on “the need for prophylactic measures to address the
risk and the perception that taxpayer funds will be
used to fund abortion.” Opp. at 30.
Defendants’ repeated use of words like “risk,”
“likelihood,” “prophylactic,” and “specter” is telling;
Defendants fail to point to any evidence in the record of
actual co-mingling or misuse of Title X funds. HHS
primarily relies on two sources to justify its concerns
about insufficient separation. The first is an “anecdotal
story” from 2007 about a California clinic’s community
outreach activities. 84 Fed. Reg. at 7774. But this anecdote, by Defendants’ own admission, does not actually
involve the misuse of Title X funds at all. It is an “example of abuse of federal funds in a different program,”
Medicaid. Opp. at 29 n.3 (emphasis added); see 84 Fed.

230a
Reg. at 7725 (“The Department agrees with comments
stating that demonstrated abuses of Medicaid funds do
not necessarily mean Title X grants are being
abused....”). The second is a 2014 Guttmacher Institute
report indicating that “abortions are increasingly performed at sites that focus primarily on contraceptive
and family planning services—sites that could be recipients of Title X funds.” 84 Fed. Reg. at 7765. But this
report provides no support for HHS’s position. By the
agency’s own interpretation, the report merely shows
that abortions are being performed at “sites that could
be recipients of Title X funds,” id. (emphasis added); it
does not say that those sites actually are Title X projects. Even assuming that abortions are being performed at actual Title X sites, there is no basis for concluding that this would constitute a violation of Title X.
It is important here to remember the Supreme Court’s
explanation in Rust that
Title X expressly distinguishes between a Title
X grantee and a Title X project. The grantee,
which normally is a health-care organization,
may receive funds from a variety of sources for
a variety of purposes. The grantee receives Title X funds, however, for the specific and limited purpose of establishing and operating a Title X project.... The Title X grantee can continue to perform abortions, provide abortionrelated services, and engage in abortion advocacy; it simply is required to conduct those activities through programs that are separate
and independent from the project that receives
Title X funds.
500 U.S. at 196, 111 S.Ct. 1759 (emphases in original)
(citing 42 U.S.C. § 300(a)). Thus, the mere fact that
abortions are being performed at the site of a Title X

231a
grantee does not mean that the Title X project operating within the grantee is misusing Title X funds to perform abortions. HHS cites no evidence to contradict its
prior finding that financial separation and the concomitant review and rigorous audit of Title X grantees’ financial records was a sufficient safeguard. See 65 Fed.
Reg. at 41275–76.15
The evidence HHS cites for its concern about public “perception that Title X funds being used” in relation with prohibited abortion activities, 84 Fed. Reg. at
7764, is equally without a reasoned basis. According to
the agency, in response to the Proposed Rule, it received comments from “many commenters that oppose
defining ‘family planning’ to exclude abortion and that
urge the Department to define the term to include
abortion.” Id. at 7729. Far from showing that the public
erroneously believes Title X funds are being used to
fund abortion-related activities, these comments suggest the very opposite—that the commenters understand Title X funds cannot currently be used for abortion, but would like HHS to change its definition of
“family planning” to include abortion so that Title X
funds can potentially be used for abortion-related activities.
Defendants advance another argument: they believe that “the collocation of a Title X clinic with an
abortion clinic permits the abortion clinic to achieve
economies of scale” and therefore “support[s] abortion
as a method of family planning” with Title X funds. Id.
15

To the extent there may have been isolated instances of
misuse or co-mingling of Title X funds in the past that were not
cited in the Final Rule, there is no indication they escaped detection from the financial audits conducted under the 2000 regulations.

232a
at 7766. But the notion that any use of Title X funds
that might indirectly benefit an abortion clinic is necessarily misuse is a radical one that goes far beyond any
rationale for physical separation approved in Rust. It
ignores a pivotal distinction drawn in Rust: “Title X
expressly distinguishes between a Title X grantee and
a Title X project,” and a “Title X grantee can continue
to ... provide abortion-related services” so long as it
does so “through programs that are separate and independent from the project that receives Title X funds.”
500 U.S. at 196, 111 S.Ct. 1759 (emphases in original).
HHS’s sweeping new argument would obliterate the
Court’s carefully drawn distinction. The limitless reach
of the agency’s rationale is also “illogical on its own
terms.” Am. Fed’n of Gov’t Emps., Local 2924 v. Fed.
Labor Relations Auth., 470 F.3d 375, 380 (D.C. Cir.
2006). A grantee that, pursuant to the Final Rule,
maintains separate facilities and medical records between its Title X services and abortion services can still
benefit from economies of scale in, for example, rent (if
the grantee rents separate spaces within the same
building) and medical record system (if the grantee
purchases its separate systems from the same vendor).
See id. (an agency’s decision is arbitrary and capricious
if “illogical on its own terms”); Illinois Pub. Telecom.
Ass’n v. F.C.C., 117 F.3d 555, 566 (D.C. Cir.) (an agency’s “seemingly illogical” decision is arbitrary and capricious), decision clarified on reh’g, 123 F.3d 693 (D.C.
Cir. 1997).
In sum, the asserted fear of misuse of Title X funds
purporting to animate HHS’s decision to fundamentally
depart from its current regulations and impose an onerous physical separation requirement are not substantiated by the record. To the contrary, HHS reported as
recently as October 2018 that “family planning projects

233a
that receive Title X funds are closely monitored to ensure that federal funds are used appropriately and that
funds are not used for prohibited activities, such as
abortion.” Angela Napili, Congressional Research Service Report for Congress: Family Planning Program
Under Title X of the Public Health Service Act, at 14
(Oct. 15, 2018), https://fas.org/sgp/crs/misc/R45181.pdf.
Defendants contend they do not need to justify the
Final Rule by reference to an extant problem, because
“agencies can ... adopt prophylactic rules to prevent potential problems before they arise.” Stilwell v. Office of
Thrift Supervision, 569 F.3d 514, 519 (D.C. Cir. 2009)
(Kavanaugh, J.). However, “[t]hough an agency’s predictive judgments about the likely economic effects of a
rule are entitled to deference, deference to such judgments must be based on some logic and evidence, not
sheer speculation.” Sorenson Commc’ns Inc. v. F.C.C.,
755 F.3d 702, 708 (D.C. Cir. 2014) (citations, internal
quotation marks and alterations omitted). In Sorenson
Communications, the D.C. Circuit found arbitrary and
capricious a rule providing that the Federal Communications Commission (“FCC”) would only reimburse
service providers for captioning-enabled phones they
sold to hearing-impaired individuals if those phones
cost $ 75 or more. Id. at 705. The FCC “claim[ed] the $
75 Rule w[ould] deter fraudulent acquisition and use of
[captioning-enabled phones]. Yet the agency offer[ed]
no evidence suggesting there is fraud to deter.” Id. at
707. The court faulted the FCC for promulgating the
rule without an evidentiary basis, asking, “where is the
evidence that [the] technology is being fraudulently
used?” Id. at 708. The court rejected the FCC’s assertion “that it may rely on its predictive judgment to ignore these questions” and concluded that the agency
had “failed to articulate a satisfactory explanation for

234a
its action” because its claimed fear of fraud was speculative. Id. at 708–09; see also Nat’l Fuel Gas Supply
Corp. v. F.E.R.C., 468 F.3d 831, 839 (D.C. Cir. 2006)
(finding that agency action premised on addressing “a
claimed record of abuse” is arbitrary and capricious because the agency “provided no evidence of a real problem” with abuse); Arizona Cattle Growers’ Ass’n v. U.S.
Fish & Wildlife, Bureau of Land Mgmt., 273 F.3d 1229,
1244 (9th Cir. 2001) (holding agency action to be arbitrary and capricious where the basis of the action is
“speculation ... not supported by the record.”).
Likewise here, HHS purports to rely on its predictive judgment that Title X funds will be misused without the physical separation requirement, but the Final
Rule provides no evidence that indicates this projection
is anything but speculation. Quite the opposite, the projection is at odds with the agency’s repeated assurances
from as early as 2000 and as recently as 2018 that the
existing separation requirements are sufficient to prevent abuse within the Title X program. Accordingly,
HHS has failed to “articulate a satisfactory explanation” for the physical separation requirement as required by the APA, and is thus arbitrary and capricious. State Farm, 463 U.S. at 43, 103 S.Ct. 2856.
ii. HHS Failed to Provide a “More Detailed Justification” for Its Change in Policy
The arbitrary nature of the change in policy becomes even more clear when HHS’s decisionmaking is
measured against its obligation to supply “a more detailed justification” for adding the physical separation
requirement; a detailed justification is required because
its decision relied “upon factual findings that contradict
those which underlay its prior policy” and because “its

235a
prior policy has engendered serious reliance interests.”
Fox Television, 556 U.S. at 515, 129 S.Ct. 1800.
HHS clearly set forth the factual findings underlying its decision in 2000 to rescind the physical separation requirement in the 1988 regulations. It noted, on
the one hand, that mandating physical separation conferred no discernible benefits. The agency reasoned
that it had “traditionally viewed” financial separation—
“demonstrate[d] by [a Title X grantee’s] financial records, counseling and service protocols, administrative
procedures, and other means”—as sufficient. 65 Fed.
Reg. at 41276. And “since Title X grantees are subject
to rigorous financial audits, it can be determined
whether program funds have been spent on permissible
family planning services, without additional requirements being necessary.” Id. at 41275. Thus, “it is hard
to see what additional statutory protection is afforded
by the imposition of a requirement for ‘physical’ separation.” Id. at 41276. On the other hand, HHS concluded
that a physical separation requirement “is not likely
ever to result in an enforceable compliance policy that
is consistent with the efficient and cost-effective delivery of family planning services.” Id. The agency took
seriously comments objecting that physical separation
would be “costly[ ] and medically unwise.” Id. at 41275.
In particular, requiring separation of staff and facilities
would: “be inefficient and cost ineffective,” especially
“for small and rural clinics that may be the only accessible Title X family planning and/or abortion providers
for a large population of low-income women”; be “inconsistent with public health principles, which recommend
integrated health care”; and “burden women, by making them make multiple appointments or trips to visit
different staff or facilities.” Id. at 41275–76 (internal
quotation marks omitted).

236a
By contrast, in reinstating the physical separation
requirement in the Final Rule, HHS stated that “it no
longer believes financial separation is sufficient without
physical separation.” 84 Fed. Reg. at 7764. It also “disagree[d]” with commenters who protested “that the
physical and financial separation requirements will destabilize the network of Title X providers” by imposing
significant compliance costs. Id. at 7766. Instead, the
agency “believes that, overall, the final rule will contribute to more clients being served, gaps in services
being closed, and improved client care that better focuses on the family planning mission of the Title X program.” Id. These factual findings upon which the Final
Rule rests “contradict those which underlay [HHS’s]
prior policy.” Fox Television, 556 U.S. at 515, 129 S.Ct.
1800.
The prior separation policy also engendered “serious reliance interests” with respect to regulated entities, including Plaintiffs. Essential Access has detailed
the significant investment it has made in its physical
infrastructure, programming, and records systems over
the years in reliance on the longstanding rule that financial separation between its Title X and non-Title X
activities complies with Section 1008. For example, core
to Essential Access’s mission of promoting quality reproductive care is its training arm, the Learning Exchange, which “trained more than 6,000 clinicians and
allied health professionals from forty-nine states on
providing quality sexual and reproductive health care”
in 2017. Rabinovitz Decl. ¶ 61. Based on the current
regulations, the Learning Exchange programming includes “training on pregnancy options, including how to
provide patients with medically accurate, unbiased,
non-judgmental information about abortion, adoption,
and parenting.” Id. ¶ 62. Similarly, Essential Access

237a
provides “extensive” non-Title X-funded public education and awareness programming, reaching over
650,000 adolescents, about comprehensive sexual and
reproductive health. Id. ¶ 64. The Final Rule would require Essential Access to completely overhaul this programming and reallocate its resources in order to comply with the new requirement that any activities relating to abortion must be conducted “with a separate
staff, under a separate roof, using separate workstations, email addresses, and phone numbers.” Id. ¶
65. This entails “extraordinary expenses.” Id. ¶ 66.
Essential Access sub-recipients likewise would
need to revamp their “medical record systems and financial records, undertake extensive renovations, and
hire new staff and personnel,” which are integrated in
reliance on the current regulations. Id. ¶ 69. See also
Nestor Decl. ¶¶ 5–6, 13 (San Francisco Department of
Public Health uses Title X funds to train its clinical
staff members on “contraceptive counseling” and
“pregnancy testing and counseling,” but it “cannot bear
the cost of setting up separate facilities” and “separate
personnel” to bifurcate its Title X and non-Title X services); Forer Decl. ¶¶ 7, 31 (Title X grantee Venice
Family Clinic provides “fully integrated primary
healthcare services,” including family planning services, and it would be “financially impossible for [its]
three Title X funded clinic sites to build entirely separate adjoining sites”); McKinney Decl. ¶¶ 8, 10 (Title X
grantee Westside Family Health Center, which does
not provide abortions but does “provide nondirective
pregnancy counseling and referrals for abortion when
requested,” cannot afford to “rent or purchase separate
property to provide non-directive counseling or referrals for abortion services”). As Plaintiffs’ counsel explained at oral argument, these investments made in

238a
integrated staff and systems mean that a reversal of
course by the agency now would engender more costs
than would have been incurred if the separation requirement had been in force years ago.
The reliance interests these Title X grantees have
demonstrated are similar to those recognized by the
Supreme Court as warranting a more detailed explanation of an agency’s change in policy. See Encino Motorcars, 136 S. Ct. at 2126–27 (holding that automobile
dealerships had established “decades of industry reliance” on prior Department of Labor policy exempting
dealerships from paying overtime compensation to
“service advisors,” because “[d]ealerships and service
advisors negotiated and structured their compensation
plans against this background understanding,” and
eliminating the exemption “could necessitate systemic,
significant changes to the dealerships’ compensation
arrangements”). Defendants attempt to distinguish
Encino Motorcars on the basis that it “concerned private parties’ substantive statutory rights,” where “the
challenged regulations here concern discretionary funding decisions” and grants that are “generally available
for only one year.” Opp. at 31. But courts have recognized serious reliance interests in discretionary grants
of benefits that do not arise from statute—in, for example, the Deferred Action for Childhood Arrivals program, a form of time-limited discretionary relief from
deportation created by an executive branch memorandum. See Regents of Univ. of California v. United
States Dep’t of Homeland Sec., 279 F. Supp. 3d 1011,
1022, 1045 (N.D. Cal.), aff’d sub nom. Regents of the
Univ. of California v. U.S. Dep’t of Homeland Sec., 908
F.3d 476 (9th Cir. 2018); Nat’l Ass’n for the Advancement of Colored People v. Trump, 315 F. Supp. 3d 457,
473 (D.D.C. 2018); Batalla Vidal v. Nielsen, 279 F.

239a
Supp. 3d 401, 431 (E.D.N.Y. 2018). To the extent Defendants suggest that any reliance on the current Title
X regulations was unreasonable because agency policy
can change at any time, that argument ignores the fact
that the type of review described in Fox Television was
specifically made in the context of a change in an agency’s policy, not a statute. As the Court in Fox Television explained, one purpose of arbitrary-and-capricious
review of agency action is precisely to safeguard reliance interests from being upended by erratic policy
shifts by administrative agencies. See 556 U.S. at 515,
129 S.Ct. 1800. Here, Title X grantees have relied on
HHS consistently interpreting Section 1008 to require
only financial separation for over a quarter century;
that the Supreme Court required a more detailed explanation from an agency changing a policy that had
engendered “decades of industry reliance” reflects that
regulated entities are justified in structuring their affairs in reliance on longstanding agency policy. Encino
Motorcars, 136 S. Ct. at 2126.
At bottom, HHS has not demonstrated there are
“good reasons” for the physical separation requirement
or provided a “more detailed justification” for the
change in policy. Id.
iii. HHS Failed to Provide Any Explanation for Its Estimates of Compliance Costs
The promulgation of the physical separation requirement is arbitrary and capricious for a second, independent reason. During the notice-and-comment period, commenters provided HHS with substantial evidence that imposing a physical separation requirement
on Title X grantees would create significant (and in
many cases, prohibitive) compliance costs, drastically
reduce access to Title X services, and lead to serious

240a
disruptions in care for Title X patients. Instead of engaging with these concerns, HHS summarily dismissed
them, maintaining that “overall, the final rule will contribute to more clients being served, gaps in services
being closed, and improved client care that better focuses on the family planning mission of the Title X program.” 84 Fed. Reg. at 7766. In doing so, the agency
“entirely failed to consider an important aspect of the
problem” and “offered an explanation for its decision
that runs counter to the evidence before the agency.”
State Farm, 463 U.S. at 43, 103 S.Ct. 2856.
With respect to compliance costs, HHS’s analysis at
every stage of the rulemaking has been mystifying. Initially, the Proposed Rule “estimate[d] that an average
of between $ 10,000 and $ 30,000, with a central estimate of $ 20,000, would be incurred [by each affected
Title X site] to come into compliance with physical separation requirements in the first year following publication of a final rule.” 83 Fed. Reg. at 25525. In reaching
these figures, the agency quoted several costs grantees
are likely to incur to “evaluate[ ] ... whether they comply with the proposed physical separation requirements.” Id. But merely evaluating the compliance status of a Title X site is only the first of many steps in the
process of actually coming into compliance with the
physical separation requirement. For instance, sites
will need to maintain separate accounting and health
records, as well as separate physical facilities (including
“treatment, consultation, examination and waiting
rooms, office entrances and exits, shared phone numbers, email addresses, educational services, and websites.)” § 59.15(a)–(c). There is no mention of the costs
of complying with these requirements in the Proposed

241a
Rule.16 Also conspicuously absent is any estimate of
compliance costs beyond the first year.
Many Title X grantees submitted detailed comments explaining that their compliance costs would be
much higher than estimated in the Proposed Rule.
Planned Parenthood estimated that just the capital
costs of renovation and construction would be “nearly $
625,000 per affected service site.” Rich Decl., Exh. M at
31–32 (providing extensive calculations). The National
Family Planning and Reproductive Health Association
wrote that “[i]t would cost hundreds of thousands of
dollars or more to locate and open a facility, staff it,
purchase separate workstations, set up separate record-keeping systems, etc.,” and estimated capital costs
of compliance at $ 300,000. Id., Exh. L at 37. Commenters further pointed out that the separation requirement
would create “significant” ongoing costs, “including
contracts for goods and services and staff time,” that
“the Department fails to acknowledge in the first year
and every subsequent year.” Rich Decl., Exh. M at 32.

16

HHS’s own “Guidelines for Regulatory Impact Analysis”
(“HHS Guidelines”) set forth in ample detail how the agency
should estimate the costs for “[r]egulated entities ... to comply
with regulatory requirements.” U.S. Dep’t of Health and Human
Services, Guidelines for Regulatory Impact Analysis at 32 (2016),
https://aspe.hhs.gov/system/files/pdf/242926/HHS_RIAGuidance.p
df. These costs explicitly include “purchasing computers and software to support administrative tasks,” “installing or retrofitting
new equipment,” “capital expenditures to acquire buildings or
land,” and “annual costs of labor, utilities, and other resources.” Id.
at 32–33. The HHS Guidelines teach that “analysts generally use
market data to estimate such costs.” Id. Here, HHS referenced no
data, market or otherwise, as the basis for its compliance cost estimates.

242a
Notwithstanding these comments, the Final Rule
changed very little after receiving these comments.
HHS revised its central estimate from $ 20,000 per affected site to $ 30,000. See 84 Fed. Reg. at 7781–82. It
criticized the “extremely high cost estimates” provided
by commenters as “based on assumptions that they
would have to build new facilities in order to comply
with the requirements for physical separation.” Id. at
7781. The agency suggested that “entities will usually
choose the lowest cost method to come into compliance,” such as “shift[ing] their abortion services, and
potentially other services not financed by Title X, to
distinct [existing] facilities, a change which likely entails only minor costs.” Id. This suggestion ignores that
commenters had already addressed the possibility of
“renovating facilities in order to comply,” short of
building new ones, and still concluded that renovation
costs vastly exceeded the agency’s estimates. Rich
Decl., Exh. M at 31. Moreover, HHS’s claim that shifting existing services “entails only minor costs” is wholly conclusory. Its final estimate of $ 30,000 per site has
no more discernible evidentiary basis than its initial estimate of $ 20,000—a figure seemingly pulled from thin
air—and is an order of magnitude lower than the evidence-backed calculations provided by commenters.
Furthermore, HHS also offered no response to commenters’ descriptions of their ongoing compliance costs
beyond the first year.
HHS also ignored consequential costs of compliance. Numerous commenters explained to HHS that
because compliance with the physical separation requirement would be “prohibitive in terms of cost and
feasibility” large numbers of Title X providers would
be forced to leave the program. Rich Decl., Exh. L at
16–17, Exh. C at 16–17, Exh. G at 11–12, Exh. H at 10–

243a
11, Exh. M at 32–34. Plaintiffs have provided ample evidence demonstrating that without Title X funding,
these providers would be able to serve far fewer clients, including evidence that Title X funds services for
more than 1 million patients in California every year,
and that 85 percent of Essential Access subrecipients
will have to lay off staff and cut services and programming without Title X funding. See Part III.A.1., supra;
Rabinovitz Decl. ¶¶ 1, 14–15. The withdrawal of
Planned Parenthood alone would create a massive vacuum in services as its health centers currently serve
more than 40% of all Title X patients. Rich Decl., Exh.
M at 15–16. “[O]ther types of Title X sites would need
to increase their client caseloads by 70 percent” just to
make up for the shortfall created by Planned
Parenthood’s departure. Id. at 16. “[T]he departure of a
large number of Title X-funded providers ... would reduce access to family planning care with attendant negative impacts on health outcomes and population
health.” Id. at 33. The “adverse health consequences” to
patients would include “unintended pregnancies, undetected STDs, and other poor health outcomes.” Id.; see
id., Exh. G at 12–13; U.S. Dep’t of Health and Human
Services, Title X Family Planning Annual Report:
2016 National Summary at 1 (2017) (“For many clients,
Title X providers are their only ongoing source of
health care and health education.”), https://
www.hhs.gov/opa/sites/default/files/title-x-fpar-2016national.pdf. Further, the physical separation requirement would “force patients to make multiple appointments and trips” for their family planning needs, Rich
Decl., Exh. C at 17, creating “unnecessary costs to patients and providers” and “interfer[ing] with the integration of care,” id., Exh. M at 33–34. While these costs
are more difficult to estimate given their consequential

244a
nature, HHS largely ignored these potentially enormous costs.
Instead, in response, HHS cites only a “Christian
Medical Association and Freedom2Care poll conducted
on May 3, 2011, which found that 91 percent of physicians who practiced medicine based on the principles of
their faith said they would be forced to leave medicine
if coerced into violating the faith tenets and medical
ethics principles that guide their practice of medicine.”
84 Fed. Reg. at 7780 n.138. Based on this poll, the agency suggests that “[w]ith the final rule’s added emphasis
on protecting rights of conscience, more individuals
may enter the Title X family planning program, helping
to meet that unmet need for care.” Id. at 7781. The
flaws in this leap of logic are myriad. Fundamentally,
the poll did not ask doctors anything about Title X specifically. For example, does the permissive ability to
provide nondirective abortion counseling and referral
actually violate their beliefs? Have the 2000 regulations
deterred them from participating in Title X because of
their beliefs? Would they join Title X projects if they
were not required to provide nondirective counseling
and referral for abortions? More to the point, have
these doctors been deterred from joining Title X projects because other projects do not have physically separate facilities? On its face, this would seem to be a nonsequitur. There is particular reason to question the assumption that large numbers of doctors are being discouraged from joining Title X because of their beliefs
about abortion because HHS has already implemented
rules that, since 2008, have recognized that Title X program requirements must be enforced consistent with
federal laws that protect moral and religious conscience. See 73 Fed. Reg. 78072 (2008); 76 Fed. Reg.
9968 (2011). In any event, there is no evidence there are

245a
enough such would-be doctors who would be prompted
by the Final Rule to join Title X to fill the vacuum left
by exiting providers. HHS offers no other data or evidence in support of its momentous claim that “the final
rule will contribute to more clients being served, gaps
in services being closed, and improved client care.” 84
Fed. Reg. at 7766.
HHS’s conclusory response to commenters’ evidence-backed concerns about the serious problems the
physical separation requirement will cause flies in the
face of established APA principles. See McDonnell
Douglas Corp. v. U.S. Dep’t of the Air Force, 375 F.3d
1182, 1186–87 (D.C. Cir. 2004) (holding that courts “do
not defer to the agency’s conclusory or unsupported
suppositions”); Occidental Petroleum Corp. v. S.E.C.,
873 F.2d 325, 341–42 (D.C. Cir. 1989) (holding that
agency’s “conclusory statement” dismissing plaintiff’s
concern that public disclosure of plaintiff’s sensitive
documents would cause competitive harm was so inadequate as to render the agency’s decision “unreviewable”). “[R]easonable regulation ordinarily requires paying attention to the advantages and the disadvantages
of agency decisions.” Michigan v. E.P.A., ––– U.S. ––––,
135 S. Ct. 2699, 2707, 192 L.Ed.2d 674 (2015) (emphasis
in original). Here, HHS has “brushed aside critical
facts,” Am. Wild Horse Pres. Campaign v. Perdue, 873
F.3d 914, 932 (D.C. Cir. 2017), and given “no consideration to the disruption” the physical separation requirement would cause, Regents of Univ. of California v.
United States Dep’t of Homeland Sec., 279 F. Supp. 3d
1011, 1045 (N.D. Cal.), aff’d, 908 F.3d 476 (9th Cir.
2018). As such, the promulgation of the physical separation requirement “runs counter to the evidence before
the agency” and is arbitrary and capricious under traditional APA principles, State Farm, 463 U.S. at 43, 103

246a
S.Ct. 2856, and even more so under Fox Television, 556
U.S. at 515, 129 S.Ct. 1800 (requiring agency to provide
a “more detailed justification” for a change in policy and
show “that there are good reasons” for the change).
c. The Counseling and Referral Restrictions are Arbitrary and Capricious
Plaintiffs next challenge the promulgation of the
Final Rule’s restrictions on abortion counseling and referral as arbitrary and capricious. See California Mot. at
17–18; Essential Mot. at 17–18.
Defendants’ justification for reinstating restrictions
on abortion counseling and referrals is that “the 2000
regulations are not consistent with federal conscience
laws,” including “the Church Amendment, CoatsSnowe Amendment and the Weldon Amendment.” 84
Fed. Reg. at 7746; see Opp. at 31–32. These conscience
laws do not provide a reasoned explanation for the Final Rule’s counseling restrictions for two reasons.
First, as noted above, there are already HHS regulations on the books that ensure Title X’s implementation is consistent with the conscience laws. In 2008, the
agency announced that it “would not enforce [the abortion counseling and referral] requirement on objecting
grantees or applicants.” 73 Fed. Reg. at 78087. This
rule was partially repealed in 2011 and replaced with a
“new process for enforcing those [conscience] protections” whereby the HHS Office for Civil Rights addresses any complaints of discrimination under the conscience laws. 76 Fed. Reg. at 9969. The agency emphasized that the “partial rescission of the 2008 Final Rule
[in 2011] does not alter or affect the federal statutory
health care provider conscience protections.” Id. HHS
fails to explain why a more sweeping set of restrictions
is necessary in light of the existing safeguards tailored

247a
to ensure Title X’s compliance with federal conscience
laws. See Council of Parent Attorneys & Advocates,
Inc. v. DeVos, 365 F.Supp.3d 28, 50 (D.D.C. 2019) (holding that an agency rule is arbitrary and capricious
where “the government failed to explain why the [existing] safeguards as a whole would not prevent against
the risk” the rule purported to address).
Second, the conscience laws prohibit federal, state,
and local governments “from engaging in discrimination against a health care entity on the basis that it
does not, among other things, refer for abortion.” Id.
This means HHS may not require Title X grantees to
provide abortion referrals over their objections. But
this does not concern grantees which do not have moral
or religious objections to abortion. The conscience laws
do not provide a basis for HHS to bar all Title X grantees from providing abortion referrals. Given the lack of
a reasoned basis for the counseling and referral restrictions, those provisions of the Final Rule are arbitrary and capricious under the traditional State Farm
analysis.
As with the physical separation requirement, this
aspect of the Final Rule, which significantly alters the
longstanding prior regulatory scheme requires a more
detailed justification under Fox Television. The counseling and referral restrictions are based in part on factual findings discussed in the Final Rule that contradict
those which underlay the 2000 regulations. In 2000,
HHS justified its formal rescission of the 1988 “gag
rule” on the following grounds: it “endangers women’s
lives and health by preventing them from receiving
complete and accurate medical information”; it “interferes with the doctor-patient relationship by prohibiting information that medical professionals are otherwise ethically and legally required to provide to their

248a
patients”; “requiring a referral for prenatal care ...
where the client rejected those options would seem coercive and inconsistent with the concerns underlying
the ‘nondirective’ counseling requirement”; and it is
“consistent with the prevailing medical standards recommended by national medical groups.” 65 Fed. Reg. at
41270–75. In contrast, HHS now asserts the restrictions in the Final Rule are warranted because “it is
not necessary for women’s health that the federal government use the Title X program to fund abortion referrals, directive abortion counseling, or give to women
who seek abortion the names of abortion providers”;
“[r]eferring for adoption or prenatal care, but not for
abortion, does not ... make pregnancy counseling directive”; and the restrictions “will [not] require health
care professionals to violate medical ethics, regulations
concerning the practice of medicine, or malpractice liability standards.” 84 Fed. Reg. at 7746–48. This factual
finding conflicts with those underlying the prior HHS
guidelines, so HHS must “provide a more detailed justification” for the counseling and referral restrictions.
Fox Television, 556 U.S. at 515–16, 129 S.Ct. 1800. It
has not done so. The agency’s claim that the restrictions are needed for Title X to comply with conscience laws rings hollow given that its existing regulations already ensure compliance, and in any event the
restrictions go far beyond what the conscience laws require.
d. The “Physician or APP” Requirement is Arbitrary
and Capricious
Plaintiffs further contend that the requirement in §
59.14(b)(1)(i) that nondirective pregnancy counseling
can only be “provided by physicians or advanced practice providers” is arbitrary and capricious, because
there is a “complete absence of justification” for the re-

249a
quirement. Essential Mot. at 18; California Mot. at 18–
19. Defendants offer two responses, both of which make
little sense. First, Defendants point out that the Final
Rule is more permissive than the Proposed Rule, because the Proposed Rule restricted pregnancy counseling to physicians only, whereas the Final Rule allows
physicians and APPs to take on counseling duties. Opp.
at 32–33. This observation is neither here nor there, because neither the Proposed Rule nor the Final Rule explains why pregnancy counseling should be limited to
physicians or APPs. The physician-and-APP limitation,
while more permissive than the physician-only limitation initially proposed, is just as arbitrary.
Second, Defendants claim that “HHS considered
which types of health care professionals to include [as
qualified to provide pregnancy counseling], and reasonably drew the line at APPs, who have ‘advanced medical degrees, licensing, and certification requirements.’”
Id. (quoting 84 Fed. Reg at 7728 n.41). But this merely
recites the Final Rule’s definition of APP; again, Defendants cannot point to any part of the Final Rule
where HHS explains why “advanced medical degrees,
licensing, and certification requirements” are necessary
to qualify someone to provide pregnancy counseling.
The agency certainly did not address voluminous evidence that non-APP personnel with the proper training
have long been capably providing pregnancy counseling. See, e.g., Kost Decl. ¶ 86 (citing Guttmacher Institute report that in 2010, 65% of Title X sites “rel[ied] on
trained health educators, registered nurses and other
qualified providers (excluding physicians and advanced
practice clinicians) to counsel patients in selecting contraceptive methods”); Forer Decl. ¶ 29. HHS apparently also disregarded its own recognition of the importance of non-APPs to Title X. See 84 Fed. Reg. at

250a
7778 (reporting that non-APPs “were involved with 1.7
million Title X family planning encounters in 2016,” approximately one-quarter of the total number of Title X
family planning encounters that year).
The APA requires an agency to “articulate a satisfactory explanation for its action.” State Farm, 463 U.S.
at 43, 103 S.Ct. 2856. Moreover, the change in policy
based on conflicting factual findings and which engender serious reliance interests require “good reason” and
a “more detailed justification.” Fox Television, 556 U.S.
at 515, 129 S.Ct. 1800. HHS has articulated no explanation at all for the APP requirement and thus fails both
tests. Accordingly, Plaintiffs are likely to succeed on
the merits of their claim that § 59.14(b)(1)(i) is arbitrary
and capricious.
e. The Removal of the “Medically Approved” Requirement is Arbitrary and Capricious
The 2000 regulations required Title X projects to
“[p]rovide a broad range of acceptable and effective
medically approved family planning methods ... and
services.” 42 C.F.R. § 59.5(a)(1) (2000) (emphasis added). The Final Rule removes the “medically approved”
language; it simply requires Title X projects to
“[p]rovide a broad range of acceptable and effective
family planning methods ... and services.” § 59.5(a)(1).
Plaintiffs argue HHS failed to provide a reasoned basis
for this change. Again, they are correct.
HHS provided one justification for removing the
“medically approved” language. According to the agency, “[t]he ‘medically approved’ language risked creating
confusion about what kind of approval is required for a
method to be deemed ‘medically approved.’” 84 Fed.
Reg. at 7741. As Plaintiffs point out, however, HHS
cannot identify a single instance in the eighteen years

251a
since the 2000 regulations added the “medically approved” requirement where a regulated entity has expressed confusion about the meaning of the term. Indeed, numerous comments submitted during rulemaking demonstrated that Title X providers understood
“medically approved” to mean contraceptive methods
that have been approved by the Food and Drug Administration, because that is what HHS has made clear it
means. Throughout its QFP Guidelines, HHS emphasizes repeatedly that providers of family planning services should provide “a full range of FDA-approved
contraceptive methods.” QFP Guidelines at 7 (emphasis
added); id. at 2, 10, 11, 23, 24, 39. Numerous medical associations and experts in reproductive health told the
agency that they understood “medically approved” to
mean “FDA approved.” See, e.g., Rich Decl., Exh. E at
2 (Guttmacher Institute); Exh. G at 8 (ACOG); Exh. I
at 3 (AMA); Exh. K at 5 (APHA).
The only confusion evinced anywhere in the record
is of the agency’s own creation. In the Final Rule, instead of citing its QFP Guidelines, HHS hypothesized:
“Family planning methods and services are often provided through licensed health care professionals. Thus,
it is true of all family planning methods or services provided by Title X providers that at least one medical
professional or clinic has ‘approved’ the method or service, by virtue of providing it to the client.” 84 Fed.
Reg. at 7732. In disregarding the industry-accepted
understanding of “medically approved” and instead
suggesting that a single individual—who may be but is
not necessarily a “licensed health care professional”—
may be able to confer medical approval on a family
planning method, HHS is manufacturing confusion
where none previously existed. Nat’l Fuel Gas Supply
Corp. v. F.E.R.C., 468 F.3d 831, 837 (D.C. Cir. 2006)

252a
(finding arbitrary and capricious an agency order that
the record revealed to be “a solution in search of a
problem”).
HHS further feigned ignorance in the Final Rule
when it wrote that “[t]he Department also does not understand, and commenters fail to explain, what the addition of ‘medically approved’ to the definition would
mean in practice.” 84 Fed. Reg. at 7732. But it later revealed the commenters had explained precisely the import of the “medically approved” language: “Some
commenters state the language could reduce access to
the safest, effective, and medically approved contraceptive methods, increase risks associated with promoting
medically unreliable methods, place political ideology
over science, and undermine recommendations jointly
issued by OPA and the CDC on Quality Family Planning.” Id. at 7740. While it recited these concerns, HHS
failed to address them. See Beno v. Shalala, 30 F.3d
1057, 1074–75 (9th Cir. 1994) (“[A] court should not infer that an agency considered an issue merely because
it was raised, where there is no indication that the
agency ... refuted the issue.”). Thus, the problem is not
that commenters neglected their duty to raise the potential problems with removing the “medically approved” requirement; it is the fact that HHS neglected
its duty under the law to consider them.
Accordingly, HHS “offered an explanation for its
decision” to remove the “medically approved” language
from § 59.5(a)(1) “that runs counter to the evidence before the agency,” rendering its action arbitrary and capricious. State Farm, 463 U.S. at 43, 103 S.Ct. 2856.

253a
f. HHS’s Cost-Benefit Analysis is Arbitrary and Capricious
Plaintiffs further contend that the Final Rule as a
whole is arbitrary and capricious because HHS conducted and relied upon a deeply flawed cost-benefit
analysis. It cited benefits that the Final Rule would
confer without any evidentiary basis while disregarding or discounting costs that were supported by the
record. See California Mot. at 14–18; Essential Mot. at
16–19; see also Docket No. 48-1 (amicus brief of the Institute for Policy Integrity at the New York University
School of Law).
“As a general rule, the costs of an agency’s action
are a relevant factor that the agency must consider before deciding whether to act,” and “consideration of
costs is an essential component of reasoned decisionmaking under the Administrative Procedure Act.”
Mingo Logan Coal Co. v. Envtl. Prot. Agency, 829 F.3d
710, 732–33 (D.C. Cir. 2016); see Michigan v. E.P.A., ––
– U.S. ––––, 135 S. Ct. 2699, 2707–08, 192 L.Ed.2d 674
(2015) (“Agencies have long treated cost as a centrally
relevant factor when deciding whether to regulate.”).
In promulgating the Final Rule, HHS conducted an
economic and regulatory impact analysis as required by
“Executive Order 12866 on Regulatory Planning and
Review” and “Executive Order 13563 on Improving
Regulation and Regulatory Review.” 84 Fed. Reg. at
7775. It relied on the cost-benefit analysis in promulgating the Final Rule. See, e.g., id. at 7766, 7781–82 (relying on compliance cost estimates to conclude that the
new separation requirements will not “have a significant impact on access to services” and to reject commenters’ objections that the “requirements will destabilize the network of Title X providers”); id. at 7756,
7782–83 (relying on analysis of benefits to assert the

254a
Final Rule will “expand[ ] the type and nature of the
Title X providers and ensur[e] the diversity of such
providers so as to fill gaps and expand family planning
services offered through Title X”). When an agency decides to rely on a cost-benefit analysis as part of its
rulemaking, a serious flaw undermining that analysis
can render the rule unreasonable.” Nat’l Ass’n of Home
Builders v. E.P.A., 682 F.3d 1032, 1039–40 (D.C. Cir.
2012) (reviewing a cost-benefit analysis conducted pursuant to Executive Order 12866 under the arbitrary
and capricious standard); Council of Parent Attorneys,
365 F.Supp.3d at at 54 n.11 (same).
HHS’s cost-benefit analysis is thus subject to review under the APA. Although such review is deferential, Am. Trucking Ass’ns, Inc. v. Fed. Motor Carrier
Safety Admin., 724 F.3d 243, 254 (D.C. Cir. 2013), the
analysis conducted by HHS here fails even deferential
review. On the one hand, the agency proclaimed that a
myriad of benefits would flow from the Final Rule
without providing any substantiating basis or analysis.
On the other, HHS either ignored or dismissed out of
hand evidence of the significant costs the Final Rule is
likely to inflict that numerous commenters brought to
its attention.
i. HHS Did Not Adequately Consider Costs to Patient
and Public Health
In response to the Proposed Rule, commenters
submitted ample evidence to HHS that the Final Rule’s
costs on patients and the public will be substantial.
As previously noted, commenters provided substantial evidence that the Final Rule will drive a significant number of current Title X grantees out of the
program. Planned Parenthood, whose health centers
serve over 40% of all Title X patients, “would be forced

255a
to discontinue [its] participation in Title X if the Proposed Rule takes effect.” Rich Decl., Exh. M at 15–16.
Further, “a number of state grantees, including Washington, New York, Hawaii, and Oregon have already
put the Department on notice that they would be forced
to exit the program if the proposed regulations are finalized, along with other direct grantees.” Id. at 15.
These states combined serve 427,000 Title X patients.
Id. The loss of Title X funding will force providers to
significantly scale down their service capacity or shut
down altogether. See id., Exh. C at 5–6. Indeed, the
Guttmacher Institute recently estimated that the exit
of Planned Parenthood could lead to 1.6 million women
losing access to the Title X-funded contraceptive care
they currently receive. Id.; see also Part III.A.1., supra
(detailing how California providers’ capacities will be
diminished without Title X funding).
In response, HHS proclaims that it “does not anticipate that there will be a decrease in the overall number of facilities offering [Title X] services, since it anticipates other, new entities will apply for funds, or seek
to participate as subrecipients, as a result of the final
rule.” Id. at 7782. As previously discussed, however,
this pronouncement is wholly conclusory and unsupported. See Part III.A.1., supra. HHS provides no evidence to indicate that there are new grantees waiting
in the wings to join Title X, much less enough new
grantees to fill the vacuum left by the impending exodus.
Commenters also alerted HHS that the decreased
access to reproductive health services precipitated by
the Final Rule will lead to an increase in the number of
unintended pregnancies and births. In particular, an
“increase [in] unplanned and mistimed pregnancies” is a
“near certainty under the proposed rule.” Brindis Decl.,

256a
Exh. B at 11. A 2015 Guttmacher Institute report found
that “in California, across all publicly funded contraceptive providers ... it was estimated that, for every seven
women who received publicly funded contraceptive
services, two pregnancies were averted.” Id. at 12 n.73.
Nationwide, “Title X-funded services helped women
avert an estimated 822,300 unintended pregnancies in
2015 alone, thus preventing 387,200 unplanned births
and 277,800 abortions.” Rich Decl., Exh. L at 31–32.
Without the providers of these services, the country’s
unintended pregnancy rate would have increased by a
whopping 31 percent. Id. The connection between decreased family planning funding and increased rates of
unintended pregnancy is reinforced by two further
studies. One documented a 27% increase in births
among women (who had been using highly effective,
publicly funded contraceptive methods) once Texas
“severely restricted public funding for family planning.” Brindis Decl., Exh. B at 12; see also Rich Decl.,
Exh. K at 4 (American Public Health Association comment noting that “[i]n states that have eliminated
Planned Parenthood from their family planning programs, the public health results have been disastrous”).
The other surveyed patients in California’s publicly
funded family planning program and found that individuals would resort to less effective forms of contraceptive if they were forced to pay for family planning
services themselves. Brindis Decl., Exh. B at 11. Billions of dollars in public costs would be “associated with
... unintended pregnancies and outcomes.” Id. at 12–13.
At three different places in the Final Rule, HHS offers three different, seemingly conflicting responses to
this evidence. All three are baseless. First, HHS claims
that the Final Rule “is likely to decrease unintended
pregnancies ... because clients are more likely to visit

257a
clinics that respect their views and beliefs and to use
methods that they desire and that fit their individual
circumstances.” 84 Fed. Reg. at 7743 (emphasis). The
agency cites as the basis for this belief § 59.5(a)(1) of
the Final Rule, which clarifies that Title X projects
need not provide every family planning method or service. But HHS provides no evidence or analysis suggesting a connection between § 59.1(a)(1) and decreased
unintended pregnancies. The agency does not, for example, provide any basis for believing that under the
current regulations, patients are choosing not to avail
themselves of Title X care because their “views and beliefs” are disrespected by clinics providing nondirective
counseling.
Second, HHS insists that “[c]ommenters offer no
compelling evidence that this rule will increase unintended pregnancies or decrease access to contraception.” 84 Fed. Reg. at 7785. “On the contrary,” according to the agency, “more patients could have access to
services because of changes to the program.” Id. No
explanation is offered for this conclusion, nor any analysis to support it. To the extent this conclusory assertion stems from the assumption that the Final Rule will
prompt large numbers of new grantees to join Title X,
that assumption is debunked by record evidence, as detailed above.
Third, HHS offers an excuse for disregarding the
costs associated with higher instances of unintended
pregnancies:
[T]he Department is not aware, either from its
own sources or from commenters, of actual data
that could demonstrate a causal connection between the type of changes to Title X regulations contemplated in this rulemaking and an

258a
increase in unintended pregnancies, births, or
costs associated with either, much less data
that could reliably calculate the magnitude of
that hypothetical impact. Therefore, the Department concludes that those are not likely or
calculable impacts for the purpose of the Executive Order.
84 Fed. Reg. at 7775. This rationale does not withstand
even deferential scrutiny.
For one thing, “[t]he mere fact that the ... effect[]
[of a rule] is uncertain is no justification for disregarding the effect entirely.” Pub. Citizen v. Fed. Motor
Carrier Safety Admin., 374 F.3d 1209, 1219 (D.C. Cir.
2004) (emphases in original). Yet that is the exact mistake HHS makes here in concluding that unintended
pregnancies “are not likely” because it believes the effects of the Final Rule are difficult to quantify. HHS
cannot simply disregard costs that are uncertain or difficult to quantify. Its “Guidelines for Regulatory Impact Analysis” set forth in detail how the agency is
supposed to “address[] outcomes that cannot be quantified but may have important implications for decisionmaking.”17 HHS Guidelines at 47. Per the Guidelines,
“[i]f quantification is not possible, analysts must determine how to best provide related information.” Id.
(emphasis added); see id. at 47–51 (laying out various
approaches for incorporating non-quantified effects into
17

Notably, the HHS Guidelines specifically list changes in
“the type or quality of information available and its dissemination”
effectuated by an agency action as a type of cost that is difficult to
quantify but that HHS must nevertheless analyze. HHS Guidelines at 48. Absent from the Final Rule, however, is any substantive discussion of how the Final Rule’s counseling and referral restrictions might create informational costs.

259a
regulatory impact analysis). “At minimum, analysts
should list significant nonquantified effects in a table
and discuss them qualitatively.” Id. at 51. HHS failed to
do even that here. In its cost-benefit accounting table,
the agency listed the total “Non-quantified Costs” of
the Final Rule as, simply, “None.” Id. at 7777. “None”
more aptly describes the extent of HHS’s analysis.
Commenters also informed HHS that the exodus of
Title X providers will reduce patients’ access to health
services beyond family planning, and give rise to attendant health costs. “Apart from the delivery of family
planning care, Title X providers have come to play an
essential and important role in providing any number of
other vital health services for low-income Americans,”
including “screenings for cervical cancer, diabetes, high
blood pressures, and sexually transmitted infections
(STIs), among a range of other services aimed at primary prevention and referral.” Brindis Decl., Exh. B at
3.18 “[F]or many low-income women, visits to a family
planning provider are their only interaction with the
health care system at all,” so a reduction in the number
of Title X sites would “cut off many people” from a critical health resource. Id.; see Rich Decl., Exh. M at 16
(Planned Parenthood comment explaining that “[f]iftysix percent of Planned Parenthood health centers are in
health provider deserts, where residents live in areas
that are medically underserved and may have nowhere
else to go to access essential health services without
18

HHS itself trumpets these benefits of the current Title X
program. See Office of Population Affairs, Title X Family Planning Annual Report 2017 Summary ES-2, (August 2018) (“Title
X-funded cervical and breast cancer screening services are necessary for early detection and treatment,” and “Title X-funded STD
and HIV services provide testing necessary for preventing disease
transmission and adverse health consequences.”).

260a
Planned Parenthood”). Commenters cited the case
study of a rural Indiana county in which the Planned
Parenthood facility closed in 2013 due to cuts to public
health funding. Brindis Decl., Exh. B at 6. Without the
facility, the county lost free HIV testing services and
almost immediately experienced “one of the largest and
most rapid HIV outbreaks the country has ever seen.”
Id. at 6–7 (citation omitted).
In response to this evidence, HHS wrote:
Based on the Department’s best estimates, it
anticipates that the net impact on those seeking services from current grantees will be zero,
as any redistribution of the location of facilities
will mean that some seeking services will have
shorter travel times and others seeking services will have longer travel times to reach a
facility. Additionally, as a result of this final
rule, the Department anticipates expanded
competition that will engender new and/or additional grantees who will serve previously unserved or underserved areas, likely expanding
coverage and patient access to services.
84 Fed. Reg. at 7782 (emphasis added).
The agency did not explain how it arrived at its
“best estimates,”19 or how it reached the seemingly
speculative conclusion that the Final Rule would result
merely in the “redistribution” of services and that be19

The HHS Guidelines expressly describe “reductions in
government payments to hospitals” as a type of “transfer cost”
that “should be addressed in the benefit-cost analysis, if significant,” because “the affected hospitals may accept fewer patients or
use less expensive treatments, in turn affecting health outcomes.”
HHS Guidelines at 23.

261a
cause of the entrance of new grantees “the net impact
on those seeking services from current grantees will be
zero.” The lack of any evidence or analysis supporting
HHS’s supposition that everything will even out is particularly conspicuous in the face of evidence that “other
types of Title X sites would need to increase their client
caseloads by 70 percent” just to compensate for the exit
of Planned Parenthood from Title X. Rich Decl., Exh. M
at 16. HHS’s “naked conclusion ... is not enough.”
United Techs. Corp. v. U.S. Dep’t of Def., 601 F.3d 557,
565 (D.C. Cir. 2010).
HHS similarly failed to take account of the costs
that will result from its decision to remove the requirement in § 59.5(a)(1) that the family planning methods and services provided under Title X be “medically
approved.” Commenters notified the agency that this
change “could reduce access to the safest, effective, and
medically approved contraceptive methods, increase
risks associated with promoting medically unreliable
methods, place political ideology over science, and undermine recommendations jointly issued by OPA and
the CDC on Quality Family Planning.” 84 Fed. Reg. at
7740; see Rich Decl., Exh. I at 3; id., Exh. Q at 2. Commenters specifically warned HHS that the change
“seem[s] to open the door to entities like antiabortion
counseling centers (or ‘crisis pregnancy centers’)” that
“commonly do not have any medical staff and are not
able or willing to provide many or all modern and FDAapproved methods of contraception.” Rich Decl., Exh.
E at 15. The agency did not address any of these potential costs to patient health.

262a
ii. HHS Did Not Adequately Consider Compliance
Costs
HHS’s assessment of the costs to regulated entities
of complying with the Final Rule is also inadequate, for
the reasons discussed in Part III.C.2.b., supra.
iii. The Claimed Benefits are Unsubstantiated and
Speculative
On the other side of the cost-benefit equation, HHS
contends that the Final Rule is expected to “[e]nhance[]
compliance with statutory requirements”; result in an
“[e]xpanded number of entities interested in participating in Title X”; and “[e]nhance[ ] patient service and
care.” 84 Fed. Reg. at 7777, 7782. But HHS provided
no evidence in support of any of these claims; nor did it
provide any estimates of the expected magnitude of
these supposed benefits. Instead, each of these claimed
benefits has been shown to “run[ ] counter to the evidence before the agency.” State Farm, 463 U.S. at 43,
103 S.Ct. 2856. In the absence of any attempt by HHS
to quantify or even explain with any substantive analysis the Final Rule’s claimed benefits, it cannot be said
that there has been a “reasoned determination” that
the benefits justify the costs.
“[R]easoned decisionmaking requires assessing whether a proposed action would do more good than harm.” Mingo Logan
Coal Co. v. Envtl. Prot. Agency, 829 F.3d 710, 732 (D.C.
Cir. 2016).
On the whole, the determination by HHS that the
asserted but unsubstantiated, undocumented, and
speculative benefits of the Final Rule outweigh its likely substantial costs indicates the agency “put a thumb
on the scale by [over]valuing the benefits and [under]valuing the costs.” Ctr. for Biological Diversity v.
Nat’l Highway Traffic Safety Admin., 538 F.3d 1172,

263a
1198 (9th Cir. 2008). The cost-benefit analysis is undermined by “serious flaw[s]” that “render the rule unreasonable” in its entirety under the APA. Nat’l Ass’n
of Home Builders, 682 F.3d at 1039–40; see State v.
United States Bureau of Land Mgmt., 277 F. Supp. 3d
1106, 1123 (N.D. Cal. 2017) (holding that agency action
was arbitrary and capricious where the agency “only
consider[ed] one side of the equation” in its cost-benefit
analysis).
3. HHS Did Not Violate Notice and
Comment Procedures
Essential Access makes one final claim under the
APA. It contends that Defendants did not comply with
the APA’s notice and comment requirements because
the “comprehensive primary care provider” and “physician and APP” requirements in the Final Rule are not
logical outgrowths of the proposed rule. See Essential
Mot. at 19–20.
The APA generally requires an agency to engage in
notice and comment as part of its rulemaking process.
See 5 U.S.C. § 553(b). The agency must publish a notice
of proposed rulemaking in the Federal Register and
notify the public of, inter alia, “the terms or substance
of the proposed rule or a description of the subjects and
issues involved.” Id. § 553(b)(3). “Agencies are free—
indeed, they are encouraged—to modify proposed rules
as a result of the comments they receive.” Ne. Md.
Waste Disposal Auth. v. EPA, 358 F.3d 936, 951 (D.C.
Cir. 2004). However, “an agency’s proposed rule and
its final rule may differ only insofar as the latter is a
‘logical outgrowth’ of the former.” Envtl. Integrity
Project v. EPA, 425 F.3d 992, 996 (D.C. Cir. 2005) (citation omitted). A final rule is considered a logical outgrowth of a proposed rule “only if interested parties

264a
‘should have anticipated’ that the change was possible,
and thus reasonably should have filed their comments
on the subject during the notice-and-comment period.”
Int’l Union, United Mine Workers of Am. v. Mine Safety & Health Admin., 407 F.3d 1250, 1259 (D.C. Cir.
2005) (quoting Ne. Md. Waste Disposal Auth., 358 F.3d
at 952); Envtl. Def. Ctr., Inc. v. U.S. E.P.A., 344 F.3d
832, 851 (9th Cir. 2003).
a. The “Comprehensive Primary Care Provider”
Requirement is a Logical Outgrowth of the
Proposed Rule
According to Essential Access, the requirement in
§ 59.14(b)(1)(ii) of the Final Rule that Title X projects
can only refer patients to “licensed, qualified, comprehensive primary health care providers” is not a logical
outgrowth of the Proposed Rule, which permitted referrals to “licensed, qualified, comprehensive health
service providers.” 83 Fed. Reg. at 25531. That is, Essential Access objects that the Proposed Rule did not
specify that “comprehensive health service providers”
must provide “primary care services.” Essential Mot.
at 20.
Essential Access has not cited any authority for the
proposition that “comprehensive primary care” is
meaningfully different from “comprehensive care,”
such that interested parties could not have anticipated
that the Final Rule would incorporate the former term.
Essential Access insists that language in the Final Rule
“contemplates that ‘comprehensive’ health care services can be ‘primary’ or ‘prenatal.’” Essential Reply at
8 (citing 84 Fed. Reg. at 7761). But the actual language
in the Final Rule does not draw a distinction between
“primary” comprehensive care and “prenatal” comprehensive care; it merely indicates that “comprehensive

265a
primary care” can include prenatal care. See 84 Fed.
Reg. at 7761 (“The Department is finalizing
§ 59.14(b)(1)(ii) to allow Title X providers to give a single list of providers to any pregnant woman. This list
will contain licensed, qualified, comprehensive primary
health care providers (including providers of prenatal
care).”). Essential Access has not shown a likelihood of
success on its claim that § 59.14(b)(1)(ii) of the Final
Rule is not a logical outgrowth of the Proposed Rule.
b. The “Physician or APP” Requirement is a
Logical Outgrowth of the Proposed Rule
Essential Access also argues the requirement in
§ 59.14(b)(1) of the Final Rule that any nondirective
pregnancy counseling under Title X can only be “provided by physicians or advanced practice providers” is
not a logical outgrowth of the Proposed Rule. Essential
Mot. at 20. It is true, as Essential Access points out,
that the term “advanced practice provider” does not
appear anywhere in the Proposed Rule. But that is because the Proposed Rule was more restrictive than the
Final Rule; under the former, only physicians were
permitted to provide pregnancy counseling:
[A] doctor, though not required to do so, would
be permitted to provide nondirective counseling on abortion. Such nondirective counseling
would not be considered encouragement, promotion, or advocacy of abortion as a method of
family planning, as prohibited under section
59.16 of this proposed rule. Moreover, a doctor
would also be permitted to provide a list of licensed, qualified, comprehensive health service
providers, some (but not all) of which provide
abortion in addition to comprehensive prenatal
care.

266a
83 Fed. Reg. at 25518. In summarizing the changes between the Proposed Rule and the Final Rule, HHS
wrote, “as a result of comments on the type of medical
professional who could provide nondirective counseling
and referrals under the proposed rule, ... the Department has determined that, in addition to medical doctors, advanced practice providers (APPs) may provide
nondirective counseling and referrals.” 84 Fed. Reg. at
7727–28.
The Proposed Rule signaled that the agency was
considering limiting counseling responsibilities to individuals with advanced medical degrees, so it cannot be
said that the Final Rule “finds no roots in the agency’s
proposal.” Envtl. Integrity Project v. E.P.A., 425 F.3d
992, 996 (D.C. Cir. 2005); see Hodge v. Dalton, 107 F.3d
705, 712 (9th Cir. 1997) (holding that a final rule “in
character with the original proposal” is a logical outgrowth). Moreover, the Final Rule indicates that the
Proposed Rule engendered “comments on the type of
medical professional who could provide nondirective
counseling and referrals.” 84 Fed. Reg. at 7727–28.
Essential Access argues that “[h]ad HHS provided
proper notice, the public may have expressed concerns
... [that] the definition of APP is much too narrow, and
excludes professionals who currently provide the bulk
of pregnancy options counseling at Title X centers.”
Essential Mot. at 20. However, any such comments
about the ability of certain categories of professionals
to provide counseling could equally have been submitted to the Proposed Rule because those professionals
were already excluded under the Proposed Rule.
Accordingly, Essential Access has not shown that a
likelihood that § 59.14(b)(1) of the Final Rule is not a
logical outgrowth of the Proposed Rule.

267a
4. Plaintiffs’ Remaining Claims
Because the Court finds that Plaintiffs have established that they are likely to succeed on the merits of
their “not in accordance with law” and “arbitrary and
capricious” claims under the APA, the Court will not
reach their constitutional claims at this time.
D. Scope of Injunction
Plaintiffs have made a strong showing on each of
the Winter factors, and accordingly are entitled to preliminary relief. They ask the Court to grant a nationwide injunction. California Mot. at 25; Essential Mot. at
33–35. Defendants respond that any injunctive relief
should be limited to Plaintiffs, i.e., to the state of California. Opp. at 46–50.
The recent Ninth Circuit ruling in California v.
Azar, 911 F.3d 558 (9th Cir. 2018) provides guidance on
how a district court should exercise its discretion in
crafting an injunction. Azar emphasized that while
“‘there is no bar against ... nationwide relief in federal
district court or circuit court,’ such broad relief must be
‘necessary to give prevailing parties the relief to which
they are entitled.’” Id. at 582 (quoting Bresgal v.
Brock, 843 F.2d 1163, 1170–71 (9th Cir. 1987)). The
Ninth Circuit determined that the nationwide injunction it was reviewing was overbroad because “while the
record before the district court was voluminous on the
harm to the plaintiffs, it was not developed as to the
economic impact on other states.” Id. at 584. The court
instructed that “[d]istrict judges must require a showing of nationwide impact or sufficient similarity to the
plaintiff states to foreclose litigation in other districts.”
911 F.3d at 584.

268a
Plaintiffs have supplied ample evidence of the Final
Rule’s anticipated impact within California. See Part
III.A., supra. They offer three reasons why a nationwide injunction is necessary to afford them adequate
relief. First, they assert that any violation of the APA
“compel[s]” a nationwide injunction. Essential Reply at
14. Notably, however, Azar found that the plaintiffs
there had shown a likelihood of success on their APA
claims, and nonetheless ruled that a nationwide injunction was overbroad. See 911 F.3d at 575–81. This suggests that, notwithstanding an APA violation, this
Court still must assess whether “[t]he circumstances of
this case dictate a narrower scope” of relief. Id. at 584.
Plaintiffs’ second argument is that they have provided sufficient evidence of the Final Rule’s nationwide
impact to support a broad injunction, and in particular
cite to the Kost and Brindis declarations. See Essential
Reply at 15 (citing Kost Decl. ¶¶ 76–78; Brindis Decl.
¶¶ 80–93). While the portions of the declaration on
which Plaintiffs rely address the many Title X providers around the country will leave the program because
of the Final Rule, the record does not indicate that preserving the current Title X network in other states is
“necessary to redress the injury shown by the
[P]laintiff[s].” Azar, 911 F.3d at 584 (emphasis added). Both Plaintiffs are from California. Neither Plaintiff has offices or operations outside of California. And
nearly all the harms they document are focused on California. See, e.g., Cantwell Decl. ¶ 32; Tosh Decl. ¶ 52.
It is difficult to conduct a balance of hardship as to effects outside of California on this record.
Third, Plaintiffs argue that “Title X funding recipients draw from a single pool of funding, such that ‘[t]he
conditions imposed on one can impact the amounts received by others.’” California Reply at 15 (quoting City

269a
of Chicago v. Sessions, 888 F.3d 272, 292 (7th Cir.
2018)). According to Plaintiffs, recipients of Title X
funding are “interconnected” because if Title X grantees in some areas claim less funding, grantees in other
areas would receive commensurately more. Even so,
however, an injunction limited to California would allow grantees within the state to maintain and deploy
their regular allotment of Title X funds; grantees in
other states would not be able to take away California’s
funds. It is difficult to discern on this record how a preliminary injunction limited to California will affect other states in a way that will harm Plaintiffs and their clients in California. In short, Plaintiffs have not shown
at this juncture that a nationwide injunction is necessary to protect their interests. The Court cannot find,
on this record, that Plaintiffs have made “a showing of
nationwide impact” to warrant nationwide relief. Azar,
911 F.3d at 583.
Accordingly, Plaintiffs’ motions for preliminary injunction are GRANTED and the Final Rule is ENJOINED as to enforcement in the state of California.
This order disposes of California Docket No. 26
and Essential Access Docket No. 25.
IT IS SO ORDERED.

271a
APPENDIX E
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 19-15974
D.C. No. 3:19-cv-01184-EMC
STATE OF CALIFORNIA, by and
through Attorney General Xavier Becerra,
Plaintiff-Appellee,
v.
ALEX M. AZAR II, in his Official Capacity as
Secretary of the U.S. Department of Health & Human
Services; U.S. DEPARTMENT OF HEALTH
& HUMAN SERVICES,
Defendants-Appellants.
No. 19-15979
D.C. No. 3:19-cv-01195-EMC
ESSENTIAL ACCESS HEALTH, INC.;
MELISSA MARSHALL, M.D.,
Plaintiffs-Appellees,
v.
ALEX M. AZAR II, Secretary
of U.S. Department of Health & Human Services;
UNITED STATES DEPARTMENT OF HEALTH
AND HUMAN SERVICES,
Defendants-Appellants.

272a
No. 19-35386
D.C. Nos.
6:19-cv-00317-MC
6:19-cv-00318-MC
STATE OF OREGON; STATE OF NEW YORK; STATE OF
COLORADO; STATE OF CONNECTICUT; STATE OF
DELAWARE; DISTRICT OF COLUMBIA; STATE OF
HAWAII; STATE OF ILLINOIS; STATE OF MARYLAND;
COMMONWEALTH OF MASSACHUSETTS; STATE OF
MICHIGAN; STATE OF MINNESOTA; STATE OF NEVADA;
STATE OF NEW JERSEY; STATE OF NEW MEXICO; STATE
OF NORTH CAROLINA; COMMONWEALTH OF
PENNSYLVANIA; STATE OF RHODE ISLAND; STATE OF
VERMONT; COMMONWEALTH OF VIRGINIA; STATE OF
WISCONSIN; AMERICAN MEDICAL ASSOCIATION;
OREGON MEDICAL ASSOCIATION; PLANNED
PARENTHOOD FEDERATION OF AMERICA, INC.;
PLANNED PARENTHOOD OF SOUTHWESTERN OREGON;
PLANNED PARENTHOOD COLUMBIA WILLAMETTE;
THOMAS N. EWING, M.D.; MICHELE P. MEGREGIAN,
C.N.M.,
Plaintiffs-Appellees,
v.
ALEX M. AZAR II; UNITED STATES DEPARTMENT
OF HEALTH AND HUMAN SERVICES; DIANE FOLEY;
OFFICE OF POPULATION AFFAIRS,

Defendants-Appellants.

273a
No. 19-35394
D.C. Nos.
1:19-cv-03040-SAB
1:19-cv-03045-SAB
STATE OF WASHINGTON; NATIONAL FAMILY PLANNING
AND REPRODUCTIVE HEALTH ASSOCIATION; FEMINIST
WOMEN’S HEALTH CENTER; DEBORAH OYER, M.D.;
TERESA GALL,
Plaintiffs-Appellees,
v.
ALEX M. AZAR II, in his official capacity as
Secretary of the United States Department of Health
and Human Services; UNITED STATES DEPARTMENT
OF HEALTH AND HUMAN SERVICES; DIANE FOLEY,
MD, in her official capacity as Deputy Assistant
Secretary for Population Affairs; OFFICE OF
POPULATION AFFAIRS,
Defendants-Appellants.

Filed June 20, 2019
Before: Edward Leavy, Consuelo M. Callahan, and
Carlos T. Bea, Circuit Judges.
Per Curiam Order
ORDER ON MOTIONS FOR STAY
PENDING APPEAL
*

*

*

274a
ORDER
PER CURIAM:
BACKGROUND
In 1970, Congress enacted Title X of the Public
Health Service Act (“Title X”) to create a limited grant
program for certain types of pre-pregnancy family
planning services. See Pub. L. No. 91-572, 84 Stat. 1504
(1970). Section 1008 of Title X, which has remained unchanged since its enactment, is titled “Prohibition of
Abortion,” and provides:
None of the funds appropriated under this subchapter shall be used in programs where abortion is a method of family planning.
42 U.S.C. § 300a-6.
In 1988, the Department of Health and Human
Services (“HHS”) explained that it “interpreted
[§] 1008 … as prohibiting Title X projects from in any
way promoting or encouraging abortion as a method of
family planning,” and “as requiring that the Title X
program be ‘separate and distinct’ from any abortion
activities of a grantee.” 53 Fed. Reg. at 2923. Accordingly, HHS promulgated regulations forbidding Title X
grantees from providing counseling or referrals for, or
otherwise encouraging, promoting, or advocating abortion as a method of family planning. Id. at 2945. To
prevent grantees from evading these restrictions, the
regulations placed limitations on the list of medical
providers that a program must offer patients as part of
a required referral for prenatal care. See id. Such a list
was required to exclude providers whose principal
business is the provision of abortions, had to include
providers who do not provide abortions, and could not

275a
weigh in favor of providers who perform abortions. Id.
at 2945. The regulations also required grantees to keep
their Title X funded projects “physically and financially
separate” from all abortion-related services that the
grantee might also provide (the “physical-separation”
requirement). Id.
In 1991, the Supreme Court upheld the 1988 regulations against a challenge in Rust v. Sullivan, 500 U.S.
173 (1991). Rust held that § 1008 of Title X was ambiguous as to whether grantees could counsel abortion as a
family planning option and make referrals to abortion
providers. Id. at 184. Applying deference under Chevron, USA, Inc. v. Natural Resources Defense Council,
Inc., 467 U.S. 837, 842–43 (1984), the Supreme Court
found that the 1988 regulations were a permissible interpretation of § 1008. Id. at 184–85. The Supreme
Court also held that the 1988 regulations were not arbitrary or capricious because the regulations were justified by “reasoned analysis,” that the regulations were
consistent with the plain language of Title X, and that
they did not violate the First or Fifth Amendments.
Id. at 198–201.
Several years later (and under a new presidential
administration), HHS suspended the 1988 regulations.
58 Fed. Reg. 7455 (1993). HHS finally promulgated
new Title X regulations in 2000, which re−interpreted
§ 1008 as requiring Title X grantees to provide “nondirective”1 abortion counseling and abortion referrals
upon request. 65 Fed. Reg. 41270–79. The 2000 regula1

Under the 2000 regulations, “nondirective” counseling
meant the provision of “factual, neutral information about any option, including abortion, as [medical providers] consider warranted
by the circumstances, … [without] steer[ing] or direct[ing] clients
toward selecting any option.” 65 Fed. Reg. 41270–01.

276a
tions also eliminated the 1988 regulations’ physical−separation requirement. Id.
In 2019, HHS once again revised its Title X regulations, promulgating regulatory language (the “Final
Rule”) that substantially reverts back to the 1988 regulations. 84 Fed. Reg. 7714. Under the Final Rule, Title
X grantees are prohibited from providing referrals for,
and from engaging in activities that otherwise encourage or promote, abortion as a method of family planning. Id. at 7788–90. Providers are required to refer
pregnant women to a non-abortion pre- natal care provider, and may also provide women with a list of other
providers (which may not be composed of more abortion providers than non-abortion providers). See id. at
7789. Notably, however, the Final Rule is less restrictive than the 1988 regulations: it allows (but does not
require) the neutral presentation of abortion information during nondirective pregnancy counseling in
Title X programs. Id. The Final Rule also revives the
1988 regulations’ physical−separation requirement, imposes limits on which medical professionals can provide
pregnancy counseling, clarifies the previous requirement that family planning methods be “medically approved,” and creates a requirement that providers encourage family participation in decisions. Id. at 7789.
The Final Rule was scheduled to take effect on May
3, 2019, although grantees would have until March 4,
2020, to comply with the physical-separation requirement. Id. at 7714. But a group of state governments
and existing Title X grantees (“Plaintiffs”) challenged
the Final Rule in federal court in three states (California, Washington, and Oregon), and sought preliminary
injunctive relief. The district courts in all three states
granted Plaintiffs’ preliminary injunction motions on
nearly identical grounds. See Washington v. Azar,

277a
19−cv−3040, 2019 WL 1868632 (E.D. Wash. Apr. 25,
2019); Oregon v. Azar, 19-cv-317, 2019 WL 1897475 (D.
Oregon Apr. 29, 2019); California v. Azar, 19−cv−1184,
19−cv−1195, 2019 WL 1877392 (N.D. Cal. Apr. 26, 2019).
As a result of the three preliminary injunctions, the Final Rule has not gone into effect.
HHS appealed all three preliminary injunction orders to this court, and filed motions to stay the injunctions pending a decision on the merits of its appeals.
Because the three motions for a stay pending appeal
present nearly identical issues, we consider all three
motions jointly.
ANALYSIS
In ruling on a stay motion, we are guided by four
factors: “(1) whether the stay applicant has made a
strong showing that he is likely to succeed on the merits; (2) whether the applicant will be irreparably injured
absent a stay; (3) whether issuance of the stay will substantially injure the other parties interested in the proceeding; and (4) where the public interest lies.” Nken v.
Holder, 556 U.S. 418, 434 (2009) (internal quotation
marks omitted). Although review of a district court’s
grant of a preliminary injunction is for abuse of discretion, Southwest Voter Registration Education Project
v. Shelley, 344 F.3d 914, 918 (9th Cir. 2003), “[a] district
court by definition abuses its discretion when it makes
an error of law,” Koon v. United States, 518 U.S. 81, 100
(1996).
I.
We conclude that the Government is likely to prevail on its challenge to the district courts’ preliminary
injunctions based on their findings that the Final Rule

278a
is likely invalid as both contrary to law and arbitrary
and capricious under 5 U.S.C. § 706(2)(A).
As a threshold matter, we note that the Final Rule
is a reasonable interpretation of § 1008. Congress enacted § 1008 to ensure that “[n]one of the funds appropriated under this subchapter shall be used in programs where abortion is a method of family planning.”
42 U.S.C. § 300a-6. If a program promotes, encourages,
or advocates abortion as a method of family planning,
or if the program refers patients to abortion providers
for family planning purposes, then that program is logically one “where abortion is a method of family planning.” Accordingly, the Final Rule’s prohibitions on advocating, encouraging, or promoting abortion, as well
as on referring patients for abortions, are reasonable
and in accord with § 1008. Indeed, the Supreme Court
has held that § 1008 “plainly allows” such a construction
of the statute. Rust, 500 U.S. at 184 (upholding as a
reasonable interpretation of § 1008 regulations that (1)
prohibited abortion referrals and counseling, (2) required referrals for prenatal care, (3) placed restrictions on referral lists, (4) prohibited promoting, encouraging, or advocating abortion, and (5) mandated
financial and physical separation of Title X projects
from abortion-related activities). The text of § 1008 has
not changed.
II.
Because Rust largely forecloses any attempt to argue that the Final Rule is not a reasonable interpretation of the text of § 1008, the district courts instead relied on two purportedly intervening laws that they say
likely render the Final Rule “not in accordance with
law.” 5 U.S.C. § 706(2)(A). The first is an “appropria-

279a
tions rider” that Congress has included in every HHS
appropriations act since 1996. The 2018 version states:
For carrying out the program under [T]itle X
of the PHS Act to provide for voluntary family
planning projects, $286,479,000:
Provided,
[t]hat amounts provided to said projects under
such title shall not be expended for abortions,
that all pregnancy counseling shall be nondirective, and that such amounts shall not be
expended for any activity (including the publication or distribution of literature) that in any
way tends to promote public support or opposition to any legislative proposal or candidate for
public office.
132 Stat 2981, 3070–71 (2018) (emphasis added). The
second is an ancillary provision of the Affordable Care
Act (ACA), located within a subchapter of the law entitled “Miscellaneous Provisions,” which reads:
Notwithstanding any other provision of this
Act, the Secretary of Health and Human Services shall not promulgate any regulation
that—
(1) creates any unreasonable barriers to the
ability of individuals to obtain appropriate
medical care;
(2) impedes timely access to health care services;
(3) interferes with communications regarding
a full range of treatment options between the
patient and the provider;
(4) restricts the ability of health care providers to provide full disclosure of all relevant in-

280a
formation to patients making health care decisions;
(5) violates the principles of informed consent
and the ethical standards of health care professionals; or
(6) limits the availability of health care treatment for the full duration of a patient’s medical
needs.
Pub. L. No. 111−148, title I, § 1554 (42 U.S.C. § 18114)
(“§ 1554”).
These two provisions could render the Final Rule
“not in accordance with law” only by impliedly repealing or amending § 1008, or by directly contravening the
Final Rule’s regulatory provisions.
First, we conclude that neither law impliedly repealed or amended § 1008. See Nat’l Ass’n of Home
Builders v. Defs. of Wildlife, 551 U.S. 644, 663 (2007)
(“[E]very amendment of a statute effects a partial repeal to the extent that the new statutory command displaces earlier, inconsistent commands.”). “[R]epeals by
implication are not favored and will not be presumed
unless the intention of the legislature to repeal is clear
and manifest.” Id. at 662 (internal quotation marks and
alterations omitted); United States v. Madigan, 300
U.S. 500, 506 (1937) (“[T]he modification by implication
of the settled construction of an earlier and different
section is not favored.”). Indeed, “[w]e will not infer a
statutory repeal unless the later statute expressly contradict[s] the original act or unless such a construction
is absolutely necessary … in order that [the] words [of
the later statute] shall have any meaning at all.” Nat’l
Ass’n of Home Builders, 551 U.S. at 662.

281a
Plaintiffs admit that there is no irreconcilable conflict between § 1008 and either the appropriations rider
or § 1554 of the ACA. E.g., California State Opposition
to Motion for Stay at p. 14; Essential Access Opposition
to Motion for Stay at p.14. And we discern no “clear
and manifest” intent by Congress to amend or repeal
§ 1008 via either of these laws—indeed, neither law
even refers to § 1008. The appropriations rider mentions abortion only to prohibit appropriated funds from
being expended for abortions; and § 1554 of the ACA
does not even mention abortion.
As neither statute impliedly amended or repealed
§ 1008, the question is therefore whether the Final Rule
is nonetheless “not in accordance with law” because its
provisions are incompatible with the appropriations
rider or § 1554 of the ACA. 5 U.S.C. § 706(2)(A). We
think that HHS is likely to succeed on its challenge to
the district courts’ preliminary injunctions because the
Final Rule is not contrary to either provision.
The appropriations rider conditions HHS funding
on a requirement that no Title X funds be expended on
abortion, and that “all pregnancy counseling shall be
nondirective.” Pub. L. No. 115−245, div. B, tit. II, 132
Stat 2981, 3070–71 (2018). (The plain text of the rider
actually seems to reinforce § 1008’s restrictions on
funding abortion-related activities.)
The district courts held that the Final Rule’s counseling and referral requirements directly conflicted
with the appropriations rider’s “nondirective” mandate.
But its mandate is not that nondirective counseling be
given in every case. It is that such counseling as is given shall be nondirective. The Final Rule similarly does
not require that any pregnancy counseling be given,
only that if given, such counseling shall be nondirective

282a
(and may include neutrally-presented information
about abortion). 84 Fed. Reg. 7716 (“Under the [F]inal
[R]ule, the Title X regulations no longer require pregnancy counseling, but permits the use of Title X funds
in programs that provide pregnancy counseling, so long
as it is nondirective.”). The Final Rule is therefore not
in conflict with the appropriations rider’s nondirective
pregnancy counseling mandate.
Although the Final Rule does require the provision
of referrals to non-abortion providers, id. at 7788–90,
such referrals do not constitute “pregnancy counseling.” First, providing a referral is not “counseling.”
HHS has defined “nondirective counseling” as “the
meaningful presentation of options where the [medical
professional] is not suggesting or advising one option
over another,” 84 Fed. Reg. at 7716, whereas a “referral” involves linking a patient to another provider who
can give further counseling or treatment, id. at 7748.
The Final Rule treats referral and counseling as distinct terms, as has Congress and HHS under previous
administrations. See, e.g., 42 U.S.C. § 300z-10; 53 Fed.
Reg. at 2923; 2928–38 (1988); 65 Fed. Reg. 41272–75
(2000). We therefore conclude that the Final Rule’s referral requirement is not contrary to the appropriations
rider’s nondirective pregnancy counseling mandate.2

2

But to the extent there is any ambiguity, “when reviewing
an agency’s statutory interpretation under the APA’s ‘not in accordance with law’ standard, … [we] adhere to the familiar twostep test of Chevron.” Nw. Envtl. Advocates v. U.S. E.P.A., 537
F.3d 1006, 1014 (9th Cir. 2008). Applying Chevron deference, we
would conclude that HHS’s treatment of counseling and referral as
distinct concepts is a reasonable interpretation of the applicable
statutes.

283a
But even if referrals are included under the rubric
of “pregnancy counseling,” it is not clear that referring
a patient to a non-abortion doctor is necessarily “directive.” Nondirective counseling does not require
equal treatment of all pregnancy options—rather, it
just requires that a provider not affirmatively endorse
one option over another. 84 Fed. Reg. at 7716. When
Congress wants specific pregnancy options to be given
equal treatment, it knows how to say so explicitly. For
example, Congress has mandated that “adoption information and referrals” shall be provided “on an equal
basis with all other courses of action included in nondirective counseling.” 42 U.S.C. § 254c-6(a)(1) (emphasis added). If “nondirective” already meant that all
pregnancy options (including adoption) shall be given
equal treatment, it would render meaningless Congress’s explicit instruction that adoption be treated on
an equal basis with other pregnancy options. “[C]ourts
avoid a reading that renders some words altogether redundant.” Scalia, Antonin, and Garner, Bryan A.,
Reading Law: The Interpretation of Legal Texts
(2012) 176. Congress has enacted no such statutory
provision explicitly requiring the equal treatment of
abortion in pregnancy counseling and referrals.3
We next consider § 1554 of the ACA. As a threshold matter, it seems likely that any challenge to the Final Rule relying on § 1554 is waived because Plaintiffs
concede that HHS was not put on notice of this specific
3

But as discussed above, to the extent there is any ambiguity
as to whether the appropriation rider’s nondirective mandate
means that Title X grantees must be allowed to provide referrals
to abortion providers on an equal basis with non-abortion providers, we would defer to HHS’s reasonable interpretation under
Chevron that referral to non-abortion providers is consistent with
the provision of nondirective pregnancy counseling.

284a
challenge during the public comment period, such that
HHS did not have an “opportunity to consider the issue.” Portland Gen. Elec. Co. v. Bonneville Power
Admin., 501 F.3d 1009, 1024 (9th Cir. 2007) (“The waiver rule protects the agency’s prerogative to apply its
expertise, to correct its own errors, and to create a record for our review.”). Although some commenters
stated that the proposed Final Rule was contrary to the
ACA generally, and still others used generic language
similar to that contained in § 1554, preservation of a
challenge requires that the “specific argument” must
“be raised before the agency, not merely the same general legal issue.” Koretoff v. Vilsack, 707 F.3d 394, 398
(D.C. Cir. 2013) (per curiam). Although “agencies are
required to ensure that they have authority to issue a
particular regulation,” they “have no obligation to anticipate every conceivable argument about why they
might lack such statutory authority.” Id. at 398.
But even if this challenge were preserved, it seems
likely that § 1554 does not affect § 1008’s prohibition on
funding programs where abortion is a method of family
planning. Section 1554 prohibits “creat[ing] any unreasonable barriers to the ability of individuals to obtain
appropriate medical care,” “imped[ing] timely access to
health care services,” “interfer[ing] with communications regarding a full range of treatment options between the patient and the provider,” “restrict[ing] the
ability of health care providers to provide full disclosure of all relevant information to patients making
health care decisions,” “violat[ing] the principles of informed consent and the ethical standards of health care
professionals,” and “limit[ing] the availability of health
care treatment for the full duration of a patient’s medical needs.” 42 U.S.C. § 18114. But as the Supreme
Court noted in Rust, there is a clear distinction be-

285a
tween affirmatively impeding or interfering with something, and refusing to subsidize it. Rust, 500 U.S. at
200–01. In holding that the 1988 regulations did not violate the Fifth Amendment, the Supreme Court reasoned that “[t]he Government has no constitutional duty to subsidize an activity merely because the activity
is constitutionally protected,” and that the Government
“may validly choose to fund childbirth over abortion
and implement that judgment by the allocation of public funds for medical services relating to childbirth but
not to those relating to abortion.” Id. at 201. The Government’s “decision to fund childbirth but not abortion
places no governmental obstacle in the path of a woman
who chooses to terminate her pregnancy, but rather, by
means of unequal subsidization of abortion and other
medical services, encourages alternative activity
deemed in the public interest.” Id. (internal quotations
and citations omitted). Indeed, the Supreme Court has
recognized that “[t]he difficulty that a woman encounters when a Title X project does not provide abortion
counseling or referral leaves her in no different position
than she would have been if the Government had not
enacted Title X.” Id. at 202. Rust’s reasoning is equally applicable to counter the district courts’ conclusions
that the Final Rule is invalidated by § 1554. Title X is a
limited grant program focused on providing prepregnancy family planning services—it does not fund
medical care for pregnant women. The Final Rule can
reasonably be viewed as a choice to subsidize certain
medical services and not others.4
4

The preamble to § 1554 also suggests that this section was
not intended to restrict HHS interpretations of provisions outside
the ACA. If Congress intended § 1554 to have sweeping effects on
all HHS regulations, even those unrelated to the ACA, it would
have stated that § 1554 applies “notwithstanding any other provi-

286a
III.
The district courts also held that the Final Rule
likely violates the Administrative Procedure Act
(APA)’s prohibition on “arbitrary and capricious” regulations. 5 U.S.C. § 706(2)(A). “‘Arbitrary and capricious’ review under the APA focuses on the reasonableness of an agency’s decision-making process.” CHW
W. Bay v. Thompson, 246 F. 3d 1218, 1223 (9th Cir.
2001) (emphasis in original). But “[t]he scope of review
under the ‘arbitrary and capricious’ standard is narrow
and a court is not to substitute its judgment for that of
the agency.” Vehicle Mfrs. Ass’n of U.S., Inc. v. State
Farm Mut. Auto. Ins. Co., 463 U.S. 29, 43 (1983). We
think that is precisely what the district courts did.
To find that the Final Rule’s enactment was arbitrary and capricious, the district courts generally ignored HHS’s explanations, reasoning, and predictions
whenever they disagreed with the policy conclusions
that flowed therefrom.
For example, with respect to the physical separation requirement, the district courts ignored HHS’s
reasoning for its re-imposition of that requirement
(which was approved by Rust): that physical separation would ensure that Title X funds are not used to
subsidize abortions via co-location of Title X programs
in abortion clinics. See 84 Fed. Reg. at 7763–68. HHS’s
reasoning included citation to data suggesting “that
abortions are increasingly performed at sites that focus
primarily on contraceptive and family planning sersion of law,” rather than “[n]otwithstanding any other provision of
this Act.” See, e.g., Andreiu v. Ashcroft, 253 F.3d 477, 482 (9th Cir.
2001) (holding that the phrase “notwithstanding any other provision of law” in 8 U.S.C. § 1252(f)(2) meant that the provision
“trumps any contrary provision elsewhere in the law”).

287a
vices—sites that could be recipients of Title X funds.”
Id. at 7765. Similarly, the district courts ignored HHS’s
primary reasoning for prohibiting abortion counseling
and referrals: that such restrictions are required by
HHS’s reasonable reading of § 1008 (again, approved by
Rust). Id. at 7746–47. Further, the district courts ignored HHS’s consideration of the effects that the Final
Rule would likely have on the number of Title X providers, and credited Plaintiffs’ speculation that the Final Rule would “decimate” the Title X provider network, rather than HHS’s prediction—based on evidence cited in the administrative record—”that honoring statutory protections of conscience in Title X may
increase the number of providers in the program,” by
attracting new providers who were previously deterred
from participating in the program by the former requirement to provide abortion referrals. See id. at
7780. Such predictive judgments “are entitled to particularly deferential review.” Trout Unlimited v. Lohn,
559 F.3d 946, 959 (9th Cir. 2009). With respect to the
Final Rule’s definition of “advanced practice provider,”
and its provision on whether family planning methods
must be “medically approved,” HHS reasoned that
these provisions would clarify subjects that had caused
confusion in the past. 84 Fed. Reg. at 7727–28, 32. Although the district courts insist that HHS failed to consider that the Final Rule requires providers to violate
medical ethics, HHS did consider and respond to comments arguing just that. See id. at 7724, 7748. HHS
similarly considered the costs of compliance with the
Final Rule. Id. at 7780.
In light of the narrow permissible scope of the district court’s review of HHS’s reasoning under the arbitrary and capricious standard, we conclude that HHS is
likely to prevail on its argument that the district court

288a
erred in concluding that the Final Rule’s enactment
violated the APA.5
IV.
The remaining factors also favor a stay pending appeal. HHS and the public at large are likely to suffer
irreparable harm in the absence of a stay, which are
comparatively greater than the harms Plaintiffs are
likely to suffer.
Absent a stay, HHS will be forced to allow taxpayer dollars to be spent in a manner that it has concluded
violates the law, as well as the Government’s important
policy interest (recognized by Congress in § 1008) in
ensuring that taxpayer dollars do not go to fund or subsidize abortions. As the Supreme Court held in Rust,
“the government may ‘make a value judgment favoring
childbirth over abortion, and … implement that judgment by the allocation of public funds,” and by “declining to ‘promote or encourage abortion.’” Rust, 500 U.S.
at 193. Additionally, forcing HHS to wait until the conclusion of a potentially lengthy appeals process to implement the Final Rule will necessarily result in predictable administrative costs, and will beget significant
uncertainty in the Title X program.
The harms that Plaintiffs would likely suffer if a
stay is granted are comparatively minor. The main potential harms that Plaintiffs identify are based on their
5

The district court in Washington also briefly stated that the
Final Rule was likely invalid because it “violates the central purpose of Title X, which is to equalize access to comprehensive, evidence-based, and voluntary family planning.” Washington Preliminary Injunction Order at 15. But this conclusion is foreclosed by
the existence of § 1008, and by the Supreme Court’s contrary finding in Rust.

289a
prediction that implementation of the Final Rule will
cause an immediate and steep decline in the number of
Title X providers. But these potential harms obviously
rely on crediting Plaintiffs’ predictions about the effect
of implementing the Final Rule, over HHS’s predictions that implementation of the final rule will have the
opposite effect. As described above, we think that
HHS’s predictions—supported by reasoning and evidence in the record (84 Fed. Reg. at 7780)—is entitled
to more deference than Plaintiffs’ contrary predictions.
While some Title X grantees will certainly incur financial costs associated with complying with the Final
Rule if the preliminary injunctions are stayed, we think
that harm is minor relative to the harms to the Government described above.
V.
Because HHS and the public interest would be irreparably harmed absent a stay, harms to Plaintiffs
from a stay will be comparatively minor, and HHS is
likely to prevail in its challenge of the preliminary injunction orders before a merits panel of this court
(which is set to hear the cases on an expedited basis),
we conclude that a stay of the district courts’ preliminary injunction orders pending appeal is proper.
The motion for a stay pending appeal is GRANTED.

291a
APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 19-15974
D.C. No. 3:19-cv-01184-EMC
Northern District of California, San Francisco
STATE OF CALIFORNIA, by and through
Attorney General Xavier Becerra,
Plaintiff-Appellee,
v.
ALEX M. AZAR II, in his Official Capacity as
Secretary of the U.S. Department of
Health & Human Services; U.S. DEPARTMENT
OF HEALTH & HUMAN SERVICES,
Defendants-Appellants.
No. 19-15979
D.C. No. 3:19-cv-01195-EMC
Northern District of California, San Francisco
ESSENTIAL ACCESS HEALTH, INC.;
MELISSA MARSHALL, M.D.,
Plaintiffs-Appellees,
v.
ALEX M. AZAR II, Secretary of U.S. Department of
Health and Human Services; UNITED STATES
DEPARTMENT OF HEALTH AND HUMAN SERVICES,
Defendants-Appellants.

292a
No. 19-35386
D.C. Nos. 6:19-cv-00317-MC, 6:19-cv-00318-MC
District of Oregon, Eugene
STATE OF OREGON; ET AL.,
Plaintiffs-Appellees,
v.
ALEX M. AZAR II; ET AL.,
Defendants-Appellants.
No. 19-35394
D.C. Nos. 1:19-cv-03040-SAB, 1:19-cv-03045-SAB
Eastern District of Washington, Yakima
STATE OF WASHINGTON; ET AL.,
Plaintiffs-Appellees,
v.
ALEX M. AZAR II, in his official capacity as
Secretary of the United States Department
of Health and Human Services; et al.,
Defendants-Appellants.
Filed May 8, 2020
Before:
THOMAS, Chief Judge, and LEAVY, WARDLAW,
W. FLETCHER, PAEZ, BYBEE, CALLAHAN,
M. SMITH, IKUTA, MILLER and LEE,
Circuit Judges.

293a
ORDER
A majority of the panel has voted to deny the Petition of Plaintiffs-Appellees Essential Access Health,
Inc. and Melissa Marshall, M.D. for Full Court or Limited En Banc Court Rehearing (Case No. 19-15974,
ECF No. 139; Case No. 19-15979, ECF No. 135); the
Petition of the State of California et al. for En Banc or
Full Court Rehearing (Case No. 19-15974, ECF
No. 139; Case No. 19-15979, ECF No. 131; Case No. 1935386, ECF No. 180); the Petition of PlaintiffsAppellees National Family Planning & Reproductive
Health Association et al. for Full Court or Limited En
Banc Court Rehearing (Case No. 19-35394, ECF
No. 139); the Petition of Plaintiffs-Appellees American
Medical Association et al. for Full Court or Limited En
Banc Court Rehearing (Case No. 19-35386, ECF
No. 179) (collectively, the “Petitions”).
Judges Leavy, Bybee, Callahan, M. Smith, Ikuta,
Miller, and Lee voted to deny the Petitions. Judge Paez voted to grant the Petitions.
The full court has been advised of the Petitions, and
no Judge has requested a vote on whether to rehear the
matter as a full court. Fed. R. App. P. 35.
The Petitions are DENIED.

295a
APPENDIX G
STATUTES AND REGULATIONS INVOLVED
5 U.S.C. § 706
§706. Scope of review
To the extent necessary to decision and when presented, the reviewing court shall decide all relevant
questions of law, interpret constitutional and statutory
provisions, and determine the meaning or applicability
of the terms of an agency action. The reviewing court
shall—
(1) compel agency action unlawfully withheld or
unreasonably delayed; and
(2) hold unlawful and set aside agency action,
findings, and conclusions found to be—
(A) arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with
law;
(B) contrary to constitutional right, power,
privilege, or immunity;
(C) in excess of statutory jurisdiction, authority, or limitations, or short of statutory
right;
(D) without observance of procedure required by law;
(E) unsupported by substantial evidence in
a case subject to sections 556 and 557 of this title or otherwise reviewed on the record of an
agency hearing provided by statute; or

296a
(F) unwarranted by the facts to the extent
that the facts are subject to trial de novo by the
reviewing court.
In making the foregoing determinations, the court
shall review the whole record or those parts of it cited
by a party, and due account shall be taken of the rule of
prejudicial error.

297a
42 U.S.C. § 300a-6
§ 300a-6. Prohibition against funding programs using
abortion as family planning method
None of the funds appropriated under this subchapter shall be used in programs where abortion is a
method of family planning.

298a
42 U.S.C. § 18114
§ 18114. Access to therapies
Notwithstanding any other provision of this Act,
the Secretary of Health and Human Services shall not
promulgate any regulation that—
(1) creates any unreasonable barriers to the
ability of individuals to obtain appropriate medical
care;
(2) impedes timely access to health care services;
(3) interferes with communications regarding a
full range of treatment options between the patient
and the provider;
(4) restricts the ability of health care providers
to provide full disclosure of all relevant information
to patients making health care decisions;
(5) violates the principles of informed consent
and the ethical standards of health care professionals; or
(6) limits the availability of health care treatment for the full duration of a patient’s medical
needs.

299a
Pub. L. No. 116-94, div. A, tit. II, 133 Stat. 2534, 2558
(2019) (Excerpt)
*

*

*

FAMILY PLANNING
For carrying out the program under title X of the PHS
Act to provide for voluntary family planning projects,
$286,479,000: Provided, That amounts provided to said
projects under such title shall not be expended for
abortions, that all pregnancy counseling shall be nondirective, and that such amounts shall not be expended
for any activity (including the publication or distribution of literature) that in any way tends to promote
public support or opposition to any legislative proposal
or candidate for public office.
*

*

*

300a
42 C.F.R. §§ 59.1-59.19
§ 59.1 To what programs do these regulations apply?
(a) The regulations of this subpart are applicable to the
award of grants under section 1001 of the Public Health
Service Act (42 U.S.C. 300) to assist in the establishment and operation of voluntary family planning projects. These projects shall consist of the educational,
comprehensive medical, and social services necessary
to aid individuals to determine freely the number and
spacing of their children. Unless otherwise specified,
the requirements imposed by these regulations apply
equally to grantees and subrecipients, and grantees
shall require and ensure that subrecipients (and the
subrecipients of subrecipients) comply with the requirements contained in these regulations pursuant to
their written contracts with such subrecipients.
(b) Except for §§ 59.4, 59.8, and 59.10, the regulations of
this subpart are also applicable to the execution of contracts under section 1001 of the Public Health Service
Act (42 U.S.C. 300) to assist in the establishment and
operation of voluntary family planning projects, and
will be applied in accordance with the applicable statutes, procedures and regulations that generally govern
Federal contracts. To this extent, the use of the terms
“grant”, “award”, “grantee”, and “subrecipient” in applicable regulations of this subpart will apply similarly
to contracts, contractors and subcontractors, and the
use of the term “project” or “program” will also apply
to a project or program established by means of a contract.
§ 59.2 Definitions.
As used in this subpart:
Act means the Public Health Service Act, as amended.

301a
Advanced Practice Provider means a medical professional who receives at least a graduate level degree in
the relevant medical field and maintains a license to diagnose, treat, and counsel patients. The term Advanced Practice Provider includes physician assistants
and advanced practice registered nurses (APRN). Examples of APRNs that are an Advanced Practice Provider include certified nurse practitioner (CNP), clinical
nurse specialist (CNS), certified registered nurse anesthetist (CRNA), and certified nurse-midwife (CNM).
Family means a social unit composed of one person, or
two or more persons living together, as a household.
Family planning means the voluntary process of identifying goals and developing a plan for the number and
spacing of children and the means by which those goals
may be achieved. These means include a broad range of
acceptable and effective family planning methods and
services, which may range from choosing not to have
sex to the use of other family planning methods and
services to limit or enhance the likelihood of conception
(including contraceptive methods and natural family
planning or other fertility awareness-based methods)
and the management of infertility, including information about or referrals for adoption. Family planning services include preconception counseling, education, and general reproductive and fertility health care,
in order to improve maternal and infant outcomes, and
the health of women, men, and adolescents who seek
family planning services, and the prevention, diagnosis,
and treatment of infections and diseases which may
threaten childbearing capability or the health of the individual, sexual partners, and potential future children.
Family planning methods and services are never to be
coercive and must always be strictly voluntary. Family
planning does not include postconception care (includ-

302a
ing obstetric or prenatal care) or abortion as a method
of family planning. Family planning, as supported under this subpart, should reduce the incidence of abortion.
Grantee means the entity that receives Federal financial assistance by means of a grant, and assumes legal
and financial responsibility and accountability for the
awarded funds, for the performance of the activities
approved for funding and for reporting required information to the Office of Population Affairs.
Low income family means a family whose total income
does not exceed 100% of the most recent Poverty
Guidelines issued pursuant to 42 U.S.C. 9902(2). The
project director may find that low income family also
includes members of families whose annual income exceeds this amount, but who, as determined by the project director, are unable, for good reasons, to pay for
family planning services. For example:
(1) Unemancipated minors who wish to receive
services on a confidential basis must be considered
on the basis of their own resources, provided that
the Title X provider has documented in the minor’s
medical records the specific actions taken by the
provider to encourage the minor to involve her/his
family (including her/his parents or guardian) in
her/his decision to seek family planning services,
except that documentation of such encouragement
is not to be required if the Title X provider has
documented in the medical record:
(i) That it suspects the minor to be the victim of
child abuse or incest; and
(ii) That it has, consistent with, and if permitted or required by, applicable State or local

303a
law, reported the situation to the relevant authorities.
(2) For the purpose of considering payment for contraceptive services only, where a woman has health
insurance coverage through an employer that does
not provide the contraceptive services sought by
the woman because the employer has a sincerely
held religious or moral objection to providing such
coverage, the project director may consider her insurance coverage status as a good reason why she
is unable to pay for contraceptive services. In making that determination, the project director must
also consider other circumstances affecting her
ability to pay, such as her total income. The project
director may, for the purpose of considering
whether the woman is from a low income family or
is eligible for a discount for contraceptive services
on the schedule of discounts provided for in § 59.5,
consider her annual income as being reduced by the
total annual out-of-pocket costs of contraceptive
services she uses or seeks to use. The project director may determine those costs, or estimate them
at $600.
Nonprofit, as applied to any private agency, institution,
or organization, means that no part of the entity’s net
earnings benefit, or may lawfully benefit, any private
shareholder or individual.
Program and project are used interchangeably and
mean a plan or sequence of activities that is funded to
fulfill the requirements elaborated in a Title X funding
announcement; it may be comprised of, and implemented by, a single grantee or subrecipient(s), or a group of
partnering providers who, under a grantee or subrecipient, deliver comprehensive family planning services

304a
that satisfy the requirements of the grant within a service area.
Secretary means the Secretary of Health and Human
Services and any other officer or employee of the Department of Health and Human Services to whom the
authority involved has been delegated.
State includes, in addition to the several States, the
District of Columbia, Guam, the Commonwealth of
Puerto Rico, the Northern Mariana Islands, the U.S.
Virgin Islands, American Samoa, the U.S. Outlying Islands (Midway, Wake, et al.), the Marshall Islands, the
Federated State of Micronesia and the Republic of Palau.
Subrecipient means any entity that provides family
planning services with Title X funds under a written
agreement with a grantee or another subrecipient.
These entities may also be referred to as “delegates” or
“contract agencies.”
§ 59.3 Who is eligible to apply for a family planning
services grant or contract?
Any public or nonprofit private entity in a State may
apply for a family planning grant or contract under this
subpart.
§ 59.4 How does one apply for a family planning services grant?
(a) Application for a grant under this subpart shall be
made on an authorized form.
(b) An individual authorized to act for the applicant and
to assume on behalf of the applicant the obligations imposed by the terms and conditions of the grant, including the regulations of this subpart, must sign the application.

305a
(c) The application shall contain—
(1) A description, satisfactory to the Secretary, of
the project and how it will meet the requirements
of this subpart;
(2) A budget and justification of the amount of
grant funds requested;
(3) A description of the standards and qualifications
which will be required for all personnel and for all
facilities to be used by the project; and
(4) Such other pertinent information as the Secretary may require.
§ 59.5 What requirements must be met by a family
planning project?
(a) Each project supported under this part must:
(1) Provide a broad range of acceptable and effective family planning methods (including contraceptives, natural family planning or other fertility
awareness-based methods) and services (including
infertility services, information about or referrals
for adoption, and services for adolescents). Such
projects are not required to provide every acceptable and effective family planning method or service.
A participating entity may offer only a single
method or a limited number of methods of family
planning as long as the entire project offers a broad
range of such family planning methods and services.
(2) Provide services without subjecting individuals
to any coercion to accept services or to employ or
not to employ any particular methods of family
planning. Acceptance of services must be solely on
a voluntary basis and may not be made a prerequi-

306a
site to eligibility for, or receipt of, any other services, assistance from or participation in any other
program of the applicant.1
(3) Provide services in a manner which protects the
dignity of the individual.
(4) Provide services without regard to religion,
race, color, national origin, handicapping condition,
age, sex, number of pregnancies, or marital status.
(5) Not provide, promote, refer for, or support
abortion as a method of family planning.
(6) Provide that priority in the provision of services
will be given to persons from low-income families.
(7) Provide that no charge will be made for services
provided to any persons from a low-income family
except to the extent that payment will be made by
a third party (including a government agency)
which is authorized to or is under legal obligation to
pay this charge.
(8) Provide that charges will be made for services
to persons other than those from low-income families in accordance with a schedule of discounts
based on ability to pay, except that charges to persons from families whose annual income exceeds
250 percent of the levels set forth in the most recent Poverty Guidelines issued pursuant to 42
U.S.C. 9902(2) will be made in accordance with a
schedule of fees designed to recover the reasonable
cost of providing services.
(9) If a third party (including a Government agency) is authorized or legally obligated to pay for services, all reasonable efforts must be made to obtain
the third-party payment without application of any
discounts. Where the cost of services is to be reim-

307a
bursed under title XIX, XX, or XXI of the Social
Security Act, a written agreement with the title
XIX, XX or XXI agency is required.
(10) Provide an opportunity for maximum participation by existing or potential subgrantees in the
ongoing policy decisionmaking of the project.
(11) Provide for an Advisory Committee as required by § 59.6.
(12) Should offer either comprehensive primary
health services onsite or have a robust referral
linkage with primary health providers who are in
close physical proximity, to the Title X site, in order to promote holistic health and provide seamless
care.
(13) Ensure transparency in the delivery of services by reporting the following information in
grant applications and all required reports:
(i) Subrecipients and agencies or individuals
providing referral services by name, location,
expertise and services provided or to be provided;
(ii) Detailed description of the extent of the collaboration with subrecipients, referral agencies, and any individuals providing referral
services, in order to demonstrate a seamless
continuum of care for clients; and
(iii) Clear explanation of how the grantee will
ensure adequate oversight and accountability
for quality and effectiveness of outcomes
among subrecipients.
(14) Encourage family participation in the decision
to seek family planning services; and, with respect

308a
to each minor patient, ensure that the records
maintained document the specific actions taken to
encourage such family participation (or the specific
reason why such family participation was not encouraged).
(b) In addition to the requirements of paragraph (a) of
this section, each project must meet each of the following requirements unless the Secretary determines that
the project has established good cause for its omission.
Each project must:
(1) Provide for medical services related to family
planning (including physician's consultation, examination, prescription, and continuing supervision,
laboratory examination, contraceptive supplies)
and referral to other medical facilities when medically necessary, consistent with § 59.14(a), and provide for the effective usage of contraceptive devices and practices.
(2) Provide for social services related to family
planning, including counseling, referral to and from
other social and medical services agencies, and any
ancillary services which may be necessary to facilitate clinic attendance.
(3) Provide for informational and educational programs designed to—
(i) Achieve community understanding of the objectives of the program;
(ii) Inform the community of the availability of
services; and
(iii) Promote continued participation in the project by persons to whom family planning services may be beneficial.

309a
(4) Provide for orientation and in-service training
for all project personnel.
(5) Provide services without the imposition of any
durational residency requirement or requirement
that the patient be referred by a physician.
(6) Provide that family planning medical services
will be performed under the direction of a physician
with special training or experience in family planning.
(7) Provide that all services purchased for project
participants will be authorized by the project director or his designee on the project staff.
(8) Except as provided in § 59.14(a), provide for coordination and use of referral arrangements with
other providers of health care services, local health
and welfare departments, hospitals, voluntary
agencies, and health services projects supported by
other federal programs.
(9) Provide that if family planning services are provided by contract or other similar arrangements
with actual providers of services, services will be
provided in accordance with a plan which establishes rates and method of payment for medical care.
These payments must be made under agreements
with a schedule of rates and payment procedures
maintained by the grantee. The grantee must be
prepared to substantiate, that these rates are reasonable and necessary.
(10) Provide, to the maximum feasible extent, an
opportunity for participation in the development,
implementation, and evaluation of the project by
persons broadly representative of all significant elements of the population to be served, and by oth-

310a
ers in the community knowledgeable about the
community's needs for family planning services.
§ 59.6 What procedures apply to assure the suitability of informational and educational material?
(a) A grant under this section may be made only upon
assurance satisfactory to the Secretary that the project
shall provide for the review and approval of informational and educational materials developed or made
available under the project by an Advisory Committee
prior to their distribution, to assure that the materials
are suitable for the population or community to which
they are to be made available and the purposes of title
X of the Act. The project shall not disseminate any such
materials which are not approved by the Advisory
Committee.
(b) The Advisory Committee referred to in paragraph
(a) of this section shall be established as follows:
(1) Size. The Committee shall consist of no fewer
than five but not more than nine members, except
that this provision may be waived by the Secretary
for good cause shown.
(2) Composition. The Committee shall include individuals broadly representative (in terms of demographic factors such as race, color, national origin,
handicapped condition, sex, and age) of the population or community for which the materials are intended.
(3) Function. In reviewing materials, the Advisory
Committee shall:
(i) Consider the educational and cultural backgrounds of individuals to whom the materials
are addressed;

311a
(ii) Consider the standards of the population or
community to be served with respect to such
materials;
(iii) Review the content of the material to assure that the information is factually correct;
(iv) Determine whether the material is suitable
for the population or community to which is to
be made available; and
(v) Establish a written record of its determinations.
§ 59.7 What criteria will the Department of Health
and Human Services use to decide which family planning services projects to fund and in what amount?
(a) Within the limits of funds available for these purposes, the Secretary may award grants for the establishment and operation of those projects which will, in
the Department’s judgment, best promote the purposes
of statutory provisions applicable to the Title X program, and ensure that no Title X funds are used where
abortion is a method of family planning.
(b) Any grant applications that do not clearly address
how the proposal will satisfy the requirements of this
regulation shall not proceed to the competitive review
process, but shall be deemed ineligible for funding. The
Department will explicitly summarize each requirement of the Title X regulations or include the Title X
regulations in their entirety within the Funding Announcement, and shall require each applicant to describe its plans for affirmative compliance with each
requirement.
(c) If the proposal is deemed compliant with this regulation, then applicants will be subject to criteria for se-

312a
lection within the competitive grant review process,
including:
(1) The degree to which the applicant’s project plan
adheres to the Title X statutory purpose and goals
for the establishment and operation of voluntary
family planning projects which shall offer a broad
range of acceptable and effective family planning
methods and services (including natural family
planning methods, infertility services, and services
for adolescents), while meeting all of the statutory
and regulatory requirements and restrictions, including that none of the funds shall be used in programs where abortion is a method of family planning.
(2) The degree to which the relative need of the applicant for Federal funds is demonstrated in the
proposal, and the applicant shows capacity to make
rapid and effective use of grant funds, including its
ability to procure a broad range of diverse subrecipients, as applicable, in order to expand family
planning services available to patients in the project area.
(3) The degree to which the applicant takes into account the number of patients, particularly lowincome patients, to be served while also targeting
areas that are more sparsely populated and/or
places in which there are not adequate family planning services available.
(4) The extent to which family planning services
are needed locally and the applicant proposes innovative ways to provide services to unserved or underserved communities.

313a
(d) The Secretary shall determine the amount of any
award on the basis of his estimate of the sum necessary
for the performance of the project. No grant may be
made for less than 90 percent of the project's costs, as
so estimated, unless the grant is to be made for a project which was supported, under section 1001, for less
than 90 percent of its costs in fiscal year 1975. In that
case, the grant shall not be for less than the percentage
of costs covered by the grant in fiscal year 1975.
(e) No grant may be made for an amount equal to 100
percent for the project's estimated costs.
§ 59.8 How is a grant awarded?
(a) The notice of grant award specifies how long HHS
intends to support the project without requiring the
project to recompete for funds. This period, called the
project period, will usually be for three to five years.
(b) Generally the grant will initially be for one year and
subsequent continuation awards will also be for one
year at a time. A grantee must submit a separate application to have the support continued for each subsequent year. Decisions regarding continuation awards
and the funding level of such awards will be made after
consideration of such factors as the grantee's progress
and management practices, and the availability of
funds. In all cases, continuation awards require a determination by HHS that continued funding is in the
best interest of the government.
(c) Neither the approval of any application nor the
award of any grant commits or obligates the United
States in any way to make any additional, supplemental, continuation, or other award with respect to
any approved application or portion of an approved application.

314a
§ 59.9 For what purpose may grant funds be used?
Any funds granted under this subpart shall be expended solely for the purpose for which the funds were
granted in accordance with the approved application
and budget, the regulations of this subpart, the terms
and conditions of the award, and the applicable cost
principles prescribed in 45 CFR part 75, subpart E.
§ 59.10 What other HHS regulations apply to grants
under this subpart?
Attention is drawn to the following HHS Departmentwide regulations which apply to grants under this subpart. These include:
37 CFR Part 401—Rights to inventions made by nonprofit organizations and small business firms under
government grants, contracts, and cooperative agreements
42 CFR Part 50, Subpart D—Public Health Service
grant appeals procedure
45 CFR Part 16—Procedures of the Departmental
Grant Appeals Board
45 CFR Part 75—Uniform Administrative Requirements, Cost Principles, and Audit Requirements for
HHS Awards
45 CFR Part 80—Nondiscrimination under programs
receiving Federal assistance through the Department
of Health and Human Services effectuation of Title VI
of the Civil Rights Act of 1964
45 CFR Part 81—Practice and procedure for hearings
under Part 80 of this Title

315a
45 CFR Part 84—Nondiscrimination on the basis of
handicap in programs and activities receiving or benefitting from Federal financial assistance
45 CFR Part 91—Nondiscrimination on the basis of age
in HHS programs or activities receiving Federal financial assistance
§ 59.11 Confidentiality.
All information as to personal facts and circumstances
obtained by the project staff about individuals receiving services must be held confidential and not be disclosed without the individual’s documented consent, except as may be necessary to provide services to the patient or as required by law, with appropriate safeguards for confidentiality; concern with respect to the
confidentiality of information, however, may not be
used as a rationale for noncompliance with laws requiring notification or reporting of child abuse, child molestation, sexual abuse, rape, incest, intimate partner violence, human trafficking, or similar reporting laws.
Otherwise, information may be disclosed only in summary, statistical, or other form which does not identify
particular individuals.
§ 59.12 Additional conditions.
The Secretary may, with respect to any grant, impose
additional conditions prior to or at the time of any
award, when in the Department’s judgment these conditions are necessary to assure or protect advancement
of the approved program, the interests of public health,
or the proper use of grant funds.

316a
§ 59.13 Standards of compliance with prohibition on
abortion.
A project may not receive funds under this subpart unless the grantee provides assurance satisfactory to the
Secretary that the project does not provide abortion
and does not include abortion as a method of family
planning. Such assurance must also include, at a minimum, representations (supported by documentary evidence where the Secretary requests it) as to compliance with this section and each of the requirements in
§§ 59.14 through 59.16. A project supported under this
subpart must comply with such requirements at all
times during the project period.
§ 59.14 Requirements and limitations with respect to
post-conception activities.
(a) Prohibition on referral for abortion. A Title X project may not perform, promote, refer for, or support
abortion as a method of family planning, nor take any
other affirmative action to assist a patient to secure
such an abortion.
(b) Information about prenatal care.
(1) Because Title X funds are intended only for
family planning, once a client served by a Title X
project is medically verified as pregnant, she shall
be referred to a health care provider for medically
necessary prenatal health care. The Title X provider may also choose to provide the following
counseling and/or information to her:
(i) Nondirective pregnancy counseling, when
provided by physicians or advanced practice
providers;

317a
(ii) A list of licensed, qualified, comprehensive
primary health care providers (including providers of prenatal care);
(iii) Referral to social services or adoption
agencies; and/or
(iv) Information about maintaining the health
of the mother and unborn child during pregnancy.
(2) In cases in which emergency care is required,
the Title X project shall only be required to refer
the client immediately to an appropriate provider
of medical services needed to address the emergency.
(c) Use of permitted lists or referrals to encourage
abortion.
(1) A Title X project may not use the provision of
any prenatal, social service, emergency medical, or
other referral, of any counseling, or of any provider
lists, as an indirect means of encouraging or promoting abortion as a method of family planning.
(2) The list of licensed, qualified, comprehensive
primary health care providers (including providers
of prenatal care) in paragraph (b)(1)(ii) of this section may be limited to those that do not provide
abortion, or may include licensed, qualified, comprehensive primary health care providers (including providers of prenatal care), some, but not the
majority, of which also provide abortion as part of
their comprehensive health care services. Neither
the list nor project staff may identify which providers on the list perform abortion.
(d) Provision of medically necessary information. Nothing in this subpart shall be construed as prohibiting the

318a
provision of information to a project client that is medically necessary to assess the risks and benefits of different methods of contraception in the course of selecting a method, provided that the provision of such information does not promote abortion as a method of
family planning.
(e) Examples.
(1) A pregnant client of a Title X project requests
prenatal health care services. Because the provision of such services is outside the scope of family
planning supported by Title X, the client is referred for prenatal care and may be provided a list
of licensed, qualified, comprehensive primary
health care providers (including providers of prenatal care). Provision of a referral for prenatal health
care is consistent with this part because prenatal
care is a medically necessary service.
(2) A Title X project discovers an ectopic pregnancy in the course of conducting a physical examination of a client. Referral arrangements for emergency medical care are immediately provided.
Such action complies with the requirements of paragraph (b) of this section.
(3) After receiving nondirective counseling at a Title X provider, a pregnant woman decides to have
an abortion, is concerned about her safety during
the procedure, and asks the Title X project to provide her with a referral to an abortion provider.
The Title X project tells her that it does not refer
for abortion, but provides the following: A list of licensed, qualified, comprehensive primary health
care providers (including providers of prenatal
care), which is not presented as a referral for abortion, but as a list of comprehensive primary care

319a
and prenatal care providers that does not identify
which providers perform abortion, and the project
staff member does not identify such providers on
the list; and information about maintaining her
health and the health of her unborn child during
pregnancy. Such actions comply with paragraphs
(a) through (c) of this section.
(4) A pregnant woman asks the Title X project to
provide her with a list of abortion providers in the
area. The project tells her that it does not refer for
abortion, and provides her a list that consists of
hospitals and clinics and other providers, all of
which provide comprehensive primary health care
(including prenatal care), as well as abortion as a
method of family planning. Although there are
several licensed, qualified, comprehensive primary
health care providers (including providers of prenatal care) in the area that do not provide abortion as
a method of family planning, none of these providers is included on the list. Provision of the list is inconsistent with paragraphs (a) and (c) of this section.
(5) A pregnant woman requests information on
abortion and asks the Title X project to refer her
for an abortion. The counselor tells her that the
project does not consider abortion a method of family planning and, therefore, does not refer for abortion. The counselor offers her nondirective pregnancy counseling, which may discuss abortion, but
the counselor neither refers for, nor encourages,
abortion. The counselor further tells the client that
the project can help her to obtain prenatal care and
necessary social services and offers her the list of
licensed, qualified, comprehensive primary health
care providers (including providers of prenatal

320a
care), assistance, and information for pregnant
women described in paragraph (b) of this section.
None of the providers on the list provide abortions.
Such actions are consistent with paragraphs (a)
through (c) of this section.
(6) Title X project staff provide contraceptive
counseling to a client in order to assist her in selecting a contraceptive method. In discussing oral contraceptives, the project counselor provides the client with information contained in the patient package insert accompanying a brand of oral contraceptives, referring to abortion only in the context of a
discussion of the relative safety of various contraceptive methods and in no way promoting abortion
as a method of family planning. The provision of
this information is consistent with paragraph (d) of
this section and this section generally and does not
constitute an abortion referral.
§ 59.15 Maintenance of physical and financial separation.
A Title X project must be organized so that it is physically and financially separate, as determined in accordance with the review established in this section, from
activities which are prohibited under section 1008 of
the Public Health Service Act and §§ 59.13, 59.14, and
59.16 of these regulations from inclusion in the Title X
program. In order to be physically and financially separate, a Title X project must have an objective integrity
and independence from prohibited activities. Mere
bookkeeping separation of Title X funds from other
monies is not sufficient. The Secretary will determine
whether such objective integrity and independence exist based on a review of facts and circumstances. Factors relevant to this determination shall include:

321a
(a) The existence of separate, accurate accounting records;
(b) The degree of separation from facilities (e.g., treatment, consultation, examination and waiting rooms, office entrances and exits, shared phone numbers, email
addresses, educational services, and websites) in which
prohibited activities occur and the extent of such prohibited activities;
(c) The existence of separate personnel, electronic or
paper-based health care records, and workstations; and
(d) The extent to which signs and other forms of identification of the Title X project are present, and signs and
material referencing or promoting abortion are absent.
§ 59.16 Prohibition on activities that encourage,
promote, or advocate for abortion.
(a) Prohibition on activities that encourage abortion.
(1) A Title X project may not encourage, promote
or advocate abortion as a method of family planning. This restriction prohibits actions in the funded project that assist women to obtain abortions for
family planning purposes or to increase the availability or accessibility of abortion for family planning
purposes.
(2) Prohibited actions include the use of Title X
project funds for the following:
(i) Lobbying for the passage of legislation to increase in any way the availability of abortion as
a method of family planning;
(ii) Providing speakers or educators who promote the use of abortion as a method of family
planning;

322a
(iii) Attending events or conferences during
which the grantee or subrecipient engages in
lobbying;
(iv) Paying dues to any group that, as a more
than insignificant part of its activities, advocates abortion as a method of family planning
and does not separately collect and segregate
funds used for lobbying purposes;
(v) Using legal action to make abortion available in any way as a method of family planning;
and
(vi) Developing or disseminating in any way
materials (including printed matter, audiovisual materials and web-based materials) advocating abortion as a method of family planning.
(b) Examples.
(1) Clients at a Title X project are given brochures
advertising a clinic that provides abortions, or such
brochures are available in any fashion at a Title X
clinic (sitting on a table or available or visible within the same space where Title X services are provided). Provision or availability of the brochure violates paragraph (a)(2)(vi) of this section.
(2) A Title X project makes an appointment for a
pregnant client for an abortion for family planning
purposes. The Title X project has violated paragraph (a)(1) of this section.
(3) A Title X project pays dues with project funds
to a State association that, among other activities,
lobbies at State and local levels for the passage of
legislation to protect and expand the legal availability of abortion as a method of family planning. The
association spends a significant amount of its annu-

323a
al budget on such activity and does not separately
collect and segregate the funds for such purposes.
Payment of dues to the association violates paragraph (a)(2)(iv) of this section.
(4) An organization conducts a number of activities,
including operating a Title X project. The organization uses non-project funds to pay dues to an association that, among other activities, engages in
lobbying to protect and expand the legal availability of abortion as a method of family planning. The
association spends a significant amount of its annual budget on such activity. Payment of dues to the
association by the organization does not violate
paragraph (a)(2)(iv) of this section.
(5) An organization that operates a Title X project
engages in lobbying to increase the legal availability of abortion as a method of family planning. The
project itself engages in no such activities, and the
facilities and funds of the project are kept separate
from prohibited activities. The project is not in violation of paragraph (a)(2)(i) of this section.
(6) Employees of a Title X project write their legislative representatives in support of legislation
seeking to expand the legal availability of abortion,
in their personal capacities and using no project
funds to do so. The Title X project has not violated
paragraph (a)(2)(i) of this section.
(7) On her own time and at her own expense, a Title
X project employee speaks before a legislative
body in support of abortion as a method of family
planning. The Title X project has not violated paragraph (a)(2)(i) of this section.

324a
(8) A Title X project uses Title X funds for sex education classes in a local high school. During the
course of the class, information is distributed to
students that includes abortion as a method of family planning. The Title X project has violated paragraph (a)(2)(vi) of this section.
§ 59.17 Compliance with reporting requirements.
(a) Title X projects shall comply with all State and local
laws requiring notification or reporting of child abuse,
child molestation, sexual abuse, rape, incest, intimate
partner violence or human trafficking (collectively,
“State notification laws”).
(b) A project may not receive funds under this subpart
unless it provides appropriate documentation or other
assurance satisfactory to the Secretary that it:
(1) Has in place and implements a plan to comply with
State notification laws. Such plan shall include, at a
minimum, policies and procedures that include:
(i) A summary of obligations of the project or organizations and individuals carrying out the project under
State notification laws, including any obligation to inquire about or determine the age of a minor client or of
a minor client’s sexual partner(s);
(ii) Timely and adequate annual training of all individuals (whether or not they are employees) serving clients
for, or on behalf of, the project regarding State notification laws; policies and procedures of the Title X project
and/or provider with respect to notification and reporting of child abuse, child molestation, sexual abuse, rape,
incest, intimate partner violence and human trafficking;
appropriate interventions, strategies, and referrals to
improve the safety and current situation of the patient;
and compliance with State notification laws.

325a
(iii) Protocols to ensure that every minor who presents
for treatment is provided counseling on how to resist
attempts to coerce them into engaging in sexual activities; and
(iv) Commitment to conduct a preliminary screening of
any minor who presents with a sexually transmitted
disease (STD), pregnancy, or any suspicion of abuse, in
order to rule out victimization of a minor. Projects are
permitted to diagnose, test for, and treat STDs.
(2) Maintains records to demonstrate compliance with
each of the requirements set forth in paragraph (b)(1)
of this section, including which:
(i) Indicate the age of minor clients;
(ii) Indicate the age of the minor client’s sexual partners if such age is an element of a State notification law
under which a report is required; and
(iii) Document each notification or report made pursuant to such State notification laws.
(c) Continuation of grantee or subrecipient funding for
Title X services is contingent upon demonstrating to
the satisfaction of the Secretary that the criteria have
been met.
(d) The Secretary may review records maintained by a
grantee or subrecipient for the purpose of ensuring
compliance with the requirements of this section, the
requirement to encourage family participation in family
planning decisions, or any other section of this rule.
§ 59.18 Appropriate use of funds.
(a) Title X funds shall not be used to build infrastructure for purposes prohibited with these funds, such as
support for the abortion business of a Title X grantee
or subrecipient. Funds shall only be used for the pur-

326a
poses, and in direct implementation of, the funded project, expressly permitted by this regulation and authorized within section 1001 of the Public Health Service
Act, that is, to offer family planning methods and services. Grantees must use the majority of grant funds to
provide direct services to clients, and each grantee
shall provide a detailed plan or accounting for the use of
grant dollars, both in their applications for funding, and
in any annually required reporting. Any significant
change in the use of grant funds within the grant cycle
shall not be undertaken without the approval of the Office of Population Affairs.
(b) Title X funds shall not be expended for any activity
(including the publication or distribution of literature)
that in any way tends to promote public support or opposition to any legislative proposal or candidate for office.
(c) Each project supported under Title X shall fully account for, and justify, charges against the Title X grant.
The Department shall put additional protections in
place to prevent possible misuse of Title X funds
through misbilling or overbilling, or any other unallowable expense.
§ 59.19 Transition provisions; compliance.
(a) Compliance date concerning physical and financial
separation. The date by which covered entities must
comply with the physical separation requirements contained in § 59.15 is March 4, 2020. The date by which
covered entities must comply with the financial separation requirements contained in § 59.15 is July 2, 2019.
(b) Compliance date concerning applications. The date
by which covered entities must comply with § 59.7 and
59.5(a)(13) (as it applies to grant applications) is the

327a
date on which competitive or continuation award applications are due, where that date occurs after July 2,
2019.
(c) Compliance date concerning reporting, assurance,
and provision of service requirements. The date by
which covered entities must comply with §§ 59.5(a)(12),
59.5(a)(13) (as it applies to all required reports),
59.5(a)(14), (b)(1) and (8), 59.13, 59.14, 59.17, and 59.18 is
July 2, 2019.

